<html>
<title> - MAKING THE INTERNET SAFE FOR KIDS: THE ROLE OF ISP'S AND SOCIAL NETWORKING SITES HEARINGS BEFORE THE SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS OF THE COMMITTEE ON ENERGY AND COMMERCE HOUSE OF REPRESENTATIVES ONE HUNDRED NINTH CONGRESS SECOND SESSION JUNE 27 AND JUNE 28, 2006 Serial No. 109-123 Printed for the use of the Committee on Energy and Commerce Available via the World Wide Web: http://www.access.gpo.gov/congress/house U.S. GOVERNMENT PRINTING OFFICE 30-298 WASHINGTON : 2006</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
            MAKING THE INTERNET SAFE FOR KIDS: THE ROLE OF 
                  ISP'S AND SOCIAL NETWORKING SITES


                              HEARINGS

                             BEFORE THE

            SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                              OF THE 

                       COMMITTEE ON ENERGY AND 
                             COMMERCE
                      HOUSE OF REPRESENTATIVES


                     ONE HUNDRED NINTH CONGRESS

                           SECOND SESSION


                      JUNE 27 AND JUNE 28, 2006

                         Serial No. 109-123

     Printed for the use of the Committee on Energy and Commerce


Available via the World Wide Web:  http://www.access.gpo.gov/congress/house


                    U.S. GOVERNMENT PRINTING OFFICE
30-298                      WASHINGTON : 2006
_____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area (202) 
512-1800 Fax: (202) 512-2250  Mail: Stop  SSOP, Washington, DC 20402-0001


                   COMMITTEE ON ENERGY AND COMMERCE
                      JOE BARTON, Texas, Chairman
RALPH M. HALL, Texas                      JOHN D. DINGELL, Michigan
MICHAEL BILIRAKIS, Florida                  Ranking Member
  Vice Chairman                           HENRY A. WAXMAN, California
FRED UPTON, Michigan                      EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida                    RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                     EDOLPHUS TOWNS, New York
NATHAN DEAL, Georgia                      FRANK PALLONE, JR., New Jersey
ED WHITFIELD, Kentucky                    SHERROD BROWN, Ohio
CHARLIE NORWOOD, Georgia                  BART GORDON, Tennessee
BARBARA CUBIN, Wyoming                    BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois                    ANNA G. ESHOO, California
HEATHER WILSON, New Mexico                BART STUPAK, Michigan
JOHN B. SHADEGG, Arizona                  ELIOT L. ENGEL, New York
CHARLES W. "CHIP" PICKERING,  Mississippi ALBERT R. WYNN, Maryland
  Vice Chairman                           GENE GREEN, Texas
VITO FOSSELLA, New York                   TED STRICKLAND, Ohio
ROY BLUNT, Missouri                       DIANA DEGETTE, Colorado
STEVE BUYER, Indiana                      LOIS CAPPS, California
GEORGE RADANOVICH, California             MIKE DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire            TOM ALLEN, Maine
JOSEPH R. PITTS, Pennsylvania             JIM DAVIS, Florida
MARY BONO, California                     JAN SCHAKOWSKY, Illinois
GREG WALDEN, Oregon                       HILDA L. SOLIS, California
LEE TERRY, Nebraska                       CHARLES A. GONZALEZ, Texas
MIKE FERGUSON, New Jersey                 JAY INSLEE, Washington
MIKE ROGERS, Michigan                     TAMMY BALDWIN, Wisconsin
C.L. "BUTCH" OTTER, Idaho                 MIKE ROSS, Arkansas                       
SUE MYRICK, North Carolina
JOHN SULLIVAN, Oklahoma
TIM MURPHY, Pennsylvania
MICHAEL C. BURGESS, Texas
MARSHA BLACKBURN, Tennessee

                   BUD ALBRIGHT, Staff Director
                  DAVID CAVICKE, General Counsel
       REID P. F. STUNTZ, Minority Staff Director and Chief Counsel


              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS
                   ED WHITFIELD, Kentucky, Chairman
CLIFF STEARNS, Florida                    BART STUPAK, Michigan
CHARLES W. "CHIP" PICKERING,  Mississippi   Ranking Member
CHARLES F. BASS, New Hampshire            DIANA DEGETTE, Colorado
GREG WALDEN, Oregon                       JAN SCHAKOWSKY, Illinois
MIKE FERGUSON, New Jersey                 JAY INSLEE, Washington
MICHAEL C. BURGESS, Texas                 TAMMY BALDWIN, Wisconsin
MARSHA BLACKBURN, Tennessee               HENRY A. WAXMAN, California
JOE BARTON, Texas                         JOHN D. DINGELL, Michigan
  (EX OFFICIO)                              (EX OFFICIO)                            


                                CONTENTS


                                                                     Page
Hearings held:
        June 27, 2006	                                                1
        June 28, 2006	                                              178
Testimony of:
        Hansen, Chris, NBC News	                                       20
        Ryan, John, Esq., Chief Counsel, Compliance and 
                Investigation, America Online, Inc.	               49
        Baker, Dave, Vice President, Law and Public Policy, 
                Earthlink, Inc.	                                       58
        Banker, Elizabeth, Associate General Counsel, Yahoo! 
                Inc.	                                               79
        Dailey, Tom, General Counsel, Verizon 
                Communications	                                       90
        Lewis, Jr., Gerald J., Vice President, Deputy General 
                Counsel & Chief Privacy Officer, Comcast Cable 
                Communications	                                       98
        Reitinger, Philip R., Senior Security Strategist, 
                Microsoft Corporation	                              122
        Wong, Nicole, Associate General Counsel & Chief 
                Privacy Officer, Google, Inc.	                      139
        Dannahey, Frank, Detective, Rocky Hill, Connecticut 
                Police Department	                              191
        Kelly, Chris, Vice President, Corporate Development 
                and Chief Privacy Officer, Facebook.com, Inc.	      214
        Angus, Michael, Executive Vice President and General 
                Counsel, Fox Interactive Media, MySpace.com	      218
        Hiller, John, Chief Executive Officer, Xanga.com, Inc.	      249
        Harbour, Hon. Pamela Jones, Commissioner, Federal 
                Trade Commission	                              289
        Ruiz, Diego, Office of Strategic Planning and Policy 
                Analysis, Federal Communications Commission	      297
        Blumenthal, Hon. Richard, Attorney General, State of 
                Connecticut	                                      304



               MAKING THE INTERNET SAFE FOR KIDS: THE ROLE OF 
                      ISP'S AND SOCIAL NETWORKING SITES


                            TUESDAY, JUNE 27, 2006

                           HOUSE OF REPRESENTATIVES,
                      COMMITTEE ON ENERGY AND COMMERCE,
               SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS,
                                                             Washington, DC.


        The subcommittee met, pursuant to notice, at 10:07 a.m., in 
Room 2123 of the Rayburn House Office Building, Hon. Ed 
Whitfield (Chairman) presiding.
	Members present:  Representatives Whitfield, Stearns, 
Pickering, Bass, Walden, Ferguson, Burgess, Blackburn, Barton 
(ex officio), Stupak, DeGette, Schakowsky, Inslee, and Baldwin.
	Staff present:  Mark Paoletta, Chief Counsel for Oversight and 
Investigations; Alan Slobodin, Deputy Chief Counsel for Oversight 
and Investigation; Karen Christian, Counsel; Kelly Andrews, 
Counsel; John Halliwell, Policy Coordinator, Mike Abraham, 
Legislative Clerk; Ryan Ambrose, Legislative Clerk; David 
Nelson, Minority Investigator/Economist; and Elizabeth Ertel, 
Minority Staff Assistant.
	MR. WHITFIELD.  This hearing will come to order.
	And I want to thank the panel of witnesses for taking time from 
their busy schedules to be with us today.
	Today, we are holding the first day of a 2-day hearing entitled: 
"Making the Internet Safe for Kids: The Role of Internet Service 
Providers and Social Networking Sites".
	Our previous hearings explored issues relating to the sexual 
exploitation of children over the Internet.  Those hearings made it 
apparent that we have a long way to go in making the Internet a 
safe place for our children.  We heard wrenching testimony from 
two child victims of Internet predators, Justin Berry and Masha 
Allen.  Their stories brought to life the horrors that can occur on 
the Internet to children.  We also heard law enforcement agency 
representatives express their concern about the staggering number 
of children and child predators and pedophiles on the Internet 
today.
	The Internet has created what one of our witnesses called a 
"virtual Sears catalog" for pedophiles to find and communicate 
with children, because the Internet has become, as you all know, a 
social gathering place for children.
	We must minimize the likelihood of our children being 
exploited over the Internet, and we must do everything possible to 
assist law enforcement in their efforts to investigate and prosecute 
child predators.
	I want to thank our first panel witness, Mr. Chris Hansen, from 
Dateline NBC for testifying today about his riveting investigative 
series called "To Catch a Predator".  This series showed how child 
predators in five different cities across America chatted with 
someone over the Internet that they believed to be a 13- or 14-year-
old child and then actually travel to a home to meet this supposed 
child for sexual activity.
	Mr. Hansen pointed out very clearly, and I think we will talk 
about it today, how predators come from all walks of life and are 
all different ages and backgrounds.  And it is difficult to predict 
who really is a child predator.  There certainly does not appear to 
be any profile of who over the Internet may be a child predator.  
This is particularly important for parents and children to 
understand, and I look forward to hearing more from Mr. Hansen 
about his investigative work in this series.
	I want to thank also the representatives of the Internet service 
providers who are here today.  We look forward to their testimony 
explaining what they are doing to assist law enforcement in cases 
involving this sexual exploitation of children over the Internet and 
what measures the companies are taking to minimize opportunities 
to sexually exploit children from their networks.
	We certainly understand that Internet service providers are not 
law enforcement agencies, and I certainly am not asking them to 
become that.  I do believe that having images or links to images 
that may be child pornography are, at a minimum, violations of 
their terms of use and may be criminal sites as well.
	Taking measures to proactively look for this content on your 
network, reporting this content to the National Center for Missing 
and Exploited Children and to law enforcement will go a long way 
towards reducing access that pedophiles have websites with 
sexually exploitive images of children.  If companies have 
concerns about performing proactive searches of this content, we 
hope you will express that today.  This would be the appropriate 
time to talk about your concerns if you think it produces a burden 
on your company.  I understand that several companies have 
undertaken proactive searching and filtering of these sites and 
images, and we look forward to hearing about that in their 
testimony today.
	I am also interested in learning about the Internet service 
providers' data retention policies for IP addresses in particular.  A 
witness at this subcommittee's prior hearing, Flint Waters, testified 
that in connection to an investigation about a child predator on the 
Internet, he was unable to get subscriber information for a 3-day 
old IP address from an Internet service provider.  That is 
unacceptable.  Law enforcement agency representatives have 
testified that retaining these IP addresses is critical to their being 
able to catch these people.
	I understand that several companies today and tomorrow will 
make announcements about ways they are enhancing their 
networks to help combat the exploitation of children on their 
networks, whether it is increasing the length of time they retain the 
IP address, enhancing their filtering devices, or providing 
additional safety measures for parents and children to employ on 
their network.  I commend all of those efforts, and we look forward 
to hearing more about it this morning.
	We have a simple message: let us make it as difficult as 
possible for child predators and pedophiles to trade images, set up 
illegal websites, and find children on the Internet.
	[The prepared statement of Hon. Ed Whitfield follows:]

      PREPARED STATEMENT OF THE HON. ED WHITFIELD, CHAIRMAN, 
            SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

        TODAY WE ARE HOLDING THE FIRST DAY OF 
A TWO-DAY HEARING ENTITLED "MAKING THE INTERNET 
SAFE FOR KIDS: THE ROLE OF ISP'S AND SOCIAL 
NETWORKING SITES."  OUR PREVIOUS HEARINGS 
EXPLORED ISSUES RELATING TO THE SEXUAL 
EXPLOITATION OF CHILDREN OVER THE INTERNET.  
THOSE HEARINGS MADE IT APPARENT THAT WE HAVE 
A LONG WAY TO GO IN MAKING THE INTERNET A SAFE 
PLACE FOR OUR CHILDREN.  WE HEARD WRENCHING 
TESTIMONY FROM TWO CHILD-VICTIMS OF INTERNET 
PREDATORS-JUSTIN BERRY AND MASHA ALLEN.  
THEIR STORIES BROUGHT TO LIFE THE HORRORS THAT 
CAN OCCUR ON THE INTERNET TO CHILDREN.   WE 
ALSO HEARD LAW ENFORCEMENT AGENCY 
REPRESENTATIVES EXPRESS SHOCK ABOUT THE 
STAGGERING NUMBER OF CHILD PREDATORS AND 
PEDOPHILES ON THE INTERNET.  THE INTERNET HAS 
CREATED WHAT ONE OF OUR WITNESSES CALLED "A 
VIRTUAL SEARS CATALOG" FOR PEDOPHILES TO FIND 
AND COMMUNICATE WITH CHILDREN BECAUSE THE 
INTERNET IS BECOMING THE SOCIAL NETWORKING 
PLACE FOR YOUNG PEOPLE. 
	WE MUST MINIMIZE THE LIKELIHOOD OF OUR 
CHILDREN BEING EXPLOITED OVER THE INTERNET AND 
TO EVERYTHING POSSIBLE TO ASSIST LAW 
ENFORCEMENT IN THEIR EFFORTS TO INVESTIGATE 
AND PROSECUTE CHILD PREDATORS. 
	I WANT TO THANK OUR FIRST PANEL WITNESS, MR. 
CHRIS HANSEN, FROM DATELINE NBC FOR TESTIFYING 
TODAY ABOUT HIS RIVETING INVESTIGATIVE SERIES 
CALLED "TO CATCH A PREDATOR."  THIS SERIES 
SHOWED HOW CHILD PREDATORS IN FIVE DIFFERENT 
CITIES ACROSS AMERICA, CHATTED WITH SOMEONE 
OVER THE INTERENT THEY BELIEVED TO BE A 13 OR 14 
YEAR OLD CHILD AND THEN ACTUALLY TRAVELLED 
TO A HOME TO MEET THE CHILD FOR SEXUAL 
ACTIVITY.   WHAT I FOUND MOST TELLING FROM 
WATCHING SOME OF THE EPIDODES IS THAT THESE 
CHILD PREDATORS COME FROM ALL WALKS OF LIFE 
AND ARE ALL DIFFERENT AGES AND BACKGROUNDS.  
THERE DOESN'T APPEAR TO BE ANY PROFILE OF WHO-
OVER THE INTERNET-MAY BE A CHILD PREDATOR. 
THIS IS IMPORTANT FOR PARENTS AND CHILDREN TO 
UNDERSTAND.   I LOOK FORWARD TO HEARING MORE 
FROM MR. HANSEN ON HIS INVESTIGATIVE WORK IN 
THIS SERIES.
	I WANT TO THANK THE REPRESENTATIVES OF THE 
INTERNET SERVICE PROVIDERS WHO ARE HERE TODAY. 
WE LOOK FORWARD TO THEIR TESTIMONY EXPLAINING 
WHAT THEY ARE DOING TO ASSIST LAW ENFORCEMENT 
IN CASES INVOLVING THE SEXUAL EXPLOITATION OF 
CHILDREN OVER THE INTERNET AND WHAT MEASURES 
THE COMPANIES ARE TAKING TO REMOVE IMAGES, 
WEBSITES AND OTHER ILLEGAL CONTENT THAT 
SEXUALLY EXPLOIT CHILDREN FROM THEIR 
NETWORKS.  INTERNET SERVICE PROVIDERS ARE NOT 
LAW ENFORCEMENT AGENTS---AND I CERTAINLY AM 
NOT ASKING THEM TO BECOME THAT-I DO BELIEVE 
THAT HAVING IMAGES OR LINKS TO IMAGES THAT MAY 
BE CHILD PORNOGRAPHY ARE, AT A MINIMUM, 
VIOLATIONS OF THEIR TERMS OF USE AND MAY BE 
CRIMINAL SITES AS WELL.  TAKING MEASURES TO 
PROACTIVELY LOOK FOR THIS CONTENT ON YOUR 
NETWORK, REPORT THIS CONTENT TO THE NATIONAL 
CENTER FOR MISSING AND EXPLOITED CHILDREN AND 
TO LAW ENFORCEMENT, WILL GO A LONG WAY 
TOWARDS REDUCING ACCESS THAT PEDOPHILES HAVE 
WEBSITES WITH SEXUALLY EXPLOITATIVE IMAGES OF 
CHILDREN.  IF COMPANIES HAVE CONCERNS ABOUT 
PERFORMING PRO-ACTIVE SEARCHES OF THIS HORRIFIC 
CONTENT- WE HOPE YOU WILL EXPRESS THEM 
TODAY.  I UNDERSTAND THAT SEVERAL COMPANIES 
HAVE UNDERTAKEN PROACTIVE SEARCHING AND 
FILTERING OF THESE SITES AND IMAGES-AND ARE 
LOOKING FORWARD TO THAT TESTIMONY. 
 	I ALSO AM INTERESTED IN LEARNING ABOUT THE 
INTERNET SERVICE PROVIDERS DATA RETENTION 
POLICIES FOR IP ADDRESSES IN PARTICULAR.  A 
WITNESS AT THE SUBCOMMITTEE'S PRIOR HEARING-
FLINT WATERS--TESTIFIED THAT IN CONNECTION TO 
AN INVESTIGATION ABOUT A CHILD PREDATOR ON THE 
INTERNET, HE WAS UNABLE TO GET SUBSCRIBER 
INFORMATION FOR A THREE-DAY OLD IP ADDRESS 
FROM AN INTERNET SERVICE PROVIDER. THIS IS 
UNACCEPTABLE.  LAW ENFORCEMENT AGENCY 
REPRESENTATIVES HAVE TESTIFIED THAT RETAINING 
IP ADDRESSES IS CRITICAL.  
        I HAVE A SIMPLE MESSAGE: LET'S MAKE IT AS 
DIFFICULT AS POSSIBLE FOR CHILD PREDATORS AND 
PEDOPHILES TO TRADE IMAGES, SET-UP ILLEGAL 
WEBSITES AND FIND CHILDREN ON THE INTERNET.  

	MR. WHITFIELD.  At this time, I recognize the distinguished 
Ranking Member, Mr. Stupak of Michigan.
	MR. STUPAK.  Thank you, Mr. Chairman, and thank you for 
calling this hearing, and thank you for continuing to do this 
investigation in a bipartisan manner.
	A growing scourge of what is called "child pornography and 
exploitation" on the Internet is a serious threat to all of our 
children.  I say so because what this really involves is the rape and 
torture of children for profit or to satisfy some dark urges.  It was a 
well-contained problem before the advent of the Internet.  The 
anonymity of the Net has apparently brought out the worst in a 
small but growing number of Americans and allowed them to 
communicate with their counterparts all over the world.
	The statistics are startling.  Eighty percent of the pornographic 
images of children on the Net involve children ages 12 and under.  
Forty percent involve children ages 6 and under.  Twenty percent 
involve toddlers ages 3 and under.
	The National Center for Missing and Exploited Children 
estimates that 40 percent of those that view child pornography 
have or will abuse their own children.  We have had testimony that 
preliminary information from studies, soon to be published, that 
number may actually rise to 75 to 80 percent.  People that think 
viewing these images is a victimless crime simply do not 
understand the problem.
	There is both good news and bad news.  The bad news is that 
our children are at a substantial and growing risk.  The good news 
is that if these predators can be denied easy access to the images 
that provoke them and if we can make it risky for them to groom 
young victims, we can, once again, make this dangerous behavior 
rare.
	This will require the best efforts of all of us.  Yes, we need to 
find effective ways to educate parents and children about the 
dangers of putting personal information out on the Net.  Yes, we 
need to greatly expand the resources available to State, local, and 
Federal law enforcement agencies.  Yes, we must make it clear to 
prosecutors that cutting deals for minimal jail time and/or 
probation is unacceptable for these men that terrorize our children 
and those that are caught "only enjoying the images" of these 
heinous acts.  And yes, we must let judges know that they may no 
longer endanger society by releasing these criminals with a slap on 
the wrist.
	As Members of Congress, we have a unique responsibility not 
only to ensure that Federal criminal laws are adequate and that 
Federal law enforcement is up to snuff, but also to deny access to 
the Internet of those that hunt our children and profit from the sale 
of these awful images.
	Mr. Chairman, I am glad to see Mr. Chris Hansen here today 
whose Dateline NBC series on child predators has awakened 
America to the dangers our children face.  This series of programs 
has shown us exactly what lengths these men from all walks of life 
are willing to go to to abuse children.
	Testimony to date has revealed the following statistics: 50,000 
predators are online at any given time; 1 in 5 children will be 
solicited online; 1 in 33 of these solicitations, just about the size of 
an overcrowded classroom, will result in the successful contact of 
a child by phone, letter, or physical meeting.  I suspect that what 
Mr. Hansen has to tell us will provide important context for the 
examining of the testimony of the social networking websites that 
will appear before us tomorrow.
	I am also pleased that you have assembled seven Internet 
service providers to testify today.  Certainly it is important for us 
to know the extent to which some ISPs have made to combat 
children pornography on their sites.  Some ISPs have cooperated 
with law enforcement and are proactively attempting to eliminate 
child pornography from their networks while others seem to be in 
denial that they have children being abused over their networks.
	But make no mistake about it, regardless of the level of effort 
expended so far, it is not enough.  The problem is growing.  Mr. 
Chairman, we have gathered witnesses that can provide some 
information, and some will be making very important 
announcements today.  However, absent are the CEOs who can 
make the voluntary commitments of the resources and cooperation 
necessary to clean up the Web.
	Voluntary action in the United Kingdom has made great strides 
in limiting the commercial use of the World Wide Web in that 
country to sell or view child porn.  When these efforts began 
approximately 3 years ago, the UK hosted 18 percent of the 
commercial child porn sites worldwide.  Today, that number is 
down to four-tenths of one percent.  It is estimated that the United 
States hosts 42 percent of the worldwide for-profit sites.  Since 
2000, the CyberTipline operated by the National Center for 
Missing and Exploited Children has seen reports of these gruesome 
images grow from 20,000 to over 390,000 today.
	I would like to see our Internet and telecom companies commit 
to taking down every identified site in the United States and 
blocking the American predators from using U.S.-based network 
platforms to access child pornography from any identified site 
worldwide.
	As the author of an amendment to the House 
Telecommunications Bill to require broadband carriers to prevent 
child pornography from traveling on their networks, I am very 
interested in knowing the ISPs' reaction to this idea.  I also want to 
know if they will support tougher data retention policies for parent 
and known child pornography.  Will this solve the problem?  No, 
but it will make a substantial dent in the multi-billion-dollar 
industry that seeks to exploit children for profit.  It will reduce the 
demand that drives much of the exploitation and will save many 
children from this terrible abuse.
	With that, Mr. Chairman, I yield back the balance of my time.
	MR. WHITFIELD.  Thank you, Mr. Stupak.
	At this time, I recognize the Vice Chairman of this committee, 
Mr. Walden of Oregon.
	MR. WALDEN.  Thank you very much, Mr. Chairman.  I 
commend you for holding this hearing as we continue to 
investigate this terrible scourge that is on our population.
	I want to congratulate Chris for the work he has done at NBC 
to really shine light for the whole country to see just how awful 
this is and how pervasive it is.  I think most parents don't have a 
clue that this could be going on in their own family room where a 
kid is hooked up to a computer, and yet we know, from our work 
on this committee, and you have identified from the work you have 
done, it is very easy to get caught up in the web of predators and 
perverts in this country who seek out children to do ghastly things 
to them.  And so I commend you for that work, and I appreciate it 
as a parent.  It has been most troubling to learn about what does go 
on out there, and I think most parents in America would share that, 
that they just can't believe this happens and how easily and quickly 
it happens.  I think one of the most disturbing things, Mr. 
Chairman, I have come to understand out of our hearings is within 
seconds, you can identify a predator online or they can identify 
you.  And the grooming process begins, the manipulation begins, 
and the horror begins.  And we have had witnesses before this 
subcommittee who have told us their stories and told America their 
stories, and hopefully, we will all learn from that.
	I am pleased to see that the industry is responding in the way it 
should respond with the announcements today of their work that 
they are going to do with the National Center for Missing and 
Exploited Children to develop both technological solutions as well 
as better enforcement tools and enhance their industry efforts.  But 
I dare say there is more work to be done in terms of who is able to 
link to what site and who gets paid for that and how we filter that 
out.  Some ISPs are better than others at that.  And so our work 
continues.
	But Mr. Chairman, I think the work of this committee and the 
work of journalists like Mr. Hansen come a long way toward 
exposing the problem, and frankly, shining light on a problem as 
horrific as this one is is a good first step and a good tonic.  There 
are other things we can do legally, and there are certainly things 
the industries can do collaboratively to do everything we can to 
protect our kids and to clean up the Internet.
	With that, Mr. Chairman, I yield back the balance of my time.
	MR. WHITFIELD.  Thank you.
	At this time, I will recognize Ms. DeGette of Colorado.
	MS. DEGETTE.  Thank you very much, Mr. Chairman, for 
tackling this series of hearings on a very important subject.
	I have been amazed in these hearings, and as the mother of two 
girls ages 16 and 12, I have been scared about the data that we are 
hearing, because child pornography on the Internet is burgeoning.  
It is exploding out of control, and it is time for everybody involved 
in our society to take this seriously and to look at some serious 
steps to controlling it.
	Only one percent of the images on the Internet are just simply 
nudity.  This is very serious exploitation of children, and I am not 
going to go into the graphic details.  Suffice it to say it is appalling, 
and it is easy to pull up on your computer.
	I will also say, as Mr. Stupak noted, that the number of 
complaints that people are getting is burgeoning as well.  The 
Department of Justice Internet Crimes Against Children Task 
Force, in 2003, 3,700 reports of Internet crimes against children.  
In fiscal year 2005, it went up to 198,000.  So we really do need to 
get a grip on it, and we all need to do it together: the media, 
Members of Congress, and the providers.
	And so, Mr. Chairman, sometimes we wonder if we do any 
good up here, but the fact that the ISPs are making some 
announcement of changes of policies today, I think that is based 
directly on the work of people like Mr. Hansen to bring this out 
and people like Paula Woodward in Denver at our NBC affiliate 
who has been working on this.  I also think it is a result of these 
hearings.  And I think it is commendable.  I am eager to hear these 
announcements, and I am glad they are doing it, but I still think we 
need to do more.
	And as probably almost everybody in this room knows, and 
everybody on this committee knows, ever since our first hearing, I 
started working on legislation that would require companies that 
provide broadband service to keep certain records that identify 
their customers for 1 year.  Amazingly, even though we require 
telephone companies to keep records of every telephone call for 18 
months so that law enforcement authorities can subpoena those 
records, there is no Federal law for Internet communications, and 
there is no industry standard.
	As we have heard over and over in our testimony, this is 
hindering investigations, because when investigators want to go 
and get evidence, subpoena evidence that they can find these 
terrible criminal perpetrators, they find that the Internet service 
information has been destroyed.  And so, Mr. Chairman, I have 
been working with you and your staff and also with Chairman 
Barton and his staff to make sure that the legislation is drafted so 
that it protects consumers' rights to privacy.  But I have said it 
before, and I will say it again, I don't think that people who are 
raping 2-year-old children on the Internet have any right to 
privacy, and nobody thinks that.
	So we need to make our laws work.  We need to make our laws 
work to have people retain records so that they can be subpoenaed 
in criminal investigations.
	Let me just say one thing.  I am not saying that the Internet 
communications should be preserved.  And that has been a 
misunderstanding that has been out there.  I am saying that certain 
identifying information that is readily available and is kept now by 
Internet service providers should be kept for a period of time so 
that law enforcement authorities can subpoena that information if 
they need it in an ongoing investigation.
	I think that eradicating this pernicious practice is going to take 
a national and even a global partnership of citizens, parents, 
government, industry, and law enforcement.  Every single one of 
us needs to be thinking about how we can do more.  Every single 
parent in this country needs to be thinking about talking to their 
children about these Internet predators and how they can avoid 
being victims.  And once we do that, just like we eradicated a lot of 
the child pornography in the mail in the 1980s, I believe that we 
can rid our computers and our children of this scourge.
	Thank you very much, Mr. Chairman, and I yield back.
	MR. WHITFIELD.  Thank you.
	At this time, I recognize Mr. Ferguson of New Jersey.
	MR. FERGUSON.  Thank you, Mr. Chairman, for holding 
another hearing on this subject that our committee has brought to 
the public's attention over the course of the last few months.  I am 
thankful that our committee has made a commitment to educate the 
public and the Government about a topic which really needs a lot 
of our attention.
	I would also like to thank our witnesses for joining us today 
and testifying.  The witnesses that are coming before the 
committee today have all made a commitment to bring this issue to 
light and helping working to protect our children who use the 
Internet, and for that, we are all very appreciative.
	I also want to thank Chris Hansen for being here with us today 
and taking time to be here.  There is no doubt that the "To Catch a 
Predator" series that recently aired on Dateline NBC came as a 
shock to all of us who were watching.  Perhaps what was most 
shocking was the wide demographic of men who came with the 
intention of taking advantage of these children.  Throughout the 
past few months, we learned that there is truly no pattern, profile, 
or overarching characteristic of these folks.  They come from all 
walks of life, all professions, backgrounds, and education levels, 
and perhaps that is what is most frightening of all.
	I want to thank Mr. Hansen again, and I am anxious to hear 
what he has to say today about his work with Dateline NBC.
	I appreciate the chance to hear from the Internet representatives 
who are here with us today and what they are doing to stop the 
flow of child pornography and aid law enforcement in these types 
of investigations.  There is no doubt that the technology to 
apprehend these predators has greatly advanced over recent years, 
and Internet services can be a tremendous resource for law 
enforcement in these types of crimes.
	While we struggle with privacy issues regarding e-mail and 
Internet chat rooms involved in these cyber crimes, I look forward 
to finding solutions to this problem.  Whatever privacy concerns 
are out there, we must make sure that we are doing everything we 
can to protect our children.
	Although as Members of Congress, we have done right in 
bringing this issue to surface, and law enforcement and those in the 
Internet industry have taken great strides in making efforts to root 
out predators, there is always more that can be done.
	I look forward to working with these groups to further enhance 
the safety of the Internet while still allowing our children to use it 
for the many benefits that it can provide.  I am also looking 
forward to hearing from law enforcement and others who work in 
this area in what is being done in my home State of New Jersey 
regarding this issue.  Our O&I Subcommittee will have a field 
hearing on July 10 in my district in New Jersey.  I want to extend 
my early appreciation to our U.S. Attorney in New Jersey, Chris 
Christie, who has already agreed to testify at that hearing.
	Again, thank you, Mr. Chairman, for your commitment to these 
hearings and this issue.
	And again, thanks to our witnesses for being here today.
	I yield back.
	MR. WHITFIELD.  Ms. Baldwin of Wisconsin.
	MS. BALDWIN.  Thank you, Mr. Chairman.  And I want to 
commend you, Mr. Chairman, and this subcommittee's work in 
prior sessions examining the proliferation of child exploitation 
over the Internet and its efforts to shed light on the abhorrent but 
burgeoning networks of child predators online as well as its efforts 
to educate the public and especially parents about the danger such 
individuals pose to children who use the Internet.
	I, too, want to extend my welcome to Mr. Hansen to today's 
hearing.  Your investigative series "To Catch a Predator" provides 
startling revelations of just how easy it is for a child predator to 
initiate online contact with underage persons, how there is no easy 
way to profile a child predator, and how persistent such predators 
are in looking for child victims despite high-profile sting 
operations such as those featured on your program.
	Perhaps it helps explain the staggering statistic that one in five 
children is solicited for sex while online.  Your program helps 
parents understand just how crucial it is for them to be involved 
with their children's online activities and to proactively use 
filtering technologies and safety settings provided by the Internet 
service providers.
	I also appreciate the participation of various ISPs and search 
engines on the second panel in today's hearing.  In reviewing the 
testimony provided for today's hearing, it is clear to me that 
different ISPs adopt very different policies in regard to how 
proactively and aggressively each filters child pornography on its 
networks as well as its policies of data retention, specifically the 
length in which IP address assignment and customer record 
information are retained.
	I strongly believe that there ought to be national uniformity in 
this regard so users of ISPs, especially children, are guaranteed a 
certain level of protection and that law enforcement officers across 
the country are assured that their hard work chasing down child 
predators will not be undermined at the last minute by inadequate 
data preservation.
	I note that several panelists in our second panel have suggested 
various legislative options in their testimony today, and I look 
forward to working with members of this subcommittee to produce 
legislation that will address the needs of law enforcement in 
investigating and prosecuting child pornography cases while 
balancing a consumer's right to privacy.
	Finally, I have serious concerns regarding the adequacy of the 
effort of some of the search engines and what they are devoting to 
monitor and filter child pornography.  For example, on our desks 
here today, are the results of a Google search which uncovered 
sponsored links hosted by an advertiser with Google on Google's 
website that purports to market child pornography.  I hope that 
Google can fully explain its "Ad words" service that allows any 
potential advertiser to create and control their advertisement 
through an online program.  It is clear to me that such a self-
managed advertising program requires a substantial amount of 
resources on the part of Google to screen and enforce its policy 
prohibiting the promotion of child pornography.  And I am 
doubtful that current efforts are adequate.
	In addition, I hope that both Google and Yahoo! will address 
the issue of online bulletin boards or groups hosted by their 
websites that allow the exchange of sexually explicit images and 
material among group members.  I am interested in any proactive 
efforts by Yahoo! and Google to monitor such bulletin boards for 
their trafficking and exchange of child pornography.
	And I hope that this series of hearings will help lead to a 
reduction of such violent and heinous crimes against children, 
whether it is through informing parents of the dangers of online 
child predators, a greater oversight of Federal response to the issue 
of child exploitation on the Internet, or new legislative proposals 
that would deter online pedophilia.
	Again, I want to thank the subcommittee and Mr. Chairman, 
Mr. Ranking Member for holding this important series of hearings, 
and I look forward to the testimony today.
	MR. WHITFIELD.  Thank you.
	Dr. Burgess, you are recognized for your opening statement.
	MR. BURGESS.  Thank you, Mr. Chairman, and I want to join 
other members of our committee in welcoming Mr. Hansen here 
this morning and thank him for his groundbreaking work in this 
field.
	Mr. Chairman, we have started this series of intensive 
investigations on sexual exploitation of children over the Internet, 
and we have heard from a range of parties: courageous child 
victims, journalists who bring stories to light, law enforcement 
agencies charged with prosecuting these predators.  After each 
hearing, you can't help but be troubled by what  you have learned, 
and I am proud, Mr. Chairman, that this committee has taken the 
leadership role in dedicating itself to educating Congress and the 
public on this most dangerous situation.
	As a father of three, I am unable to comprehend how people 
can commit these types of crimes against children.  However, it is 
crucial, for the safety of our children, for all of us to know about 
these evils so that we can help curb this abusive practice.
	Mr. Chairman, thank you for your leadership regarding this 
troubling but imperative topic.  It is my understanding that after 
our last subcommittee hearing, Attorney General Gonzales 
announced that the Department of Justice, in conjunction with 
various Internet service providers, would study uniform data 
retention policies for IP addresses.  Hopefully, this will enhance 
the effectiveness of law enforcements' investigations for persons 
engaged in crimes against children.  While some of the providers, 
like EarthLink, retain data for 7 years, others retain the IPs for as 
little as 31 days.
	In light of the situation, my opinion, retaining this crucial data 
for only a month is, in itself, almost criminal.
	I look forward to hearing from each of the Internet service 
providers today regarding their own current policies.  I also think it 
would be useful to discuss some of the problems associated with a 
long period of data retention of these addresses.  I believe that the 
providers have a responsibility to the public, and it will be 
extremely useful to know what type of safety features and filtering 
devices each company utilizes to help protect our children.
	Further, it is my understanding that we may receive some new 
information today about new industry standards and new industry 
practice, and I look forward to learning that information today as 
well.
	While the providers are an important component to this 
problem, the Government also has a vital role to play.  During our 
last hearing, we heard how the Government let a young orphan 
from Russian, Masha Allen, be adopted by a single man, who, in 
turn, turned out to be a pedophile.  There were all types of blatant 
clues that the Government ignored, including the fact that Masha 
would not have her own bedroom in this man's home.
	Mr. Chairman, how hard was that for the State Department that 
investigated this man for the suitability of being an adoptive 
parent, a single father, to ask: "Where is the little girl's bedroom?"
	Mr. Chairman, I look forward to us having the State 
Department back here before this committee to help us answer 
some of these questions, because the problems that we address in 
this country, as grievous and as troublesome as they are, pale in 
comparison to plucking a child out of an orphanage overseas and 
depositing her into that type of an environment.
	As lawmakers, it is our job to create effective laws to keep 
children away from harm.  While at times this is an almost 
impossible task, we have a responsibility to children and parents to 
diligently undertake this charge.  We must not stop until we fulfill 
this important obligation to our most innocent and vulnerable 
segment of society.
	Mr. Chairman, thank you, again, for your continued leadership 
and dedication to this grave situation.  I look forward to working 
with you and others on this committee as we continue to find 
solutions to this most troublesome problem.
	I yield back.
	MR. WHITFIELD.  Thank you, Dr. Burgess.
	I might also add that we intend to bring in some of the adoption 
agencies as well that were involved in that.
	At this time, I recognize the gentleman from Florida, Mr. 
Stearns.
	MR. STEARNS.  Thank you, Mr. Chairman.
	This, obviously, is a very troubling hearing that we are having 
here.  You would think with the advent of the Internet it would 
bring a lot of positive things, but obviously this is not a positive 
thing we are talking about today.
	One in five children receives a sexual solicitation while on the 
Internet, and most never tell an adult.  Between 2000 and 2004, 
Federal criminal referrals of sexual exploitation over the Internet 
increased by 124 percent.  The National Center for Missing and 
Exploited Children's CyberTipline reported it received more than 
100,000 complaints a year regarding online child pornography.  On 
March 15, Julie Myers, Chief of U.S. Immigration and Custom 
Enforcement, said in a press conference: "Tragically and 
frighteningly, the kids in these images are getting younger, and the 
images are getting more and more violent and graphic."
	In former hearings, we learned through the disturbing 
testimony from Mr. Justin Berry, a former victim of child 
predators, and Mr. Kurt Eichenwald, a reporter for the New York 
Times, that in this underground predator hunt for children on a 
legitimate site used by webcam owners and compare strategies and 
techniques.  They simply compare strategies and techniques for 
luring children into this sordid world.
	Pedophiles were all isolated from society and each other in the 
past, but no longer.  The Internet creates a virtual community in 
which predators reinforce their sick desires.  Online portal that 
advertises for paid webcam child pornography, there are 585 sites.  
Even after the children shut down these websites, the images 
remain and are traded online long afterwards.
	We have heard about one website claiming to have 140,000 
images of adolescents from their webcam.
	My colleagues, it is illegal to manufacture and distribute child 
pornography whether in print form or online, and yet child 
pornographers produce images without fear or consequences.  
They are computer-savvy individuals, obviously, whose adaptive 
skills often outpace law enforcements' ability to simply pursue 
them.
	We need to strengthen our technological capabilities to track 
down and prosecute these criminals and instill such fear in them of 
capture and prosecution that they will not harm our children again.
	It is also our duty to educate the adults, including all of the 
mothers and fathers, and to urge them to have close supervision.  It 
is our duty, as Members of Congress, to do whatever we can in our 
power here this morning to protect the innocent.  And certainly a 
hearing of this nature does help to inform others about this very 
serious offense.
	So I am hoping the testimony will give us a greater insight into 
what efforts are currently being used to track down these criminals, 
perhaps also stimulating ideas for reform, either through legislative 
means or to tighten and enact more law enforcement.
	And I thank you, Mr. Chairman.
	MR. WHITFIELD.  At this time, I will recognize Mr. Inslee of 
Washington.
	MR. INSLEE.  Thank you.
	I just want to thank Mr. Hansen for your work in this regard.  
You have helped move Congress.  Thank you.
	I look forward to your testimony.
	MR. WHITFIELD.  Mrs. Blackburn of Tennessee.
	MRS. BLACKBURN.  Thank you, Mr. Chairman.
	I want to thank you for holding this series of hearings that we 
are in process with today.
	Mr. Hansen, I want to thank you for your time.  I want to thank 
you for your interest and concern on this issue.  And I want to 
thank you for being willing to take the time to come and be with us 
today.
	In the past, child predators usually had to operate in person.  
They had to operate over the phone or through the mail in order to 
lure children.  And now the Internet, with the availability and easy 
access to people, these child predators have many more tools at 
their disposal, and unfortunately, many times they are anonymous.
	In past hearings, we have seen some of these tools that they use 
to solicit children, and today we are going to look at the methods 
that Internet companies can implement to protect children from 
being accosted by these despicable people.  I know that some 
companies have recognized some of the means that the predators 
are using and are starting to implement more stringent steps to 
protect children from these predators.
	But I want to remind the companies present at today's hearing 
that it is incumbent upon them to use all of the available 
technological tools to prevent child predators from gaining access 
to our children.  That is your responsibility.  Our constituents want 
action with results.  They do not want half-hearted efforts on 
anyone's attempt.  This is a problem that is out of control.  It is a 
problem that we must arrest.  It is a problem that we have to get 
our arms around, and collectively we have to solve this.  We have 
to solve this.
	These efforts are not a substitute for law enforcement, but more 
and more parents, including my constituents, are becoming 
increasingly concerned about online child predators, and they want 
to see children protected.  They want to know that their children 
are safe when they are using the Internet.  They want to know that 
you are their partner in protecting these children.
	One issue that keeps recurring is how these companies are 
monitoring communications that would reveal either the transfer of 
child pornography or messages that would indicate that a user 
might be a child predator.
	Mr. Chairman, I look forward to hearing from the companies 
today.  I look forward to hearing from our first witness.  And I 
thank everyone for their time.
	[Additional statement submitted for the record follow:]

PREPARED STATEMENT OF THE HON. JOE BARTON, CHAIRMAN, 
COMMITTEE ON ENERGY AND COMMERCE

        Thank you, Chairman Whitfield, for convening this hearing.
	Over the last six months, this subcommittee has been 
investigating the sexual exploitation of children over the Internet. 
Our previous hearings have left no doubt that the war against 
online child pornography and sexual exploitation is not merely a 
problem for law enforcement to solve.  Everyone must do his or 
her part to combat this epidemic of abuse if we are to succeed.  
And this includes the Internet Service Providers and social 
networking sites that will appear before this subcommittee today 
and tomorrow.
	Law enforcement agents who testified during our previous 
hearings talked about what industry could do to help win the war 
against the online sexual exploitation of children.  One of the 
problems the agents discussed was inadequate data retention.  I 
think all the members of this subcommittee shared the agents' 
frustration when they described how some of their investigations 
were thwarted because Internet Service Providers had not retained 
the data that would allow them to make a link between an IP 
address used by an online predator and that predator's name and 
home address.  In one instance, law enforcement was unable to 
find the man who was seen raping a two-year old child on an 
online video because the Internet Service Provider no longer had 
the IP address information that would have led the police to the 
predator.
        In response to incidents like these, the Department of Justice 
has been meeting with Internet companies, including some of those  
appearing before us today, and has proposed a two-year data 
retention period.  Just last week, Ranking Member Dingell and I 
received a letter from the National Association of Attorneys 
General urging Congress to study the issue of a national data 
retention standard.  Therefore, I look forward to hearing your 
thoughts on these proposals.  I understand data retention is a 
complex issue and that an extended retention requirement might 
pose cost increases for your companies.  I am hopeful a solution 
can be reached that will satisfy the concerns of law enforcement 
and the concerns of the industry.
	Another area where Internet companies assist law enforcement 
is by making reports to the National Center for Missing and 
Exploited Children.  While the Internet Service Providers and 
social networking sites that are testifying today and tomorrow all 
report to the National Center, there are many other providers and 
sites that either ignore or are not aware of this reporting 
requirement.  In addition to your views on data retention, I am 
interested in learning your thoughts on mandatory registration of 
ISPs to facilitate increased reporting to the National Center, as well 
as other ideas you may have to help law enforcement find these 
criminals who seek to abuse our children.
	While reporting and data retention are two key tools that will 
help bring an end to online child pornography, industry's role in 
this fight cannot simply be limited to responding to law 
enforcement requests or reacting to the child pornography they 
discover on their networks.  It is essential that industry get ahead 
of the problem - and the predators - by developing safeguards 
which will prevent these criminals from taking advantage of their 
networks and websites in order to send images of child abuse or to 
lure children.  I understand that some of the companies that are 
appearing before us today announced just this morning that they 
are coming together to create the Center for Child Protection 
Technologies at the National Center for Missing and Exploited 
Children.  This center will focus on developing technology 
solutions to detect and disrupt the transmission of child 
pornography.  In addition, it will serve as a clearinghouse for 
known child pornography images that network operators can use to 
block child pornography.  I commend the industry for launching 
this initiative.  It is a valuable step towards winning the war against 
child pornography.  We must make sure that every effort is brought 
to bear, as the price paid by the children who are victims of 
Internet child pornography and sexual exploitation is lifelong and 
devastating.   
	I look forward to hearing from the witnesses and yield back the 
balance of my time.

	MR. WHITFIELD.  Thank you, Mrs. Blackburn.
	And I believe that concludes the opening statements, so Mr. 
Hansen, thank you for your patience.
	We are delighted to have Chris Hansen here with us today from 
NBC News.  And Mr. Hansen, as you probably are aware, in this 
Oversight and Investigations Subcommittee, we have a practice of 
taking all testimony under oath.  And under the Rules of the House 
and the rules of the Committee, of course, you are entitled to legal 
counsel.  I am assuming you don't need legal counsel today, so if 
you would please stand up, and I would like to swear you in.
	[Witness sworn.]
	MR. WHITFIELD.  Thank you.
	You are now under oath, Mr. Hansen, and you are recognized 
for a 5-minute opening statement.

STATEMENT OF CHRIS HANSEN, DATELINE NBC

        MR. HANSEN.  Mr. Chairman and members of the 
subcommittee, thank you very much, and good morning.
	I am Chris Hansen with Dateline NBC, and first off, again, I 
would like to thank the Subcommittee on Oversight and 
Investigations for inviting me to testify today on this critically 
important topic.
	I would also like to thank you for understanding and accepting 
the limitations in what I can say as a member of a news 
organization.
	A little more than 2 years ago, we set out to investigate 
computer predators: adults who go online into chat rooms and try 
to meet underage boys and girls.
	Volunteers from the online watchdog group, Perverted Justice, 
posed as young teens home alone and open to the idea of an 
encounter.  We rented a home in Long Island, New York, and 
outfitted it with hidden cameras.  The decoys set up profiles in chat 
rooms that included pictures of boys and girls that were 
unmistakably underage.  The decoys waited to be approached by 
men in the chat rooms.  They didn't wait long.  Within minutes 
sometimes, men were trying to start up inappropriate and often 
obscene conversations.  There was graphic language, pornographic 
material, and a grooming process all geared at setting up a sexual 
liaison with a minor.  The question was: would any of the men 
actually show up at our hidden camera house to keep their date 
with a young teen?
	In the days before the shoot, I had wondered quietly to myself 
about the possibility that perhaps no one would show up.  Maybe 
the anecdotal evidence we had seen on the computer predator 
problem was overstated.  But as I was stuck in traffic on the 
Throgg's Neck Bridge headed to the house, I received a call from 
my producer, Lynn Keller, who was frantic.  A man was due to 
show up in 45 minutes, and I had to be there.  Fortunately, I made 
it there in about a half hour, leaving just enough time to prepare to 
confront the man before he walked in the door right on schedule.  
For the next 2� days, we witnessed a parade of potential predators.  
There were men from all walks of life.  Even a New York City 
firefighter surfaced in our investigation.
	Last summer, we continued our investigation, this time setting 
up a home in Fairfax County, Virginia, just miles from where we 
are now sitting.  Again, Perverted Justice members worked as 
decoys, and the home was outfitted with hidden cameras.  In 3 
days, 18 men walked into the hidden camera house expecting to 
meet an underage boy or girl.  There was a rabbi, an emergency 
room doctor, a special education teacher, and a man who walked in 
from the garage naked, carrying his clothes and a 12-pack of beer.
	Earlier this year, we set up in a home in Southern California.  
This time, however, law enforcement set up a parallel investigation 
so the men could be arrested after I confronted them.  In 3 days, 51 
men came to the house to meet a boy or a girl and were arrested.  
Again, there was a wide range of characters: a teacher, a lawyer, an 
actor, even a Federal agent assigned to the Department of 
Homeland Security.  And there was something we had not seen 
before: a number of previously convicted sex offenders.  One of 
them was a 68-year-old man who had recently pleaded guilty to 
having sex with a 15-year-old boy.  He was on probation as he 
walked into our home to meet someone who told him online he 
was 13.  Another man who showed up had an even darker past.  
Our investigation revealed that 20 years before he walked into our 
house, he had molested three children in the same family in 
Oregon.  Their mother had met the man through a mentoring 
program.  And the trail didn't end there.  It turns out he had yet 
another conviction in Palm Springs, California, after that.
	The Southern California investigation drew men all of the way 
from Los Angeles to San Diego.  We wondered if this was a big 
city crime or if we would find computer predators in small-town 
America as well.
	Our next investigation took us to Darke County, Ohio, 
population 13,000.  Would potential predators travel miles of 
country roads, past cornfields and cow pastures to visit a child 
home alone?  The answer was yes.
	Even though word of our investigation leaked out in the small 
town of Greenville, Ohio, where we had set up, 18 men came to 
our house after explicit online conversations with a decoy from the 
watchdog group Perverted Justice.  All of them were arrested after 
we confronted them.  It was here in Ohio that we saw something 
new: a growing number of men who showed up had actually seen 
some of our past investigations and came anyway.
	A sixth-grade teacher who came to meet a 13-year-old girl 
admitted to me that not only had he seen our past broadcasts, but 
he had actually discussed them with his fellow teachers.  Another 
man who had showed up at our Ohio house late on a Sunday night 
was scheduled to go to jail in just 4 days for earlier soliciting a 
child online.  Since then, he has pleaded guilty to molesting a 
young female relative in yet another case.
	Our most recent investigation took us to Fort Myers, Florida, 
where in 3 days, 24 men showed up to meet a boy or a girl and 
subsequently were arrested.  After five investigations in five 
different States, we thought we had seen it all, but no one was 
prepared for what we saw next in Fort Myers.  Late on a sunny 
Sunday afternoon, our hidden cameras were rolling as a 40-year-
old man parked his SUV in front of our home.  He had set up a 
date for sex with a decoy posing as a 14-year-old boy.  We 
watched as he got out and walked around the rear passenger door.  
We suspected he may be grabbing some beer or food, as we had 
seen some other visitors do.  Instead, he takes his 5-year-old son 
out of the car seat and leads him by the hand up the driveway 
towards the back door of our house.  There was an audible gasp 
inside the house.  After he walked in, I told him who I was and 
what Dateline was doing.  I didn't want to scare his son.  Fort 
Myers police, who had set up their parallel investigation in the 
nearby home, saw the man had brought his child.  A female officer 
scooped up the boy so he did not have to further witness his 
father's arrest.  Police called the boy's mother, who was at work, 
and she picked him up at the police station.
	In all, nearly 130 men have surfaced in our five investigations.  
Ninety-eight of them have been charged criminally.  Seven have 
pleaded guilty.  The rest are awaiting trial and have pleaded not 
guilty.
	What did these men have in common?  The majority of the 
men don't stand out in a crowd.  Most look like the guy standing 
next to you in line at the dry cleaner's or at the grocery store.  They 
don't have the word "predator" tattooed across their foreheads.
	Virtually every day in this country, it seems a Federal or a local 
law enforcement agency does a sting operation targeting potential 
predators.  Dateline has now done five in less than 2 years.  You 
would think that would be a deterrent.  Perhaps, for some.  But for 
many other men, the desire to meet a teen for sex is too powerful.  
We have also seen men who think the odds of being caught are 
remote.  In our last investigation, several visitors realized almost 
immediately what was going on.  It was almost as if they were 
saying, "Oh, you are that guy.  This is that show.  And do you want 
me to sit over here?"
	What drives these men?  Based on our experience and what 
experts tell us, there is no one-size-fits-all characterization.  Some 
are sexual opportunists who think they can take advantage of an 
inexperienced but curious teen.  Some are evil.  They are just wired 
wrong.  Some are sick, perhaps victimized as a child.  Many share 
an addiction to online chat rooms and pornography sites and, 
eventually, a compulsion to meet a young teen for sex.
	The anonymity and 24/7 access to the Internet can fuel this 
compulsion.  In our experience, potential predators will sometimes 
talk to someone posing as a child for weeks before suggesting a 
meeting.  There is a grooming process that often starts with casual 
banter: talk of hobbies, sports, or a troubled relationship with a 
parent.  The potential predator will many times say he has shared 
in a child's experience.  Often, the man will say early on that he is 
too old for the teen and he could get into serious trouble if they 
met.  Then, however, the conversation will turn explicit.  He will 
suggest different sex acts.  A meeting is agreed to, and the next 
thing we see is him coming through the door.
	Our reporting suggests it is not hard for a potential predator to 
find a teen to talk to.  Regional chat rooms are often where our 
decoys are approached.  The decoy never makes the first move.  It 
is usually only a matter of minutes before he or she is contacted.  
The decoys pose as regular kids with regular issues.  They are open 
to the idea of a visit and potentially a sexual encounter.
	In our investigations, we have found that social networking 
sites are also popular trolling grounds for potential predators.  
MySpace, Xanga, and Facebook are places where teens often post 
personal pictures and information that they wrongly believe is only 
viewed by their friends.
	The incredibly good news for parents and children is that 
experts tell us that there is no magic way for a potential predator to 
enter your home via the high-speed cable.  Your child must 
provide information for a meeting to take place.  That is why a 
dialogue between parent and child and teacher and student is so 
critical.  It is really the same discussion our parents had with us 
years ago about strangers at the playground or accepting a ride 
from someone you don't know.  You just have to apply it to the 
Internet.
	I have brought with me today a DVD that has excerpts from 
some of our reporting.  I would like you to see that, and afterwards, 
I would be happy to entertain questions.
	[The prepared statement of Chris Hansen follows:]

PREPARED STATEMENT OF CHRIS HANSEN, NBC NEWS

        Good Morning,
        I'm Chris Hansen with Dateline NBC. First off, I would like to 
thank the Subcommittee on Oversight and Investigations for 
inviting me to testify today on this critically important topic. I 
would also like to thank you for understanding and accepting the 
limitations in what I can say as a member of a news organization.
  	A little more than 2 years ago we set out to investigate 
computer predators, adults who go on-line into chat rooms and try 
to meet underage boys and girls. Volunteers for the on-line 
watchdog group Perverted Justice posed as young teens home 
alone and open to the idea of an encounter. We rented a home in 
Long Island, New York and outfitted it with hidden cameras. The 
decoys set up profiles in chat rooms that included pictures of boys 
and girls that were unmistakably under-age. The decoys waited to 
be approached by men in the chat rooms. They didn't wait long. 
        Within minutes sometimes, men were trying to start up 
inappropriate and often obscene conversations. There was graphic 
language, pornographic material and a grooming process all geared 
at setting up a sexual liaison with a minor. The question was: 
would any of the men actually show up at our hidden camera house 
to keep their date with a young teen. 
        In the days before the shoot, I had wondered quietly to myself 
about the possibility that perhaps no one would show up. Maybe 
the anecdotal evidence we'd seen on the computer predator 
problem was overstated. But, as I was stuck in traffic on the 
Throgs Neck Bridge, headed to the house, I received a call from 
my producer Lynn Keller. She was frantic. A man was due to show 
up in 45 minutes and I had to be there. Fortunately I made it there 
in about a half hour leaving just enough time to prepare to confront 
the man before he walked in the door right on schedule. For the 
next two and a half days we witnessed a parade of potential 
predators. There were men from all walks of life. Even a New 
York City firefighter surfaced in our investigation. 
        Last summer we continued our investigation, this time setting 
up in a home in Fairfax County Virginia, just miles from where 
were are now sitting. Again Perverted Justice members worked as 
decoys and the home was outfitted with hidden cameras. In 3 days 
18 men walked into the hidden camera house expecting to meet an 
underage boy or girl. There was a rabbi, an emergency room 
doctor, a special education teacher and a man who walked in from 
the garage naked, carrying his clothes and a 12-pack of beer. 
        Earlier this year we set up in a home in southern California. 
This time, however, law enforcement set up a parallel investigation 
so the men could be arrested after I confronted them. In 3 days 51 
men came to the house to meet a boy or girl and were arrested. 
Again, there was a wide range of characters: A teacher, a lawyer, 
an actor, even a federal agent assigned to the Department of 
Homeland Security. And there was something we had not seen 
before: a number of previously convicted sex offenders. One of 
them was a 68-year old man who had recently pleaded guilty to 
having sex with a 15-year old boy. He was on probation as he 
walked into our home to meet someone who told him on-line he 
was 13. Another man who showed up had an even darker past. Our 
investigation revealed that 20 years before he walked into our 
house, he had molested 3 children in the same family in Oregon. 
Their mother had met the man through a mentoring program. And 
the trail didn't end there. It turns out he had yet another conviction 
in Palm Springs, California after that.
        The southern California investigation drew men all the way 
from Los Angeles to San Diego. We wondered if this was a big 
city crime or if we'd find computer predators in small town 
America as well. Our next investigation took us to Darke County, 
Ohio, population 13-thousand. Would potential predators travel 
miles of country roads, past corn fields and cow pastures to visit a 
child home alone? The answer was: yes. Even though word of our 
investigation leaked out in the small town of Greenville where we 
were set up, 18 men came to our house after explicit on-line 
conversations with a decoy from the watchdog group Perverted 
Justice. All of them were arrested after we confronted them. It was 
here in Ohio that we saw something new. A growing number of the 
men who showed up had actually seen some of our past 
investigations and came anyway. A 6th grade teacher who came to 
meet a 13-year old girl admitted to me that not only had he seen 
our past broadcasts, but he had actually discussed them with his 
fellow teachers. Another man who showed up at our Ohio house 
late on a Sunday night was scheduled to go to jail in just 4 days for 
earlier soliciting a child on-line. Since then he's pleaded guilty to 
molesting a young female relative in yet another case.
        Our most recent investigation took us to Fort Myers, Florida 
where in 3 days 24 men showed up to meet a boy or a girl and 
subsequently were arrested. After 5 investigations in 5 different 
states we thought we had seen it all, but no one was prepared for 
what we saw in Fort Myers. Late on a sunny Sunday afternoon our 
hidden cameras were rolling as a 40 year old man parked his SUV 
in front of our home. He had set up a date for sex with a decoy 
posing as a 14-year old boy. We watched as he got out and walked 
around to the rear passenger door. We suspected he maybe 
grabbing some beer or food as we'd seen some other visitors do. 
Instead he takes his 5-year old son out of his car seat and leads him 
by the hand up the driveway towards the back door. There was an 
audible gasp inside the house. After he walked in I told him who I 
was and what Dateline was doing. I didn't want to scare his son. 
Fort Myers Police who had set up their parallel investigation in a 
nearby home saw that the man had brought his child. A female 
officer scooped up the boy so he would not have to further witness 
his father's arrest. Police called the boy's mother who was at work 
and she picked him up at the police station. 
        In all, 130 men have surfaced in our 5 investigations. 98 of 
them have been charged criminally. 7 have pleaded guilty. The rest 
are awaiting trial. What do these men have in common? The 
majority of the men don't stand out in a crowd. Most look like the 
guy next to you in line at the dry cleaners or the grocery store. 
They don not have "predator" tattooed on their foreheads.
        Virtually every day in this country it seems a federal or local 
law enforcement agency does a sting operation targeting potential 
predators. Dateline has now done 5 investigations in less than 2 
years. You'd think that would be a deterrent. Perhaps for some, but 
for many other men the desire to meet a teen for sex is too 
powerful. We've also seen men who think the odds of being caught 
are remote. In our last investigation, several visitors realized 
almost immediately what was going on. It was almost as if they 
were saying "oh, you're that guy, this is that show, this is where 
you want me to sit?" 
        What drives these men? Based on our experience and what 
experts tell us there is no one size fits all characterization. Some 
are sexual opportunists who think they can take advantage of an 
inexperienced but curious teen. Some are evil. They're just wired 
wrong. Some are sick, perhaps victimized as a child. Many share 
an addiction to on-line chat rooms and pornography sites and 
eventually a compulsion to meet a young teen for sex.  
        The anonymity and 24/7 access to the Internet can fuel this 
compulsion. In our experience potential predators will sometimes 
talk to someone posing as a child for weeks before suggesting a 
meeting. There is a grooming process that often starts with casual 
banter, talk of hobbies sports or a troubled relationship with a 
parent. The potential predator will many times say he's shared in 
the child's experience. Often the man will say early on that he is 
too old for the teen and he could get into serious trouble if they 
met. Then however, the conversation will turn explicit. He'll 
suggest different sex acts. A meeting is agreed to and the next 
thing we see is -him- coming through the door. 
        Our reporting suggests it is not hard for a potential predator to 
find a teen to talk to. Regional chat rooms are often where our 
decoys are approached. The decoy never makes the first move. It's 
usually only a matter of minutes before he or she is contacted. The 
decoys pose as regular kids with regular issues. They are open to 
the idea of a visit and potentially a sexual encounter. In our 
investigations we have found that social networking sites are also 
popular trolling grounds for potential predators. My Space, Xanga 
and Facebook are places where teens often post pictures and 
personal information that they wrongly believe is only viewed by 
their friends. 
        The incredibly good news for parents and children is that 
experts tell us that  there is no magic way for a potential predator 
to enter your home via the high-speed cable. Your child must 
provide information for a meeting to take place. That is why a 
dialogue between parent and child and teacher and student is so 
critical. It's really the same discussion our parents had with us 
about strangers at the playground or accepting a ride from someone 
you don't know.  You just have to apply it to the Internet.
I'll be happy to entertain questions.

	MR. WHITFIELD.  Thank you, Mr. Hansen.  And we appreciate 
your bringing that videotape.  And at this time, if you all would 
play it, we would like to look at it.
	[Video.]
	MR. WHITFIELD.  Well, I don't know what to say, Mr. Hansen.  
That was quite a compelling video.  And it is unbelievable that you 
were able to get all of that on TV.  And I guess it has been shown 
throughout the country.  And you are continuing to do this.  But it 
certainly demonstrates the widespread problem that we have 
throughout our country.  
	And I guess the first question I would just like to ask you 
relates to this group Perverted Justice.  Now could you explain a 
little bit about that group?
	MR. HANSEN.  Mr. Chairman, this is a group started by a fellow 
named Xavier Von Erck, who lives in Oregon.  And they started as 
volunteers who essentially would go online posing as kids in chat 
rooms.  If they caught an adult trying to set up a meeting, they 
would actually post information about this adult on their website.  
And you know, people could check it out and see who was taking 
part in this alleged behavior.  We became aware of the group and 
thought maybe we could use their expertise in terms of their decoy 
work.  And if we were able to use our hidden cameras and our 
technology to cover this crime, that we could watch them in action 
and, get a pretty compelling picture of what is going on in some of 
these Internet chat rooms.  And that is kind of how it started.
	MR. WHITFIELD.  And so that group has been involved with 
you since that time?
	MR. HANSEN.  Each and every time.  And I think you saw a 
woman named Del there, who is very talented when it comes to 
posing as a young girl or boy online.  And she knows the teen 
speak of the Internet, as does Frag, the fellow you saw there.  And 
they have contributors around the country who go online and they 
pose as kids in these chat rooms.  And the information ultimately 
comes to the house where we are set up.  Perverted Justice 
provides Dateline with the transcripts so we can go through them.  
And I read every word of them, so I am prepared when these guys 
come in.  and in the last couple of investigations where law 
enforcement had a parallel investigation going, Perverted Justice 
would also provide transcripts of the chat log to the law 
enforcement, and they would be ready to take action on their part.
	MR. WHITFIELD.  Are there some specific chat rooms that seem 
to be used more than others, from your experience?
	MR. HANSEN.  Typically, these are regional chat rooms.  There 
have been some that apparently have a reputation for, perhaps gay 
romance or regular romance, but they are not anything specifically 
set up for something that people might find different or out there or 
alternative, generally.
	MR. WHITFIELD.  All right.  And all of these men that 
participated in these events, were they all prosecuted, from your 
knowledge, or do you know?
	MR. HANSEN.  In the very first investigation in Long Island, we 
didn't have law enforcement doing a parallel investigation, so to 
the best of my knowledge, the only prosecution that occurred there 
involved the firefighter who surfaced there.  He pleaded guilty 
recently after facing Federal charges.  In Washington, there was a 
handful of cases prosecuted, but to be honest with you, it is 
difficult for law enforcement and prosecutors to come in after the 
fact and, based on our broadcast and/or based upon Perverted 
Justice's chat logs to prosecute all of these men.  In Fairfax 
County, Virginia, they did as best as they could.  Once law 
enforcement started having a parallel investigation, then, obviously 
they are in on it from their standpoint from the beginning, and they 
are able to make their cases.
	MR. WHITFIELD.  Of course, you had one gentleman who 
brought his 5-year-old son.  You had one gentleman who came in 
nude.  And did you have other examples of people bringing their 
children with them to these encounters?
	MR. HANSEN.  No, nobody has, in the past, brought their 
children, but to see that video is stunning, but we work with 20 or 
so people inside this house, and these are guys who have been with 
me in India and investigations in Cambodia.  They have been in 
tough places, dark places all around the world.  I don't have to tell 
you that literally, I mean, these guys are people who have seen it 
and done it all.  After this happened, I mean, these guys were in 
tears.  That is how saddening this thing was.
	MR. WHITFIELD.  From the experiences that you all had with 
this program, most of the predators that showed up at the homes, 
did most of them have prior convictions or not?
	MR. HANSEN.  The vast majority did not have past contacts 
with law enforcement of any sort.  In California, as you saw from 
the video clips, we saw the most previously-convicted sexual 
offenders of anywhere else.  We had one case in Ohio, and there 
had been some other cases where guys that had actually been 
exposed by Perverted Justice.  But the vast majority of the men 
who walked into our investigations had not had prior sexual 
convictions.
	MR. WHITFIELD.  And it is my understanding that maybe one 
person showed up twice?
	MR. HANSEN.  There was a case in Fairfax County, Virginia, 
the fellow who also showed up naked there, the next day, we were 
in the course of our investigation, and the Perverted Justice people 
are set up in an upstairs bedroom on their computer, and one of 
them calls me up in disbelief, and says, "Remember the guy who 
walked in naked last night?  He is in a chat room trying to set up a 
meeting with a decoy posing as a 13-year-old boy."
	MR. WHITFIELD.  Unbelievable.
	MR. HANSEN.  So they set up a meeting at a nearby 
McDonald's restaurant, and we, of course, go out there.  I mean, I 
didn't think he would show up.
	MR. WHITFIELD.  Right.
	MR. HANSEN.  But as we were sitting there with the crews, here 
he comes.  He walks right into the McDonald's and walks right 
out.  I am standing there, and he said, "Well, I am just getting 
something to eat."  And I said, "Well, look, this is our second time 
down this road, and I have got the transcripts."  And he finally 
said, "I am sorry," and, "I am seeing a counselor."
	MR. WHITFIELD.  So were you ever personally threatened in 
any of these encounters?
	MR. HANSEN.  Nothing serious.  I think, as you saw, the rabbi 
became upset and agitated, but it wasn't--
	MR. WHITFIELD.  I guess they are so shocked they can't 
respond at all.
	MR. HANSEN.  Well, I think a couple things happen.  One, 
obviously, we have got the element of surprise in these 
investigations.  Two, and I have seen this more and more as we 
have continued, I think some of these people have wanted to get 
help for some time and are almost relieved that they are caught.  
And I think because I am generally curious to know what these 
guys are thinking, they sometimes want to get it off their chests 
even though they know it could be on national television.
	MR. WHITFIELD.  I think the thing that is really disturbing 
about all of this is that these are examples that we know about that 
you were involved in, and just think of the thousands that are out 
there going on every day that no one knows about.  And so you 
have got these adults chatting with young people.  And we know 
from testimony that we have had here in these hearings that they 
meet these pedophiles, and some people are selling sex on demand.  
There was a couple in Texas who were generating, I think, around 
$2 million a month, sexually abusing their own 5-year-old child on 
demand.
	Well, Mr. Hansen, thank you so much for being here, for 
focusing attention on this important matter.
	And at this time, I will recognize the gentleman from 
Michigan.
	MR. STUPAK.  Thank you, Mr. Chairman.
	Mr. Hansen, thanks for your work.
	Any females come forth?
	MR. HANSEN.  That is an excellent question.  Five 
investigations, five States, in only one investigation did we even 
have contact with a female potential predator, and in that case, she 
did not show up.  Perverted Justice will tell us that they have only 
seen it a couple times in the 4 years that they have been doing 
these investigations.  Experts in this field suggest that while we do 
see female predators, and you have seen the stories about the 
teacher and the student, there have been a number of them, female 
predators prefer to know who that person is.  They don't like the 
anonymity.  And the reality is, at least in our experience, it is a 
male-dominated crime.
	MR. STUPAK.  At any time, or in your conversations with 
Perverted Justice there, were you referred to other sites to view?  
From the time you have contact, maybe, until the time they would 
come to show up, did they--
	MR. HANSEN.  There were instances where the potential 
predator would suggest to the decoy, "If you want to learn about 
this sex act, I can either send you pictures or I can refer you to a 
website where this stuff exists."  Yes.
	MR. STUPAK.  How often did that happen or occur?  Just a 
guestimation.
	MR. HANSEN.  Yes, I mean, I think it happened a half a dozen 
to a dozen times over the five investigations.
	MR. STUPAK.  Is it fair to say that most of these predators 
would have webcams?
	MR. HANSEN.  I don't know if I would say most, but yes, I 
would say at least half have webcams.  And we see more and 
more.  And that is why in the Ohio investigation we introduced the 
webcam to what we were doing.  And when we had the actress 
who obviously looked much younger than she was, that was a very 
convincing thing.  And once the potential predator saw that, it 
really engaged them.
	MR. STUPAK.  So your decoy would indicate they had a 
webcam?
	MR. HANSEN.  Exactly.
	MR. STUPAK.  Okay.  You testified that MySpace, Xanga, and 
Facebook are popular trolling grounds for potential sexual 
predators.  Can you explain how these websites may perpetuate 
child exploitation and why these social networking sites are so 
appealing to pedophiles?
	MR. HANSEN.  Well, I think that potential predators know that 
there will be a lot of children on some of these social networking 
websites.  And some of them have implemented controls, and there 
are ways that a child can prevent most strangers from visiting their 
website.  But like anything else kids don't always pay attention to 
the rules or to the protections that are out there.  And so you do see 
the potential, in some cases, for contacts to be made.  And we have 
seen adults, for instance, and there have been criminal prosecutions 
along these lines, who pose as a 14-year-old girl and set up an 
identity to make friends with other 14-year-old girls and ultimately 
set up a meeting with somebody who is supposed to be a 
photographer, and you can imagine what happens next.
	MR. STUPAK.  Right.
	MR. HANSEN.  So there is the potential.
	MR. STUPAK.  Well, short of shutting these social websites 
down, can you think of any safeguards you would put on there?
	MR. HANSEN.  I think it really comes down to a parent having a 
realistic approach to this with their child, because kids will take the 
path of least resistance.  You can't just say, "I am going to pull the 
Internet out of the house."  In the first investigation, I had a group 
of kids, probably nine or ten, all 12 years old, and I said, "How 
many of you, a show of hands, have had an uncomfortable, 
sexually-charged contact on the Internet from a stranger?"  Almost 
all of them raised their hands.  I said, "How many told your 
parents?"  None.  They are looking at the ground.  They are 
kicking their feet.  And I said, "Well, why not?"  They said, "We 
are afraid they are going to take the computer away."  You have 
got to tell the kid, "Look, if this is going to happen, and it can 
happen, come to me.  We will contact the law enforcement 
authorities.  We will contact the Internet service provider."  The 
Internet service providers don't want this stuff going on.  But you 
have got to team up with your kid.  You can't just bark orders and 
try and make the problem go away.
	MR. STUPAK.  I take it when your decoys were setting up their 
sites, they were easy to access, nothing real sophisticated to get 
into?
	MR. HANSEN.  Exactly.  I mean, the chat rooms that they were 
in were, for the most part just basic regional chat rooms.
	MR. STUPAK.  We have estimates, and I think I used the figures 
in my opening statement that 1 in 5 will be contacted by a predator 
and 1 in 33 is convinced to contact the predator offline through a 
phone call, letter, or actually a visit.  Is that consistent with what 
you saw?
	MR. HANSEN.  The one in five number comes from a study that 
is quoted by the National Center for Missing and Exploited 
Children.
	MR. STUPAK.  Right.
	MR. HANSEN.  We actually commissioned a study on our own 
that we had as part of the Ohio investigation that showed  the 
number might be more like one in three, depending on how you 
define a sexually-explicit or sexually-suggestive contact.  And the 
other hard thing there, obviously, is it sexually-suggestive contact 
by another teen or is it from an adult?  And that is not always easy 
to figure out.  I mean the statistics, they are estimates, and you just 
have to keep that in mind that they are estimates, as best as we can 
get them.
	MR. STUPAK.  The other statistic I used in my opening, I 
indicated, and I think you brought it home with the man that 
showed up with his 5-year-old son, that about 35 to 40-percent of 
these people are known to abuse children, either their own or a 
close relative or something like that.  A new study is going to be 
coming out here soon.  They estimate that might be as high as 75 
to 80 percent.  Would you take issue with those numbers?
	MR. HANSEN.  I have no evidence that disputes that, but I 
should be clear--
	MR. STUPAK.  In your study, did you commission--
	MR. HANSEN.  We did not specifically address how many 
people who are taking this behavior on the Internet who also may 
or may not have inappropriate contact with their child.  But in the 
case of the guy you saw in Fort Myers, Florida, just to be clear, 
based on his questioning by police, he was not going to, or he did 
not intend to involve his son in any sex act.  He just happened to be 
babysitting that day, and the thought was that he could watch a 
video in another room while the father contacted the teen, or who 
he thought was a teen.
	MR. STUPAK.  Did any of these individuals show up with their 
own video camera to record whatever was going to happen?
	MR. HANSEN.  We have not seen anyone bring a video camera, 
but we have seen disposable cameras and regular cameras.  And 
obviously there are phones that can take video, and we have seen 
some of that.  Yes.
	MR. STUPAK.  You indicated in a question to the Chairman that 
you felt that some of these people were relieved to actually get 
caught.  It seems like they are relieved to get caught, but where do 
you go with this?  What do you do with this?  How do you identify 
this?  I guess that is what I am struggling with here.
	MR. HANSEN.  I think that what happens sometimes is we all 
want to just characterize these people as one sort of person, one 
solution, whether it is the criminal justice system or some sort of 
treatment, and it is just not the way it is.  I mean, I have seen 21-
year-old guys walk in there for a 14-year-old or 15-year-old girl, 
and they are probably lonely.  I am not defending what these guys 
are doing, but--
	MR. STUPAK.  Right.
	MR. HANSEN.  --they are sad cases.  I have seen some real 
heavy-duty cases of predators coming in there who if you read the 
chat logs, and you feel like you have to take a shower.  So, I mean, 
are there guys who could go to counseling and be better if they are 
watched?  Yes.  Are there guys who just can't be fixed by any 
other way than going to prison?  There is that, too.  But what has 
become clear is, and the experts we have interviewed on this topic 
say this as well, that there are not enough treatment opportunities.  
There is not enough counseling out there if a guy thinks he has got 
a problem.  And I guarantee you, there are guys out there right now 
who are wondering about their Internet conversations and 
wondering if they are going over the line.
	MR. STUPAK.  This is more for the next panel, but just let me 
ask you this.  We and our staffs, in preparation for these hearings, 
put in the words "pre-teen," "sex," and "video," and we did a 
search.  We did Google, Yahoo!, and MSN.  And it is quite 
interesting the way each of these service providers handled it.  By 
that, I mean not only did you have the website, but then you had 
sponsored links on some of them, and then others were very good 
that had the sponsored links and you had to have a combination of 
words in order to access some of this.  I mean, I would imagine the 
folks you dealt with deal with these sites all of the time.  And let us 
get their curiosity up and get things rolling for them.  Is there 
something, any suggestions you have for the ISPs coming up next?
	MR. HANSEN.  Well, I am not here to take a policy position for 
the ISPs or on any legislation or self-regulation, but I can tell you 
this, that in our experience, it is not uncommon for one of these 
guys who shows up at our house to have a pattern that starts with 
viewing pornography online, getting into graphic chats, and having 
an obsession or a compulsion that will ultimately lead him to try to 
meet a teen in person.
	MR. STUPAK.  Thank you.  Thank you again for your work.
	MR. HANSEN.  My pleasure.  Thank you.
	MR. WHITFIELD.  Mr. Walden.
	MR. WALDEN.  Thank you, Mr. Chairman.
	Mr. Hansen, I am curious.  How long does it take you to set up 
one of these sting operations, if you will let me use that term?  
What kind of timeline is involved?  What kind of cost?
	MR. HANSEN.  We are on site for about 5 or 6 days, so it takes 
the tech people about 3 days to set up the house.  I usually get in a 
day before we actually start shooting just to see the set-up.  I mean, 
I have been told all about it from the planning process on.
	MR. WALDEN.  Sure.
	MR. HANSEN.  And we will start getting transcripts of chat logs 
in the days before, and I will start reading them and going through 
them with a highlighter, and then usually we do the actual part 
where the men arrive for 3 days.
	MR. WALDEN.  So in a week's time?
	MR. HANSEN.  In a week's time.
	MR. WALDEN.  That is from start to finish in a community?
	MR. HANSEN.  Correct.
	MR. WALDEN.  And what sort of costs are involved to do this?
	MR. HANSEN.  I am just not the budget guy on this.
	MR. WALDEN.  Somebody else's budget?
	MR. HANSEN.  That is somebody else's budget, and it is not a 
cheap thing to do, but it involves the hidden camera guys who are 
very specialized.  It involves the regular camera crew.
	MR. WALDEN.  Let us take the camera piece out of it.
	MR. HANSEN.  Sure.
	MR. WALDEN.  Take the NBC, on air, we are going to film this, 
we are going to do interviews, we are going to do all of this out of 
it.  To run one of these sting operations, absent that, would it be 
that hard for somebody to set up and run?
	MR. HANSEN.  Well, I think it takes a certain skill on the part of 
the person playing the decoy, and that takes some training, but 
obviously that is a learned skill.  And I think obviously it can be 
done, because law enforcement agencies around the country are 
doing it.  Polk County, Florida, just announced today or yesterday 
that they had nabbed 21 people, including some amusement park 
workers.	
MR. WALDEN.  In your work, what is the fewest number of people 
who have shown up to one of these houses?  And what is the most?
	MR. HANSEN.  The fewest was the very first one where 17 men 
showed up in 2� days, and the most was in Riverside County, 
California, where 51 men showed up in 3 days.  And, I mean you 
could do it where you could have a guy showing up every 10 
minutes, but from a practical standpoint and having time to talk to 
these guys and trying to get an understanding of what is going on 
in their heads you have to--
	MR. WALDEN.  You have to schedule them.
	MR. HANSEN.  --space them apart.  Yes, and no matter what, 
obviously you have people bumping into each other in the 
driveway and then you would have long stretches where nobody 
shows up.  And I don't mean to make light of it.
	MR. WALDEN.  No, and I don't either.
	MR. HANSEN.  It is a very serious topic.
	MR. WALDEN.  It is phenomenal.
	MR. HANSEN.  But clearly there are some moments like that 
that we see.
	MR. WALDEN.  And talk to me about the relationship with law 
enforcement.  At some point in your program, you decided, "We 
are attracting these evildoers, if you will.  We ought to be doing 
something more about it."  Is law enforcement pretty interested in 
participating?
	MR. HANSEN.  Perverted Justice was contacted by the 
Riverside County Sheriff's Department, and they said, "Look, if 
you are willing to work with us, we are willing to work with you.  
And if Dateline wants to do their parallel investigation that is fine, 
too."  And obviously, we don't want to be an arm of law 
enforcement.
	MR. WALDEN.  Of course not.
	MR. HANSEN.  And law enforcement doesn't want to be an arm 
of journalism.
	MR. WALDEN.  Right.
	MR. HANSEN.  So, we felt that with Perverted Justice kind of 
acting as the Chinese Wall in the middle, if you will, that we were 
able to preserve our integrity and they were able to preserve theirs, 
and we were able to operate.
	MR. WALDEN.  Have the Federal agencies shown an interest?
	MR. HANSEN.  Well, the Federal agencies do this a lot, and I 
visited FBI offices around the country and watched what they do, 
and they do it very well.  Thus far, to my knowledge, no Federal 
agency has ever partnered with Perverted Justice at this point.
	MR. WALDEN.  Have they attempted that, from your 
knowledge?
	MR. HANSEN.  I don't know that.
	MR. WALDEN.  During the course of the e-mail chats, does 
anybody observe that?  Have you ever been, sort of, caught by an 
outside entity watching a chat, saying, "Something is not right 
here"?
	MR. HANSEN.  Oh, in other words, while we are acting as a 
decoy and a potential predator is talking to us and having an 
outside Federal agency doing their investigation?  To my 
knowledge, it has not happened.
	MR. WALDEN.  Okay.  And the ISPs, no involvement there?
	MR. HANSEN.  In terms of--
	MR. WALDEN.  They are not watching this?  They are not--
	MR. HANSEN.  Well, I can't speak for the policy of whatever 
monitoring goes on with the ISPs, but we have--
	MR. WALDEN.  That you know of.
	MR. HANSEN.  --never been contacted by an ISP saying, "What 
are you guys doing?"
	MR. WALDEN.  Yes, but do you know from your discussions 
with Perverted Justice?  Have they been contacted when they are--
	MR. HANSEN.  Not to my knowledge.
	MR. WALDEN.  --being the decoy at all?
	MR. HANSEN.  I have never, honestly, asked them that 
question, but it would seem that that would be something that they 
would talk about and tell us about.
	MR. WALDEN.  Yes.  It is just interesting how quickly you can 
attract 51 people to a site in less than a week's time.  And this stuff 
is going on all of the time out there and you wonder who is kind of 
watching that, not that you want a lot of Big Brother on the 
Internet, but on this stuff--
	MR. HANSEN.  It also speaks to how vast the Internet is.
	MR. WALDEN.  Exactly.
	MR. HANSEN.  And I think one of the reasons we have 
continued in these investigations to see guys come in the door, 
aside from the compulsion or the obsession, is that the reality is 
what are the odds that it is Dateline.  What are the odds that is a 
law enforcement agency?
	MR. WALDEN.  Well, you talk about how vast the Internet is, 
and yet when you go phishing, there are a lot of phish out there.  
They are on to your chat room immediately, it sounds like.
	MR. HANSEN.  Yes.
	MR. WALDEN.  What is the quickest response you have gotten?
	MR. HANSEN.  Oh, in minutes depending on the chat room and 
sometimes, as I said in my testimony, these guys will spend a long 
time, days, and you have got to remember that in some cases, 
Perverted Justice volunteers are actually out in the chat rooms 
before we are actually set up in the house.
	MR. WALDEN.  Right.
	MR. HANSEN.  So if they know where we are going to be 
operating, they may go out a week or two ahead of time and just 
start--
	MR. WALDEN.  Chatting.
	MR. HANSEN.  --putting them out there, chatting, and see what 
is going on.  And so there might be a case where somebody shows 
up who has actually been in a conversation for a couple of weeks 
with somebody.
	MR. WALDEN.  But when you are talking about the vastness of 
the Internet, you are talking international.  Here, you are talking 
about somebody who is going to drive or walk or take some mass 
transit to a site, so it is a very small circle, I would assume.  What 
is the farthest away people have come?
	MR. HANSEN.  We have had people get on a bus and travel 4 
hours to get from one side of Florida to the other.
	MR. WALDEN.  Wow.
	MR. HANSEN.  We had it happen in California, and we were in 
Riverside, and we had people come up from San Diego and up 
from LA and Hollywood.  They are willing to travel.
	MR. WALDEN.  So it is not necessarily somebody in the 
neighborhood?
	MR. HANSEN.  Yes.  I mean, in fact, probably the opposite is 
true.  In Ohio, for instance, at least in the small town where we 
were, word got out that something was going on, and we had  
probably at least a dozen local guys online who backed out.  But 
we still had people traveling up from Cincinnati or from Dayton or 
from 2 or 3 hours away.
	MR. WALDEN.  So in other words, within their own network, 
they figured out something was going on?
	MR. HANSEN.  Something was up.  Yes, they saw a lot of 
activity around the house.  I mean, if Darke County's population is 
13,000, it is--
	MR. WALDEN.  Somebody would drive by and see.
	MR. HANSEN.  Right.  Greenville is probably a quarter to half 
of that, so somebody had figured it out.
	MR. WALDEN.  In your work as a journalist, have you ever 
been involved in anything more disgusting or shocking?
	MR. HANSEN.  And I am telling you,  we just really didn't 
know what was going to happen the first time we were going to do 
it.
	MR. WALDEN.  Yes.
	MR. HANSEN.  But once they started coming in and it wasn't 
stopping, it really was an eye-opening experience as to how many 
people are out there willing to travel and take part in this activity.
	MR. WALDEN.  At a pretty high risk if caught.
	MR. HANSEN.  Depending on the State and depending on what 
they have done.  We have seen the seven men who surfaced in 
these investigations who have pleaded guilty, one man in 
Riverside, California, had received 2� years, and then we had 
another case in Ohio where a guy got 67 days time served and 
probation.
	MR. WALDEN.  That is it?
	MR. HANSEN.  I think that was the sentence.  Now, there are 
other mitigating circumstances, and if you look at the chat, it may 
not have been as graphic as some of the others.
	MR. WALDEN.  All right.
	MR. HANSEN.  There is a whole lot that goes into it, so you 
can't necessarily compare them head on.  But, depending on where 
you are and what the guy has actually done there is a wide range in 
the sentences.  I mean, the previously-convicted sex offenders in 
California will obviously be looking at--
	MR. WALDEN.  Different issue.
	MR. HANSEN.  Yes.
	MR. WALDEN.  Any women involved?
	MR. HANSEN.  No.  I mean, one time in the Virginia 
investigation we had somebody who identified themselves as a 
woman engaged in a chat but never showed up.  And we just had 
not seen it in our investigations.
	MR. WALDEN.  And how many of the men then that have 
identified and participated, how many identified themselves as the 
age they are?  Or do they try to mask it and say, "I am a 14-year-
older, too," or, "I am 16."?
	MR. HANSEN.  We don't see so much people saying that they 
are 14 or 16.  We see 60-year-old guys saying they are 40.  We see 
40-year-old guys saying they are 30 and 25-year-old guys saying 
they are 20 or 19, closer to the age of the potential target.
	MR. WALDEN.  All right.  I sure appreciate the work you have 
done.
	MR. HANSEN.  Thank you.
	MR. WALDEN.  Thanks for being here today.
	Thank you, Mr. Chairman.
	MR. WHITFIELD.  Ms. DeGette.
	MS. DEGETTE.  Thank you very much, Mr. Chairman.
	Mr. Hansen, thank you for your testimony and also for your 
investigation.
	As I mentioned in my opening statement, the NBC affiliate in 
Denver also did a similar investigation to what Dateline has been 
doing.  Paula Woodward, who is a long-time investigative reporter 
there, did this.  And it was the same result.  They did it in 
conjunction with one of the local law enforcement authorities.  I 
don't know if it was Perverted Justice that was the middle man, but 
they had, like, 40 or 50 guys show up at a house, and they were all 
arrested, too.  And it was as you said.  They were teachers and I 
don't know what all.  But it is appalling.  This is going on all 
around the country.  So I bet you feel like maybe you should hang 
up your day job and just become an investigator someday.
	MR. HANSEN.  Well, you have seen it.  There are stations in 
Milwaukee who have done it.  You have seen it in Arizona, and I 
don't think that there is any geographic region that is immune from 
this.
	MS. DEGETTE.  Right.  And it is just happening everywhere.
	You deal a lot with law enforcement agencies in your 
investigations, and you talk to the State, local, and Federal 
investigators.  Do they tell you about what kind of resources they 
have to try to find these child Internet predators?
	MR. HANSEN.  It is different in each jurisdiction.  I mean, 
obviously the FBI has made this a priority issue.  But like any 
other law enforcement agency, there is a lot going on at any given 
time.  Darke County, Ohio, when we did that investigation, it was a 
big expenditure for them to do this over 3 days.  But they felt it 
was important, and they did it.
	MS. DEGETTE.  Did they tell you they could use more 
resources?
	MR. HANSEN.  Well, I think, yes.  Any law enforcement agency 
you talk to will tell you they could use more resources.  But again, 
it is a matter of how often do you need to do it to get to the root of 
the problem?  And I think that is different in every jurisdiction.
	MS. DEGETTE.  Well, as you said, though, apparently people 
weren't worried at all.  One guy showed up 2 days in a row.
	MR. HANSEN.  Right.
	MS. DEGETTE.  So just doing one sting every so often, that is 
not necessary deterring these criminals.  As you said, it has to be a 
whole program.
	MR. HANSEN.  Well, as we have seen, and as most recently as 
this spring when we were shooting in Florida guys were coming in.  
And before I could say "I am Chris Hansen, Dateline NBC," they 
were saying, "I know.  I know.  I know."
	MS. DEGETTE.  And yet they showed up anyway?  It is almost 
like Candid Camera only with criminals that get arrested and go to 
jail.  It is unbelievable.
	MR. HANSEN.  It is.  I tell you, between reading every word of 
the transcripts and the interviews the 3 days, you are pretty much 
emotionally and, physically exhausted by the end of it.  It feels like 
you had run a marathon.
	MS. DEGETTE.  Yes, I am sure.  Do you know, are there any 
estimates as to how often online sexual predators are actually able 
to make contact with underage children and how often they 
actually then meet up with them in person?
	MR. HANSEN.  I think that would be a tough number to quantify 
just because there is so much going on out there that we don't 
know.  I mean, again,  we can go back to the figures that the 
National Center for Missing and Exploited Children uses or the 
figures that have come from our studies, but so many contacts 
potentially happen that you don't know about.  It is a hard number 
to get.  It is a hard estimate.
	MS. DEGETTE.  And it is a lot easier to go on to these chat 
rooms and talk to kids.  I always say in the olden days, the sexual 
predators used to sort of have to lurk around the edges of parks or 
shopping malls.  Now they can just go online, and it is a lot easier.
	MR. HANSEN.  Well, I also think that there are people perhaps 
who are taking part in this behavior, at least based on our 
experience, who would not necessarily have been hanging out at 
the movie theater or the park looking for a kid but have slipped 
into this behavior because of the obsession and compulsion that 
they have developed. 
	MS. DEGETTE.  And you know, I was thinking about that when 
you were testifying, and I am wondering if you have an opinion as 
to what has suddenly caused so many more men to ease into that 
compulsion?  Is it something in our society?  Is it something about 
the anonymity of the Internet?
	MR. HANSEN.  Well, I think it is a little bit of both.  I mean, the 
therapists we have interviewed who treat these men say it is a 
combination of the access, which is 24/7, the anonymity, which 
makes them bold, and the fact that, there are people out there to 
talk to who are willing to engage in this conversation.  It is no 
different than an addiction to gambling or anything else.  It's just, 
for some people, a development.
	MS. DEGETTE.  And do you think those components kind of 
lead these men to think, "Well, it is all right if I do this?"  I mean, 
of the men you have talked to, do they know, at some level, that it 
is wrong and, in fact, criminal?
	MR. HANSEN.  I think a lot of them do, and a lot of them have 
said to me when I have interviewed them that, "I was worried," 
including the teacher you saw in Ohio.  "I was worried that I kept 
getting older but the people I was talking to were staying in the 12-
, 13-, 14-year-old range."  And he had talked about getting help, 
had thought about it, but didn't want to admit to himself there was 
a problem.  And subsequent to that story, we found out that he had 
been chatting with an undercover officer in Carmel, Indiana, 
posing as a child and had exposed himself on the website and now 
faces a number of other charges there.  So, our decoy wasn't the 
only one he allegedly was chatting with.
	MS. DEGETTE.  Right.  Right.  And I mean, that led me to 
something when you were talking to other members of the 
committee.  It is true of these seven who have pled guilty, they got 
various sentences.  They also lost their jobs, correct?
	MR. HANSEN.  That is correct, to my knowledge, in most of 
those cases.
	MS. DEGETTE.  I mean, these are people who, many of them, 
like you say, are teachers, rabbis.  They are professionals.  Just by 
being on your show, even if they are not criminally prosecuted, 
they are going to likely lose their jobs.
	MR. HANSEN.  It can have a negative consequence, yes.
	MS. DEGETTE.  Yes.  And it seems to me that is one way--I 
mean, that is not a law Congress could pass, but that is one way 
society can really let people know this is not in any possible 
acceptable range of normal behavior.  I mean, I think if 
professionals know that they are going to lose their jobs as well as 
be criminally prosecuted, they may think twice before they go 
down this road.  What do you think?
	MR. HANSEN.  Well, I think it obviously ends up being, a lot of 
exposure.  And, it is not just the charge that they are ultimately 
facing.  It is the detail of what was in the chat log.  And in some of 
these cases, when you go through and read it there is little doubt as 
to what the plan was.
	MS. DEGETTE.  What their intent is.  One thing, aside from 
legislation, that we can do, States can beef up.  We found out, in 
our first hearings, for example, that in my State, Colorado, one of 
the first examples that came out was some perpetrators in Florida 
who were raping a 4-year-old online.  And it was in Colorado, my 
State.  And they tried to find the perpetrator through subpoenaing 
records through Internet service providers, and we found that the 
records had been destroyed, as they are routinely, so they never did 
find that perpetrator.  And so that is one area that we think we can 
make legislation.  And we are going to ask the second panel about 
that today.
	The other thing we found out there is that, like in Colorado, it 
was a misdemeanor to be in possession of material like that.  So I 
think my State legislators quickly fixed that in the end of the 
session.  So there are different things that Congress can do.  We 
can give more money to law enforcement agencies to prosecute 
and investigate these cases.
	But one thing that I think you are saying, and I agree with you, 
it needs to be way beyond just passing laws.  It needs to be sort of 
a societal, public service campaign involving the media and others.
	MR. HANSEN.  Well, I think you have seen, and you are 
probably familiar with the group, for instance, and there are many 
groups like this, I-SAFE, for instance, who we have interviewed 
for our stories.  And they go to schools, and they have a campaign.  
And they have a website, and parents can go there.  And it is a 
tutorial.
	MS. DEGETTE.  Yes, they came and testified.  Yes.
	MR. HANSEN.  Yes.  But they will tell you, this is step-by-step 
how you talk to your child about this.
	MS. DEGETTE.  Right.
	MR. HANSEN.  Your best defense, and I keep going back to 
this, and it is not a cop-out, I really believe it, is to start at home.  
And it starts with the parent and the child.
	MS. DEGETTE.  There is a group out of England who I met 
with, and they are actually part of an international group.  They 
have got a public service announcement that they are showing in 
England that could be used everywhere.  And Mr. Chairman, I 
think we should get them in and show this PSA.  Maybe you have 
seen it, Mr. Hansen.  It is targeted at these young kids and about 
how you get in a chat room and somebody starts taking you down 
this path, how you can get out of it.
	MR. HANSEN.  Right.
	MS. DEGETTE.  It is really an intense PSA.  Oh, it is going to 
be shown tomorrow.
	MR. WHITFIELD.  Tomorrow, right.
	MS. DEGETTE.  And the response around here is always really 
snappy, and I appreciate it.
	But it is an incredible public service announcement.  I think 
your network and other networks should really look at doing this.
	Thank you, Mr. Chairman.
	MR. WHITFIELD.  Thank you.
	Mr. Stearns.
	MR. STEARNS.  Thank you, Mr. Chairman.
	Mr. Hansen, when your group set up these chat rooms, are 
there chat rooms that almost everybody in this country knows 
about?  I mean, I have three children, and they were on the 
Internet, and I cautioned them about any chat room they were in.  
But I mean, are there, like, two or three chat rooms that everyone 
goes to?  I mean, how did you find which chat room to go to or 
even which one to concentrate on?
	MR. HANSEN.  The vast majority of cases, it is just regular, old 
regional chat rooms, accessible through AOL or Yahoo!.
	MR. STEARNS.  So you went to AOL and then worked--
	MR. HANSEN.  And there were other ones, too.  I mean, 
Perverted Justice sort of has a sense where there will be a lot of 
people where a lot of people from different walks of life will see 
this profile, which contains a picture of a boy or girl that is 
unmistakably underage, and they just sit there and wait.  And you 
know, you will see a "Hey, what is up?"  And "What is going on?"  
And "How old are you?  You are way too young."  And you know, 
it goes on from there.
	MR. STEARNS.  So it is easy for a 12- or 13-year-old person to 
find a chat room?  Easy?
	MR. HANSEN.  Yes, I mean, some of these chat rooms, and the 
rules, change pretty quickly because of the ISPs are trying to, 
obviously, do their best to prevent this sort of activity from 
happening.  But it is my understanding that if you want to get in a 
chat room, and even if there is a restriction on age, kids are crafty 
and they can get in there, if they want to.
	MR. STEARNS.  So if somehow we could set up, either through 
a software program or just like we rate motion pictures and we 
have ratings for videos, CDs, and we have some type of ratings 
now for video games, should chat rooms be set up with some kind 
of control from the Federal Trade Commission?  Or in your 
opinion, should software be developed to set up categories where 
you--
	MR. HANSEN.  Well, I can tell you this.  From a parent's point 
of view, software already exists that you can get for not a lot of 
money that you can set up at home that will actually sense if your 
child is giving out inappropriate or personal information.  It will 
then e-mail you on your Blackberry, and you can pick it up and 
say, you know, "This is not good.  I am going to call home."  And 
say, "What the heck are you doing?"
	MR. STEARNS.  What is going on?  That is excellent.
	MR. HANSEN.  Yes, it is.  I mean, a lot of this stuff is out there.  
Parents just have to know about it.  And of course, you have to 
realize that it is an issue and that it could happen in your home and 
it could happen to your kid even though they are a good kid.  But, 
you need to have the discussion.
	MR. STEARNS.  So we should encourage manufacturers of 
computers to provide that software maybe?
	MR. HANSEN.  It is there.
	MR. STEARNS.  It could be just like you get your Microsoft 
Windows as part of the computer package.  You may be able to get 
this, too.  Sort of like a V-chip in the TV, you would have this 
software program be part of the package that you would buy, and 
the parents, or even anybody that bought the computer, could make 
the software available and could type in an e-mail so then that 
would be automatic, and then when the child goes on, he or she 
wouldn't know that they are being monitored by their parents.
	MR. HANSEN.  Yes.  That technology exists as we speak.
	MR. STEARNS.  Okay.  Okay.  Well, I think all of us should 
realize and commend NBC for its trailblazing journalism here.  I 
think what you are doing is highly commendable.  I think you 
could take this same type of sting operation into many other areas, 
too.  And I am sure it has crossed your mind.
	MR. HANSEN.  It has.
	MR. STEARNS.  The possibilities are endless.  Out of the 
number that you saw in California and Florida, I thought it totaled 
about 190 people that came in.  Just refresh my memory.  How 
many?
	MR. HANSEN.  Fifty-one in California and twenty-four came in 
Fort Myers, Florida.
	MR. STEARNS.  Okay.  So then that is 75.
	MR. HANSEN.  Correct.
	MR. STEARNS.  And you touched briefly on the profile of those 
75.  Some had past criminal activities.  Verdicts of guilty and 
others were not.  Was there any remarkable characteristic that you 
saw in terms of education of these people where they all seemed to 
be across?  They either were rabbis, who obviously have a college 
education and beyond.  They probably have a doctorate and a 
fireman who maybe had just a high school education.  I mean, was 
there anything in the education area that came out at you?
	MR. HANSEN.  Not really.  I mean, what most of these guys 
have in common is that they don't stick out of a crowd.
	MR. STEARNS.  Yes, they just--
	MR. HANSEN.  I mean, if you rode on a bus with them or a train 
they are regular guys, for the most part.
	MR. STEARNS.  Yes.  Having raised three children and lots of 
them do go in chat rooms just to chat with their buddies or chat 
with other people, and I understand you have two children, too, 
what have you told your children or your wife or--
	MR. HANSEN.  Well, unfortunately for my kids, dad is a little 
more involved in it than some of the others, so I know most of the 
scams before they are even brought up at home.  But in all 
seriousness, they watch the shows with me and--
	MR. STEARNS.  So they have watched--
	MR. HANSEN.  --we had the serious discussion and the 
continuing discussion with them.  They happen not to be, at this 
particular moment, all that into IM-ing or chat rooms.
	MR. STEARNS.  Yes.
	MR. HANSEN.  They are more into the computer games.  So it 
just hasn't been that big of an issue for us.  But again, I just try to 
practice what I preach and say, "Look, you guys.  This stuff is out 
there, and you have to be aware of it.  And there are going to be 
people who try to trick you."  And I think kids don't like to be 
tricked.  And if you frame it that way you should get some 
response.
	MR. STEARNS.  Yes.  Well, I think that is good, and I think it is 
also great that you brought to bear the understanding on this 
committee that there is software out there that monitors your 
children and what they are doing and can e-mail automatically to 
the parents.  So in a way, the market can take care of this is what 
you are saying?
	MR. HANSEN.  Well, I certainly think that there are constructive 
software programs that we have seen and that we have showed in 
some of our stories that, as far as we know, work quite well.
	MR. STEARNS.  Yes.  All right.
	Thank you, Mr. Chairman.
	MR. WHITFIELD.  Thank you.
	Mr. Inslee.
	MR. INSLEE.  Thank you.
	One of the more chilling aspects of this story and other 
discussions that we have had in the previous hearings is about the 
grooming that goes on by these predators that try to appear sort of 
innocent as they begin this relationship with their targets.  Is there 
anything that you can advise parents about how to advise kids 
about that, either to spot it, what the warning signs are?
	MR. HANSEN.  Well, I think if you see, for instance, a package 
arrive for your child and in it is a webcam and they are dodging as 
to where it has come from, if phone calls start to arrive from 
strangers, if suddenly they have got a cell phone and they are not 
quite clear as to how they were able to get that cell phone, I mean 
those, the experts tell us, are all signals that somebody is trying to 
develop a way to communicate with your kid.  And you saw with 
the Justin Berry case and Kurt Eichenwald's story in the New York 
Times how, you know, that webcam, for him was a gateway into 
this activity.  So I am not saying there is anything inherently even 
with webcams, clearly, but if this stuff starts showing up at your 
house and you don't know who is sending it, that is a signal.  And 
we have seen it in our reporting that those are the kinds of things 
that a potential predator will offer.
	MR. INSLEE.  I wanted to ask you about what sort of 
observations you have for law enforcement.  You have become an 
expert in sting operations, in a sense.  Do you have any sense of 
what is possible for law enforcement?  I mean, should we have, 
you know, 20 sting operations like yours up and running in this 
country at all times to have a more effective deterrent?  Is that 
possible from a cost standpoint?  Is it effective?  Is it an effective 
deterrence?  It is surprising to me that you have these shows on 
and these people still keep showing up, not only as viewers but 
participants.  Do you have any thoughts about, for law 
enforcement, what they can do or should do?
	MR. HANSEN.  Well, I think law enforcement across the 
country is doing it, sting operations like this virtually on a daily 
basis.  As I mentioned before, the FBI, on average, arrests, they 
call them "travelers," a traveler every day.  We just saw the results 
of the investigation that the Polk County Sheriff's Office did.  So 
there is a lot of this going on.  And if you were to Google the 
subject, you would see in towns across America where it is 
happening.  I don't know the extent to which it is a deterrent.  
Obviously, for some people, it will be.  For others, as we have seen 
in our stories, you know, the compulsion or the obsession is 
stronger.  We had a guy in California, for instance, who drove by 
the house and saw a previous arrest, called the Perverted Justice 
decoy and said, "Hey, there are cops in front of the house.  What is 
going on?"  She said, "No, it is just a drug bust going on next door.  
It is all done.  Come on over."  He comes in.  It turns out Perverted 
Justice had caught him once before, and he had seen a previous 
story on Dateline.  But this guy walked in the house anyway.  Now 
whether that speaks to his lack of intelligence or the addiction or 
compulsion, it was probably a little bit of both, but, these guys, 
once they get it in their mind they want to do it, they want to show 
up.
	MR. INSLEE.  Right.  Did you have any sense about sites that 
were particularly effective?  Social sites that were either effective 
or ineffective in providing tools to protect kids?  Did you have any 
sense of different approaches taken by sites that may work and 
may not work?
	MR. HANSEN.  Again, I think the best approach is the approach 
at home from a parent to a child.  And if you are going to go on a 
social networking site, be smart about it.  Don't let just anybody in. 
what we have seen in some of these cases is that, for instance, the 
decoy will have a profile set up in the chat room, but then after the 
discussion goes on, the potential predator will say, "Well, do you 
have a spot on one of these social networking sites?"  And the 
decoy will say, "Yes, and I will let you on," or, "I will accept you."  
And then it goes from there.
	MR. INSLEE.  Got you.  Thank you very much for your work.
	MR. HANSEN.  Thank you.
	MR. WHITFIELD.  Thank you.
	Mr. Bass.
	MR. BASS.  Thank you, Mr. Chairman.
	And I just have one question of you, Mr. Hansen.
	In the course of your investigation, did you uncover a lot of 
individuals who communicated who were under the age of 18?
	MR. HANSEN.  Most of the men who surfaced in our 
investigations from what I can recall, I don't think there was 
anybody under the age of 18.
	MR. BASS.  So it is your conclusion or your observation, rather, 
that this communication is not occurring, then, between people 
under the age of 18 who are looking for other people under the age 
of 18 to have a relationship with?
	MR. HANSEN.  I understand.  I don't think I could draw that 
conclusion, because our story focused on adults who were seeking 
to meet children.
	MR. BASS.  Sure.
	MR. HANSEN.  We really didn't--
	MR. BASS.  Perverted Justice, they were your screen, is that 
right?
	MR. HANSEN.  Our decoys, correct.
	MR. BASS.  Your decoys.  Are they testifying, Mr. Chairman, 
or not?
	MR. WHITFIELD.  No, they are not.
	MR. BASS.  Okay.  I am just curious to know when they did the 
screen, what percent of the screen turned out to be people who 
were under the age of 18 versus over the age of 18.  and there is no 
follow-up to that, because if this is a problem that is associated 
mostly, if not totally, with people who are over the age of 18 and 
that there really isn't much interest in this kind of communication 
for pre-18 to pre-18, it is an interesting observation.  Are you 
suggesting that this might be the case or not?
	MR. HANSEN.  Well, I just don't think we know that.  I mean, 
obviously there have been highly-publicized stories where kids 
have hooked up online, whether it is 18 and 16 or 19 and 16, as we 
saw the allegations most recently in Texas, but in our 
investigations the way they are set up, the decoy posing as a child 
is in a profile in a chat room and waits to be contacted.  So I can 
only tell you that in our cases we haven't seen, to my knowledge, a 
lot of contacts from 15-, 14-, and 13-year-olds.  The contacts are 
coming from adults, in our investigations.
	MR. BASS.  All right.
	Thank you, Mr. Chairman.
	MR. WHITFIELD.  Thank you, Mr. Bass.
	And Ms. Baldwin.
	MS. BALDWIN.  Thank you.  I will be brief.
	Thank you very much for your testimony.  And watching the 
images earlier, it shows such a great example of how investigative 
journalism is serving such an important educational role and 
prompting, I hope, communication between parents and their 
children.
	What frightens me, of course, watching those images, is the 
fact that everyone says this is just the tip of the iceberg.  And it is 
terrifying to think about how many children are being exploited 
and there is not a camera crew when the person walks into the 
house.
	We have had a few questions about the limitations on law 
enforcement and the resources that are being dedicated to this.  I 
am wondering whether, in the context of your show or perhaps 
through public service announcements, as we have talked about, if 
there is advice offered for parents or kids of what to do when there 
is an inappropriate Internet contact, who to call, who to alert, who 
to ask for an investigation.  It seems to me that that is sort of the 
missing ingredient in this conversation of okay, you are promoting 
the dialogue between children and parents to prevent this, but what 
if you haven't prevented it?  What does a parent do next?
	MR. HANSEN.  Well, I think in this time, when this subject is 
getting so much publicity, that I would just be shocked if a police 
department wasn't interested in investigating a case like this.  I 
mean, every day another police department sets up, you know, a 
division dealing with this sort of thing, from Los Angeles to New 
York and everywhere in between.  So you report it to the police, 
you report it to the Internet service provider.  And I would say, in 
most cases, something will happen.
	MS. BALDWIN.  Thank you.
	Mr. Chairman, I yield back.
	MR. WHITFIELD.  Thank you.
	Mrs. Blackburn.
	MRS. BLACKBURN.  Thank you, Mr. Chairman.
	And I have got just a couple of questions.  I am going to 
continue on Ms. Baldwin's line of talk, because we know that 
many of the service providers are beginning to partner with PTAs 
and are looking at a multimedia, if you will, way of 
communicating with parents so that there are things going home 
with children in their backpacks and their money packs that they 
take home, that they are looking at partnerships, printing material, 
TV ads, as well as online information.
	And all of that is good, but I want to look at what we should 
also consider doing as a legislative body.  And I have been so 
intrigued with your partnership with Perverted Justice and the 
work that they have done.  And what I would like to hear from 
you, and you can submit this in writing or your staff, but I would 
like to know what suggestions those guys that have actually 
worked the keyboard and assisted you with this investigation, 
Perverted Justice members and also your staff, as they have 
worked through this process.  I am certain from time to time they 
have had a little nugget where they said, "They probably could do 
this," or, "I bet you they could write this into the program that 
would boot something out."  And I would love to know if you were 
willing to share those nuggets with us what their thoughts have 
been, what their suggestions would be for us, and what they would 
have wanted us to know as we have worked on this hearing.
	MR. HANSEN.  Well, I can tell you this, that the people we have 
met from Perverted Justice are very savvy computer people, and I 
am sure that if you requested it, or if we requested it, I don't want 
to speak for them, but I am confident that they would be more than 
willing to assist you and give you any thoughts they have on it.
	MRS. BLACKBURN.  And your staff, also.
	MR. HANSEN.  Absolutely.
	MRS. BLACKBURN.  I know that it takes a dedicated and 
hardworking staff to be able to work through a 2-year project, a 2-
year investigation, and that there has to be an incredible amount of 
knowledge gleaned that would serve us well.
	MR. HANSEN.  Absolutely.
	MRS. BLACKBURN.  Thank you.
	I yield back, Mr. Chairman.
	MR. WHITFIELD.  Thank you, Mrs. Blackburn.
	And Mr. Hansen, we want to thank you once again for being 
with us this morning and afternoon and for bringing us a new 
perspective on this whole issue.  And we look forward to continue 
working with you and following your investigative reports.
	So with that, you are dismissed.  And best wishes.
	MR. HANSEN.  Thank you, Mr. Chairman.  I appreciate it.
	Thank you all.
	MR. WHITFIELD.  At this time, I would like to call the second 
panel.
	We have on the second panel Mr. John Ryan, who is the Chief 
Counsel, Compliance and Investigation, America Online.  We have 
Mr. David Baker, Vice President, Law and Public Policy for 
EarthLink, Inc.  We have Ms. Elizabeth Banker, who is the 
Associate General Counsel for Yahoo!, Inc.  We have Mr. Tom 
Dailey, who is the General Counsel for Verizon Communications.  
We have Mr. Philip Reitinger, who is the Senior Security Strategist 
for Microsoft.  We have Mr. Gerard Lewis, Jr., Vice President, 
Deputy General Counsel, and Chief Privacy Officer for Comcast 
Cable.  And we have Ms. Nicole Wong, who is the Associate 
General Counsel and Chief Privacy Officer for Google, 
Incorporated.
	I want to welcome all of you.  We thank you very much for 
your willingness to testify on what we consider to be a particularly 
important subject matter.  And as you saw with the first panel, Mr. 
Hansen, we do take testimony under oath, and I would ask you, do 
any of you object to testifying under oath?  And under the Rules of 
the House and the rules of the Committee, you are certainly 
entitled to legal counsel, but I am assuming you all do not need 
legal counsel.  So if you would not mind standing and raising your 
right hand.
	[Witnesses sworn.]
	MR. WHITFIELD.  Thank you very much.  You are now under 
oath.
	And Mr. Ryan, we will recognize you for a 5 minute opening 
statement.  Thank you.

STATEMENTS OF JOHN RYAN, ESQ., CHIEF COUNSEL, 
COMPLIANCE AND INVESTIGATION, AMERICA 
ONLINE, INC.; DAVID BAKER, VICE PRESIDENT, LAW 
AND PUBLIC POLICY, EARTHLINK, INC.; ELIZABETH 
BANKER, ASSOCIATE GENERAL COUNSEL, YAHOO! 
INC.; TOM DAILEY, GENERAL COUNSEL, VERIZON 
COMMUNICATIONS; GERARD J. LEWIS, JR., VICE 
PRESIDENT, DEPUTY GENERAL COUNSEL & CHIEF 
PRIVACY OFFICER, COMCAST CABLE 
COMMUNICATIONS; PHILIP R. REITINGER, SENIOR 
SECURITY STRATEGIST, MICROSOFT CORPORATION; 
AND NICOLE WONG, ASSOCIATE GENERAL COUNSEL 
& CHIEF PRIVACY OFFICER, GOOGLE, INC.

        MR. RYAN.  Thank you, Mr. Chairman and members of the 
committee.
	My name is John Ryan, and I serve as Chief Counsel for 
America Online.  In that capacity, I oversee our efforts to assist 
law enforcement and to keep criminal activity off our networks.  
Additionally, I am privileged to serve as a member of the Board of 
Directors at the National Center for Missing and Exploited 
Children and serve as chairman of their Law Enforcement 
Committee.
	Prior to joining AOL, I was a prosecutor in New York where I 
investigated and prosecuted numerous high-tech crimes, including 
crimes against children.  I am a founding members of the 
Electronic Crimes Task Force in New York, which has been used 
as the model for the cooperation between law enforcement and 
industry in the prosecution of electronic crimes.
	AOL applauds the efforts of this committee in addressing the 
twin scourges of child pornography and child predation on the 
Internet.  AOL has been fighting the spread of these plagues, both 
on our network and on the Internet for over a decade.  The single 
guiding principle for America Online has been, and continues to 
be, the protection of children online.
	AOL has pioneered the use of innovative technologies to 
protect our children.  It has implemented industry-leading practices 
and policies that have been both adopted by others in the industry 
and included into State and Federal legislation.
	AOL has staked its brand and reputation on providing a safe 
haven for children on our service.  For AOL, these efforts make 
good business sense, but more important, are the right thing to do.
	As this committee is well aware, these crimes represent a 
particular challenge, because they are facilitated by computers and 
the Internet.  The challenges created by technology should be 
addressed by technology as well.  Three years ago, AOL 
implemented extremely effective technologies to identify and 
remove abhorrent images of child pornography and to eliminate 
their transmission on our network.  AOL developed a process that 
creates unique digital signatures from apparent pornographic 
images of children and uses those signatures to eliminate further 
dissemination of those images.  AOL has assembled a library of 
these images and their signatures, and if AOL discovers that 
someone is trying to send a file over our network with a signature 
from that library, we prohibit the transmission of that file and refer 
that image to the National Center for Missing and Exploited 
Children to be investigated and prosecuted.  Once the signature of 
the image is identified and referred to NCMEC, AOL deletes all 
record of the image and only retains the signature for future 
identification of bad images.
	At AOL, we believe that proven technologies such as these 
make it harder for criminals to use the Internet to commit these 
crimes against children.  AOL is committed to developing and 
deploying more promising technology to take back the Internet 
from those who would exploit or harm our children.
	Although AOL has taken a leadership role in the development 
of best practices and solutions, we recognize that as technology 
evolves and criminals become more sophisticated, much more 
needs to be done.  It is also clear that many members of this 
committee are very concerned about protecting children and want 
more to be done.
	In response, AOL has developed a proposal to address these 
concerns in the most effective manner.  Specifically, AOL 
commits to: one, voluntarily preserve all relevant records relating 
to a report by an ISP to the National Center; two, support a 
legislative branch of authority to NCMEC to send preservation 
letters to ISPs upon review and determination that the referred 
images are child pornography; three, build and expand upon 
AOL's digital signature technologies and to share it with other 
industry colleagues to expand its reach; four, investigate new and 
innovative technologies to make the Internet a dangerous place for 
predators but not legitimate users; and five, most importantly, 
work with law enforcement to identify tools that will assist them in 
their critical work.
	As a demonstration of our commitment, AOL has joined with a 
team of companies, including EarthLink, Microsoft, and Yahoo!, 
who are with me here today, to develop effective technologies to 
investigate and prevent child pornography online and also to 
provide financial and personnel resources to the National Center to 
further these efforts.  These measures will ensure that law 
enforcement has all of the necessary data resources and tools so 
that they can pursue a successful investigation.
	The primary objective at AOL is to ensure that children never 
become victims of online predators or become exposed to 
inappropriate content.  Over the past decade, AOL has developed 
state-of-the-art parental controls that give parents the ability to 
block their children from receiving harmful content.  AOL parental 
controls are broken down into three age categories: kids only, for 
ages 12 and under; young teen, for 13- to 15-year-olds; and mature 
teen, 16- and 17-year-olds.  The controls provided include the 
ability to block e-mails, instant messages, or chat with unknown 
persons or specific individuals.  Parental controls provide chat 
rooms if parents enable such access that are fully monitored by 
internal AOL enforcement teams.  In light of the video that Mr. 
Hansen just provided, I think, and the questions were raised of this 
panel, of the concerns, AOL has addressed those concerns by 
providing a kids-online gated community where access to those 
chat rooms are controlled by the parent and are fully monitored by 
AOL staff.  Anyone under the age of 16, when parental controls 
are activated, are not able to get outside of that gated community 
and access the Internet at large.
	AOL parental controls, in combination with its Web Guardian 
Program, also have other practical features to empower parents to 
manage their child's use of the service, including: online timers to 
limit the amount of time a child stays on AOL; a report to parents, 
over one million weekly, a report card, so to speak, on the child's 
activity online, such as every website their child visits, which sites 
they tried to visit but were blocked from accessing, and how many 
e-mails and instant messages they sent; state-of-the-art, real-time 
web filters that allow older teens to access a broader range of 
content while still blocking offensive material and controls to 
prevent bypassing of these protections.  Only the master account 
screen name, which is controlled by the parent or guardian, is 
empowered to implement these controls and a sub account, which 
could be accessible by a minor, is disabled from amending or 
deleting those controls.  We recognize that children are very 
Internet-savvy.  Finally, our programs offer positive alternatives 
with a complete range of age-appropriate programming for these 
accounts, appropriate while blocking offensive sites.
	Even with these extensive efforts, AOL knows that there are 
individuals who will send inappropriate content over our network 
or attempt to use AOL to lure children offline.  To combat these 
attempts, AOL has long included a visible and convenient "Notify 
AOL," a report button, which is in every service that we offer to 
our members.  And this is directed to a trained staff dedicated 24/7 
to receive and review these reports and take appropriate action, 
including the referral of potential criminal activity to law 
enforcement.
	In addition, beginning in the 1990s, AOL established contacts 
with State and Federal law enforcement agencies throughout the 
United States to whom AOL could refer the child pornography 
images and other identifying information for follow-up 
investigations.  In 1999, this practice was codified into Federal 
law, and this was subsequently amended to designate the National 
Center as the sole recipient for referrals of child pornography.
	MR. WHITFIELD.  Summarize, please.
	MR. RYAN.  Let me summarize.
	We are aware, despite these proposals and ongoing 
commitment that this committee must come up with new 
strategies, which one of them has been referred to as data retention.  
Our discussion is concerned about some of the potential drawbacks 
of data retention, namely the security of the databases that will be 
created.  And more importantly, we believe at AOL the diversion 
of critical resources to maintaining and managing that repository of 
data from the real-time active investigations, which we currently 
support.  So we welcome the ongoing dialogue, and we will work 
with this committee and others to come up with real solutions.
	Thank you.
	[The prepared statement of John Ryan follows:]



PREPARED STATEMENT OF JOHN RYAN, ESQ., CHIEF COUNSEL, 
COMPLIANCE AND INVESTIGATION, AMERICA ONLINE, INC.

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT> 

	
        MR. WHITFIELD.  Well, Mr. Ryan, thank you.
	And I would remind all of the witnesses that we do have your 
testimony, and we would urge you to try to stay within the 5-
minute rule.  And thank you very much for your testimony.
	Mr. Baker.
MR. BAKER.  Chairman Whitfield, Ranking Member Stupak, 
members of the subcommittee, I am Dave Baker, Vice President 
for Law and Public Policy with EarthLink.
	Thank you for inviting me to testify today as you continue to 
examine the critically important issue of how we all can make the 
Internet safer for our children.  The Internet is a tremendous 
resource.  As a father, I marvel at my own children's ability to use 
the Internet to help them with their homework, to challenge them 
with knowledge that supplements what they learn in school, and to 
satisfy their genuine intellectual curiosity.
	At EarthLink, we are proud to have worked for over 12 years 
to develop this important tool for learning, e-commerce, and 
legitimate communications and entertainment.  And we have 
worked hard to combat each new public threat as it has arisen, 
including spam, spyware, and phisher sites.  We are similarly 
engaged in an ongoing battle against those who would use the 
Internet to harm our children.
	There is no question that the Internet's capabilities provide 
criminal predators with new ways to attack children.  The stories 
you have brought to light are chilling.  Criminals, and they are just 
that, abusing children and then putting pictures of that abuse 
online.  These are perverse and unlawful acts for which we should 
have no tolerance.
	At EarthLink, we try to provide our subscribers with as safe as 
possible an environment for children to gain the benefits of the 
Internet while minimizing the risks.  We focus on three strategies: 
one, prevention, empowering parents with strong parental controls 
and safeguarded communications tools; two, reporting, getting 
information on suspected child pornography and other abuse to the 
National Center for Missing and Exploited Children; and three, 
enabling prosecution, responding to law enforcement requests for 
data to assist the investigation and prosecution of abusers.
	I will discuss each of these in further detail.
	The first of our three strategies is prevention.  Our website 
contains family safety information, such as the Kids Fighting 
Chance: 50+ Safety Tips, which EarthLink promotes in partnership 
with the Federal Bureau of Investigation.  EarthLink is also proud 
to serve on the Steering Committee of GetNetwise, an alliance of 
industry and public-interest organizations, which provides tips on 
safe Internet usage, lists of family-friendly websites, information 
on parental controls, and links to report trouble if it is found.  Our 
free downloadable parental controls give parents options as to what 
access to permit their children to have to the Internet and what 
access to permit others to have to their children.  For web surfing, 
parents can use parental controls to specify whether they want their 
child to be limited to a white list of 15,000 EarthLink-approved 
websites or to be permitted to go anywhere other than sites 
EarthLink specifically blocks.
	In addition, parents can customize these lists.  Even for those 
websites not specifically blocked, EarthLink's parental controls 
automatically check all webpage a child visits and remove 
inappropriate language before displaying them.  In addition, 
children cannot create blogs when parental controls are activated.  
For e-mail and instant messaging, parents can use the Cyber 
Friends feature of our parental controls to create an approved list 
of persons that his or her child can contact.  If the child is e-mailed 
by or attempts to e-mail someone who is not on the approved list, 
the e-mail is blocked and stored until the parent can review it.  
Parents can also specify whether their child can open attachments.
	For parents of younger children, we provide the Kids Patrol 
browser, which includes its own filtered web browser, e-mail, chat, 
bulletin board, and instant message programs.  Our parental 
controls also allow parents to limit the time of day and the total 
number of hours per day, week, or month their children may spend 
online.  With these services, we work to empower parents to 
supervise and protect their children's online use.
	Finally, I note that while EarthLink does not operate its own 
chat rooms or provide social networking services, as more Web 
content is produced by individual users, the challenges facing all of 
us are greater.
	The next step is reporting.  Beyond prevention, we also report 
and facilitate the reporting of unlawful child exploitation to the 
National Center for Missing and Exploited Children, NCMEC.  If a 
customer discovers suspected child pornography, they can e-mail 
complaints to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8aebe8fff9efcacfebf8fee2c6e3e4e1a4e4effea4">[email&#160;protected]</a>  In addition to handling 
customers' reports of fraud, spam, and other violations of our 
acceptable use policy, when one of our abuse investigators receives 
a complaint about child pornography, the investigator immediately 
reports that information to NCMEC's CyberTipline.  Customers 
may also call us with complaints about suspected child 
pornography.  All of our customer service representatives are 
specifically trained and given written guidance on how to facilitate 
the reporting of child pornography to NCMEC.
	As mentioned by Mr. Ryan, EarthLink is also proud to ban 
together with AOL, Yahoo!, Microsoft, and America Online to 
fund a new Center for Child Protection Technologies within 
NCMEC to develop technological solutions to combat online child 
abuse.
	Prosecution.  Finally, EarthLink cooperates with law 
enforcement investigations and prosecutions of child exploitation 
cases.  We regularly receive subpoenas requesting subscriber 
information, such as when a customer uses a specified IP address 
at a given date and time or which customer is associated with a 
particular username.  We retain this information in a readily-
accessible live database for several months and then archive it in 
searchable and retrievable tape storage for several years.  We 
receive approximately 1,000 subpoenas per year, approximately 15 
percent of which involve allegations of child exploitation.  We 
give legal process associated with child endangerment or 
exploitation the highest priority.
	In conclusion, we believe that a combination of the proper use 
of prevention tools, like parental controls, the prompt reporting of 
allegations of child exploitation, and cooperation with law 
enforcement investigations and prosecutions can help make the 
Internet a safer place for children and their families.
	Thank you again for the opportunity to testify on this important 
matter.
	[The prepared statement of David Baker follows:]



PREPARED STATEMENT OF DAVID BAKER, VICE PRESIDENT, LAW 
AND PUBLIC POLICY, EARTHLINK, INC.

 <GRAPHICS NOT AVAILABLE IN TIFF FORMAT> 

	
        MR. WHITFIELD.  Thank you, Mr. Baker.
	And Ms. Banker, you are recognized for 5 minutes.

        MS. BANKER.  Chairman Whitfield, Ranking Member Stupak, 
and members of the subcommittee, thank you for the opportunity 
to address the important topic of protecting children online.
	My name is Elizabeth Banker.  I am Vice President and 
Associate General Counsel for Yahoo!.  For the past 7 years, I 
have managed Yahoo!'s Law Enforcement Compliance Team.  
During my time at Yahoo!, I have personally reviewed and 
reported child pornography, helped design our NCMEC reporting 
process, and responded to emergency calls from law enforcement 
to help find missing and abused children.  I can tell you that 
Yahoo! has a long history and a deep commitment to making the 
online environment safer for children.  We have done this by: one, 
building safer online spaces; two, identifying and removing users 
who engage in illegal conduct involving children; and three, 
working with NCMEC, law enforcement, and our industry peers.
	Let me describe these efforts.
	Yahoo! was an early leader in creating child-friendly spaces 
online.  Ten years ago, we launched Yahooligans, a mini version of 
Yahoo! that is a safe place for kids.  More than four million unique 
users each month use Yahooligans for news, music, and games.
	We also work to protect children on our other services.  We 
have put in place a series of age restrictions so that parts of our 
network, like Yahoo! Chat, are off limits to children registered as 
under the age of 18.  We have even tighter restrictions for children 
under 13 who may not create a profile or play games at 
Yahoo.com.
	We also provide filtering, blocking, and parental control tools.  
Parents who use Yahoo!, through our broadband partners, can 
restrict children's activities both on and off of our network.  For 
other users, we offer Safe Search to exclude adult content from 
responses to search queries.  In addition, we provide tools to filter 
offensive language and to block and ignore unknown users or 
offensive communications.  And Yahoo!'s Family Resource Center 
offers parents user-friendly information on these tools and other 
educational resources.
	Yahoo! has policies and technology to help identify violators 
using our network to engage in illegal behavior.  We have strict 
terms of service that prohibit harmful and abusive conduct, and we 
provide tools to enable users to report violations.  For example, we 
have built report abuse links into Yahoo! Chat and webcam.  When 
users report abuse, we review the reports, shut down violators' 
accounts, and escalate appropriate reports to NCMEC.  We also 
take affirmative steps to detect and remove child pornography 
through technology, such as filters and algorithms, as well as 
through human review.  Each of these is tailored to our specific 
services.
	We work closely with NCMEC and law enforcement to ensure 
that online child predators and child pornographers are promptly 
identified, investigated, and prosecuted.  We have invested 
significant resources to develop effective systems for reporting 
child pornography, and we meet regularly with NCMEC to find 
ways to make our reporting more effective for law enforcement.  
For example, if child pornography is found on Yahoo! Groups or 
Yahoo! Photos, we can now report the IP addresses of the user 
who originally uploaded it.  Law enforcement has said that our 
capability has been very helpful in their investigations.
	In addition, we work closely with the United States Internet 
Service Provider Association, or USISPA, and NCMEC to develop 
a set of sound reporting practices for ISPs.  Yahoo! supports law 
enforcement within the framework required by law and our 
commitment to the privacy of our users.  Our compliance team is 
available 24/7 to respond to legal process.  All child endangerment 
cases are given priority.  We provide a manual to assist law 
enforcement with their investigations, and we train law 
enforcement personnel who focus on protecting children, such as 
the Internet Crimes Against Children Task Force.  Also, we 
provide NCMEC millions of dollars of public service advertising 
placements on the Yahoo! network.
	While we are proud of our progress, we recognize that there is 
more work to be done.  One recent change that we have made 
builds on the success of Yahoo! UK's partnership with the Internet 
Watch Foundation, or IWF.  We are now removing child 
pornography sites on IWF's list from our U.S.-based search results 
as well as from Yahoo! UK.
	But the issue of child safety is bigger than any one company.  I 
would like to describe two new industry initiatives that we support.
	First, Yahoo! supports the USISPA proposal authorizing 
NCMEC to issue preservation letters to ISPs.  This will eliminate 
the delays between when ISPs report and law enforcement issues 
preservation requests.
	Second, all ISPs should follow USISPA's Sound Practices for 
Reporting to NCMEC.  Today, Yahoo! and certain major ISPs 
adhere to these practices, but others do not.  If other ISPs follow 
these practices, law enforcement could better pursue cases referred 
to NCMEC and not just the cases from a select few providers.
	Finally, I would like to highlight our announcement today with 
NCMEC, AOL, Microsoft, EarthLink, and United Online.  
Together, we are launching an aggressive campaign against child 
exploitation on the Internet through a new Center for Child 
Protection Technologies.  Through this center, industry leaders will 
come together to develop and deploy technological solutions to 
disrupt predators' ability to use the Internet to abuse children.  Our 
industry peers are invited to join this effort.
	Mr. Chairman, Yahoo! believe that our actions make our 
network safer for children, and the proposals I have described will 
make it more likely that violators will be identified, investigated, 
and punished.  We at Yahoo! look forward to working with 
members of the subcommittee in the ongoing battle to keep 
children safer online.
	Thank you for the opportunity to testify today.
	[The prepared statement of Elizabeth Banker follows:]



PREPARED STATEMENT OF ELIZABETH BANKER, ASSOCIATE 
GENERAL COUNSEL, YAHOO! INC.

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT> 

	MR. WHITFIELD.  Thank you, Ms. Banker.  We appreciate the 
announcements made today by AOL, Yahoo!, Microsoft, 
EarthLink, and United Online Technologies in their new initiative.
	Mr. Dailey, you are recognized for 5 minutes.
MR. DAILEY.  Thank you very much, Mr. Chairman and 
Ranking Member Stupak and to members of the subcommittee.
	Good afternoon.  My name is Tom Dailey, and I am the 
General Counsel of Verizon Online, which is Verizon's consumer 
and small and medium Internet business offering DSL and other 
broadband services, fiber services, and so forth.  I am also the 
former chairman of the U.S. Internet Service Provider Association.  
I was the chairman for approximately 4 years, and I am now the 
chairman emeritus of that organization.  And I have been the 
General Counsel at Verizon Online for the past 8 years.
	Like many in this room, I, too, am a parent.  I have got two 
sons, each of whom, like many kids, is active on the Internet.  I am 
as shocked as everyone by what I have seen this morning and other 
stories that I have seen and heard about as well as the work that we 
do from day to day in dealing with the types of people that we have 
been referring to as child predators.  But they are really, often 
times, just common criminals, and we need more work.  There is 
no question about it.  And I agree with many of the comments that 
I have heard this morning from my colleagues and before.
	Verizon shares the concerns that I think we all have.  We are in 
a somewhat different place from Yahoo! and AOL, because we are 
a network service provider fundamentally.  The services that we 
offer to our customers are primarily the Internet access component, 
the network component.  When it comes to the services, the portal 
services, we have two very strong partnerships, one with Yahoo! 
and one with Microsoft, and they provide terrific services to our 
customers.  We are primarily focused on the network access piece.  
We don't provide our own search.  We don't provide our own chat 
rooms, so we are in a somewhat different position, as I indicated.
	But Verizon has been a leader for many years in the area of 
online education, both in terms of the safety and security 
information that we provide to our customer, but also in terms of 
the Internet software and security software and parental control 
software that we make available both through our partners like 
Yahoo! and Microsoft but also through other services that we make 
available to our customers.
	Verizon is also a proud participant in various cyber citizenship 
initiatives, including: GetNetwise, which is a campaign and 
website designed to give Internet users an online resource for 
information on Internet security; our participation with ICRA, the 
Internet Content Rating Association, is something that we value 
greatly; that association attempts to raise the level of awareness 
about content and threats online.  Finally, our collaboration with i-
SAFE America, which is creating a powerful set of cyber 
citizenship tools to educate K-12 students about responsible online 
behavior.
	But Verizon does much more than simply provide online 
education resources, which we believe are, indeed, very important.  
We also are a very active participant in the investigation of online 
and real-world criminal activity involving crimes against children.  
We have a manual to help law enforcement to inform them about 
the types of services, the work and content and materials that we 
can provide to them and how they can come to us for help.  And 
we provide a lot of help to law enforcement across the country at 
the State, local, and Federal levels.
	Verizon has been active in a number of very important cases 
recently, and I mentioned several of them in my testimony.  One I 
want to just highlight for you today, and that is the case in which 
Verizon provided key information to law enforcement that enabled 
the rescue of a 13-year-old Pennsylvania girl who had been 
abducted and held by a 39-year-old man as his sex slave.  Through 
Verizon's help, law enforcement was able to locate and free the 
child who was found chained to a bed, otherwise relatively 
unharmed.  And the individual that committed that crime is now 
serving a 20-year prison sentence.  But it was Verizon's security 
group, Verizon's ability to find that user that helped, I think, save 
that girl's life.
	I am not going to repeat all of the cases cited in my testimony, 
cases in which Verizon helped find runaways, in which Verizon 
helped prevent a child molestation, but we are proud of our role in 
assisting law enforcement to help in the area of child protection.
	Verizon has been a participant, as have other members of the 
panel, with the National Center for Missing and Exploited 
Children's online CyberTipline program.  We have done that for 
many years.  Historically, because of our role as a network 
provider, we haven't seen as much of the child predation, very 
little, in fact, as some of the other companies before you.  We have 
typically seen images.  We report those images when we get those.  
But the bad guys, as I think Mr. Ryan indicated, are changing their 
modus operandi, and we recently observed what appears to be 
online child pornography spam as a result of that.  We have 
adjusted our reporting to NCMEC, which is why, if you have 
looked at the data, we have had a spike in our reports from very 
few to actually over 100 this year, which is a significant increase 
from previous years.  But the reason is that we are not just 
reporting images.  We are now seeing a change.  And so we have 
adapted, and we are reporting these apparent e-mail solicitations as 
well.
	Verizon supports the initiatives that have been described 
previously about enhancing the ability of NCMEC to facilitate 
investigations of child pornography through the granting of 
authority to NCMEC to issue preservation orders.  We believe that 
will be helpful.  It will help preserve data and make it available for 
law enforcement later on.  And we support changes in the reporting 
statute under 13-032 to make it clear that ISPs that report to 
NCMEC can include images of child pornography with their 
electronic submissions without the risk of that being deemed a 
distribution of child pornography.  We think that these changes 
will enhance reporting and improve law enforcement's ability to 
investigate and prosecute those who prey on children.
	I look forward to your questions, and thank you again for this 
opportunity to participate.
	[The prepared statement of Tom Dailey follows:]

PREPARED STATEMENT OF TOM DAILY GENERAL COUNSEL, 
VERIZON COMMUNICATIONS

	Mr. Dailey's testimony focuses on Verizon's efforts to fight 
online child exploitation through cooperation with law 
enforcement, the delivery of online tools and educational programs 
to Verizon Online subscribers, and cyber-citizenship initiatives 
targeted to all Internet users.  With respect to Verizon's retail 
Internet access services, the testimony describes the differences 
between Verizon Online's role as a network provider and its use of 
third party portals to provide chat, forums and other online services 
and how this business arrangement affects reporting of child 
pornography incidents.  The testimony further describes several 
instances in which Verizon, through collaboration with law 
enforcement and other ISPs, has successfully assisted in the 
rescuing of children (and the prevention of possible child 
molestation).  Mr. Dailey's testimony also describes how Verizon 
reports potential instances of child pornography under 42 USC 
13032.  The testimony concludes with the proposal of two 
statutory changes which Verizon believes can be fairly simply 
accomplished and which will significantly enhance the 
effectiveness of law enforcement efforts to track down and 
prosecute child exploitation crimes.  


I. Introduction
        Chairman Whitfield, Ranking Member Stupak members of the 
subcommittee, thank you for the opportunity to testify here today.  
The people of Verizon believe that the issue of online child safety 
is very important and Congress can help by making some 
improvements in the current laws.  At Verizon there is a very 
strong belief in our responsibility as a corporate leader to do what 
is right.  We believe helping to protect children from online 
predators, and assisting law enforcement in their efforts to track 
down those who would exploit children through the Internet, is the 
right thing to do.  We are a part of a quickly transforming industry 
moving from the old world of basic telephone service to a new 
world of broadband networks.  Not long ago people communicated 
through telephone calls and the Internet was something that only a 
techie could understand how to use.  We are now in a very 
different era where people connect with one another around the 
globe in an instant and transmit and receive images via the Internet 
with the click of a mouse.  As remarkably beneficial and enriching 
as the Internet has become, there comes with this technology a 
darker side that includes new ways to carry out old criminal 
activity.  Child exploitation is one example.  Verizon takes the 
issue of fighting child exploitation very seriously and we are here 
today with the goal of finding new ways to combat the spread of 
child pornography.  We applaud the efforts of this Committee, of 
those at the National Center for Missing and Exploited Children, 
and of others in the law enforcement and ISP communities, who 
are dedicated to the fight against child exploitation.  In this spirit, 
Verizon offers the following testimony.

II. Verizon as a Network Provider and its Online Safety and 
Security Services
        a. Verizon's Internet Access Services Operations.  Verizon is 
a wholesale and retail provider of communications, data and video 
services to a wide array of customers ranging from individual 
consumers to multi-national corporations.  In the data world, 
Verizon provides two primary wireline Internet access 
technologies: (1) dial-up Internet access service that is provided 
primarily on a wholesale basis to large, consumer-focused Internet 
service providers; and (2) high-speed Internet access service, that 
is provided to retail consumer and business users.  Verizon's high-
speed services for consumers use digital subscriber loop ("DSL") 
and fiber-based (commercially know as "FiOS") technologies.  
Both services provide high-speed Internet access and transmission 
capabilities.  The Verizon business units that offer Internet access 
services include Verizon Online, which is retail focused and 
currently has more than five million consumer and small/medium 
sized business subscribers nationally; and Verizon Business, which 
sells a variety of wholesale and retail Internet access services to 
thousands of enterprise (large) businesses and government entities.  
        The structure of Verizon Online's consumer Internet service 
differs from many in the industry.  All subscribers to the 
company's retail consumer Internet access service, whether DSL- 
or fiber-based, receive a choice of portal providers when they 
register for their broadband service.  Subscribers can choose to 
receive as part of their Internet access package co-branded 
premium portal services from Yahoo! or MSN.  The services they 
receive from these companies are specially designed to combine 
certain Verizon-provided features (such as account management 
tools and email) with the portal provider's own content, features 
and functionality (such as instant messaging, email, chat, search, 
entertainment and other online services).  This unique blending of 
Internet access with portal features and services has an impact on 
the volume of child pornography reports Verizon refers to 
NCMEC, which I'll discuss further in my testimony, below.
        b. Verizon Online's Safety and Security Offerings.  Verizon 
Online makes available to its subscribers a variety of Internet 
security services provided by Yahoo! and MSN.  Each portal 
provides anti-virus, firewall, anti-spyware and parental control 
software, which currently are provided at no extra charge to 
Verizon Online subscribers.  In addition to making the Yahoo! and 
MSN security services available to its subscribers, Verizon Online 
offers its own, private-labeled suite of security services.  This 
security suite includes anti-virus, firewall, anti-spyware and 
parental control software and is available for an additional monthly 
charge.  Historically, Verizon Online has also made commercially 
available parental control software offered by CyberPatrol and 
Cybersitter to its subscribers at a discount off the normal retail 
price.
        In addition to its history of providing subscribers with the tools 
they need to help protect themselves and their children from 
harmful viruses and objectionable content, Verizon Online has also 
worked to help educate its subscribers about Internet threats of all 
kinds.  The company's Safety and Security website, one of the first 
of its kind among network providers, gives our customers access to 
Internet sites designed to help parents learn about ways to protect 
their children online, including links to the National Center for 
Missing and Exploited Children's ("NCMEC") website and 
CyberTipline for reporting incidents of child exploitation or 
pornography, GetNetWise (a site dedicated to educating about 
dangers on the Internet), StaySafeOnline and OnGuard Online (an 
education site offering advice regarding the safe use of chat and 
community networking services).  Verizon Online has participated 
in national events such as National CyberAwareness month, which 
it publicized to its subscribers, and the company periodically 
distributes helpful information through its newsletters on wide-
ranging topics that include cyber-safety. 
        c. Differences Between Verizon's Internet Access Services 
and Other Online Services.  Unlike AOL, MSN and Yahoo!, 
Verizon Online does not currently provide chat rooms, online 
forums or blog sites.  Although Verizon Online has provided web 
hosting services targeted to business users, and storage services for 
all users, these services to this point have not been particularly 
widely adopted.  Thus, because Verizon Online is primarily a 
network access services company, and because the vast majority of 
its subscribers use one of the portal services provided by its portal 
partners, Verizon Online sees very few complaints involving actual 
images of child pornography and virtually no complaints of 
predatory activity.  It is Verizon Online's belief that complaints 
regarding child pornography and predation activity primarily go to 
the providers of the forums in which the illicit activity takes place, 
e.g., chat rooms and community network sites.  The few reports of 
actual child pornography Verizon Online has historically seen have 
related more to content residing on its web hosting service.  The 
vast majority of reported child pornography incidents that Verizon 
Online now receives have been in the form of emails (largely 
spam-related) that the company's subscribers forward to Verizon 
Online's security abuse email box.

III. Cooperation with Law Enforcement, Case Studies and Cyber-
Citizenship
        Verizon has a long history of working cooperatively with law 
enforcement in the investigation of criminal activity, including 
fighting child pornography.  Through these efforts Verizon has 
played an important role, among other things, in securing the safe 
return of missing children and even in saving lives.  Outside the 
security context, Verizon has played a prominent role in the 
development of cyber-citizen initiatives, online safety programs 
and customer education websites designed to promote the public 
safety at large.
        a. Cooperation with Law Enforcement.  Verizon as a 
corporation handles thousands of law enforcement subpoenas 
every month through its voice and data communications security 
organizations.  In the Internet context, Verizon Online processes 
more than 100 criminal subpoenas a month (706 so far in 2006).  
The Verizon Online and Verizon Business security group work 
with local, state and federal law enforcement officials to 
investigate claims ranging from property crimes (fraud, phishing 
and identity theft) to threatened physical harm to child 
pornography.  Verizon Online and Verizon Business each have 
dedicated personnel who work with law enforcement to respond to 
legal process (subpoenas, court orders and warrants) and to help 
law enforcement in their efforts to identify the information they 
need to track down illegal activity on the Internet.
        Verizon Online's security group has worked diligently and 
cooperatively with law enforcement across the country, and with 
other ISPs, on investigations ranging from post 9/11 watch-list 
cases to tsunami fraud schemes to tracking child predators and 
missing children.  In one highly publicized case in 2002, Verizon 
Online played a critical role in tracking down and saving the life of 
a 13 year old Pittsburgh girl who had been abducted by a 38 year 
old Herndon, Virginia man named Scott Tyree.  After abducting 
the girl, Tyree was observed in a Yahoo! chat room apparently 
bragging about what he had done.  A participant in the chat room 
linked Tyree's forum discussion to stories heard on the news and 
reported the incident.  Law enforcement tracked Tyree through 
Yahoo! and ultimately determined that his Internet connection 
showed to a Verizon IP address, meaning he likely was a Verizon 
Online subscriber.  Working with the FBI, Verizon Online's 
security team was able to determine the exact location of the 
computer Tyree was using and provided this information to law 
enforcement.  A waiting SWAT team then raided Tyree's Herndon 
condominium to find the victim tied to a bedpost but relatively 
unharmed.  Tyree is now serving a nearly 20 year prison sentence.
        The Tyree case is but one example of the successes that 
cooperation between Verizon security and law enforcement 
personnel has brought in child exploitation and endangerment 
cases.  Verizon Online security has worked with noted Polk 
County Sheriff's Department investigator Charlie Gates on child 
predation related cases and with local law enforcement personnel 
across the nation.  Verizon Online has also worked closely with its 
ISP colleagues to locate missing children.  In one case, Verizon 
Online and AOL teamed up to track down a runaway who was 
logging into her AOL instant messenger account from Internet 
caf�s across several states.  As the child logged into her AIM 
account, AOL and Verizon Online security personnel tracked the 
child's location based on the location of the Internet connection 
and ultimately to were able to help facilitate the child's safe return.  
In yet another case, the quick action of a Verizon Business security 
team member in processing a subpoena helped police prevent the 
molestation of a minor.  
        Finally, in a child kidnapping case, Verizon security personnel 
received notice from a Bridgewater, New Jersey, detective that a 5 
month old child had been kidnapped from a babysitter.  Verizon 
security performed record searches and was able to discover a 
series of cellular and voice over IP calls that seemed like a 
promising lead.  Verizon's investigator then coordinated with 
Verizon Wireless and Sprint regarding the cellular calls and with 
Level 3 Communications regarding the voice over IP calls, all after 
hours, to set up emergency assistance for the investigating 
detective.  The next day, the detective handling the case called to 
inform Verizon security that the voice over IP investigation had 
helped lead them to the kidnapped infant and that the child was 
safe.  These stories are but a few examples of the things Verizon 
security personnel do day in and day out to help law enforcement 
to do its job.
        b. Cyber-Citizenship Initiatives.  Verizon has long been a 
major player in advancing cyber-citizenship principles and 
promoting online safety for children and all Internet users.  As 
noted above, Verizon was one of the first major ISPs to develop an 
online safety and security website that offers Verizon Online 
subscribers a variety of information and tools to help protect 
against Internet threats and parents to help safeguard their children 
online.  Verizon was one of the founders of GetNetWise.org, a 
campaign and web site designed to give Internet users an easy, 
online resource for additional information on Internet security, 
include ("ICRA") to deliver an education campaign to raise the 
level of awareness about content threats in our converged world. 
Verizon and ICRA are working cooperatively to answer parents' 
questions and point them to the tools they can employ to help 
protect their children from harmful online content.  Finally, 
Verizon is collaborating with i-SAFE America, Inc. on a multi-
year initiative to create a powerful set of cyber-citizenship tools 
that educate K-12 students about responsible access to 
entertainment, information and online communication tools, 
including issues related to social networking sites, chat rooms, and 
online bullying. 
        Verizon has also participated with NCMEC and the US 
Internet Service Provider Association ("USISPA") in crafting a 
series of industry best practices regarding the reporting of child 
pornography, and in finding ways to enlist the support of and to 
educate smaller ISPs about child pornography enforcement and 
reporting.  The company is currently working with the Department 
of Justice and its task force on child pornography enforcement to 
look at ways in which the ISP industry can work with law 
enforcement to improve child pornography enforcement, whether 
through data preservation or retention or other means.  In short, 
Verizon has been a prominent participant in the discussion on child 
pornography enforcement, and in outreach efforts involving its 
own customers and Internet users at large.  Through these efforts, 
and its ongoing work with law enforcement, Verizon has 
demonstrated its firm commitment to helping safeguard children 
on the Internet and to assisting law enforcement in pursuing those 
who would use the Internet to exploit children. 

IV. Child Pornography Reporting
        Although Verizon Online does not receive the volume of child 
pornography related cases as other ISPs do, the company maintains 
a full-time security analyst who monitors Verizon Online's abuse 
mail box for child pornography complaints and reports.  (Virtually 
all reports of child pornography come to Verizon Online through 
its abuse email boxes).  Once identified as a reportable incident 
under 42 USC 13032, Verizon uses the NCMEC ISP Tipline to 
report the incident to NCMEC.  Verizon is a registered user of 
NCMEC's ISP CyberTipline.  
        While Verizon Online has always reported incidents of child 
pornography to law enforcement, over time its approach to 
assessing what is and is not a reportable incident under 42 USC 
13032 has changed.  Historically, Verizon Online focused its 
reporting on instances of child pornography images found to be 
housed on Verizon Online servers.  Because of its role as a 
network provider, with no chat or forum services of its own and 
only a small web hosting business, the volume of reportable child 
pornography incidents Verizon Online has received and made has 
been quite small (roughly 12 over the past 6 years).  We attribute 
this small number of cases to the fact that the circumstances under 
which Verizon Online subscribers most often encounter child 
pornography involve the use of services not provided by Verizon 
Online today (IM, blogging or chat/forum services), or involve 
websites not hosted by Verizon Online.  If an Internet user 
encounters child pornography when visiting a third-party site, they 
are most likely in our experience to report the incident to the third-
party, not Verizon.
        Recently, Verizon Online changed its reporting criteria to 
broaden the categories of child pornography complaints that it 
passes on to NCMEC.  Verizon Online observed that the vast 
majority of child pornography complaints it was receiving 
pertained to email solicitations (often spam) relating to child 
pornography.  In analyzing these complaints, Verizon Online 
concluded that the emails themselves could be viewed as facts or 
circumstances from which a violation of the child pornography 
laws was apparent under 42 USC 13032.  As a result, Verizon 
began reporting these email complaints to NCMEC in April 2006.   
Since that time, Verizon Online has filed 116 reports using the 
CyberTipline, the vast majority of which were in the form of 
emails forwarded by customers, which Verizon Online in turn 
forwarded on to NCMEC via the CyberTipline.  The balance was 
child pornography related emails actually received in Verizon's 
own email boxes.  Many of these emails contain URLs that 
purportedly link to content containing child pornography.  None of 
the 116 customer complaints contained actual images of child 
pornography.  

V. Legislative Improvements to Child Pornography Enforcement
        Verizon supports improvements to current laws regarding child 
pornography enforcement, rather than the creation of new 
mandates.  In particular, we see two areas in which Congress can 
make significant improvements in the enforcement effort, without 
engaging in a wholesale re-write of existing law.  First, Congress 
should authorize NCMEC to issue preservation requests under 18 
USC 2703(f).  NCMEC is not a governmental entity, yet it has 
been charged with the responsibility to coordinate the investigation 
of child pornography and related cases by law enforcement.  
Securing the availability of electronic data is an important element 
to such investigations; empowering NCMEC to request 
preservation immediately upon receipt of a colorable report of 
child pornography makes sense and would significantly expedite 
the process of securing potentially relevant information.  
        Second, Congress should clarify under 18 USC 2252A that 
submission by an ISP of images of child pornography as part of a 
bona fide report under 42 USC 13032 does not constitute the 
unlawful distribution of child pornography.  The current statutory 
scheme is ambiguous on this issue and the ambiguity should be 
eliminated.  Clarification that the submission of images as part of a 
report to NCMEC or law enforcement is not unlawful distribution 
of child pornography will encourage more ISPs to report images, 
and thereby facilitate investigations into the reported image.  
Verizon urges this Committee to clarify this point.
        Finally, there has been much discussion of late on the issue of 
data retention in the context of child pornography investigations.  
The expressed position of law enforcement is that data retention 
may be necessary to ensure that the data necessary to enable 
investigators to identify the user of an IP address assigned to a 
particular user's Internet session is present when requested.  The 
reason IP address assignments are useful to law enforcement is 
because an IP address is often an important link between illicit 
conduct on the Internet and the identity of the alleged perpetrator.  
While the debate over data retention is still forming, Verizon's 
general view is that IP address assignment and customer record 
information collected in the normal course of business could be 
retained by network providers for a reasonable period of time, and 
if retention is required, that the period of retention should be long 
enough reasonably to enable law enforcement to conduct their 
investigations.  Whether this obligation should extend to others in 
the Internet community is still open to debate, as is whether the 
period of retention should be 24 months (as has been proposed) or 
a shorter period more in line with the retention policies of 
businesses in effect today.  
        There are two important caveats to this position, however.  
First, any such data retention requirements should apply only to IP 
address assignment information, and it should apply only to data 
gathered in the normal course of business.  Verizon Online 
believes that many network providers already capture helpful 
information in connection with their standard processes for 
providing and/or billing for services.  A retention requirement for 
IP address assignment data currently gathered in the normal course 
of business may be a reasonable first step that balances the needs 
of law enforcement with the national desire to keep the Internet 
free from extensive regulation and regulation-related costs.  
Second, the availability of data retention should not preclude 
granting NCMEC the data preservation authority discussed above.  
Data preservation will go a long way toward protecting data that 
might otherwise be deleted over the passage of time between the 
date an incident of child pornography is reported to NCMEC and 
the issuance of a subpoena or other legal process by a downstream 
law enforcement official.  An order to preserve data will not 
guarantee that data will be present when requested, but it will 
greatly improve the chances that data which is captured will be 
available to law enforcement at the time it is subpoenaed.
        Thank you for this opportunity to present Verizon's views on 
this important issue.

	MR. WHITFIELD.  Thank you, Mr. Dailey.
	And Mr. Lewis, you are recognized for 5 minutes.
MR. LEWIS.  Thank you, Mr. Chairman.
	Mr. Chairman, Ranking Member Stupak, and members of the 
subcommittee, I appreciate the opportunity to testify before you 
today on behalf of Comcast regarding the important subject of 
making the Internet safe for kids.
	My name is Jerry Lewis.  I am the Vice President, Deputy 
General Counsel, and the Chief Privacy Officer of Comcast.
	Comcast is America's leading provider of high-speed Internet 
services with over 9 million customers.  And the safety and 
security of our customers, along with the quality of our service, are 
very important concerns.
	We are committed to leadership in the area of online security 
and customer privacy and in cooperating with law enforcement to 
fight Internet-based criminal activity, such as child exploitation.  
At no extra cost to our customers, we provided a filtered Internet 
search option and easy-to-use privacy and parental control 
software that lets parents monitor chat and online activity, block 
inappropriate content, and prevent their children from sharing 
personal information.
	We have a solid record in assisting law enforcement, and we 
have received numerous commendations for our efforts.  We 
distribute a guide to law enforcement regarding how to obtain 
prompt handling of their requests.  We conduct training for law 
enforcement, and we meet quarterly with DOJ and FBI law 
enforcement officials to discuss ways that we can work together 
quickly and smoothly nationwide.
	But neither we nor any other Internet service provide, or ISP, is 
perfect.  During a massive build-out phase of our Internet protocol, 
or IP, network last year, we had significant difficulties in meeting 
many law enforcement requests due to problems with our 
network's customer provisioning system.  Thankfully, that phase is 
behind us, and we are committed to best practices in this area.
	Because of the importance of child safety, we want to do more.  
We have decided to extend our retention of IP address assignment 
information to 180 days.  We are making the investment necessary 
to implement this change by September 1.  We understand that our 
current IP address retention period is shorter than many other large 
commercial broadband ISPs.  We established our IP address 
retention period at a time when Federal and State officials raised 
privacy concerns about retention of other data on our systems, so 
we erred on the side of setting a shorter time period.  Comcast will 
voluntarily take this significant step to accommodate more valid 
law enforcement requests in a manner that is consistent with the 
privacy expectations of our subscribers and the law.
	To be very clear, however, we will only retain IP address 
assignment information, information that we already retain for 180 
days and will retain no additional information, unless compelled to 
do so by valid legal process.  We are committed to striking the 
delicate balance between customer privacy and being able to 
provide evidence in response to investigations of online crimes.
	Based upon our experience, we believe that the following other 
measures would contribute significantly to improving child safety 
online and hope the subcommittee will recommend them.  First, 
greater public and private-sector efforts to educate families about 
the dangers of online pedophiles and the importance of parental 
involvement and technology to protect children, and I believe 
Chris Hansen's presentation earlier in the day underscores that 
fact.  Second, greater resources for law enforcement teams 
combined with increased training and forensic support in the 
private sector so that law enforcement can trace hard-to-find 
perpetrators.  Third, is giving the National Center for Missing and 
Exploited Children, or NCMEC, subpoena power so that it can 
gather critical evidence relating to reports that it receives without 
the delay of waiting for a referral to Federal or State law 
enforcement.  Fourth, preservation of evidence known by an ISP to 
be relevant to a NCMEC report as a matter of course without 
waiting for a preservation order so that the evidence will be 
available for law enforcement.  Finally, where available, is 
submitting relevant IP address assignment information and town 
and State information in reports to NCMEC to facilitate referrals to 
the proper law enforcement authorities.
	In closing, Comcast is committed to a safe and secure Internet 
and to working with the Attorney General, this subcommittee, and 
everyone in the ISP industry to craft the right policies that balance 
the needs of law enforcement with customer privacy expectations.  
Child exploitation is a heinous crime.  We intend to assume a 
leadership role in the solution to combating it.
	Thank you, and I look forward to answering your questions.
	[The prepared statement of Gerard J. Lewis, Jr. follows:]



PREPARED STATEMENT OF GERALD J. LEWIS, JR., VICE PRESIDENT, 
DEPUTY GENERAL COUNSEL & CHIEF PRIVACY OFFICER, COMCAST 
CABLE COMMUNICATIONS

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT> 

	MR. WHITFIELD.  Thank you, Mr. Lewis.
	And Mr. Reitinger, you are recognized for 5 minutes.
MR. REITINGER.  Chairman Whitfield, Representative DeGette, 
and members of the subcommittee, my name is Philip Reitinger.
	Thank you for the opportunity to appear before you today to 
talk about Microsoft's strong commitment to protecting children.
	I am Microsoft's Director for Trustworthy Computing in 
Washington, DC, but before joining Microsoft, I was the Deputy 
Chief of the Computer Crime Intellectual Property Section at the 
U.S. Department of Justice and the Executive Director of the 
Department of Defense's Cybercrime Center.  For years, I have 
been concerned with the challenges posed in preventing, detecting, 
deterring, and investigating cybercrime.
	Microsoft is deeply and broadly engaged in efforts to protect 
children on the Internet.  My written testimony discusses those 
efforts in detail.
	As a former law enforcer, I believe that among the most critical 
are our efforts to partner with law enforcement to better enable it to 
prosecute child exploiters and predators.  We must ensure that 
those who harm our children are caught, prosecuted, and sent to 
jail.
	As a technology leader, Microsoft understands and embraces 
its obligation to partner with law enforcement to protect kids.  We 
began by working to expunge child pornography from our systems 
and identify violators to law enforcement.  We use filters on 
images uploaded to MSN spaces and groups to identify possible 
pornography.  The images that are flagged are reviewed, and if 
they appear to be child pornography, an instant report is sent to the 
National Center for Missing and Exploited Children.  MSN closes 
the site and preserves it for a period in anticipation of legal 
process.
	We also work to respond rapidly to law enforcement 
investigations.  Our compliance managers are on duty 24 hours a 
day, 7 days a week to respond to requests from law enforcement 
regarding criminal violations.
	Our efforts to support prosecutions, however, do not stop there.  
In 2003, Toronto detective, Sergeant Paul Gillespie, wrote to Bill 
Gates asking for his help.  In response, Microsoft began 
developing the Child Exploitation Tracking System, or CETS, an 
innovative tool that enables law enforcement to track and share 
information in child exploitation cases.  It has been incredibly 
rewarding to hear from our colleagues in Canada that CETS has 
already played a role in several investigations across geographical 
boundaries, creating links that have helped apprehend over 40 
online predators,, and most important, led to the rescue of children 
in countries around the world.  Microsoft is also working closely 
with several other law enforcement agencies around the world to 
assist with additional deployments.
	We are deeply involved in training law enforcement.  In just 
one example, in April of 2004, Microsoft joined Interpol and the 
International Center for Missing and Exploited Children to launch 
the international center's global campaign against child 
pornography under which Microsoft has trained nearly 1,500 law 
enforcement officers from 91 countries.
	And as has already been discussed by several of the members 
of this panel, we are pleased to announce that Microsoft has joined 
with the National Center and a number of companies represented 
on this panel to establish the Technology Coalition.  We are 
convinced that this partnership will make a meaningful 
contribution to protecting our children from Internet predators and 
inappropriate online material.
	Of course law enforcement prosecutions do not provide a silver 
bullet for child exploitation.  To stop child exploitation before it 
can occur, we also work to empower families and communities to 
protect their children through both education and technology.  We 
provide safety information on our sites and partner with many 
groups to educate families about how to protect themselves.
	Again, our efforts are described in detail in my written 
testimony, and I won't repeat them here.
	We also continue to invest heavily in building technologies to 
protect kids and give parents the ability to better manage a child's 
use of technology, including filtering, family safety settings, and 
safe search capabilities.  The soon-to-be-released Windows Vista 
operating system will go even farther and allow detailed control 
over games, time, applications, and browsing.  And Windows Live 
family safety settings will offer a similar free web-based 
protection.
	In conclusion, Microsoft is strongly committed to improving 
online security for children throughout the world and to supporting 
investigation, prosecution, and punishment of child exploiters and 
predators.  Microsoft and its partners are in the process of 
developing and implementing best practices for protecting 
children, and we welcome your feedback about how we can do 
better.
	Thank you for the opportunity to speak with the committee 
about this important topic.  I look forward to answering your 
questions.
	[The prepared statement of Philip R. Reitinger follows:]



PREPARED STATEMENT OF PHILIP R. REITINGER, SENIOR SECURITY 
STRATEGIST, MICROSOFT CORPORATION

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT> 

	MR. WHITFIELD.  Thank you, Mr. Reitinger.
	And Ms. Wong, you are recognized for 5 minutes.
MS. WONG.  Thank you, Mr. Chairman.  And thank you, 
Representative DeGette and the members of the subcommittee, for 
inviting me to participate in this important discussion about how to 
keep all of our children safe.
	My name is Nicole Wong, and I am Associate General Counsel 
for Google responsible for our products and services, including the 
privacy, security, and safety of our users.
	I am also the mother of two young children, and I appreciate 
the subcommittee's leadership on this important issue of concern 
to all of America's families.
	As a company, Google is deeply committed to protecting 
children on the Internet in our actions and in our guiding 
principles.  Child pornography is a horrific and vicious crime and 
has no place in a civilized society.  Google has a zero-tolerance 
policy for child pornography and those who would promote it.  
When we become aware of child pornography anywhere in our 
search index or on our site, we remove it immediately and report it 
to the appropriate authorities.  We do not accept any advertising 
related to it.  We cooperate assiduously with law enforcement to 
help track down online criminals and child predators.
	We believe that a successful approach to combating child 
exploitation online must encompass three elements: first, strong 
law enforcement efforts to pursue and convict the purveyors of 
illegal content and activity; second, powerful technology solutions 
and resources for families to control their online experiences; and 
third, strong industry practices that support all of these important 
efforts.
	At Google, we are approaching a number of initiatives.  First, 
we enforce a strict policy prohibiting any advertising related to 
child pornography.  We do this through a multi-tiered review 
process that involves both automated checks and manual reviews 
by trained specialists.  We work constantly to improve this process 
to keep up with the fast-changing jargon and practices of this 
unsavory industry.  In fact, based on the very helpful input of the 
committee staff, we recently tightened our review program to 
refuse any ads promoting pornography with teens, even if the 
underlying websites lawfully depict adult models.
	Second, we remove and report child pornography immediately 
when we become aware of it in our search engine or in any of our 
websites.  Indeed, we have created multiple channels throughout 
the company to identify illegal material, which includes training 
teams in our engineering, product, and advertising groups to 
identify and report instances of child pornography whenever they 
find it.
	We have also created paths for our users to report illegal 
material to us through the Google Help Center, and we are 
members of international industry associations, such as the Internet 
Watch Foundation in the UK, from whom we obtain lists of illegal 
websites and use those to block illegal websites.  There is a 
specially trained team in the legal department that submits reports 
of this material to the appropriate authorities, including the 
National Center for Missing and Exploited Children.
	Third, we provide valuable support to law enforcement at the 
Federal, State, and local levels.  We have a trained and dedicated 
staff for responding to all law enforcement requests.  They are 
available 24/7, 365 days a year.  We are extremely proud of this 
team that works relentlessly to respond to every law enforcement 
and data preservation request, including the hundreds of child 
safety requests we receive each year.
	Fourth, we work to empower families to be safe online in a 
number of ways.  We create tools, like our safe search filter, that 
allows families to control the type of information accessible 
through our site.  We work with our industry colleagues, including 
those at the table today, and also in forums, such as the Financial 
Coalition Against Child Pornography, to establish best practices 
and other initiatives to combat child pornography.  And we support 
efforts like the Wired Safety Educational Campaign and 
specifically, they work in broad-based education for parents, 
community police officers, and kids themselves to learn about how 
to stay safe on the Internet.
	The Internet provides an unparalleled opportunity for people to 
connect with information, and Google's mission is to make this 
information more accessible and useful.  At the same time, we 
keenly understand that our business relies on the existence of a 
healthy and trusted Internet.  Child pornography and those who 
purvey it should have no place in that ecosystem.
	We look forward to working with you, the law enforcement 
community, and the broader Internet community to increase our 
efforts to stop child exploitation and preserve the Internet as a 
trusted and safe environment.
	Thank you.
	[The prepared statement of Nicole Wong follows:]



PREPARED STATEMENT OF NICOLE WONG, ASSOCIATE GENERAL 
COUNSEL & CHIEF PRIVACY OFFICER, GOOGLE ,INC.


<GRAPHICS NOT AVAILABLE IN TIFF FORMAT> 

	MR. WHITFIELD.  Thank you.
	And we appreciate the testimony of all of you.
	And before we begin with questions, we do want to take time.  
Diana DeGette brought this issue up about what is going on in 
Great Britain with the Virtual Global Task Force.  And there is a 
public service announcement in Great Britain that makes children 
more aware of how they can report to law enforcement officials 
things that are going on on the cyber.  And I think this would be 
informative for all of us, because really, we don't have anything 
quite like it in the United States.  So if you all are prepared, I 
would like to show this video.  It is about 2� minutes, I believe.
	MS. DEGETTE.  Mr. Chairman, if I may, they apparently show 
this at movie theaters in Great Britain, and so I think I would say to 
all of the media representatives here today, this is exactly the kind 
of thing we need to do on your websites, on television outlets, and 
in movie theaters.
	And I thank you for doing this.
	[Video.]
	MR. WHITFIELD.  Okay.  The first question I want to ask, it is 
not about AOL, but it is about the Internet service providers.  
There was some testimony, I think Mr. Lewis mentioned the policy 
on retaining IP addresses.  And in all of the hearings that we have 
held on this subject from law enforcement, there was a lot of 
emphasis placed on that.  And I know that some of the Internet 
service providers recently met with representatives of the Justice 
Department to talk about this issue.
	So I would like to just start off by asking AOL and EarthLink 
and Verizon and Comcast.  I guess Comcast has already answered, 
but what is the policy on retention of IP addresses at EarthLink, for 
example?
	MR. BAKER.  Mr. Chairman, our policy is, again, that we keep 
them in a live database for several months and then we archive 
them in tape backup, and our policy is now that we will keep those 
for 7 years.  That is not to say they go back 7 years from today, but 
they are kept.
	MR. WHITFIELD.  And so what is the difference in live and in 
storage as far as the time that it would take to find that address?
	MR. BAKER.  Well, if I can just give you an anecdote.  Just this 
last November, we got a subpoena from law enforcement for IP 
addresses, some of which were more than several months old, 
more than 5 months old, so these were in tape backup, and we 
were able to the pull the necessary backup from archives, retrieve 
this information, and respond to law enforcement within 2 weeks, 
and this was notwithstanding Thanksgiving being during that 
period of time.  So I would say that, in the case of tape backup, it 
might take a couple of weeks.  Generally speaking, if it is of more 
recent vintage, we should be able to respond more quickly.
	MR. WHITFIELD.  And could you say about how many 
subpoenas you may receive in a month or a yea?
	MR. BAKER.  We get about 1,000 subpoenas a year, so roughly 
80 to 100 a month--
	MR. WHITFIELD.  Okay.
	MR. BAKER.  --from various law enforcement agencies.
	MR. WHITFIELD.  Okay, and Mr. Ryan, what is the policy for 
AOL?
	MR. RYAN.  The current policy, Mr. Chairman, with respect to 
retention of IP addresses is a 90-day period.  We receive, at AOL, 
over 1,400 subpoenas a month, and that does not include search 
warrants, intercept orders, or other types of legal process on the 
criminal side.  So it is over 14,000 subpoenas a year.  It is a 
reflection of the size of our subscriber base.
	MR. WHITFIELD.  Right.
	MR. RYAN.  Recognizing that the 90-day period varies from, 
say, at EarthLink, we have a 24/7 dedicated staff for law 
enforcement only to make their requests for data, and we handled 
over 1,800 preservation requests last year.  So we have a history of 
utilizing preservation with law enforcement, and the feedback that 
we get, with the current retention standards, coupled with our 
dedicated personnel, it works.
	MR. WHITFIELD.  Okay.  And what about Verizon?
	MR. DAILEY.  Mr. Chairman, Verizon's policy for the data that 
we capture, and then we are talking about IP session logs, 
basically, that would link a customer or a user to a particular IP 
address, which I believe is what you are referring to.  Our policy is 
9 months.
	MR. WHITFIELD.  Nine months.
	And how expensive is it to retain this kind of information?  Is it 
a real factor to consider?
	MR. RYAN.  With respect to AOL, there is a cost factor.  I think 
it is important to note that there are different kinds of IP addresses.  
There is a type of address we refer to as a proxy address, and that 
reflects the billion of sessions that go on on one particular day at 
AOL.  An IP address is assigned to each one of those billion-plus 
sessions, so the retention period is far shorter, reflecting the 
volume.  We did a cost study for the Department of Justice.  To 
retain that information for up to 1 year would cost over $44 
million.
	MR. WHITFIELD.  $44 million?
	MR. RYAN.  Yes, sir.
	MR. WHITFIELD.  Wow.  And what about, Mr. Reitinger, from 
Microsoft?
	MR. REITINGER.  Thank you, Chairman.
	Of course, we are not typically a broadband provider--
	MR. WHITFIELD.  Right.
	MR. REITINGER.  --so we don't, in that sense, assign IP 
addresses to end users.  The period of time we would retain data 
associated with a service could vary from service to service.  I 
would be much more comfortable in addressing that in closed 
session, if the committee wants to do that.
	MR. WHITFIELD.  Okay.
	MR. REITINGER.  But what we try to do is balance law 
enforcement needs, business needs, and the privacy and security 
needs of our customers.
	MR. WHITFIELD.  Okay.  I am really glad that this panel is here 
today, because as we told you in the beginning, we have had three 
or four sessions of hearings on this issue.  And you think about the 
multitude of young people around the world who are certainly on 
the Internet today, being the wonderful tool that it is.  Then we 
have the pedophiles out there and people who are trying to exploit 
them, and you all represent companies that provide them with the 
connection to the world, and you have such an important role to 
play.  And actually our staff went on the Internet, and they put in 
"pre-teen" plus "sex" plus "video."  And it was kind of interesting 
the different results that came back.  For example, on Google, it 
came back with about one and a half pages, it is up there, and some 
of the language was so explicit, it has been redacted.  And if you 
just look at the Google site, I mean, it looks like a hard core 
pornography site.  I mean, sex games, and pre-teen sex, and teen 
porn, and triple-X movies with pictures and so forth.  But I guess 
the most disturbing thing about on the Google site, Ms. Wong, and 
I know that you may not be involved in the policy, but you even 
had sponsored links.  And what that means is you had people there 
paying Google money to advertise these kinds of sites on Google 
that young people have access to and everyone else.  And I know 
the testimony of all of you today focused on your concern, and you 
want to protect children and you want to minimize the opportunity 
for them to be exposed to things like that.  And I know that Google 
has a reputation of being a socially-responsible company.  And I 
know that they recently hired a man, and I think his last name is 
Brilliant, to manage their foundation that is working with societal 
problems, disease, and climate issues and so forth.  But to think 
that a company like this would be taking money from groups like 
this is sort of disturbing.
	And I will give you a chance to respond, but before I do, we 
used the same words on the Yahoo! search, and it came up with 
five or six sites, but it was not nearly as sexually explicit.  It is like 
"Dr. Phil on alarming sexual behavior among children," and "pre-
teen healthcare," and "Fox News: Teen Sex and Media Hype," but 
there were no sponsored links.  They were not receiving any 
money.
	So I would like to just ask, what is responsible for the 
difference in what you receive on the search.  And are you still 
taking money from people who are advertising this kind of 
material on the Internet?
	MS. WONG.  Thank you, Mr. Chairman.
	And we actually greatly appreciated you and the committee 
staff raising this for us.  We have no interest in getting advertising 
for the promotion of any illegal content or these types of ads.  And 
in fact, we think that this particular search was an aberration that 
was due to the fact that what the search was was "pre-teen."  If you 
were actually to search on Google for "preteen sex video" or "child 
sex video" or "young teen sex video," ads would not show up at 
all.  So what we did was we went back through our systems.  We 
have a long list of black lists, and we have added the "pre-teen" to 
it, and no ads currently show.
	But we do greatly appreciate the committee staff bringing it to 
our attention, and that is our policy: as soon as we become aware 
of it, we will either add it to a black list or remove it from the site.
	In regard to our ads policy, and again, in conversation with the 
staff, we have actually tightened our policies to prohibit any type 
of ad that refers to teens in any way, including ads that may, in 
fact, have legal pornography on it but actually refer to teens.
	MR. WHITFIELD.  Okay.  Well, what would account for what 
shows up as the result of the search using the same words with 
Yahoo! that we used with Google?  The results were startlingly 
different, and the language used was unbelievably different.
	MS. WONG.  And I can't really speak so much to how Yahoo!'s 
system works.  We are many, many billions of pages.  We believe 
we are probably about three times the size of any other search 
engine.  So we have many more pages to screen and review.  We 
do, as I was mentioning, have a many multi-tiered system for 
trying to remove these as soon as we find them, including getting 
lists, like from the Internet Watch Foundation, and there is also a 
similar organization in Germany, and immediately put those into 
place to block on our site.  And we have our own search quality 
engineers who are trained to look for and remove these types of 
sites.  We do the best we can.
	MR. WHITFIELD.  Okay.  But it is the policy of Google now not 
to accept paid advertisement from groups like this?
	MS. WONG.  That is absolutely true.
	MR. WHITFIELD.  Okay.
	Now Ms. Banker, you are with Yahoo!, aren't you?
	MS. BANKER.  Yes, I am.
	MR. WHITFIELD.  Did you want to make any comment about 
any of this?
	MS. BANKER.  I would just note that Yahoo! strives to have an 
open and inclusive and comprehensive search product.  Child 
pornography has no place in it, and for that reason, we use a 
number of techniques to identify and remove child pornography 
from our search index, including technical approaches, such as 
algorithms, reports from our users.  It also reports from third-party 
sources, such as the IWF, to remove that content and report it to 
NCMEC as appropriate.
	MR. WHITFIELD.  Yes.  So you are quite proactive on this issue, 
it sounds like.
	MS. BANKER.  Yes, we think that is appropriate, given the 
nature of the subject.
	MR. WHITFIELD.  Okay.  Okay.
	Now my time has expired.  And in fact, I have gone over.  And 
we have a vote on the floor.  We have three votes.  So I think we 
will take a break right now.  Hopefully they can get this video 
fixed.  Maybe you all could have a drink or a sandwich or 
something, and then we will come back.  We will be back, I would 
say, in about 20 minutes.  So we will recess for 20 minutes.
	[Recess.]
	MR. WHITFIELD.  The hearing will come back to order.
	I apologize for that delay.
	I understand that we now are in a position to show this Virtual 
Global Task Force public service announcement, so if you would 
start it and run it for us, we would appreciate it.
	[Video.]
	MR. WHITFIELD.  Thank you very much for getting that 
prepared for us.
	And at this time, I will recognize Ms. DeGette.
	MS. DEGETTE.  Thank you very much, Mr. Chairman.
	I think we could show that, don't you?  Ms. Wong?
	MS. WONG.  I thought that was a very impressive PSA, and I 
actually would be pleased to discuss with your staff ways that we 
could work with it.
	MS. DEGETTE.  And they customize that for every region that 
they show it in in every country, so I think it is effective.
	I want to thank all of you for coming and for your efforts to 
make the Internet safer.
	The thing I want to say first, because I think we are getting a 
little confused about exactly what we are talking about here, and I 
think we need to know.  There are really a number of interrelated 
issues.  One of them is the solicitation of minors over the Internet 
through chat rooms and other mediums for sex and other activities.  
And I think all of you are making some very important voluntary 
efforts towards parental controls and technology plus parents 
talking to their kids and so on that goes to that.
	The second issue is controlling child pornography over the 
Internet, which is an illegal activity, and which we need to take law 
enforcement methods to stop it.  And there are a lot of issues 
around the first, chat rooms and so on, that I think we can explore.  
But I want to talk for a few minutes about that second issue, about 
how you all can assist law enforcement in what is admittedly 
illegal activity that is happening over the Internet.
	Let me start with you, Mr. Dailey, because you have had a 
broad regulatory authority.  You would agree that nobody who is 
putting illegal information over the Internet would have any 
protection under contractual agreement with the Internet service 
providers, correct?
	MR. DAILEY.  I would expect that is very true for any ISP that I 
can think of.
	MS. DEGETTE.  Right.  And I think nobody here would 
disagree.  All of your contracts say that if you are doing something 
illegal over the Internet, we are going to report that to the 
authorities.  So no one has a privacy interest in illegal activity over 
the Internet, right?
	MR. DAILEY.  I would agree with that.  If there is any activity 
like that, it would be reported.
	MS. DEGETTE.  Right.  Now Mr. Lewis, I wanted to, first of all, 
thank you very much for Comcast's announcement today that it is 
going to retain the customer-identifying data for 180 days.  How 
much do you anticipate that it will cost Comcast to retain that data?
	MR. LEWIS.  I don't have an exact figure.  I can certainly get it, 
but when we looked at the issue in light of recent discussions at the 
Justice Department, with this committee and staff members, and 
among ourselves and with other companies here and trade 
associations, we decided the investment was well worth it.
	MS. DEGETTE.  Yes.  I would wonder, Mr. Chairman, if I could 
ask unanimous consent to have Mr. Lewis supplement his response 
within 10 days to let us know how much that will cost.
	And Mr. Ryan, you stated unequivocally that your company is 
opposed to having to retain that type of data for a 1-year period, is 
that correct?
	MR. RYAN.  We are not opposing any discussion what are the 
best strategies.  We are open.  We are engaged in that discussion.  
In response to the question what the costs would be, we had 
prepared that, because the European Union requested that when 
they went through data retention.
	MS. DEGETTE.  And in fact, just so all of you know this, I am 
about to introduce legislation which would require all ISPs to 
retain customer identification data for a 1-year period.  But the EU 
standards are even broader than that, correct?  And they have 
adopted those standards, correct?
	MR. RYAN.  And each country now has to implement within 
their respective jurisdiction to what extent they are going to adopt 
that.  That is correct.
	MS. DEGETTE.  Right.
	MR. RYAN.  And that was stage one.
	MS. DEGETTE.  Right.  And I know your business and all of the 
other businesses here operate in international communities, so 
everybody is going to have to retain data for some period of time, 
correct?
	MR. RYAN.  That is correct.
	MS. DEGETTE.  Now Mr. Baker, your company retains the data 
for 7 years, correct?
	MR. BAKER.  That is our current policy.
	MS. DEGETTE.  How long has that been your policy?
	MR. BAKER.  Well, it depends which data we are referring to.
	MS. DEGETTE.  The customer identification data that we were 
talking about.
	MR. BAKER.  Right, customer billing address, initial dates of 
service, things like that--
	MS. DEGETTE.  Yes.
	MR. BAKER.  --which is sort of, if you will--
	MS. DEGETTE.  How long has that been your policy?
	MR. BAKER.  I will get you the exact date when that went into 
place, but it has been our policy for some time.
	MS. DEGETTE.  Some period of time.  And how much does it 
cost you to retain those records?
	MR. BAKER.  I don't have figures on that.
	MS. DEGETTE.  Again, Mr. Chairman, I would ask that Mr. 
Baker be allowed to supplement.
	MR. BAKER.  I would be happy to provide this to you.
	MS. DEGETTE.  Ms. Banker, what about your company?
	MS. BANKER.  As mentioned in Microsoft's response on this 
issue earlier, companies like Yahoo! and Microsoft are in a slightly 
different position than some of the other companies--
	MS. DEGETTE.  That is right.
	MS. BANKER.  --so we would look forward to working with 
your staff to get clarity on how something like a data retention 
proposal might apply to a company that is primarily an online 
service.
	MS. DEGETTE.  That is right.
	Mr. Lewis, I wanted to ask you, what caused your company to 
decide to retain the data for 180 days?
	MR. LEWIS.  Well, a variety of things, Congresswoman 
DeGette.  In recent discussions, as part of the Department of 
Justice's working group, kicked off by the Attorney General and 
the FBI Director at the end of last month we became aware of the 
fact that our retention policy was on the shorter side compared to 
many other larger broadband commercial ISPs.  We also, as I 
alluded to in my testimony earlier, had significant technical 
problems last year that unfortunately impeded investigations.  We 
are not proud of that.
	MS. DEGETTE.  Right.
	MR. LEWIS.  And we regret that.  Those factors, combined with 
changed circumstances on the Internet, in particular the new 
aggressiveness and brazenness that we have seen demonstrated 
here today of predators, new forums for them to make their 
contacts and their connections, said to us that it was time to look at 
the policy carefully and revise it in light of our customer privacy 
obligations and commitments and in light of our privacy policies.  
And so that is why we made the decision.
	MS. DEGETTE.  And in fact, I will ask you, Mr. Dailey, there is 
no clear industry standard as to how long ISPs retain this type of 
data, is there?
	MR. DAILEY.  That is correct.
	MS. DEGETTE.  And it varies anywhere from 31 days, which I 
think was Comcast's previous policy, up to 7 years, is that correct?
	MR. DAILEY.  That is what I have heard today.
	MS. DEGETTE.  And I mean, all of you have expressed great 
grave concern for the safety of our children and for the desire to 
eliminate child pornography on the Internet.  But the reason why 
we think it is important for ISPs to retain, not the communications, 
because the communications, those can be reported to different 
authorities, but to retain the identifying data so that during the 
course of law enforcement investigations, administrative or judicial 
subpoenas can be issued so that law enforcement officers can track 
down these perpetrators.  Does that make sense to you, Mr. Lewis?
	MR. LEWIS.  Yes, it does.
	MS. DEGETTE.  Okay.
	MR. LEWIS.  I mean, our experience has been that we actively 
support law enforcement in these investigations, and have 
continuously since we--
	MS. DEGETTE.  Well, I know that, and I mean, the case that we 
have been talking about before today was the case where they 
found out about the child who was being raped on the Internet, and 
they went to Colorado and Comcast had destroyed the records, and 
I am sure that just makes all of your employees around the country 
feel sick.  And it certainly was not intentional on Comcast's part.
	MR. LEWIS.  Well, that is, of course, right.
	MS. DEGETTE.  Yes.
	MR. LEWIS.  I mean, no one feels that more acutely than I do.  I 
am a parent of two small children, myself, and what is depicted in 
that video, as I understand it, is horrifying.  The company is not 
proud of the technical problems we had last year.  And the 
company has decided, in light of recent discussions with DOJ and 
others, to update and support law enforcement investigations with 
respect to child exploitation.  Our commitment today is to extend 
our period to 180 days.  Hopefully that goes a long way toward 
eliminating incidents like we had in Colorado last year.  And that 
is our commitment.
	MS. DEGETTE.  And I hope you are willing to keep working 
with me and my staff so that we can get a standard to the industry.
	MR. LEWIS.  We are.
	MS. DEGETTE.  Just one last question, Mr. Lewis.
	MR. LEWIS.  Yes.
	MS. DEGETTE.  You said that your company favors giving 
NCMEC subpoena power, correct?
	MR. LEWIS.  Yes.
	MS. DEGETTE.  Now are you aware that NCMEC is not a 
governmental agency?
	MR. LEWIS.  We are, and there is certainly--
	MS. DEGETTE.  Do you know of any precedent where we gave 
a non-governmental agency subpoena power?
	MR. LEWIS.  I certainly don't off hand, but we could certainly 
investigate that if that is valuable.
	MS. DEGETTE.  Yes, I don't think that that happened.  And 
furthermore, if they did subpoena records, I don't think they could 
be used in a criminal investigation, so I think it is creative thinking, 
but I don't think it would work.
	Thank you, Mr. Chairman.
	MR. WHITFIELD.  Yes.
	And at this time, I would recognize Mr. Stupak.
	MR. STUPAK.  Thank you, Mr. Chairman.
	I apologize to the witnesses.  I had to run out and speak, and 
unfortunately, at 2 o'clock, I have got to go speak again.
	But earlier in my questions, I talked about going online here 
and putting in "pre-teen," "sex," and "video," and I have Google, I 
have Yahoo!, and I have MSN searches there.  So let me ask a 
couple of questions, if I can, along this.  It looks like Google is the 
most lenient.  On this, when you take a look at it, the first says up 
here, not only do you have the websites, but you also have the 
sponsor links, so everyone else will have a sponsor link.  Do you 
have that up, sponsor links up?
	MS. WONG.  No, and actually once it came to our attention 
from your committee's staff, we made sure that it was removed 
immediately.  The problem appears to have been, we have a black 
list for key words that includes "preteen sex video" but without the 
hyphen.  As soon as we added the hyphen to the list, those no 
longer show.  And in fact, we have added a number of others, 
thousands of other key words to that list.
	MR. STUPAK.  Okay.  Ms. Wong, why do you put on here for 
adults only?  Is there any way to enforce that?
	MS. WONG.  So what we have is a safe search filter, which a 
user can turn on to ensure that there is only the strictest level or the 
moderate level or no filter on their search.
	MR. STUPAK.  But wouldn't this cause more curiosity and 
cause more people to go to your site when you put things like 
"adults only" on it?
	MS. WONG.  Well, I think, for some children it could.  We 
definitely believe, as Chris Hansen had mentioned earlier today, 
that this should be done with the parents' involvement, that the 
children should be having a range of issues to protect them, which 
include putting the computer in the living room.
	MR. STUPAK.  So other than taking off the sponsor links, have 
you done anything else to try to block this?  Because Yahoo! has 
probably got about the best where they actually don't use the same 
type of wording, less suggestive wording, and you can't get in to 
see the videos and all of that.  But yours was about the easiest site 
to access.  And I guess my curiosity is why do we have different 
levels here of the ISPs?  I would think you would all want to be on 
the same page.
	MS. WONG.  Well, from a search engine perspective, as 
opposed to the IP level, I think we all have different algorithms for 
identifying and including things in your index that accounts, in 
part, for why you may see different results.
	MR. STUPAK.  Right.  And since you have different algorithms, 
if you are dealing with sex and pornography on your Net, couldn't 
you have more scrambling in that aspect and keep the rest of your 
search engine easy to access?
	MS. WONG.  Well, we have the safe phish filter, which makes it 
more difficult to access any sort of adult content.
	MR. STUPAK.  But obviously it is not working, because we 
were--
	MS. WONG.  And in addition, we have multiple layers to 
review.  It is terrible that these sites are there, and we should--
	MR. STUPAK.  Well, I think we all agree, but it looks like your 
company is doing the least to try to block it or to stop it.  That is, I 
guess, what I am trying to get at.
	MS. WONG.  Yes, and I think, in addition to the levels of 
review that we try to do to take it out, including getting third-party 
lists and that sort of thing and having our trained teams to try and 
find it, we also have the biggest search engine on the Internet.  We 
have many billions of pages.
	MR. STUPAK.  So it is easier to find it.  It should be easier to 
find it, so I would think you would have more filters and more 
ways to block it than the others if you have the biggest search 
engine.
	MS. WONG.  We have the biggest search engine.  There are 
many more pages to review.  And we are doing the best we can to 
identify as many of the illegal sites as we can and remove them as 
soon as we find them.
	MR. STUPAK.  Well, we have had discussions about this 
consortium that has recently been developed and AOL has sort of 
been leading that consortium.  And the group invited Google to be 
part of it.  And it says here in the article that was printed today you 
have not yet decided to do so.
	MS. WONG.  We absolutely think that that proposal is very 
promising.  We were contacted last week to discuss it, and we are 
actively talking with them about it.  We think there are a lot of 
things that we would like to work with them on, and we are 
actually just sort of flushing out exactly what the proposed work 
would be.
	MR. STUPAK.  Well, who is going to make the decision whether 
or not you join this group?  I would think if you are the biggest and 
have the most, you would want to be part of the group instead of 
trying to go outside the group so you could learn what others are 
doing to block some of these sites.
	MS. WONG.  In terms of who has the ultimate decision, that is 
one that I will be making along with all of my executives.  And in 
addition--
	MR. STUPAK.  Do you anticipate making that decision soon?
	MS. WONG.  Yes, we do.
	MR. STUPAK.  Okay.  When?
	MS. WONG.  I know that the discussion happened over the 
weekend, and I am hoping that we have a decision this week.
	MR. STUPAK.  Okay.  Let me ask Ms. Wong.  In 1998, 
Congress actually passed a law where Internet providers were to 
contact the National Center for Missing and Exploited Children 
and having search engines do some work on that.  Were you ever 
contacted by the Justice Department on that law, Section 13-032?
	MS. WONG.  I believe this is the law that has been challenged 
in the court and the Department of Justice is involved in litigation 
regarding it.  We did receive a subpoena from them, it was a civil 
subpoena, seeking information from our company.
	MR. STUPAK.  Okay.  When did that occur?
	MS. WONG.  That was last summer, I believe in August.
	MR. STUPAK.  Okay.  Prior to receiving that subpoena, did you 
have any discussions with Justice on that proposed law?
	MS. WONG.  No.
	MR. STUPAK.  So the first you knew of it was the subpoena?
	MS. WONG.  We were aware of the law.
	MR. STUPAK.  Right.
	MS. WONG.  But the subpoena was our first involvement in 
their litigation.
	MR. STUPAK.  Okay.  Anyone else care to comment on that?  
Section 13-032, Congress passed a law in 1998 directing Justice to 
take an active role in this, other than the subpoena, anyone else 
have any discussions with Justice about the law, whether they felt 
it was valid or what could be done and not done?  Any of the 
others?
	The reason why I ask, Congress passed the law in 1998.  
Justice came here about a month ago and said, "We think the law is 
faulty."  And so I am trying to see if they ever did any research to 
see if it really was faulty or if this is just their way of suddenly 
doing something because we asked them to come back in 8 years 
later since they have done nothing for 8 years.  By your silence, I 
take it Justice never contacted anybody.
	Okay.  Let me ask this question, if I can, Ms. Banker.  In your 
testimony, you mentioned how Yahoo! trains law enforcement in 
child exploitation issues.  Please explain the different types of 
training programs Yahoo! provides to law enforcement.
	MS. BANKER.  We have a number of programs in place.  We 
focus a lot of our efforts in working with the Internet Crimes 
Against Children Task Forces, which, as I am sure you know, do a 
huge number of investigations when Yahoo! and other service 
providers provide tips to NCMEC.  It is often the ICACs that 
follow up on those.  We have been going around the country to the 
regional ICAC conferences and participate in the national ICAC 
conference on a yearly basis.  We also provide sponsorship for 
these conferences.  In addition to that, we reach out to other law 
enforcement agencies working for organizations, such as the 
National Association of Attorneys General.  We also have been 
providing specific training for child exploitation prosecutors 
through the American Prosecutors Research Institute.
	MR. STUPAK.  I asked Ms. Wong a number of questions about 
Google there, and I indicated Yahoo!, I felt at least, had one of the 
better, different results, much more protected results.  Can you just 
explain the difference between what you do at Yahoo!, how you 
block these sites?
	MS. BANKER.  We can certainly explain how we approach the 
issue.  While Yahoo! strives to have an open and inclusive search 
product, child pornography is contraband, and it has no place in 
our index.  And for that reason, we use several techniques to try 
and eliminate it from the search product.  We use algorithmic 
approaches to identify it.  We also use user reports.  And then we 
use outside agencies, such as the IWF, which provides a list of 
sites that we then remove from our search index.  Once we have 
removed sites, we then report them to the National Center for 
Missing and Exploited Children.
	MR. STUPAK.  Okay.  Mr. Ryan.
	MR. RYAN.  Yes.
	MR. STUPAK.  Mr. Ryan, we had talked, or I had mentioned 
earlier, about Great Britain and how they had, like 18 percent of all 
of the websites on pornography, and now it is down to 0.4 percent.  
And you were in the lead, along with, I think, Yahoo! was the 
other who worked on that.  It worked in Great Britain.  Can it work 
in this country?  Are there barriers to what you did in Great Britain 
that would prevent us from cracking down here in the United 
States?
	MR. RYAN.  Well, what works in Great Britain and what we 
contribute to it is when the IWF does their research and locates 
sites that contain child pornography, they distribute that to 
companies, including our AOL operation in the UK.  And we have 
agreed, to the extent that we have the capability to block access to 
those sites, we do that.  And we do that on a daily basis.  The 
complexity is probably the most direct answer why efforts in the 
United States have not been as successful.  That is not to say when 
we are put on notice or we learn on our own about potential sites, 
we will, and have, blocked access to those sites.
	MR. STUPAK.  Where is the problem?  Is it NCMEC not getting 
the information to you?  I know part of it.  The ISPs, there are only 
like 215 who will voluntarily work with NCMEC while there are 
about 3,000 or more.  What is the breakdown here?  I guess that is 
what I am trying to--
	MR. RYAN.  Well, there is no entity.  NCMEC is not 
proactively searching the Internet for sites that contain child 
pornography.  They are the recipient of reports.
	MR. STUPAK.  Correct.
	MR. RYAN.  They are not proactive.  They rely on law 
enforcement or other entities, such as the IWF, to do the reporting 
for them.  So I mean, I think you are leading towards, I think, a 
good suggestion, an entity like the National Center.  If they could 
be given the resources to conduct similar research, I think that is a 
great avenue to pursue.
	MR. STUPAK.  Well, Great Britain, I read somewhere that, I 
think, Microsoft gave them like $4 million or something to help 
establish this center.  Is that right, Mr. Reitinger?  Oh, that was the 
Canadians.  You gave the Canadians $4 million, right?  Was that to 
establish a center to be proactive to report these sites to monitor it, 
to get them shut down like they did in Great Britain?  Was that the 
reason for it or--
	MR. REITINGER.  Ranking Member, I am not sure precisely 
what you are referring to.  We have worked with the Canadian law 
enforcement officials in several matters.  I think you might be 
referring to our work to develop CETS, the Child Exploitation 
Tracking System.
	MR. STUPAK.  Right.
	MR. REITINGER.  We have committed over $5 million to the 
development and deployment of that system, which is an open 
standards-based tool that can be deployed by law enforcement 
anywhere to cooperate and track child pornographers, child 
exploiters, and work together--
	MR. STUPAK.  But what you are doing in Canada, would that 
work here?
	MR. REITINGER.  Yes.
	MR. STUPAK.  Okay.
	I am sorry, Mr. Chairman.
	MR. WHITFIELD.  Mr. Pickering.
	MR. PICKERING.  Thank you, Mr. Chairman, and thank you for 
your series of hearings on this very important matter.
	Ms. Wong, help me just to understand what the status is 
currently with Google's cooperation with providing the DOJ with 
the information that they requested under COPA.
	MS. WONG.  We have fully complied with the request, as 
narrowed by the Federal judge in San Jose.
	MR. PICKERING.  Now, as I understand it, AOL, Yahoo!, and 
Microsoft complied voluntarily and completely from the very 
beginning, but Google did not and took it to court.  Is that correct?
	MS. WONG.  That is correct.
	MR. PICKERING.  Now in your earlier statement, you said child 
exploitation and child pornography is horrific and vicious.  And 
what I am trying to understand is over time, the policy of Google 
and the culture of Google, is it to view child exploitation and child 
pornography as horrific and vicious, do everything you can to 
cooperate with DOJ and with law enforcement and to not have 
sites that were pulled up earlier when you type in "pre-teen" plus 
"sex" plus "video."  And I think you probably have seen all of 
those sites that came up and would agree that many of them are 
completely unacceptable.  I guess what I am trying to understand, 
has Google, through this process of hearings and through the 
enhanced scrutiny of what is happening on the Internet and the 
danger to children, have you all come to a clear position both 
legally and culturally within your corporation or your policies to be 
more cooperative and more vigilant?
	MS. WONG.  Just to be very clear, we were in long discussions 
with the Department of Justice over that civil subpoena and to also 
explain our process, we comply with criminal subpoenas and all 
law requests on a daily basis.  And in fact, we prioritize requests 
that have to do with child safety.  We are seeking to do a 
turnaround for them in terms of our response within 24 hours, if 
not within a few hours of getting that response.  The civil subpoena 
from the Department of Justice was not directly related to child 
pornography.  It was a request for our entire search index, billions 
of URLs in our index and millions of search queries that were, as I 
understand from the consultant to the Government, intended to 
create a model of the Web, generally to test their theory on 
whether software filtering was actually working.
	MR. PICKERING.  But why was that possible for all of the other 
companies at the table but not possible for Google?  And does it 
show a cultural difference and a marketing and a business 
difference between the companies?  Do you want to be known as 
the company where teenagers can have access to teen pornography 
and where your clients can go into child pornographic sites feeling 
like they will be protected and their information will not be given 
to the Government?
	MS. WONG.  Certainly not.  We, in no case want to be a safe 
haven for child pornographers or anyone engaged in illegal 
activity.  And I couldn't speak to it.  My other colleagues did in 
terms of their response to the Government and how much they 
ultimately produced to the Government.  In our case, we worked 
with the Government for several months to try and give them 
information that would be helpful to them and ultimately weren't 
able to reach an agreement and then to go to the judge.
	MR. PICKERING.  Now as I understand it, too, when the 
committee staff brought this to your attention as to what is 
available on Google's sites, you changed your sponsorship policy, 
and you corrected your protective mechanism to include a hyphen 
when added so that these types of sites would not be pulled up, is 
that correct?
	MS. WONG.  That is right.  We enhanced the blocking list, 
which had several hundred keywords to block on it.  We 
apparently missed the hyphen in "pre-teen," and we have now 
added that and actually thousands of others.
	MR. PICKERING.  And I realize that you all's search engine is 
much larger than most of the other industry companies, but there is 
at least an appearance that Google is not being as cooperative or as 
vigilant on these issues.  And the question is, is there a desire by 
Google to be free of all?  And as you know, there are some people 
that take a position that constitutionally, everything goes: child 
pornography, child exploitation, even bestiality; all of those things 
should be accessible and should be constitutionally protected.  And 
I guess what I am trying to understand, do you have a corporate 
culture that leans toward that philosophical view?  And do you 
want to have a business plan with that philosophy?  Or do you, as 
you testified, view it as horrific and vicious and that you need to be 
vigilant in both your corporate policy, your legal policy, and to 
stop having your search engine pull up these types of things and 
have sponsorships on it?  It seems like the committee hearings and 
the oversight has created a change in policy.  But what we want to 
know is, is this a real change or is this simply for public relations 
during a time of scrutiny?
	MS. WONG.  Congressman, our entire company feels very 
deeply that we want no part of child pornography, or any obscenity 
that is illegal.  We also, from our executives on down, are deeply 
committed to this in our actions and principles.  In fact, my CEO, 
Eric Schmidt, was recently speaking in Europe and personally 
committed to the endeavor to remove all of this from our search 
engine and any of our services.
	MR. PICKERING.  Well, let me, one, commend you for changing 
your policies and correcting and protecting.  But let me also tell 
you, we will be watching very closely, and we want all of the 
companies to be good actors.  We don't want any bad actors in this 
industry and for the Internet.  We will, as a committee, and I think 
you can see, be very vigilant and will not rest until we have the 
right assurances and policies and, if necessary, legislation to more 
effectively protect our children.
	So thank you, Ms. Wong.
	MS. WONG.  Thank you.
	MR. PICKERING.  Mr. Chairman, I yield back.
	MR. WHITFIELD.  Thank you, Mr. Pickering.
	We are going to have another quick round here, and I 
understand there may be another member or two coming.  But we 
are getting close to the end here.
	I would like to ask Mr. Baker, one of the first hearings we had, 
we had a young man named Justin Berry that received a lot of 
publicity around the country.  And he was very brave to come in 
and talk about how he became involved in this whole child 
molestation issue.  And he ended up meeting people at rendezvous 
locations and so forth.  But he mentioned the fact that he really 
became involved in this, not that there is one issue that did it, but 
he did say that he received a free webcam from EarthLink that was 
given as an incentive to sign up.  And I was just curious, do you all 
still give away webcams for encouraging people to sign up?  Not 
that there is anything wrong with it, but I was just curious if you 
do.
	MR. BAKER.  No, Mr. Chairman.  We have not distributed 
webcams since 2002.
	MR. WHITFIELD.  Okay.  Okay.
	And Mr. Ryan, I know one of the measures that you all take, 
and I guess you mentioned this a little bit earlier, to find and shut 
down illegal activity involves hashing of images and monitoring of 
chat rooms.  And it is my understanding that your company is the 
only one that has the hashing technology?  Or is that correct or 
not?
	MR. RYAN.  I can't speak with certainty about that.  In fact, 
since the Coalition has been formed, a couple of my colleagues, 
some of them here today, have illustrated they do have some tools 
available that they are utilizing that work within their network.  
And that speaks to the potential benefit of the Coalition, to bring 
all of those resources together, share what works and may work in 
other network environments.  So I am optimistic that my 
colleagues are doing something and that collectively we can do 
more.
	MR. WHITFIELD.  So every company at the panel today is 
represented in that task force?
	MR. RYAN.  Not everyone, but certainly the invitation extends 
to everyone, and we will have a dialogue with everyone.
	MR. WHITFIELD.  Which companies do belong to that task 
force?
	MR. RYAN.  EarthLink, Yahoo!, and Microsoft.
	MR. WHITFIELD.  Okay.  Okay.  Would you just elaborate a 
little bit on hashing, the way that works?
	MR. RYAN.  The way it works in our environment is every time 
a file is uploaded or downloaded, when I say "file," I mean the 
attachment to an e-mail transmission, we work with the National 
Center.  They have identified referred files that they believe, by 
their expertise, to contain child pornography.  Each file contains a 
unique signature.  And we populate a database at AOL with those 
signatures associated with files that have been identified by 
NCMEC as containing child pornography.  Any time a file is 
attempted to be transmitted through our network, it is matched 
against that populated database.  If it contains a signature that has 
been identified with child pornography, we remove that, we 
package it, and we refer that to the National Center for 
investigation.
	MR. WHITFIELD.  Now I am not sure that you all are 
responsible for what goes on in Europe with your companies, but, 
from your understanding, how would you measure the 
effectiveness that we are having with this problem in the United 
States as compared to, say, the European Union?
	MR. RYAN.  Well, I could speak with some authority with that, 
because we work closely with our colleagues in the UK with this 
project.  Because it is one common network, the AOL UK 
operation is actually using the AOL network here in the United 
States, here in Virginia.  When the IWF makes a request to the 
AOL UK to block a site, that request actually comes to us here in 
the United States and technicians that work under, my direction 
implement that block.  So that block is not only effective for access 
or attempted access by UK subscribers but also the entire AOL 
subscriber base.
	MR. WHITFIELD.  Yes.
	Would anyone else want to address the European Union issue?
	Okay.  All right.  Oh, let me have one other question here.
	Mr. Lewis, in responding to Diana DeGette's questions, you 
talked about some of the technical problems that prevented 
Comcast from tracing IP addresses for some law enforcement 
subpoenas or whatever.
	MR. LEWIS.  Yes.
	MR. WHITFIELD.  What efforts did Comcast make to remedy 
that problem?  And from your perspective, has that problem been 
solved?
	MR. LEWIS.  Yes, I am happy to report that the problem has 
been solved, and we believe our systems are working fully in 
supporting all of our legal and law enforcement practices as well as 
our own internal practice.  The problems are very technical and 
complicated, having to do with rolling out what is called a 
provisioning system, the software and hardware that issues 
accounts to customers, lets us add new customers quickly, and lets 
them get service quickly so they could use what they purchased 
from us.  It became apparent slowly over time last year, in 
particular to the legal response center team that handles law 
enforcement requests, that we may be having a problem.  They 
went back and did independent investigation with the technology 
teams that have built this system and, in the early summer, 
determined that there were problems.  We acted quickly to 
mobilize the technical teams to address the problems.  We had 
weekly conference calls with senior vice presidents and myself to 
emphasize the importance of these fixes and to make them quickly.  
And at the same time, the legal response center instituted a series 
of manual processes so that we could support as many legal and 
law enforcement requests as we could while we worked to fix the 
system.  That process continued throughout the fall of last year and 
early into this year.  The new fixes, if you will, for the software 
system were ready at the beginning of this year.  They were tested, 
tested again, and rolled into production this spring.  And as I said, 
the problem is now remedied.  We took it very seriously.  The 
problems impacted not only our support for law enforcement, 
which of course was a primary concern, but our ability to run and 
manage other aspects of our business.  We had every incentive in 
the world to make these fixes quickly and efficiently, and we 
worked as hard as we could to make them.  And we believe now 
the problems are behind us.
	MR. WHITFIELD.  Thank you, Mr. Lewis.
	I recognize Mr. Stupak.
	MR. STUPAK.  Thank you, Mr. Chairman.
	Mr. Reitinger, the Financial Coalition Against Child 
Pornography, which you are part of, was supposed to bring 
together Internet industry leaders, leading banks, credit card 
companies, third-party payment companies, and Internet service 
companies, including Microsoft.  And you are joined with the 
National Center for Missing and Exploited Children in the fight 
against child pornography.  Our information tells us that 
pornography on the Internet is a $21 billion industry where 
downloading music is about a $3 billion industry.  It is seven times 
greater.  Can you explain what is happening there?  And I would 
really be interested to see what are the credit card companies and 
the third-party payment companies doing?  Because it seems like 
as long as I have a credit card, I can buy anything on the Internet 
with any name, with any address, with any location.  So how 
would you crack down on this Internet sale?
	MR. REITINGER.  Thank you, Ranking Member.
	The credit card companies, and I don't want to do too much 
speaking for them, because we are not a credit card company, and 
they face challenges, because it can be hard to determine what a 
merchant is doing or not doing.
	MR. STUPAK.  Sure.
	MR. REITINGER.  Like the Internet companies, they have no 
interest in supporting child pornography.  Everyone wants to 
expunge child pornography from their systems.  And so this is a 
joint effort for companies, like the financial services companies, 
some key Internet companies, and the National Center to figure out 
and share best practices and mechanisms to expunge the use of 
those systems, those credit card payment systems from supporting 
the distribution of child pornography.
	As a former law enforcer, I can tell you this is sort of a tried 
and true technique.  One of the classic ways to go after crime is to 
go after the money pieces, the old--
	MR. STUPAK.  Absolutely.  I mean, on this committee, in the 10 
years I have sat on it, 12 years, we have done things like we have 
had cats actually buy Viagra over the Internet.  As long as we had 
a credit card, we could buy anything we want.  And with this 
pornography, it seems the same way, or to drug masking agents 
that we have had hearings on earlier this year.  I agree with you.  If 
we go after the money, we could dry up part of this, but we just 
can't seem to get anywhere.  So I was wondering if you were 
looking at that aspect and if you had any suggestions we could 
make today.  Or would you let us know if you move along in that 
direction?  Because if you get the money, I think we can, not 
completely, but at least cut down on this.  I mean, with seven times 
greater than downloading music, it is pretty disturbing.
	MR. REITINGER.  Thank you, sir.
	I don't have any specific suggestions to offer today.  I would 
like to go back and check with people in our company that are 
more specifically involved in that.
	MR. STUPAK.  Okay.
	MR. REITINGER.  But clearly, in terms of investigation, as you 
suggest, following the money is a great way to go to really bring 
these people to justice.
	MR. STUPAK.  Mr. Chairman, I think one more thing we should 
do is to get credit card companies and the third-party payment 
companies--I really think we should get them in and see what they 
are doing on this issue, much like we have had the ISPs here.
	MR. WHITFIELD.  We are planning to do that.
	MR. STUPAK.  Good.
	Whoever wants to answer this, maybe go down the line.  I have 
a couple quick questions here, if I can.
	Do you all support requiring ISPs to keep parent-child 
pornography reports to make to the National Center for Missing 
and Exploited Children for at least a 90-day period, even before a 
preservation order is made?  Mr. Ryan?
	MR. RYAN.  Yes, that is the proposal that we are submitting 
today and are prepared to do on a voluntary basis.
	MR. STUPAK.  Okay.
	Mr. Baker?
	MR. BAKER.  We would be prepared to do so as well.
	MR. STUPAK.  Okay.
	Ms. Banker?
	MS. BANKER.  Yahoo! actually already maintains a significant 
amount of that information, and we would be happy to look at a 
proposal to make sure we conform.
	MR. STUPAK.  Okay.
	Mr. Dailey?
	MR. DAILEY.  Verizon would be willing to do that as well.
	MR. STUPAK.  Okay.
	Mr. Lewis?
	MR. LEWIS.  Comcast would be willing as well, sir.
	MR. STUPAK.  Mr. Reitinger?
	MR. REITINGER.  We do that, sir.
	MR. STUPAK.  Ms. Wong?
	MS. WONG.  We would be prepared to do it.
	MR. STUPAK.  Okay.  Then would you all support giving 
NCMEC the preservation order authority so that NCMEC can 
directly request the ISPs keep the child pornography image, IP 
address, and other information which would cut down on the time 
it takes for local law enforcement to be able to get the preservation 
order?
	Mr. Ryan?
	MR. RYAN.  Yes, AOL supports that.
	MR. STUPAK.  Okay.
	MR. BAKER.  Yes.
	MR. STUPAK.  Ms. Banker?
	MS. BANKER.  Yes, we support that.
	MR. STUPAK.  Mr. Dailey?
	MR. DAILEY.  Verizon does as well.
	MR. LEWIS.  Comcast as well, sir.
	MR. REITINGER.  Yes, sir.
	MS. WONG.  Yes, we would support it.
	MR. STUPAK.  Okay.  We are going pretty good.  How about 
one more?
	Do you all support following the voluntary submitting 
guidelines that AOL and other ISPs developed with NCMEC to 
report child pornography?  DOJ has never issued the rules that the 
1998 law is talking about, so some of the ISPs took the initiative to 
develop their own rules, and DOJ has refused to allow the ISPs, 
who have created the guidelines, to send it to other ISPs.  That is 
why we only have 215 ISPs who have registered with NCMEC.  
So would you support voluntarily submitting the guidelines that 
AOL and the others have developed for this purpose?
	MR. RYAN.  Yes, AOL supports that.
	MR. STUPAK.  Mr. Baker?
	MR. BAKER.  Yes, I believe so.
	MS. BANKER.  Yes, Yahoo! supports that.
	MR. STUPAK.  Okay.
	MR. DAILEY.  Verizon supports that with one comment or 
caveat, and this is something I reported in my testimony.  It is the 
issue of a clarification under 13-032 that when an ISP submits an 
image along with their report to NCMEC that that would be 
clarified and indicate that it is not a distribution of child 
pornography.  So we think that that is a useful clarification--
	MR. STUPAK.  Right.
	MR. DAILEY.  --to the extent any ISP is not reporting images at 
that point, and we think that would be helpful.
	MR. STUPAK.  I know the DOJ has got some problem with that, 
which we are still trying to understand up here.
	MR. DAILEY.  But other than that, we do support it.
	MR. STUPAK.  All right.  Okay.
	Mr. Lewis?
	MR. LEWIS.  Yes; with the clarification that has been 
mentioned, we would support that, sir.
	MR. STUPAK.  Okay.  Mr. Reitinger?
	MR. REITINGER.  Yes, sir; we support that.
	MR. STUPAK.  Ms. Wong?
	MS. WONG.  Yes.
	MR. STUPAK.  Okay.  Do you all support including location 
information along with the ISP address to NCMEC?
	MR. RYAN.  Yes.  In fact, AOL initiated it.
	MR. STUPAK.  You do, at any rate?
	Mr. Baker?
	MR. BAKER.  Yes.
	MS. BANKER.  We currently comply with that practice.
	MR. STUPAK.  Okay.
	MR. DAILEY.  Yes, in general for Verizon Online, we would 
support that notion.  It is a question of availability and 
appropriateness, depending on the type of report.  Since we are 
dealing sometimes with spam, e-mails, things like that that we send 
in, I am not sure it always applies, but when it applies, we certainly 
would provide that.
	MR. STUPAK.  Okay.
	Mr. Lewis?
	MR. LEWIS.  Yes, if the information is available to us, we 
would support that.
	MR. STUPAK.  Okay.
	MR. REITINGER.  Yes, sir; if available.
	MS. WONG.  Yes.
	MR. STUPAK.  One more question.
	Do you all support requiring the ISPs to take proactive steps to 
block child pornography from traveling on your network?
	Mr. Ryan, I know you are already doing this.
	MR. RYAN.  Yes, we are committed to that.
	MR. STUPAK.  Correct.
	MR. BAKER.  Yes.
	MR. STUPAK.  Ms. Banker?
	MS. BANKER.  Yes, we currently take proactive measures to 
locate child pornography.
	MR. STUPAK.  Okay.
	MR. DAILEY.  Verizon has not actually joined the technology 
group that has been pulled together.
	MR. STUPAK.  Right.
	MR. DAILEY.  But we do support the notion of using 
technology, and we will support investigations into that.
	MR. STUPAK.  Okay.
	MR. LEWIS.  We would do so likewise.
	MR. REITINGER.  Sir, we already filter images uploaded to 
groups and spaces.
	MR. STUPAK.  Okay.
	Ms. Wong?
	MS. WONG.  We are joining the others in looking at those new 
technologies.
	MR. STUPAK.  Okay.  Thank you.  I wish all of the questions 
were that easy.
	Thank you, Mr. Chairman.
	MR. WHITFIELD.  Thank you.
	At this time, I will recognize the full committee Chairman, Mr. 
Barton of Texas.
	CHAIRMAN BARTON.  Thank you, Mr. Chairman.
	I apologize for not being in here for the hearing in its entirety.  
I have got about five different things I have been working on 
today, and I just wasn't able to be here.
	But this is one of the highest priority issues before, not only 
this subcommittee, but this full committee.  And if we have a good 
hearing tomorrow, which I am expecting that we will, it is my 
intention to touch base with our leadership on the Minority side, 
and, based on the hearing record, see if we can't develop very 
quickly a comprehensive anti-child pornography piece of 
legislation.  This is a serious, serious issue, and the parents of 
America, and I think the Congress, is tired of just talking about it.  
I think we are ready to take fairly drastic and definitive action in a 
comprehensive way to really put a damper on child pornography in 
this country.  So I am thankful for this panel of witnesses.
	I really only have one generic question.  And Mr. Stupak was 
asking some very good specific questions, but my generic question 
is if we can prove that an Internet site is engaged in child 
pornography or transmitting images that have child pornography in 
them, why is it not possible to immediately terminate that site?  
That is my generic question.  I mean, you have to be able to have 
some agency of the Government, I guess, definitively say, "That is 
child pornography."  But once that is established, why can't we 
just immediately cut off that site so that nobody else can get to it?
	MR. RYAN.  John Ryan from AOL, sir.
	Certainly once we have noticed that a site is hosting child 
pornography, we can take measures to block access on behalf of 
our members who may seek access to that site.  If your question, 
though, is to terminate that site, that action must be directed to the 
host of that site.  And many times AOL is rarely the host of that 
type of site but merely a dumb conduit to that site.  So blocking 
access is one measure.  Terminating that site, in your language, is 
another measure.
	CHAIRMAN BARTON.  I am not computer-literate, so, in 
laymen's terms, what I am getting at is the brief in here talks about 
hotline tips and stuff, about 1,500 a week are able to be determined 
that they are exhibiting, exposing, transmitting child pornography.  
What I would like to see, and I am willing to put it into law, if it is 
necessary, that once you have established not waiting for a court to 
go out and convict the people that are operating the site, but just 
immediately, if termination is the wrong thing, deny access so that 
nobody can get to it.  I mean, just put in the law if a specific site is 
determined that it does have child pornography content, as soon as 
that is established, boom, nobody gets to it.  And even if they have 
these dynamic IP addresses, it would have to help if you can't go 
back to the site.  Yes, sir.
	MR. REITINGER.  Thank you, Chairman.
	I think I can say for probably everyone on the panel that if on 
one of our properties, for example a space or a group or an 
individual website someone uploads child pornography, the 
moment we discover that, either through an external report or 
through our own filtering mechanisms, we immediately, and I can 
certainly speak for us, take that site down.  
	CHAIRMAN BARTON.  You do that today?
	MR. REITINGER.  Yes.  And we report the matter to NCMEC, 
the National Center for Missing and Exploited Children.
	CHAIRMAN BARTON.  Well, that is my only question, if nobody 
else wishes to answer.  I just am very concerned about this, and I 
would assume that all of our witnesses support whatever steps are 
necessary to lessen this scourge.  And there is not any civilized 
society in the world where child pornography is legal.  And it is 
certainly not legal in the United States, so whatever we need to do 
in the Internet age to really go after it, I am totally for.
	I would be happy to yield to Mr. Stupak.
	MR. STUPAK.  Yes, Mr. Chairman, if you would.
	The last question that you asked, do you take down the site 
immediately, Mr. Reitinger, you said you do, AOL does.  Do the 
rest of you?  Because it is my understanding that not all of you do 
that.
	Mr. Baker?
	MR. BAKER.  No, if it is a site we host, we would take it down 
immediately.
	MR. STUPAK.  Okay.
	Ms. Banker?
	MS. BANKER.  Any time we detect child pornography, we do 
remove that content from our site immediately.
	MR. STUPAK.  Okay.
	MR. DAILEY.  If it is on a Verizon server, we will remove it.
	MR. STUPAK.  Okay.
	MR. LEWIS.  And the same for us.  If it is within our control, 
we will remove it and report it to NCMEC.
	MR. STUPAK.  Okay.
	Ms. Wong?
	MS. WONG.  Yes, as soon as we are aware of it.
	MR. STUPAK.  Okay.
	Thank you, Mr. Chairman.
	CHAIRMAN BARTON.  And I want to thank Mr. Stearns for 
letting me go out of order.
	And I yield back, Mr. Chairman.
	MR. WHITFIELD.  Thank you, Mr. Chairman.
	At this time, I will recognize Mr. Stearns.
	MR. STEARNS.  Thank you, Mr. Chairman.
	Let me ask each of you.  How many of you have chat rooms?  I 
am going to be a little elementary here.  Just raise your hand if you 
have a chat room.
	Okay.  So you are putting your hand this way.  Why are you 
not giving a yes or no for a chat room?  Just if you don't mind, 
move the mic a little closer to you.
	MR. REITINGER.  I am not fully up to speed on this, sir, but we 
used to have chat rooms, and I think we still do, but only as part of 
a subscription service.
	MR. STEARNS.  So if a person subscribes to a Microsoft system 
service, they would have a chat room?
	MR. REITINGER.  There are specific services you could 
subscribe to where a chat room would be available.  Yes.
	MR. STEARNS.  Would be available.  Okay.
	Within these chat rooms, I guess to the three of you then, can 
you outline what safeguards you have in these chat rooms?  It is 
pretty elementary.
	Go ahead, Mr. Ryan.  Why don't you start?
	MR. RYAN.  Yes, sir.  First of all, with the Kids Online service, 
which is for minors only, those are completely monitored.  Every 
chat room that is made available and the parents enable their minor 
to access those chat rooms, then they are monitored in real time by 
AOL staff who are empowered.  In fact, the written testimony has 
pointed out, we receive training from experts at the National 
Center to look out for warning signs for potential, what was 
referred to earlier as, "grooming" of these minors in an effort to 
either send them a contact--
	MR. STEARNS.  So let us say we have, what, five people, ten 
people?  How many people do you have?
	MR. RYAN.  Oh, no.  There are hundreds.
	MR. STEARNS.  Hundreds of people who are monitoring this 
chat room.  And let us say they find a grooming, then what 
happens?
	MR. RYAN.  It is reported immediately to the National Center 
for their review and investigation.
	MR. STEARNS.  And then the National Review Center, have 
they been cooperative with you?  Have they responded?
	MR. RYAN.  Yes, this is the partnership that we entered into as 
a best business practice, and in fact, it has been responsible for 
over 153 arrests since the program was initiated approximately 2� 
years ago.
	MR. STEARNS.  Okay.
	Next, I think it is Ms. Banker.  Would you say Yahoo! then--
	MS. BANKER.  Yes, Yahoo! does offer chat rooms to our users.
	MR. STEARNS.  And do you have safeguards?
	MS. BANKER.  We do have safeguards in place.  First of all, our 
chat service is restricted to users are registered with us as being 18 
or older.  We also have built-in safety content as part of our chat 
service and include a report abuse link as part of every chat 
window.  So whenever a user is in using the chat room, if they see 
something inappropriate, they can immediately click that link.  We 
have built special tools to enable user reporting that is particularly 
useful for our customer care service when they are reviewing 
reports and allow any reports that would indicate activity involving 
solicitation of a minor or illegal content that we can escalate those 
reports immediately and report them to the National Center for 
Missing and Exploited Children.  We have also been engaged in a 
dialogue with the National Center and the Internet Crimes Against 
Children Task Forces about how we might further improve our 
chat product.
	MR. STEARNS.  Anything that you might want to add?
	MR. REITINGER.  Yes, sir, and I apologize because, again, I am 
not fully aware of all of the details of the chat, but our chat 
services are, to the best of my knowledge, only available as a part 
of subscription service.  So there will be financial information 
associated with that, which makes things more traceable.  We also 
provide general education to users about Internet safety and safe 
use of services and also have abuse reporting mechanisms 
available in case there is abuse.
	MR. STEARNS.  I chair a subcommittee.  We dealt with 
videogames, and the question came up, the folks who were making 
the software and the ratings system were saying that a person has 
to be over 17 to purchase this game.  Well, we showed that you go 
on the Wal-Mart site, and they say, "Are you over 17?"  And the 
person could just check off "yes."  So Ms. Banker, how can you 
corroborate that they are any age group or not?  Like you said that 
you make sure it is only a certain age group.  I mean, how do you 
confirm that?
	MS. BANKER.  At the point of registration, Yahoo! asks users to 
provide their date of birth so that we have an age available in our 
system.  Our terms of service require that they provide true and 
accurate information.  And I agree with you that it is a very 
difficult problem around verifying that age.  We certainly looked 
into whether there are systems available that we could implement 
that would allow us to continue to offer the robust array of free 
services that we currently have.  And we have not been able to 
identify a technology that is really available that would allow us to 
do that at this point.
	MR. STEARNS.  Yes.
	Now when you are trying to monitor these chat sites and you 
feel that you have all of these people, do you believe that we, as 
Federal legislators, could have additional authority to allow you to 
be more proactive searching and eradicating, for example, if you 
find something and you want to retain it on your hard disk or you 
want to keep a file of this, you might be a little bit nervous to 
keeping all of this in your library here, because you might be 
accused of what you are trying to eradicate.  So I guess the 
question is do you think anything legislatively needs to be done to 
allow safeguards to protect you in your eradication process and 
your proactive activities?
	This could be anybody, if they want.  It is an open-ended 
question if anybody feels that there is some legislative fix that 
would be helpful for you.  If not, I mean, just say no.
	MR. DAILEY.  In the context of NCMEC reporting, as I 
mentioned earlier, we have indicated in our testimony, this is Tom 
Dailey speaking from Verizon, that we would like to see some 
protection built into 13-032 so that as we are reporting images to 
NCMEC along with our reports in the CyberTipline that we would 
not find ourselves also being accused of disseminating 
pornography when we are trying to report it.
	MR. STEARNS.  Well, that is why I asked the question.
	MR. DAILEY.  Thank you.
	MR. STEARNS.  Okay.  So maybe Mr. Dailey, my last question 
is directed to Verizon.  You might want to just establish for the 
record.  The staff has indicated to me that Verizon was unable to 
make reports using the CyberTipline in January through March of 
this year.  I guess the question is why, or you might just want to 
elaborate on that.
	MR. DAILEY.  Yes, thank you very much for the opportunity to 
do so.
	There was a period of time at the beginning of this year for 
roughly 3 months where we were having a combination of things, 
really.  We were having a transition from one organization to 
another, of security personnel.  Essentially, the people actually 
have to do the work, transitioning from one employee who left to 
another.  And then there was a reorganization.  And unfortunately, 
that left us, frankly, not able to report, anything that had come into 
our inbox, into our security box.  So it was really an administrative 
problem on our part that was corrected.  And once we got 
ourselves reestablished with our security organization, there was a 
brief period of time where we had some technical issues in terms 
of hooking into the CyberTipline that caused some delay, but it 
was really an organizational problem on our end.  And once we 
were able to get that individual back in place, reviewing the abuse 
logs, he did go back and try and find those that had built up over 
time and report them.  In all of the cases, though, that we have 
reported since then, approximately 116 at last count, none of them 
were images.  They were all falling into the general category that I 
referred to earlier as what I would call child pornography spam.  
These are e-mails that people sent to us saying that they had 
received them.  We sort of broadened our scope of what we 
thought was reportable, and we forwarded them on.  So these are 
not cases where people were reporting active solicitations or 
predation or even images.
	MR. STEARNS.  Did you make reports to the NCMEC through 
another channel?
	MR. DAILEY.  At this time, no.
	MR. STEARNS.  Okay.  Okay.
	Mr. Chairman, that is all of the questions that I have.  Thanks.
	MR. WHITFIELD.  Thank you, Mr. Stearns.
	At this time, I will recognize Mr. Walden if he has any 
additional questions.
	MR. WALDEN.  Thank you, Mr. Chairman.
	Mr. Lewis, is it currently possible to have 100-percent response 
rate, that is in response to every law enforcement request Comcast 
could identify a subscriber?
	MR. LEWIS.  That would certainly be the goal.  That is what we 
strive for.  The reality is that the systems that support our over 9 
million customers and growing every day are extraordinarily 
complex and are dispersed throughout the country where we serve 
our customers.  It is always our goal.  We are not satisfied with less 
than 100 percent.  The reality of working with large, complicated 
hardware and software systems is there is always a small failure 
rate.  We are working to minimize that as much as possible.
	MR. WALDEN.  Sure.
	Is Comcast trying to develop a system or a program that would 
allow them to fix those instances where they cannot identify a 
subscriber?
	MR. LEWIS.  Well, as I mentioned earlier, we corrected the 
problems that we had last year and into early this year.  Those 
problems are now fixed, and as far as we are aware, there are no 
remaining issues.  We are actively monitoring the network.  The 
Legal Response Center team that handles these requests 
periodically tests the system with sample data and throws hundreds 
of thousands of queries at it and analyzes the results by hand to 
make sure that the data coming back is accurate and verifiable.  
Our primary goal in supporting legal and law enforcement requests 
is not only to provide a prompt response, it is to provide an 
accurate response, because no one's interests are served, law 
enforcement's, the companies', or certainly customers', with 
inaccurate responses.  So we are actively monitoring the system.  
We believe it works well.  We are currently testing it, and in 
conjunction with the rollout for the 180 days that we announced 
earlier, we will be doing further testing to verify the integrity and 
accuracy of that system.
	MR. WALDEN.  I want to follow up on that 180-days issue.  In 
your testimony, you said that you support the concept of data 
preservation with regard to informations relative to NCMEC for 
those sorts of referrals.  Does Comcast do that already?
	MR. LEWIS.  We do, to the extent that we run into reportable 
events over NCMEC.  The nature of our business is somewhat 
different from some of the other companies here today.  We don't 
provide extensive features for customers to meet or congregate, 
such as chat rooms, nor do we provide widely used features for 
customers to upload or make content available publicly.  We 
primarily provide a premium, high-speed Internet connection with 
e-mail accounts that people use how ever they see fit.  Where we 
run into reportable NCMEC events in the overwhelming majority 
of cases is actually through our interaction with customers 
typically in their homes.  A standard scenario would be a Comcast 
service technician would go to a home to install cable modem 
service or to repair a problem and as the first panel and Mr. 
Hansen's video demonstrate, many of the people involved in this 
activity are quite brazen.  A technician will go to the customer's 
computer, turn it on, and see what appear to be child exploitation 
or pornography images on the computer.  They may observe 
magazines or other photographs on a coffee table.  And in cases, 
the customer may approach the technician and ask him or her if 
they are interested in seeing more pictures like this.  It is horrifying 
and amazing.  And understandably, our technicians want to get out 
of there as quickly as possible.  And our policy and procedure is 
for them to report these incidents immediately to their supervisors 
who are, in turn, instructed to report them to the legal department.  
I will field many of the requests personally.  We will interview the 
technician, and we will make a determination whether it is 
reportable to NCMEC or not.  We made several reports ever since 
we have operated our service since early 2002, and I can assure 
you that we err on the side of reporting if there is any doubt.
	MR. WALDEN.  Thank you.
	Mr. Reitinger, why did the number of reports that you sent to 
the CyberTipline increase in the past year?  Was this due to a 
filtering device that Microsoft uses?
	MR. REITINGER.  Sir, I think the stats for the last year actually 
went down slightly.
	MR. WALDEN.  Really?
	MR. REITINGER.  But my information was between the year 
before and last year they went down slightly.  And I don't know 
the causality for that.
	MR. WALDEN.  Okay.  But do you use some sort of filtering 
device now that--
	MR. REITINGER.  We do use a filtering device.  We use a 
proprietary algorithm that scans images when they are uploaded to 
spaces or groups.  And if they are flagged as pornography, then 
they are reviewed.  And if it constitutes reportable child 
pornography, we make a report to NCMEC.
	MR. WALDEN.  But did the filtering itself increase reports to 
NCMEC?  Did that help?
	MR. REITINGER.  I would have to get back to you on that.  I am 
not personally aware of the correlation, but I know there has been 
some discussion about that.
	MR. WALDEN.  Okay.  You would think it would.  But I mean, 
I would appreciate knowing that.
	And this is a question to all of the companies.  Is there anything 
legislatively that you believe you would require in order to do 
more to eradicate child pornography from your networks?  I know 
in earlier testimony, I don't remember if it was Mr. Ryan or Mr. 
Baker who made the comment about a concern of transmitting data 
to law enforcement, could you potentially be prosecuted because 
you are transmitting child pornography, in effect, as part of giving 
the law enforcement a tip.  Aside from something like that, what 
needs to be done legislatively?  What would you recommend?
	MR. RYAN.  Well, that is not a concern of AOL.  We believe--
	MR. WALDEN.  Right.
	MR. RYAN.  --the current reporting statute authorizes us, in fact 
mandates us, to forward that to the National Center if, in fact, that 
is part of the report that we receive.
	MR. WALDEN.  Right.
	MR. RYAN.  I would just echo some of the comments that were 
made earlier with respect to when we are more proactive, when we 
were not operating under statutory guidelines but we do want to do 
more proactive searching and filtering, that we enjoy the 
protections of immunity during the processing of that information 
if it does contain potential images that are illicit, that we are 
covered and protected in these.
	MR. WALDEN.  So you believe you are covered?
	MR. RYAN.  Under the existing statute.
	MR. WALDEN.  All right.
	Mr. Baker?  Was it you who raised that issue?
	MR. BAKER.  I think it was Mr. Dailey who raised the point, 
and I will let him speak for himself.
	MR. WALDEN.  Okay.
	MR. BAKER.  But to the extent that there is legislation, let me 
put it this way, if it is not already clear that the investigation of a 
child pornography complaint is not possession and that the 
transmittal of such a complaint to NCMEC is not transmission, 
then it should be made clear.
	MR. WALDEN.  Okay.  But beyond that though, go ahead.
	MR. BAKER.  And if I may just go a step further, regarding the 
technology alliance that several of us have announced, it is another 
additional benefit of that in that we will not actually be 
transmitting images but rather just the digital signatures that are 
assigned to certain images.  So that does add another layer of 
protection as well.
	MR. WALDEN.  All right.
	Ms. Banker?
	MS. BANKER.  I would just add to those comments that one of 
the key things that we really think could be done legislatively is to 
give the National Center for Missing and Exploited Children the 
ability to issue preservation requests when they receive tips from 
the CyberTipline so that they can immediately contact ISPs who 
may have information related to those tips and have them preserve 
data.
	MR. WALDEN.  And I want to hear from the others in the 2 
minutes I have, but I also want to throw one other thing up because 
we heard this in prior testimony at a prior hearing, and that was 
from kids who said one of the most damaging things they have is 
the notion that as a child, in some cases, their sexual images were 
put up on the Internet.  Is there ever a way to scan and retrieve and 
destroy those?  Or are they out there for life?  And I just throw that 
out, because that was a real troubling feature, I think, for 
everybody.  Something that may have been done to them as an 
infant could be on the Internet forever.  Is there a way to 
technologically scan and destroy?
	MS. BANKER.  I don't know if there is a way technologically 
today to do that, but a number of us are going to be working 
together as part of a Technology Coalition, and we will be looking 
at a number of different issues.  And I think that is certainly a very 
important and valid issue to add to the agenda.
	MR. WALDEN.  It would seem to me if you could search for 
different things, you might be able to search for a known image, 
identify it, and then somehow destroy it.  I don't know.  I don't 
know how you all make ones and twos do what you do.
	Anyway, Mr. Dailey?
	MR. DAILEY.  Actually, Mr. Baker is correct.  It was I that 
raised the point about assuring that reports to NCMEC would not 
be considered distribution of child pornography, and the problem is 
that there does appear to be some ambiguity, at least in our 
opinion, in terms of the distribution laws under Section 22-52(a).  
So our thinking was a clarification in the NCMEC statute 13-032 
would be relatively simple to make and would help eliminate any 
ambiguity.
	MR. WALDEN.  Right.
	MR. DAILEY.  And beyond that, I would second Ms. Banker's 
comments about adding preservation authority to NCMEC.
	MR. WALDEN.  All right.
	MR. LEWIS.  From the Comcast perspective, sir, to the extent 
there are any technical discrepancies or ambiguities in the 
reporting statute, clearly we support closing those.  Another 
legislative option I would ask the committee to consider would be 
increased funding and support for law enforcement.  In the close 
relationships we have with many law enforcement agencies, they 
often are forced to choose and make difficult decisions about cases 
to pursue or not based on their available resources.  We have 
provided and would be willing to provide additional forensic and 
other training and support to help them do their job better to work 
with us, and I think resources for law enforcement as well as 
training and expertise from the private sector would help 
significantly.
	MR. WALDEN.  Okay.  With regard to this NCMEC issue and 
the right to subpoena and all, have you discussed that with 
NCMEC?  What is their response, if you have?  And I am way 
over my time.
	MR. RYAN.  Yes, I can address it.  I actually serve as the 
chairman of the Law Enforcement Committee as a board member 
at the National Center.
	MR. WALDEN.  Right.
	MR. RYAN.  And there was a proposal submitted to the full 
board that was approved 2 weeks ago endorsing the notion of 
getting legislative authority for preservation requests for the 
National Center.
	MR. WALDEN.  All right.  All right.
	Mr. Reitinger, Ms. Wong, if you want to--
	MR. REITINGER.  I will just briefly echo Mr. Lewis' comments.  
As a former, again, law enforcer, it is my view that no child 
predator or exploitation or pornography case should go 
unprosecuted for want of resources.
	MR. WALDEN.  Good for you.
	MR. REITINGER.  It is just too critical an area.  And the training 
and forensic difficulties and pure agent time can be disabling for 
Federal law enforcement.
	MR. WALDEN.  All right.
	Ms. Wong?
	MR. REITINGER.  That is it.
	MS. WONG.  We would echo the calls for preservation ability 
for NCMEC, because that seems to handle a lot of the issues that 
law enforcement is having.  In addition, we have been working 
with WiredSafety to develop materials that train local community 
police officers to go into schools and train the children and putting 
together materials and software for them.  And I think legislation 
that would fund that type of education across the board for parents, 
police officers, and kids would do a great deal, as Chris Hansen's 
testimony earlier spoke of.
	MR. WALDEN.  All right.  Thank you very much.
	MR. DAILEY.  May I add one more point to that?  This is just a 
personal service announcement, but I think the notion of getting 
into the curriculum in our schools, our elementary schools, 
education on cybersecurity is every bit as important as many of the 
other things that are there.  As the parent of two kids, as I 
mentioned at the outset, both of whom have gone through the 
Fairfax County schools, neither one of them got any cyber 
education up through the fifth or sixth grade.  I think there are 
some changes maybe afoot in Fairfax County, but I think that is 
something that ought to be mandatory for all kids.
	MR. WALDEN.  Perhaps it should be mandatory for all parents 
of all kids, too.
	MR. DAILEY.  I would agree with that, too.
	MR. WALDEN.  Thank you.
	Thank you, Mr. Chairman.
	MR. WHITFIELD.  Thank you, Mr. Walden.  And I want to 
thank all of you for being with us today.  I am sure it has been an 
enjoyable day for you.  You have been here a few hours, and--
	MR. STUPAK.  Mr. Chairman, before they all leave we have 
talked a lot, but we never got to peer-to-peer, a little bit of this 
material, and when we talk about images, we have to find a way to 
block the peer-to-peer from person to person, and whether it is 
Comcast, Verizon, or AT&T, we have to be able to take that.  So 
when you are meeting on your 21st Coalition, or whatever they call 
it there, I hope they take that aspect into it.  That is a whole other 
part of this hearing.  We could go on for an hour just on the peer-
to-peer stuff.  And Mr. Walden talked about the pictures.  Those 
are some of the things we are concerned about.  How do you stop 
the peer-to-peer?  So I would be interested in some suggestions 
like that.
	MR. WHITFIELD.  Absolutely.
	And as you heard, Mr. Barton talked about some legislation, so 
I am sure that you will be hearing more from Mr. Barton and his 
staff and the committee staff about that.
	And without objection, we will move all of these documents 
into the record, include them formally into the record.  And 
certainly, we will keep the record open for 30 days.  And then 
tomorrow, we will continue this hearing.
	But you all are dismissed at this time.  And thank you, again, 
for your cooperation and expertise.
	Thank you.
	[Whereupon, at 2:57 p.m., the subcommittee was adjourned.]



             MAKING THE INTERNET SAFE FOR KIDS: THE ROLE OF 
                   ISP'S AND SOCIAL NETWORKING SITES


                        WEDNESDAY, JUNE 28, 2006

                        HOUSE OF REPRESENTATIVES,
                   COMMITTEE ON ENERGY AND COMMERCE,
             SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS,
                                                            Washington, DC.

	
	The subcommittee met, pursuant to notice, at 2:05 p.m., in 
Room 2123 of the Rayburn House Office Building, Hon. Ed 
Whitfield (Chairman) presiding.
	Members present:  Representatives Whitfield, Walden, 
Burgess, Blackburn, Barton (ex officio), Stupak, DeGette, Inslee, 
and Dingell (ex officio).
	Staff present:  Mark Paoletta, Chief Counsel for Oversight and 
Investigations; Alan Slobodin, Deputy Chief Counsel for Oversight 
and Investigation; Karen Christian, Counsel; Kelly Andrews, 
Counsel; John Halliwell, Policy Coordinator, Mike Abraham, 
Legislative Clerk; Ryan Ambrose, Legislative Clerk; David 
Nelson, Minority Investigator.
	MR. WHITFIELD.  I would like to call this hearing to order and I 
certainly want to welcome everyone today.  Today we hold the 
second day of hearings on making the Internet safe for children, 
the role of Internet service providers and social networking sites.
	Yesterday we heard from the Internet service provider 
community about what they are doing to eradiate child 
pornography from their networks and to facilitate law 
enforcement's ability to investigate and prosecute those predators 
and purveyors of child pornography.  I was pleased to learn about 
the new initiative of AOL, Yahoo!, Microsoft, Earthlink, and 
United Online announced yesterday which brings the technological 
expertise of these companies together for the sole purpose of 
coming up with proactive solutions to purge their networks of child 
pornography.
	Today we will hear testimony about the social networking sites 
for children and teens.  Unlike the Internet, social networking sites 
have grown in popularity among children and teenagers.  As an 
example, in its testimony today, Fox Interactive Media, the parent 
company of MySpace.com, notes that it has approximately 
250,000 new registered users per day and there are currently 85 
million members.  We will also hear testimony from two other 
networking sites, and due to the fact that the social networking 
sites like MySpace, Xanga, and Facebook are free to register and 
there is no way to verify the age of the users, and adults certainly 
can access those sites and it is very difficult, at least it is my 
understanding, to determine what the age really is, that is an issue 
that we certainly want to focus on.
	I look forward to hearing from each of the three sites today 
about their products and how they encourage safe social 
networking among their young users.  I hope MySpace, Xanga, 
and Facebook, working with State and Federal law enforcement 
agencies, State attorney generals, Congress, the National Center 
for Missing and Exploited Children, and others can develop a gold 
standard to create a safe environment for children.  We also look 
forward to the testimony today of representatives from the Federal 
Trade Commission and the FCC.
	Finally, I want to thank Detective Dannahey from the Rocking 
Hill, Connecticut, Police Department for agreeing to testify on 
such short notice about his fascinating work on a social networking 
site and to educate the subcommittee members about how these 
sites could be used by child predators to endanger our children.  I 
certainly want to also thank the attorney general from Connecticut 
for testifying at the hearing about his thoughts on enhancing safety 
for children on social networking sites.
	[The prepared statement of Hon. Ed Whitfield follows:]

PREPARED STATEMENT OF THE HON. ED WHITFIELD, CHAIRMAN, 
SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

        TODAY WE HOLD THE SECOND DAY OF HEARINGS 
ON "MAKING THE INTERNET SAFE FOR KIDS: THE ROLE 
OF ISP'S AND SOCIAL NETWORKING SITES."  
YESTERDAY WE HEARD FROM THE INTERNET SERVICE 
PROVIDER COMMUNITY ABOUT WHAT THEY ARE 
DOING TO ERADICATE CHILD PORNOGRAPHY FROM 
THEIR NETWORKS AND FACILITATE LAW 
ENFORCEMENTS ABILITY TO INVESTIGATE AND 
PROSECUTE THESE OFFENSES.  I WAS PLEASED TO 
LEARN ABOUT THE NEW INITIATIVE AOL, YAHOO, 
MICROSOFT, EARTHLINK AND UNITED ONLINE 
ANNOUNCED YESTERDAY WHICH BRINGS THE 
TECHNOLOGICAL EXPERTISE OF THESE COMPANIES 
TOGETHER FOR THE SOLE PURPOSE OF COMING UP 
WITH PROACTIVE SOLUTIONS TO PURGE THEIR 
NETWORKS OF CHILD PORNOGRAPHY.  
	TODAY, WE WILL HEAR TESTIMONY ABOUT SOCIAL 
NETWORKING SITES FOR CHILDREN AND TEENS. 
UNLIKE THE INTERNET-SOCIAL NETWORKING SITES 
HAVE GROWN IN POPULARITY AMONG CHILDREN AND 
TEENAGERS. AS AN EXAMPLE, IN IT'S TESTIMONY 
TODAY, FOX INTERACTIVE MEDIA, THE PARENT 
COMPANY OF MYSPACE.COM NOTES THAT IT HAS 
APPROXIMATELY 250,000 NEW REGISTERED USERS PER 
DAY AND THERE ARE CURRENTLY 85 MILLION 
MEMBERS.
	DUE TO THE FACT THAT SOCIAL NETWORKING SITES 
LIKE MYSPACE, XANGA AND FACEBOOK ARE FREE TO 
REGISTER, AND THERE IS NO WAY TO VERIFY THE AGE 
OF THE USER CHILDREN AND ADULTS CAN LIE ABOUT 
THEIR AGE. I LOOK FORWARD TO HEARING FROM EACH 
OF THE THREE SITES ABOUT THEIR PRODUCTS AND 
HOW THEY ENCOURAGE SAFE SOCIAL NETWORKING 
AMONG THEIR YOUNGER USERS.  I HOPE IS THAT MY 
SPACE, XANGA, AND FACEBOOK WORK WITH STATE 
AND FEDERAL LAW ENFORCEMENT AGENCIES, STATE 
ATTORNEY GENERALS, CONGRESS, THE NATIONAL 
CENTER FOR MISSING AND EXPLOITED CHILDREN AND 
OTHERS CAN DEVELOP "GOLD STANDARDS" TO CREATE 
A SAFE ENVIRONMENT FOR CHILDREN.  WE ARE ALSO 
LOOKING FORWARD TO THE TESTIMONY OF THE FTC 
AND THE FCC. 
	FINALLY, I WOULD LIKE TO THANK DETECTIVE 
DANNAHEY FROM THE ROCKING HILL CONNECTICUT 
POLICE DEPARTMENT FOR AGREEING TO TESTIFY ON 
SUCH SHORT NOTICE ABOUT HIS FASCINATING WORK 
ON A SOCIAL NETWORKING SITE AND TO EDUCATE THE 
SUBCOMMITTEE MEMBERS ABOUT HOW THESE SITES 
COULD BE USED BY CHILD PREDATORS TO ENDANGER 
OUR CHILDREN. I WOULD ALSO LIKE TO THANK THE 
ATTORNEY GENERAL FROM CONNECTICUT FOR 
TESTIFYING AT THE HEARING ABOUT HIS THOUGHTS 
ON ENHANCING SAFETY FOR CHILDREN ON SOCIAL 
NETWORKING SITES.  

	MR. WHITFIELD.  At this time, I would like to recognize the 
Ranking Member, Mr. Stupak of Michigan, for his opening 
statement.
	MR. STUPAK.  Thank you, Mr. Chairman, for continuing these 
hearings that are so vital to the safety of our children.
	Yesterday, Chris Hansen of Dateline NBC showed us how 
pervasive the grooming of children by online predators is.  He 
expressed concern about how pedophiles use social network sites 
including MySpace, Facebook, and Xanga.  These websites have 
grown exponentially in a matter of months.  Xanga has 29 million 
subscribers.  MySpace is a little over 18 months old and already 
has 85 million subscribers, up from 30 million when Newscorp 
bought it last summer.  These sites are also extraordinarily popular 
with children and adolescents.  Twenty-two million of MySpace's 
members are underage.  Clearly the social networking sites have 
developed a massive following.
	However popular that they are, these sites cannot survive if 
they act as a fertile hunting ground for predators seeking children 
to exploit, use them, or worse.  Whatever social need they fulfill, 
these websites cannot be allowed to serve as an unfretted avenue 
for pedophiles to stroll and troll, so how do we clean up these 
sites?  The root of the problem is the inability or unwillingness of 
these networks to limit communications to age-appropriate groups.  
Chris Hansen told us yesterday that the predators they encountered 
were all over the age of 18.  While I am sure that these social 
networking sites do provide opportunities for teens to prey 
sexually on other teens, it is adult pedophiles that we are concerned 
about.  MySpace and its competitors do ask children their ages.  
Federal law requires that they establish that their clientele is at 
least 13 years of age but too often these social networking sites use 
an honor system to determine the ages of children on their sites.  
Only recently after a flurry of bad publicity that is affecting their 
bottom line and their public image did these social networking 
sites appear willing to invest in cleaning up their networks.  While 
these recent efforts are appreciated regardless of their motivation, 
much more must be done.
	Each of these social networking sites must take aggressive and 
immediate measures to keep young kids off their systems, enact 
meaningful safeguards for teens, and seek out and block child 
predators from their systems.  MySpace will describe various 
interim steps that they have taken to try and protect 14- and 15-
year-olds while the company searches for the holy grail of the 
effective age-determining software.  They will also try to discredit 
the "no one under 18" policy that for instance Yahoo! imposes on 
the use of its chat rooms by saying kids will just lie about their age.  
This argument misses the point.  The point is that the pedophiles 
don't shop the 18 and over crowd, they aim for the 22 million or so 
MySpace underage users.  I believe MySpace wants nothing to do 
with pedophiles and is willing to spend the money to limit their 
access to MySpace.  However, it is clear that the steps that 
MySpace and its competitors have taken thus far are woefully 
insufficient.
	Every week another news article appears about another child 
harmed by a predator that found his victim on MySpace.  When 
our staffs were given a tour of the FBI's Innocent Images Control 
Center for Internet Child Abuse Crimes, an agent went online 
posing as a 13-year-old girl that liked soccer.  No other 
information was provided.  This fictitious 13-year-old drew six 
responses from men seeking inappropriate conversation within the 
15 minutes that the staff observed the exercise.  Chris Hansen told 
us yesterday that we may be wrong about the statistic that one in 
five children have been approached sexually online.  He said a 
Dateline NBC commissioned study suggested the number was 
closer to one in three.  Sites that encourage teens to reveal their 
personalities, likes and dislikes, and express their thoughts online 
will by their very nature attract predators.
	With my law enforcement background, I understand the danger 
that these sites pose to our children if the status quo continues.  
Saying that nothing can be done to keep our children safe is no 
longer an option.  One could argue that Congress should simply 
wait for the sites to implode because of the bad publicity or let the 
free market force these sites to act more responsibly, but the free 
market has failed to date and made online child pornography a 
multibillion dollar industry.  Every day we wait for the companies 
to change, millions of children are left vulnerable.  I would suggest 
to the committee and to our witnesses that our patience is wearing 
thin.  If we do not start seeing real change with real results, 
Congress will need to act swiftly to address this issue.
	With that, Mr. Chairman, I yield back the balance of my time.
	MR. WHITFIELD.  Thank you very much.  Mr. Walden, did you 
want to make an opening statement?
	MR. WALDEN.  No.
	MR. WHITFIELD.  At this time I recognize the gentleman from 
Michigan, our Ranking Member, Mr. Dingell, for an opening 
statement.
	MR. DINGELL.  Mr. Chairman, thank you for your courtesy.  I 
wish to add my congratulations for an excellent series of hearings 
regarding the scourge of child pornography over the Internet.  This 
is a dirty business as the hearings show.  It is in need of substantial 
legislative correction.  You, Representative Stupak, and the other 
members of the subcommittee have done a fine job of identifying 
many methods used by the pedophiles and predators who abuse our 
children for perverted fun and profit.  You have also identified 
many of the weaknesses in our system that allow these unfortunate 
abuses to flourish.
	Industry counterparts in the United Kingdom have volunteered 
to do their part.  I am curious, why haven't ours and why can't 
they?  In the United Kingdom, Internet service providers, ISPs, 
must take down every site identified as a child pornography site by 
national and international law enforcement within 48 hours of 
notification.  Further, these Internet firms must block all users of 
their platforms from accessing identified child porn sites 
worldwide.  Moreover, I note that if these companies also find an 
effective way to block identified images from being transferred 
over their networks, they could make a considerable dent in the 
for-profit business of supplying pictures and videos of children 
raped, defiled, and tortured.  The Internet industry must also find 
more effective ways of cooperating with law enforcement and 
perhaps they should show a bit of desire to do so.  Why can't data 
that links IP addresses to physical locations be stored longer and 
accessed on a much more timely basis in response to subpoenas 
from Federal, State, and local investigators?  Why shouldn't all 
information relating to identified child porn sites be properly 
forwarded to law enforcement and stored for use in future 
prosecutions?  There also needs to be continuing oversight of the 
Federal agencies that under current law are responsible for dealing 
with this problem.  The Attorney General makes quite a point of 
the priorities this Administration places on catching and 
prosecuting these predators but does his department's child 
exploitation section share his sense of urgency?  Where are the 
regulations necessary to ensure consistent and effective ISP 
reporting of offending images?  Why are ISPs not required to 
register, resulting in less than 20 percent of these firms reporting 
any child porn information to the National Center for Missing and 
Exploited Children?  And there are serious questions whether the 
Federal Trade Commission and the Federal Communications 
Commission have the authority and the resources necessary to 
provide much oversight.  Federal, State, and local enforcement 
agencies have done an excellent job given the fact that they have 
limited resources available.  We must provide more funding, 
particularly for the interagency Internet Crimes Against Children 
Task Forces that are fighting an uphill battle against those who 
abuse our children.  More funds need to be appropriated for 
forensic computer capability so that the prosecutions can proceed 
on a timely basis.  We must act aggressively to address this 
epidemic of evil which threatens our children.  Today's hearing, 
which will shed further light on these new social networking 
websites that have captivated so many of our children and provided 
such a fertile hunting ground for predators, is an important step.
	I look forward to working with you, Mr. Chairman, and all of 
my colleagues to fight this scourge, and I will do everything I can 
to work with you and my colleagues to make this an effective 
undertaking.
	I yield back the balance of my time.
	[The prepared statement of Hon. John D. Dingell follows:]

PREPARED STATEMENT OF THE HON. JOHN D. DINGELL, A 
REPRESENTATIVE IN CONGRESS FROM THE STATE OF MICHIGAN

        Mr. Chairman, let me add my congratulations for an excellent 
series of hearings regarding the scourge of child pornography over 
the Internet. You, Rep. Stupak, and the other members of the 
Subcommittee have done a commendable job identifying the many 
methods used by the pedophiles and predators who abuse our 
children for perverted fun and profit. You have also identified 
many of the weaknesses in our system that allows this abuse to 
flourish. 
        Industry counterparts in the United Kingdom have volunteered 
to do their part - why can't ours? In the United Kingdom, Internet 
Service Providers (ISPs) must take down every site identified as 
child pornography by national and international law enforcement 
within 48 hours of notification. Further, these Internet firms must 
block all users of their platforms from accessing identified child 
porn sites worldwide. 
        Moreover, I note that if these technology companies also find 
an effective way to block identified images from being transferred 
over their networks, they could make a considerable dent in the 
for-profit business of supplying pictures and videos of raped, 
defiled, and tortured children. 
        The Internet industry must also find more effective ways of 
cooperating with law enforcement. Why can't data that links IP 
addresses to physical locations be stored longer and accessed on a 
much more timely basis in response to the subpoenas from Federal, 
State, and local investigators? Why shouldn't all information 
relating to identified child porn sites be promptly forwarded to law 
enforcement and stored for use in future prosecutions? 
        There also needs to be continuing oversight of the Federal 
agencies that under current law are responsible for dealing with 
this problem. The Attorney General makes quite a point of the 
priority this Administration places on catching and prosecuting 
these predators. But does his Department's child exploitation 
section share his urgency? Where are the regulations necessary to 
ensure consistent and effective ISP reporting of offending images? 
Why are ISPs not even required to register, resulting in less than 
20 percent of these firms reporting any child porn information to 
the National Center for Missing and Exploited Children? And there 
are serious questions whether the Federal Trade Commission and 
the Federal Communications Commission have the authority and 
resources necessary to provide much oversight. 
        Federal, State, and local law enforcement agencies have done 
an excellent job, given the limited resources available. We must 
provide more funding, particularly for the interagency Internet 
Crimes Against Children taskforces that are fighting the uphill 
battle against those who abuse children. More funds need to be 
appropriated for forensic computer capability so that prosecutions 
can proceed on a timely basis. 
        We must act aggressively to address this epidemic of evil that 
threatens our children. Today's hearing, which will shed further 
light on these new social networking Web sites that have 
captivated so many of our children and provided such a fertile 
hunting ground for predators, is an important step. I look forward 
to working with all my colleagues to fight this scourge.

	MR. WHITFIELD.  Thank you, Mr. Dingell.  We appreciate your 
opening statement.  Dr. Burgess, do you have an opening statement 
this afternoon?
	MR. BURGESS.  No.
	MR. WHITFIELD.  At this time, I will recognize Ms. DeGette of 
Colorado.
	MS. DEGETTE.  Thank you very much, Mr. Chairman, for 
another important hearing on how we can protect our children from 
the increasing use of the Internet by pedophiles and rapists.
	Yesterday we talked mostly about the access provided by 
Internet service providers to those who commercialize these 
images and today of course we are going to continue the 
examination that began yesterday with Chris Hansen of Dateline 
NBC.  Today we are going to talk about social networking groups, 
a relatively new Internet phenomenon where millions of kids and 
teens post personal information on the web to share with peers and 
to meet new friends.  This may be a new phenomenon but it is a 
familiar one to me because I have two daughters, ages 12 and 16, 
who have used some of these websites and fortunately, as far as I 
know, have not been solicited for improper purposes, but the 
problem is, of course, predators are now flocking to these sites and 
using them for improper purposes.  I am particularly pleased, Mr. 
Chairman, that you asked Detective Frank Dannahey of the 
Middletown, Connecticut, police force to testify today because like 
so many dedicated law enforcement officers, Detective Dannahey 
is in the trenches investigating the ways predators prey upon our 
children trying to track down as much of the problem as possible 
and so he can help us understand just how easy it is for pedophiles 
to infiltrate these websites where large groups of kids are having 
dialogs and find out more about them than any private eye could 
have before the advent of companies like MySpace.
	MySpace has received so much of this attention because it is 
the largest of these social networking sites.  Estimates are that 
nearly 85 million users have established personal pages on their 
network over just the last 18 months and apparently there are 22 
million minors who have pages on the site but Mr. Chairman, there 
is another number that should trouble us greatly.  According to a 
news report, MySpace has only 54 million unique users.  That 
leaves 31 million pages for duplicate postings, and I wonder how 
many of these 31 million users claim to be multiple ages.
	One thing we do know and one thing I am interested hearing 
about in the testimony is that MySpace has no mechanism in place 
to identify the people who request postings on their network, much 
less to verify their ages.  Yesterday we were told that Yahoo! 
limits its chat rooms to persons over the age of 18, and Microsoft 
requires payment for its forum, thus limiting its use to people who 
possess a credit card, which would in most cases be a demographic 
that skews older, but it is certainly not foolproof.  I suspect that 
Yahoo!, MSN, and other sites who try to limit access only to adults 
are far less attractive hunting grounds for predators seeking sex 
with a child, but one thing I am interested in hearing from 
everybody from the detective on down is, how we can protect 
around minors and others who just get around these restrictions 
that people try to put in place.  I myself saw my 12-year-old 
daughter do it by just--not on MySpace but on a different age-
restricted website where she just typed in a different birthday and 
was able to pretend she was somebody older.  We need to keep in 
mind, and I think actually Congressman Burgess mentioned this 
yesterday, Masha Allen, who was the 13-year-old who begged us 
to help her take down the images that were posted on the web by 
the man who adopted her and raped her from ages five to ten.  
Well, certainly that was not someone she met in the chat room.  
She stands as a plea for all of these teenagers and younger who are 
being abused over the Internet, and all of us need to work together-
-Congress, parents, police agencies, and the companies themselves, 
to stop the pedophiles from using what should be a tool to keep an 
open and honest way of communication and finding legitimate 
ways to have new friends for nefarious purposes. 
	So Mr. Chairman, I look forward to hearing the witnesses 
today and I yield back the balance of my time.
	MR. WHITFIELD.  Thank you, Ms. DeGette, and at this time I 
recognize the full committee Chairman Mr. Barton, who has been 
particularly supportive of our efforts in these series of hearings and 
recognize him for his opening statement.
	CHAIRMAN BARTON.  Thank you, Chairman Whitfield, for the 
fifth day of hearings on this continuing problem that we are trying 
to address.
	Today we are going to hear from some of our law enforcement 
individuals and from some of the social workers and some of the 
websites that are designed especially for children and teenagers.
	Yesterday we heard from the Internet service providers.  They 
testified before this subcommittee and announced their plans to 
implement new initiatives or policies to make their networks safer 
for children.  For example, one provider said that it would lengthen 
the time that it keeps its data.  Another would no longer accept 
advertising from websites who claim to include sexual images of 
teenagers.  The group of the providers including some of the 
largest in the country, AOL, Yahoo!, MSN, and Earthlink, 
announced the coalition to create the Center for Child Protection 
Technologies at the National Center for Missing and Exploited 
Children.  This center is going to be dedicated to developing new 
technologies and law enforcement strategies to detect and prevent 
the transmission of child pornography over the Internet.
	Today we are going to hear from social networking sites about 
what they are doing to keep their sites safe for children.  These 
sites are something completely different than any experience most 
of us in this room have ever had when we were children.  
Facebook and MySpace are like high school yearbooks except that 
the world looks at them, and some of the people looking 
unfortunately are predators hunting for prey.  Almost every day 
there is a new report describing an adult who was able to 
communicate with a child or teenager through a social networking 
site.  Sometimes these contacts end in tragedy, a child being 
assaulted by an adult after meeting online.  I want to know what 
the social networks are doing to ensure that predators are not able 
to exploit their websites to meet children.
	I understand that some of the social networking sites who will 
testify before us today have recently strengthened their safeguards 
for children on their sites.  I appreciate that these sites are devoting 
additional resources and attention to the issue.  However, it is 
important that they continue to be vigilant so that they remain one 
step ahead of the predators who seek to use their sites to abuse 
children.
	This isn't an academic exercise for me.  I have a stepdaughter 
who is a junior in high school.  She has a profile on one of these 
sites.  Her mother has been very vigilant with her about 
communicating what she can and cannot put on her profile and 
who she can and cannot share it with in terms of giving certain 
specific information to.  So I am very concerned not just as a 
legislator, but as a stepparent about the issue that is before us 
today.
	There is no greater priority than the fight against child 
pornography and the sexual exploitation of children over the 
Internet.  As I announced yesterday, at the conclusion of these 
hearings it is my intention to work with Mr. Dingell and others on 
the Minority side to craft a comprehensive anti-child pornography 
piece of legislation that will if necessary give additional tools to 
help win this fight.  Again, as I said yesterday, I think the Congress 
is tired of talking about it and I think the parents of America are 
tired of talking about it.  I think it is time for us to take responsible, 
reasoned action to protect our children against these despicable 
child predators that are on the loose right now in our land.
	And with that, Mr. Chairman, I yield back.
	[The prepared statement of Hon. Joe Barton follows:]

PREPARED STATEMENT OF THE HON. JOE BARTON, CHAIRMAN, 
COMMITTEE ON ENERGY AND COMMERCE

        Thank you, Chairman Whitfield, for convening this second day 
of hearings on the role of Internet Service Providers and social 
networking sites with regard to the sexual exploitation of children 
over the Internet.
	Yesterday, some of the Internet Service Providers who testified 
before this subcommittee announced their plans to implement new 
initiatives or policies to make their networks safer for children.  
For example, one provider announced its intentions to increase its 
data retention period.  Another provider confirmed that it will no 
longer accept advertising from websites who claim to include 
sexual images of teenagers.  In addition, a group of providers, 
including AOL, Yahoo!, MSN, and Earthlink, announced that they 
will join together to create the Center for Child Protection 
Technologies at the National Center for Missing and Exploited 
Children.  This center will be dedicated to developing new 
technologies and law enforcement strategies to detect and prevent 
the transmission of child pornography over the Internet.
	Today, we will hear from social networking sites about what 
they are doing to keep their sites safe for children.  Almost every 
day, there is a new report describing how an adult predator was 
able to contact and communicate with a child through a social 
networking site.  Sometimes, these contacts end in tragedy, with 
the child being assaulted by an adult he or she met online.  
        I want to know what the social networks are doing to ensure 
that predators are not able to exploit their websites to meet 
children.  I understand that some of the social networking sites 
who will testify before us today have recently strengthened their 
safeguards for children on their sites.  I appreciate that these sites 
are devoting additional resources and attention to this issue.  
However, it is important that they continue to be vigilant so that 
they remain one step ahead of the predators who seek to use their 
sites to abuse children.
        There is no greater priority than the fight against child 
pornography and the sexual exploitation of children over the 
Internet.  As I announced yesterday, I intend to pursue 
comprehensive anti-child pornography legislation in order to help 
win this fight.  For this reason, I look forward to hearing your 
thoughts and proposals on what can be done by law enforcement, 
by the industry, and by Congress to make the Internet safer for our 
children.
	I look forward to hearing from the witnesses and yield back the 
balance of my time.


	MR. WHITFIELD.  Thank you, Mr. Barton.
	At this time I recognize Mrs. Blackburn of Tennessee.
	MRS. BLACKBURN.  Mr. Chairman, I have no statement.
	MR. WHITFIELD.  Thank you.  I think we have concluded all 
the opening statements so at this time I would like to call the 
witness on the first panel, Detective Frank Dannahey of the Rocky 
Hill Police Department from Rocky Hill, Connecticut, and 
Detective Dannahey, we appreciate your being with us today to 
share with us your experiences on this very important topic.  As 
you know, in Oversight and Investigations, we like to take 
testimony under oath.  I am assuming you have no difficulty doing 
that.
	MR. DANNAHEY.  No, not at all.
	MR. WHITFIELD.  And I am also assuming you do not have the 
need for legal counsel today.
	MR. DANNAHEY.  No, I don't.
	MR. WHITFIELD.  If you would raise your right hand.
	[Witness sworn.]
	MR. WHITFIELD.  Thank you, very much, and you are under 
oath now and you are recognized for 5 minutes to give your 
opening statement, which we look forward to.

STATEMENT OF FRANK DANNAHEY, DETECTIVE, 
ROCKY HILL POLICE DEPARTMENT

	MR. DANNAHEY.  Thank you, Mr. Chairman.
	Good afternoon, Chairman Whitfield, Ranking Member 
Stupak, and members of the subcommittee.  I am Detective Frank 
Dannahey of the Rocky Hill, Connecticut, Police Department.  I 
have been a member of law enforcement for the past 25 years.  For 
the last 15 years I have been assigned to the youth division of the 
Rocky Hill, Connecticut, Police Department.
	Over the last 7 years I have been involved in investigations and 
education concerning Internet crimes against children.  I have 
served in an online undercover capacity to detect Internet 
predators.  My current efforts involve safety programs directed 
towards parents, students, school officials, and law enforcement.  
In the past 7 years I have seen technology change in a direction 
that both benefits and assists online predators in carrying out their 
criminal activities.  With the majority of America's teens online, 
the pool of potential victims is vast.
	In February 2006, an incident occurred in Middletown, 
Connecticut, that attracted national attention.  Seventeen females 
from the ages of 12 to 16 were victims of sexual assault by older 
males that they met on MySpace.com.  All of these crimes 
occurred within a very short period of time.  I was asked by the 
Middletown Police Department to assist them with parent 
programs on Internet safety.  As these programs for Middletown 
were being developed, we were contacted by Dateline NBC.  
Dateline was interested in profiling these crimes as well as 
reporting on the educational programs for parents.
	While preparing for the educational programs, I became 
involved in an online test of teen vulnerability.  In a departure from 
the normal type of online undercover scenario, I took on the role of 
a teen male named Matt.  Matt was a 19-year-old new kid in town 
who was looking for online friends from Middletown, Connecticut.  
I was particularly surprised and shocked to see that a majority of 
young teens who were 14 and 15 years old allowed Matt onto their 
private page.  The information on a private page is not viewable by 
anyone else unless that person allows someone on as a friend.  
Some teens questioned Matt about who he was before allowing 
him on their MySpace page as a friend.  Many teens allowed him 
on as a friend with no questions asked.  Once Matt was allowed on 
the teenagers' MySpace pages, it became immediately obvious that 
personal information was readily available and easily volunteered.  
I was able to find out such information as where a teen lived, 
worked, their full names, and date of birth, where they went to 
school as well as home and cellular phone numbers.  Photos posted 
on teen sites were usually photos of themselves that could assist in 
locating them.  Some of the photos are highly inappropriate if not 
provocative.  It was not uncommon to see photos of teens involved 
in underage drinking, drug use, and risky behavior.
	As Matt became friends with teens online, he had access to 
messages known as bulletins.  These bulletins can only be viewed 
if you have friend status.  Through these bulletins, I was able to 
gain much personal information about my online friends.  
Teenagers readily discuss their social activities and provide phone 
numbers to contact them.  One time I saw a real-time message 
from a teen telling the exact location that she and her friends were 
about to walk to.  If I had devious intent, I could easily stalk or 
intercept her and her friends.  Many of the teens use bulletins to 
post surveys that reveal very personal information about them.  
Surveys that can be viewed by the general public are also a 
common sight on a teen's web page.  In one case I found a 377-
question survey on the site of one of my online friends, who was a 
15-year-old female.  This survey included the teen's personal 
information as well as her likes and her dislikes.  These surveys 
assist predators in establishing a dialog with the teen as they 
attempt to infiltrate that teen's online world.
	One of the most concerning incidents of the Matt online 
experiment occurred when one of my online friends suggested that 
we meet in person.  The in-person meet is the most dangerous 
scenario online.  Teenagers meeting an online stranger sometimes 
become the victim of sexual assault or worse.  The 16-year-old 
female that made the suggestion to meet in person communicated 
with Matt on a daily basis.  This teen later said she allowed Matt to 
become one of her online friends because she saw that other teens 
she knew were also friends of Matt.  I found that teens are very 
trusting of people they meet online and very willing to share their 
personal thoughts and information with virtual strangers.
	As the Matt experiment was drawing to a close, three mothers 
of Matt's online friends agreed to share their child's online 
interactions with Matt with the Dateline NBC viewing audience.  
The three teen females, who were 15 and 16 years old, were 
unaware that they were part of the online experiment when they 
were interviewed by Dateline correspondent Rob Stafford.  
Stafford asked the girls if they provided personal information on 
their MySpace site and they told him that they did not post 
personal information.  He also asked them if they would talk to a 
stranger online.  The girls said that they would not.  At one point in 
the interview I was brought into the room and introduced to the 
girls as Matt, their online friend.  The surprised girls were then told 
about all the personal information that Matt was able to find out 
about them.  The three girls could have easily been Middletown, 
Connecticut's victims eight, nine, and ten.  They later 
acknowledged that they were relieved to know that I was a police 
detective rather than an adult looking to harm them.  In this case, 
the girls were lucky.
	In a 2-month period in the spring of 2006, some 17 Connecticut 
teen females were victims of sexual assault by people they met 
online.  Some of these girls were young middle school students.  
Other locations throughout the country have had similar cases.
	Another result of the Matt experiment was the way in which 
the teens' parents were totally unaware of what their teens were 
doing online.  As I travel around doing parent programs on Internet 
safety, I see that many parents are not as technologically savvy as 
their children.  Because of this, teens are often allowed to police 
themselves online.  The Matt experiment as reported by Dateline 
NBC clearly shows that teens are very vulnerable online.  It also 
demonstrated that parents are often blindsided by their teens when 
it comes to knowing exactly what they are doing online.
	As technology changes, we will be faced with further 
challenges when it comes to teens' online safety.  I see the next 
challenge being a web-enabled cellular phone.  While parents 
struggle to monitor their child's Internet use at home, the cellular 
phone will provide Web access where monitoring will be difficult.  
The cellular phone now has capabilities such as text messaging, 
instant messaging, email, and Web page access.  Teens will now be 
able to leave their home and bring an extension of the home PC 
with them through their cell phone.  Web cams will also become 
more common, leading to potential abuse as people will now be 
able to see each other while they are online.  The ability of teens to 
have international friends online will pose an additional challenge 
to both parents and law enforcement.
	There is no quick fix to the problem of online safety as it 
impacts our children.  It will take vigilance by government 
officials, schools, law enforcement, Internet service providers, 
including social networking sites, as well as parents and teens 
themselves.  I believe that industry standards as well as educational 
programs and public service announcements will go a long way as 
a first step.
	Thank you. 
	[The prepared statement of Frank Dannahey follows:]

PREPARED STATEMENT OF FRANK DANNAHEY, DETECTIVE, ROCKY 
HILL, CONNECTICUT POLICE DEPARTMENT

Law Enforcement Experience:
<bullet> 25 years law enforcement experience
<bullet> 15 years serving as a Detective in the Youth Division
<bullet> Served in an undercover capacity to detect online child 
predators
<bullet> Seven years experience in Child Computer Crimes in both 
investigations and education

Dateline NBC Online "Matt" Experiment:
<bullet> Participated in an experiment which tested Middletown,  
Connecticut teens for vulnerability with a 19 year old 
online stranger
<bullet> Seven Middletown, Connecticut teens from the ages of 12 
to16 were victims of sexual assaults by older males met on 
MySpace.com
<bullet> "Matt," the role I played online, was easily able to make 
over 100 online "friends" in two week period
<bullet> Majority of 14 and 15 year olds with "private" pages 
allowed "Matt" on their   
             	page as a "friend" 
<bullet> Personal information such as real names, where they live, 
home phone numbers, and actual dates of birth are readily 
given by teens online
<bullet> Use of "surveys" online reveal much personal information 
about a teen
<bullet> 19 year old "Matt" received a message suggesting an in-
person meet
<bullet> Many parents not aware of what their child is doing online
<bullet> Many parents not technologically savvy about computers or 
the Internet

Future Challenges:
<bullet> Web enabled cellular phones will present new challenges in 
monitoring by parents
<bullet> Web cams will become more popular and lead to potential 
abuse by teens
<bullet> As social networking sites go international the potential to 
meet out of country                 
            	friends will present new challenges

Solutions:
<bullet> There is no quick fix for teen online safety
<bullet> Cooperation from multiple entities as well as parents and 
teens is necessary
<bullet> Industry-wide safety standards are necessary
<bullet> Educational programs are critical


        Good afternoon Mr. Chairman Whitfield, Ranking Member 
Stupak, and members of the Committee, I am Detective Frank 
Dannahey of the Rocky Hill, Connecticut Police Department.  I 
have been a member of law enforcement for the past 25 years; for 
the last 15 years, I have been assigned to the Youth Division of the 
Rocky Hill Connecticut Police Department.  Over the last seven 
years, I have been involved in investigations and education 
concerning Internet Crimes Against Children.  I have served in an 
online undercover capacity to detect Internet predators.  My 
current efforts involve Internet safety programs directed toward 
parents, students, school officials, and law enforcement.  In the 
past seven years, I have seen technology change in a direction that 
both benefits and assists online predators in carrying out their 
criminal activity.  With the majority of America's teens online, the 
pool of potential online victims is vast.  
        In February 2006, an incident occurred in Middletown, 
Connecticut that attracted national attention.  Seven teen females 
from the ages of twelve to 16 years were victims of sexual assault 
by older males they met on MySpace.com.  All of these crimes 
occurred within a very short period of time.  I was asked by the 
Middletown Police Department to assist them with parent 
education programs on Internet safety.  As these programs for 
Middletown were being developed, we were contacted by Dateline 
NBC.  Dateline was interested in profiling these crimes as well as 
reporting on the educational programs for parents.  While 
preparing for the educational programs, I became involved in an 
online test of teen vulnerability.  In a departure from the normal 
type of online undercover scenario, I took on the role of a teen 
male named "Matt."  "Matt" was a 19 year old "new kid in town" 
who was looking for online friends from Middletown, Connecticut.  
In just two weeks, "Matt" had over 100 online "friends" on 
MySpace.com.  I was particularly surprised and shocked to see that 
a majority of young teens, who were 14 and 15 years old, allowed 
"Matt" on to their "private page."  The information on a "private 
page" is not viewable by anyone unless that person allows 
someone on as a "friend."  Some teens questioned "Matt" about 
who he was before allowing him on their MySpace page as a 
"friend."  Many teens allowed him on as a "friend" with no 
questions asked.  
        Once "Matt" was allowed on the teenagers' MySpace pages, it 
became immediately obvious that personal information was readily 
available and easily volunteered.  I was able to find out 
information such as where a teen lived, worked, their full name 
and date of birth, where they went to school, as well as home and 
cellular phone numbers.  Photos posted on teens' sites were usually 
photos of themselves that could assist in locating them.  Some of 
the photos posted are highly inappropriate if not provocative.  It 
was not uncommon to see photos of teens involved in underage 
drinking, drug use, and risky behavior.  As "Matt" became friends 
with teens online, he had access to messages known as "bulletins."  
These "bulletins" can only be viewed if you have "friend" status.  
Through these "bulletins," I was able to gain much personal 
information about my online friends.  Teenagers readily discuss 
their social activities and provide phone numbers to contact them. 
        In one case, I saw a real time message from a teen telling the 
exact location that she and her friends were about to walk to.  If I 
had a devious intent, I could easily stalk or intercept her and her 
friends.  Many of the teens use the "bulletins" to post surveys that 
reveal very personal information about them.   Surveys that can be 
viewed by the general public  are also a common sight on a teen's 
web page.  In one case, I found a 377 question survey on the site of 
one of my online "friends," who was a 15 year old female.  This 
survey included the teen's personal information as well as her likes 
and dislikes.  These surveys assist predators in establishing a 
dialogue with a teen as they attempt to infiltrate that teen's online 
world.  
        One of the most concerning incidents of the "Matt" online 
experiment occurred when one of my online "friends" suggested 
that we meet in person.  The in-person meet is the most dangerous 
scenario online. Teenagers meeting an online stranger sometimes 
become the victim of a sexual assault, or worse.  The 16 year old 
female that made the suggestion to meet in person communicated 
with "Matt" on a daily basis.  This teen later said that she allowed 
"Matt' to be one of her online "friends" because she saw that other 
teens she knew were also "friends" of "Matt."  I found that teens 
are very trusting of people they meet online and are very willing to 
share their personal thoughts and information with virtual 
strangers.  
        As the "Matt" experiment was drawing to a close, three 
mothers of "Matt's" online "friends" agreed to share their child's 
online interactions with "Matt" with the Dateline NBC viewing 
audience.  The three teen females, who were 15 and 16 years old, 
were unaware that they were part of the online experiment when 
they were interviewed by Dateline correspondent Rob Stafford.  
Stafford asked the girls if they provided personal information on 
their MySpace site and they told him that they did not post 
personal information.  He also asked them if they would talk to a 
stranger online.  The girls said that they would not.  At one point in 
the interview, I was brought into the room and introduced to the 
girls as "Matt," their online "friend."  The surprised girls were then 
told about all the personal information that "Matt" was able to find 
out about them.  The three girls could have easily been 
Middletown, Connecticut's victims 8,9, and 10.  They later 
acknowledged that they were relieved to know that I was a police 
detective rather than an adult looking to harm them.  In this case 
the girls were lucky.  In a two month period in the Spring of 2006, 
some 17 Connecticut teen females were victims of sexual assaults 
by people they met online.  Some of these girls were young middle 
school students.  Other locations throughout the country have had 
similar cases.  
        Another result of the "Matt" experiment was the way in which 
the teen's parents were totally unaware of what their teens were 
doing online.  As I travel around doing parent programs on Internet 
safety, I see that many parents are not as technologically savvy as 
their children.  Because of this, teens are often allowed to police 
themselves online.  
        The "Matt" experiment, as reported by Dateline NBC, clearly 
showed that teens are very vulnerable online.  It also demonstrated 
that parents are often blindsided by their teens when it comes to 
knowing exactly what they are doing online.  
        As technology changes, we will be faced with further 
challenges when it comes to teens' safety online.  I see the next 
challenge being the web-enabled cellular phone.  While parents 
struggle to monitor their child's Internet use in the home, the 
cellular phone will provide web access where monitoring will be 
difficult.  The cellular phone now has capabilities such as text 
messaging, instant messaging, e-mail, and web page access.  Teens 
will now be able to leave their home and bring an extension of the 
home PC with them through their cell phone.  Web cams will also 
become more common, leading to potential abuse as people will 
now be able to see each other while online.  The ability of teens to 
have international "friends" online will pose an additional 
challenge to both parents and law enforcement.   
        There is no quick fix to the problem of online safety as it 
impacts our children.  It will take vigilance by Government 
Officials, Schools, Law Enforcement, Internet service providers 
including social networking sites, as well as parents and teens 
themselves.  I believe that industry safety standards as well as 
educational programs and public service announcements will go a 
long way as a first step.  Thank you.

	MR. WHITFIELD.  Detective Dannahey, thank you for your 
testimony.
	From your personal experience as a detective in working on 
this issue of child molestation and child pornography, you have 
been giving these classes now for some time teaching Internet 
safety to parents and children or just parents?
	MR. DANNAHEY.  No, both parents, students, school staff, law 
enforcement.
	MR. WHITFIELD.  And how many classes have you taught 
would you say, first of all?
	MR. DANNAHEY.  I think over the 7 years, probably hundreds.
	MR. WHITFIELD.  And did you say that most young people 
today that are using the Internet really have an understanding of 
the dangers that they may face?
	MR. DANNAHEY.  No, they don't.  I think it is very obvious that 
when you talk to teens, they will certainly acknowledge they have 
seen on the news some of these high-profile incidents.  They will 
acknowledge that there are people out there that will harm teens 
online, but when you start getting personal with them and talking 
about their own personal Internet use, I think very often they have 
that "it is not going to happen to me" attitude and I think that part 
of the problem here is the not realizing that just what you have 
spoken about today can actually happen to them.  It is something 
that always happens to somebody else.
	MR. WHITFIELD.  And have you found that most parents are not 
particularly technologically advanced as relates to the Internet?
	MR. DANNAHEY.  No, and I think that really contributes to the 
problem.  I mean, when you look at all these different items of 
technology out there, look at a cell phone.  I mean, most adults are 
lucky they know how to answer the cell phone, maybe make a 
phone call.  A teen probably within 24 hours is going to know 
everything about that cell phone.  They are going to read manuals, 
they are going to ask their friends whereas adults clearly may 
never know the capabilities of technology they have.
	MR. WHITFIELD.  So we generally have a situation where the 
young people are so much more advanced than the parents and so 
it is very difficult for the parents to even understand or 
comprehend what is going on.
	MR. DANNAHEY.  Exactly, and I think, when I speak to parents 
in these seminars I do, I often tell them, you don't have to be a 
networking person to have enough knowledge to monitor your own 
PC at home to see if your children are doing things that are 
dangerous.  It is just a matter of maybe doing a little research, 
going to presentations such as the ones that I give and other law 
enforcement agencies give and just having some basics, and really, 
I often tell them that the best way to understand the computer 
system is to ask the teens to give you a tour of what they do online.
	MR. WHITFIELD.  And the young people that I have talked to 
are all very excited about MySpace and they are excited about 
Facebook and they are excited about this social networking, but it 
is kind of perplexing as Matt, your fictitious character, you were 
able easily to enter into a dialogue with a lot of young people, 
correct?
	MR. DANNAHEY.  Yes, very easily.
	MR. WHITFIELD.  And I was a little bit puzzled by how these 
young ladies, for example, gave you a lot of personal information, 
but from their perspective, they did not view it as personal?  
	MR. DANNAHEY.  Exactly.  I think that the word that you use is 
very apropos.  They don't necessarily perceive certain information 
as personal information.  I often tell them, when you look at a 
particular web page, it is like pieces of a puzzle.  When you go 
from different areas of the page, you extract information and 
somebody, again an online predator, certainly is very good at that 
and they will take little pieces of information, put them together 
and actually have a lot of information about the teen.  But, when 
you talk about personal information, they don't see personal 
information in the same context as we see personal information.  I 
think to them a personal information would be if you gave your 
street address and sent them a map to get to your house.
	MR. WHITFIELD.  And that is what they gave you.  They gave 
you cell numbers, home numbers, where they worked, their 
address.
	MR. DANNAHEY.  Right.  Everything they gave me without a 
lot of skills or knowledge would enable me to basically, as I said to 
them, go up and ring their doorbell.
	MR. WHITFIELD.  And many of these young ladies would have 
their picture on MySpace, and a lot of information about them.  I 
had not heard of MySpace until about 3 months ago, to show you 
how backward I am, but I do know now a lot about it and I have 
been on the site, and I agree with you that a lot of the pictures are 
pretty provocative, so if you had a predator out there obtaining that 
kind of information, it would be relatively easy for them to meet 
some person.
	MR. DANNAHEY.  Absolutely.  I think those teens, not to 
discredit all teens, there are some that don't give a lot of personal 
information out, but I think when you look at most teens' pages, 
the kind of information that you can extract off the page would 
give you a very good idea, exactly geographically where they live, 
and it wouldn't take very much research to find out where most 
kids live and go to the community.  You have a photo there, show 
the photo to another teen or whatever.  I am sure they would 
readily tell you the name of the person and where you could find 
them if you had the right story.
	MR. WHITFIELD.  Now, you mentioned something about real 
time.  Explain that a little bit what you are talking about.
	MR. DANNAHEY.  With the bulletins, if you are at home and 
you are receiving one of these bulletins, these bulletins are sent in 
real time so if for example, the girls saying that they are going to 
walk to a very distinct restaurant in their community which would 
easily be located, it is in real time.  So if I saw they were walking 
there and again from their information knew geographically where 
they were from, it would be nothing to get into a car and actually 
intercept them to where they are going.
	MR. WHITFIELD.  Absolutely.  Now, have you contacted 
different social networking sites on their law enforcement links?
	MR. DANNAHEY.  Yes.  In a couple weeks I am going out to 
speak at a national school resource officers' conference, and I 
wanted to have a basis to give my colleagues some information as 
to who they can contact for law enforcement assistance.  I emailed 
three of them.  I have not heard back from them.  The fourth, 
MySpace.com, has actually published a law enforcement guide 
which I do have a copy of that I am going to share with the folks 
from the National School Resource Officers Association.
	MR. WHITFIELD.  But did these links respond?
	MR. DANNAHEY.  Not as of yet.
	MR. WHITFIELD.  Not as of yet?
	MR. DANNAHEY.  No.
	MR. WHITFIELD.  Now, when you talk to children--and when I 
have talked to children, they generally tell you--in fact, I had a 
group of 4H students in my office today and we were talking about 
the Internet and MySpace and Facebook, and they said well, we 
don't talk to strangers.  I would ask you, what is a stranger to 
children online?
	MR. DANNAHEY.  Well, again, I think to us and them, it is two 
different definitions.  I think when--for example, at the time we 
picked these three particular girls and, the Dateline correspondent, 
Rob Stafford, said, "Did you talk to strangers online?"  Across the 
board they said no, and I think in their own mind they believe that.  
I mean, to them this was a guy that they met online.  This is a guy--
in one girl's case, I talked to her every day, so to her that wasn't a 
stranger.  So I think that is what we have to get across to them 
actually--what is the definition of a stranger.  All these people they 
have on their friends' pages when you start pointing particular 
people out, some they know from school and from their 
communities, others they will say, well, this is my friend from 
California or this is my friend from Pennsylvania; how do you 
know that; they told me that.
	MR. WHITFIELD.  The only thing they know is what you tell 
them and they never know nothing about you.
	MR. DANNAHEY.  Absolutely, but it is very true that an adult 
and a teen have much different definitions of what a stranger is.
	MR. WHITFIELD.  At this time my time is about expired here.  I 
will recognize Mr. Stupak from Michigan.
	MR. STUPAK.  Thank you, Mr. Chairman.
	The last part the friend where a friend from California or 
whatever, they may know nothing about them, has law 
enforcement tried to develop any kind of a checklist that young 
people should look at before they would do the friend status?
	MR. DANNAHEY.  Well, I think in my educational programs, I 
mean, we go over all these aspects of the Internet and that is 
exactly one thing that, myself and others who do what I do try to 
hammer home to them is exactly what the definition of a friend is.  
My view is that I feel that a parent or the teen themselves should 
able to pinpoint each one of those friends and personally know 
who they are.  I always tell the teens that if you just have one 
person on that page where you can't say you personally know 
them, then your safety has been compromised.
	MR. STUPAK.  But at the same time, you say you don't 
personally know them.  Would that not encourage personal 
encounters?
	MR. DANNAHEY.  Well, I am talking about the people they 
know from school.  I mean, my view of being safe online for teens 
is for them to speak to other teens from their school, from their 
community.  When you start going outside of that, obviously now 
you are getting into these relationships where these friends are just 
online friends and not someone who you know anything about.
	MR. STUPAK.  And I have had this discussion with young 
people and they say well, then you defeat the whole purpose of the 
Internet because the Internet is supposed to allow you to go 
anywhere, so I can't have my friend in California if I live in 
Connecticut, then what good is it, and so it is sort of a tough one to 
deal with.  In Connecticut in your area, does Connecticut require 
any cyber security classes being taught in school?
	MR. DANNAHEY.  No, I don't think there is any requirement for 
it.  I think with all these high-profile incidents that have been in the 
news, I mean, they are certainly scurrying to do that right now.  I 
know that in Connecticut I had far more requests to do programs 
than I could physically do.
	MR. STUPAK.  And that was a suggestion that came up 
yesterday.  Would you endorse that kind of a--
	MR. DANNAHEY.  Absolutely.  I mean, again, you know, 
organizations already in the school system like, for example, the 
DARE program which I am involved in, the school resource 
officers who are in many of our schools around the country, it 
would just be a natural thing for them to add a curriculum, to those 
already intact programs.  In my DARE programs, we several years 
ago decided to put an Internet component in and they certainly 
encourage you to do that.  Same with the School Resource 
Officers' Association.
	MR. STUPAK.  As a school resource officer then, were you 
given training in this field?
	MR. DANNAHEY.  The school resource officers are the in-
school police officers, and as part of their duties other than 
security, they are also required to teach a curriculum to the 
students whether they--
	MR. STUPAK.  In cyber security?
	MR. DANNAHEY.  There is no requirement right now, but it is 
certainly a suggestion, and from all the talk groups I am in, I see 
that a lot of them are doing that right now.  There are curriculums 
that they have on their website for Internet safety and I think that is 
a big concern of that organization is to get that topic into the 
school system.
	MR. STUPAK.  One other thing.  I am a little bit off subject here 
but last night on the floor we were trying to just maintain funding 
for law enforcement.  We had a $900 million cut in this budget.  
The Clinton COPS program was one that really developed the 
school resource--
	MR. DANNAHEY.  Yes.
	MR. STUPAK.  And after the Columbine incident, we had a lot 
of them but now we see funding has fallen off, and these hearings 
highlight the needs for things like school resource officers.  Are 
you familiar at all with MySpace and the safety features they put 
out on or about June 21?
	MR. DANNAHEY.  Yes, I am familiar with some of the new 
changes.
	MR. STUPAK.  Like heightened security for settings for 14-, 15-
year-olds, full privacy settings for all members and age-appropriate 
ad placements.
	MR. DANNAHEY.  Yes.
	MR. STUPAK.  Good first step.  Do you believe they will make 
it any more difficult for you to repeat your exercise of Matt there, 
your 19-year-old?
	MR. DANNAHEY.  Well, I think that will certainly discourage, 
especially with these younger teens.  I mean, I was very concerned 
about the fact of how many of the youngest of teens online of 14- 
and 15-year-olds, which actually a two-third percentage allowed 
this Matt stranger onto their private page.  I think the steps they put 
in place would certainly discourage the ease of doing that.  I am 
not saying it would be impossible for me to get onto a private page 
of a teen but it would certainly discourage that.
	MR. STUPAK.  In your estimation, what invites a teen to be 
Matt's friend?  Your sympathetic story about being a young person 
and not knowing anybody or--
	MR. DANNAHEY.  Basically the story was that he was an older 
teen, a little bit of a troubled kid coming from another State and 
coming into a community where he knew no one and was looking 
for some friends and thought that the online way to go would be a 
great way to meet friends in that new community.
	MR. STUPAK.  Well, MySpace was maybe a good first step on 
some ideas they have to enhance safety.  In your opinion, what 
other things would you like to see industry do to enhance safety on 
these social Internet places?
	MR. DANNAHEY.  I think what would really help if the social 
networking sites themselves had some industry-wide standard.  
The problem always is, especially when you are dealing with teens, 
if one of the sites is doing a great job of enhancing their security, I 
think oftentimes that might discourage their teens who are their 
customers from being on that site so they may gravitate to a site 
who has very lax standards.  So being that they are all for-profit 
companies and need members to exist or whatever, I think if all 
sites had some very similar safety standards, that it would kind of 
be an even playing field.  I would like to also see some of these 
third-party sites where they are allowed especially with these, like 
I told you this outrageous 377-question survey, they are bringing 
these types of things in from other sites other than MySpace and 
planting those on the page.  I think the surveys just reveal far too 
much personal information that should not be given out by 
anybody.
	MR. STUPAK.  So that survey, I take it you took it as being a--to 
determine whether or not you would be a friend where you would 
elicit information from the person?
	MR. DANNAHEY.  Yes.  In fact, that 377-question survey which 
is not based from MySpace but can be imported to their page, the 
second question is, what is your full name, and then the third 
question is, what is your date of birth, and in checking out all these 
teens for prospective candidates that might be willing to be 
televised, I picked a dozen of my 120 friends and when I went to 
their high school, I found out that all the information was true.  If 
they said their name was such-and-such, it was that.  If they said 
their date of birth was this month, day, and year that was true.  
Everything about their information actually checked out.
	MR. STUPAK.  It seems like that--you said two-thirds of them 
that let us be friends were 14- to 15-year-olds.
	MR. DANNAHEY.  Yes.
	MR. STUPAK.  It almost seems like sort of a gullibility or else 
maybe haven't been around long enough or life experience to put 
up red flags.  It has been suggested that maybe 14- to 15-year-olds 
have a separate site like MySpace but only for 14- and 15-year-
olds and have that protected.  Would that serve better than just 
heightened security?
	MR. DANNAHEY.  I think if they are willing to accept that.  As 
you said or somebody stated you get in this situation where they 
are altering dates of birth.  Just on Monday I had a parent call me, 
not too Internet savvy.  She had an indication that her daughter 
might have a Web page, and when I brought the page up and spoke 
to her over the phone, the daughter had a photo that was not hers.  
The daughter stated a date of birth that was not hers.  When I 
looked at the friends, I clearly recognized them as middle school 
students.  All the students on her page happened to be 13 years old, 
so of course, the mom was immediately going to have the girl take 
the page down but, that is part of the problem, them misstating 
their date of birth.  Would they go to the 14- and 15-year-old-only 
site?  I am not sure that they might do that.
	MR. STUPAK.  There has got to be a way that you can enforce 
this somehow.  I mean, with all the technology we have now, there 
has got to be some way to verify it, I would think.
	MR. DANNAHEY.  Well, I know that there is software out there 
that looks for key indicators when you misstate your age but 
somewhere else on the page you actually state your real age and 
they are detecting that, so I know I have read that.  You know, 
MySpace has taken down pages when they do find that scenario.
	MR. STUPAK.  In your testimony, you mentioned some of the 
challenges we'll have in the future, and one of them was the 
cellular phones.  Do you want to explain that a little bit more?
	MR. DANNAHEY.  Well, the problem with the cellular phones 
is, there is not--I mean, especially with the high-end sophisticated 
ones, which the teens tend to have, there is not a lot of things that 
you can't do with that Web line that, it kind of mimics the home 
computer.  Now, of course, you have often heard that probably one 
piece of information you are going to give to a parent doing an 
educational program or a public service announcement would be, 
keep that computer in a public place.  Well, now, having a cell 
phone that can very much duplicate what a PC does, how do you 
instill it upon the teens to do all those safety rules that they would 
normally do at home when they are going out the door clipping the 
cell phone on their belt and saying see you later, Mom, and now 
have unrestricted use of this without being monitored.  I think that 
is going to be a real challenge.
	MR. STUPAK.  My last question.  What advice did you give to 
teens regarding these social networking sites?  If you are teaching 
a class, what is your best nugget as to what you tell teens on this 
whole thing?
	MR. DANNAHEY.  The first thing I tell them is, I am not 
opposed to these sites.  I think teens are going to use the Internet.  
It is just that you have to maintain your personal safety.  No one is 
going to do that for you.  Your friends need to actually be your 
friends.  The moment you have somebody on your page, a buddy 
list, a friend list, that you can tell me you don't know personally 
who they are, you have immediately compromised your safety.  So 
I think it can be done.  I know a lot of parents work in cooperation 
with their teens, a little bit of a checkup without being overly nosy 
to make sure they are safe.  I really think it can be done but, just as 
the industry has to take steps, I think the teens and the parents also 
have to be part of this or it is not going to work.
	MR. STUPAK.  Thank you.
	MR. DANNAHEY.  You are welcome.
	MR. WHITFIELD.  Mr. Walden.  Oh, Mrs. Blackburn.  Okay.
	MRS. BLACKBURN.  Mr. Chairman, thank you.
	Detective Dannahey, you know, this is such a complicated 
issue and I really do appreciate your taking the time to be here with 
us and talk with us about it.  Being a parent and having been a 
room mother and Sunday school teacher and those things, you look 
for ways to be certain that you help children learn to socialize, and 
you try to communicate the message that home is a safe place and 
items contained in the home are a safe place, and then in the 
classroom with the advent of computers coming into the 
classroom, we tried to teach our children that this was a great way 
to explore and a great way to experience the world at your 
fingertips, and it is so interesting to see the evolution of the social 
networking sites.  I remember a couple of years back when I was 
asking about someone, and my son, who is now 25, said well, just 
go look them up on Facebook.  I had never heard of such.  And I 
was absolutely appalled that that much information could be 
available to the world about young people.
	And I have got a question for you, but what you just said is so 
very true.  It is teaching children how to maintain their personal 
safety but at the same time having them realize what the dangers 
are, what the vulnerabilities are.  And why do you think that teens 
today, especially these younger teens, have absolutely no fear or 
recognition of the danger that is there when they place things on 
the Internet?  Why is there just no awareness of the danger?
	MR. DANNAHEY.  I think that goes back to my comment on 
having worked with teens for 15 years, they definitely have that 
"not me" feeling.  The best example I can give is if you think about 
a community having a tragic drinking-and-driving accident where 
a student is killed because of alcohol.  You will clearly see that for 
a short time the underage drinking parties will stop, teens' 
awareness of drinking and driving will be heightened, but I have to 
say that probably after a couple months, after a few months that all 
goes away and, the parties continue, the drinking and driving 
continues.  So I think it is very difficult, especially among that age 
group, to relate things to them personally.  I think they will 
acknowledge bad things happen but they will often say bad things 
don't happen to me, bad things can't happen to me.
	MRS. BLACKBURN.  Do you receive a similar type of response 
from the parents when you are holding the sessions with them?
	MR. DANNAHEY.  As far as their own teens' vulnerability?
	MRS. BLACKBURN.  Yes.
	MR. DANNAHEY.  I think it is a much different picture.  I think 
parents are scared to death out there, especially the ones that aren't 
that Internet savvy, don't understand anything about being online, 
or don't understand anything about the computer.  They are just 
sponges for knowledge.  You know, it is unfortunate that when you 
do these programs that very often the kind of parent that is going to 
show up for an Internet safety program is the parent that doesn't 
need to be there.  Those kids whose parents should be there aren't 
there.  I mean, I often say that even though you might have 25, 30 
people in the room, sometimes the domino effect will pass that 
information onto somebody else but, even with those high-profile 
incidents I went out to different locations that had the problem, had 
the big news headlines, and you would think the auditoriums 
would be full and they weren't.
	MRS. BLACKBURN.  I have talked to so many parents in my 
community who have just been captured with the sense of unbelief 
when they realize what is available or what their children are 
putting on the Internet and are really quite concerned about, and 
we have had some great discussions, and I hope that does lead to 
some awareness.
	I wanted to go back.  You mentioned the DARE program.  I am 
a big fan of DARE programs.  I think they work.  They yield 
results and they are time well spent.  And you mentioned that you 
had inserted an Internet component and that you had a checklist.  
Can you kind of click through that checklist or could you submit 
that to us just for the record?
	MR. DANNAHEY.  Yes, I could certainly submit my curriculum.  
I think when you start at an early age, you might have some 
results.  Obviously, when I go out, especially right now, you are 
talking to juniors and seniors in high school about Internet safety.  
You have to have a different slant because, again, they, at that age 
feel that they are invulnerable, that nothing is going to happen to 
them.  I think once you start especially in the 5th and 6th grade, at 
least we have a chance to instill that.  I mean, you see the tobacco 
use by children, you see those statistics going down.  I would like 
to say that maybe programs like the DARE program should take 
credit for that and I think we can do the same thing with Internet 
safety that we have done with tobacco education and start in the 
early grades, like in 5th grade, 6th grade, or maybe even 4th grade 
talking about the computer.  The fact that it is that great tool but it 
also comes with some dangers assigned to it also.
	MRS. BLACKBURN.  Thank you so much.  I will look forward to 
that list, and thank you for your work and your dedication.
	MR. DANNAHEY.  You are welcome.
	MR. WHITFIELD.  Thank you, Mrs. Blackburn.  I recognize Ms. 
DeGette.
	MS. DEGETTE.  Thank you, Mr. Chairman.
	Detective, I am wondering, you talked in your opening 
statement about having parents have their children show them what 
they do on the computer but I am wondering if you can say more 
specifically what exactly you tell parents that they can do to 
protect their children from these predators on these chat rooms and 
other sites?
	MR. DANNAHEY.  One of the first things I tell them is, you have 
to get some kind of education.  There are several safety sites out 
there.  I give them a list of maybe half a dozen of the best of the 
best to go to, to kind of get an education of, in simple terms, what 
does this term mean, how do you do this, how do you do that.  I 
wrote up a very basic, as I call it, parent computer forensics 101, 
showing them step by step how they can monitor their hard drive, 
and a big portion of that is, I tell them that they have to 
communicate with their kids.  It is kind of a sneaky way but, if you 
do sit down and say to your teen, hey, show me what you do 
online, show me a little bit about the computer, you get a great 
indication of how computer savvy they are.  Some kids aren't that 
computer savvy and maybe have a little bit of a comfort zone.  
Other kids will zoom around there with that mouse and keyboard 
and you know you might have to do a little bit more monitoring.  
But I think the communication part is huge.
	MS. DEGETTE.  One thing I was just sitting here thinking, you 
could--if your kid is in these chat rooms, you could ask him to 
show you their buddy list and you could say who are these people.  
Would that be effective?
	MR. DANNAHEY.  Absolutely.  The three girls that we picked to 
appear on that Dateline show, all of them have MySpace pages 
today, all of them are on private, all of them have their moms as 
their friends.  Now, the moms--obviously there was a lot of work 
to do after that show aired to get their sites safe again--but every 
single one of those friends, the moms went, person by person, who 
is this, how do you know them.  The moms periodically will go in 
and check, not to the point again of being overly nosy, reading 
every little message, every little thing, but I think a setup like that 
can work if a parent and teen does it in the right way and I think 
that is the only solution is to have this collaborative agreement 
between both parents and teens to yes, you can have a social 
networking site, I have to have some partnership with you.  Again, 
not overly looking at everything they do but just enough to see 
those in-your-face-type violations which they might have to--
	MS. DEGETTE.  Parents just need to realize that the same 
precautions they tell their children in every aspect of life, and you 
are right, you have to talk to them about drinking and driving and 
smoking every few months.  You have to do it with computer 
safety as well.
	MR. DANNAHEY.  Exactly, and a lot of times I relate that to 
them as the 16-year-old approaching driving a car.  I can't imagine 
any parent out in the audience would just give your 16-year-old a 
set of car keys and say go for it.  There is a lot of preparation for 
that, and this has to be under the same terms.
	MS. DEGETTE.  One thing that we saw yesterday and maybe 
some people in the audience were here yesterday, a public service 
announcement.  Mr. Chairman, I don't know if you are planning to 
play that again today.
	MR. WHITFIELD.  Well, after the second panel, we are going to 
do that.
	MS. DEGETTE.  Well, there was a public service announcement 
that was developed by the England--it was in the U.K. to warn 
young teens about what could happen if they are being preyed on 
and what to do.  Have you seen that?  Do you know what I am 
talking about?
	MR. DANNAHEY.  I believe if it is the same one that ran just a 
short time ago before this hearing.  I did see that.
	MS. DEGETTE.  It is the young girl and it goes backwards.
	MR. DANNAHEY.  Yes.
	MS. DEGETTE.  Yes, it is a very, very powerful and effective 
commercial but I bring that up because, number one, I think that 
we need to have sort of not just parents talking to teens and people 
going in the schools but I think that we need to have a national 
public service program that the media outlets and if Congress can 
help in some way and ISPs and the other computer providers 
should do.  Would that make sense to you?
	MR. DANNAHEY.  It would make a lot of sense.  I think that is a 
great first step.  I think that teens are very willing to make some 
changes once they see what you are talking about.  I mean, after 
doing a student program, I mean, I get feedback from teachers 
saying wow, there was a lot of buzz in our classroom after that.  
Teens are going to go home and change their page.
	MS. DEGETTE.  But, you know, teens don't want to--I mean, 
Mr. Inslee and I were just taking.  Teens don't have the life 
experience that we have, and that is true in every way, but they 
don't want to put themselves at risk and so they are going to try 
and do--
	MR. DANNAHEY.  Exactly.
	MS. DEGETTE.  But the reason I bring up that particular PR 
campaign in Great Britain is because what they do is, they have 
systems which are used by all of the ISPs and it is in Great Britain 
and in Australia where they have a little logo, like when you are in 
a chat room, you have the--it is called the VGT, the Virtual Global 
Taskforce logo, which here you could do with--and it is a link to 
this global taskforce, so if you are in a chat room and you are 
having a chat and you are a 13- or 14-year-old girl or boy and you 
are starting to feel uncomfortable like maybe somebody is making 
some advances that are inappropriate, you can click right on that 
icon.  You can go right into that law enforcement website.  They 
capture the page and then they can go and investigate it.  Are you 
aware of that kind of enforcement technique?
	MR. DANNAHEY.  No, actually I just heard about that today.  
That was the first time that I heard that.  Other than the National 
Center's tip line, I am not aware of any other similar thing going 
on.
	MS. DEGETTE.  I mean, National Center has a tip line too but in 
Australia and Great Britain, all of the Internet service providers do 
this on these chat rooms and it is a fairly--it is staffed 24 hours a 
day so if some teen is on the Internet at 3:00 in the morning in a 
chat room and she gets solicited or something and it makes it 
uncomfortable, all they have to do is hit that button and it goes 
straight--do you think that it would be helpful for the ISPs to 
develop some kind of a system like that in conjunction with the 
Center for Missing and Exploited Children here?
	MR. DANNAHEY.  I think so.  My only question would be, 
would the ICAC taskforces and, you know, National Center be, 
staffed enough to handle--I mean, being the number of people we 
have in America, teens in American online, I don't know if they 
would be overwhelmed with complaints.  I think given the proper 
staffing, I think that could be a very really valuable tool.
	MS. DEGETTE.  And that might be a place that Congress could 
help out.  I mean, one thing we do in these hearings which is very 
effective is, we raise the level of public consciousness, but frankly, 
every single thing we have been talking about here today is not 
something that we are going to legislate, but one place Congress 
might be able to help is in conjunction with ICAC and these other 
agencies to develop a system that perhaps we could use some 
public funding to help.
	MR. DANNAHEY.  Right, and I think with those agencies in 
place those would be the two logical agencies where you would do 
that kind of thing.
	MS. DEGETTE.  Right.  Just one last question.  Mr. Stupak 
asked you if you could do a separate chat room that would be 
targeted at younger teens, 14- and 15-year-olds.  Given the fact 
that people can fairly easily circumvent the age registration 
requirements, would you be worried if we went to that type of 
website that predators might just be able to focus even more laser-
like on younger teens?
	MR. DANNAHEY.  That is also the danger.  I am sure parents 
would welcome that but again, I think what we have to realize is 
that teens aren't necessarily going to put the proper information in.  
If this is not looked at as a cool site--I mean MySpace is looked at 
as a very cool site.  It is a status symbol at school to have a 
MySpace site.  So if you broke away and had this 14- and 15-year-
old site and that was not a cool site to have at the time, you might 
run into--
	MS. DEGETTE.  Right.  I was the one that said that and I 
actually saw my 12-year-old go in her older sister showed her how 
to put a birth date that made her seem older than she was so she 
could get into some website and now neither one of my girls has a 
MySpace site but--
	MR. DANNAHEY.  I think they can though--
	MS. DEGETTE.  Heaven knows, they might have something 
else.
	MR. DANNAHEY.  I will give you my cooperative agreement if 
you like.
	MS. DEGETTE.  Yeah, okay.  Thanks.  I yield back.
	MR. WHITFIELD.  Dr. Burgess.
	MR. BURGESS.  Thank you, Mr. Chairman.  I just want to thank 
the witness for being here with us today.
	MR. DANNAHEY.  You are welcome.
	MR. BURGESS.  In so many ways, I am glad to see you because 
we have been through this problem at so many different levels 
from victims to Internet service providers, and even had the 
Department of Justice in the room at one point, but what has really 
been lacking in all this is, is anyone who is interested in 
enforcement.  We have had plenty of people who wanted to come 
in and talk about the problem and how bad it is and we all recoil in 
horror at how bad it is but this was really, but you are really the 
first witness that I can recall having come in to offer us some 
concrete suggestions, so I appreciate what it is that you do.
	MR. DANNAHEY.  Thank you.
	MR. BURGESS.  I do feel compelled to ask a question.  I didn't 
get a chance to ask questions of the individual from Dateline 
yesterday.  They seem to be awfully successful in recruiting 
individuals to come and misbehave at their sites.  Do you think that 
is because they have the production staff and they know what they 
are doing from just putting on the production, if you will, and so 
they are very professional, very clever at that, or do you think just 
someone who wanted to do this and identify those individuals 
would be just as successful because the pressure from the predator 
community is so intense?
	MR. DANNAHEY.  I think that is exactly right.  Back when I did 
this fairly actively several years ago, the number of people we 
were going to investigate was only limited by the hours of the day, 
and I think you catch these guys and you pose the question, didn't 
you think it might be a police sting, and very often they will say 
yes but I also thought it might be a teen.
	MR. BURGESS.  Again, that is just an incredible concept.  I 
know we have one individual, not in my district but close by in 
Jacksborough, Texas, who is a county sheriff and that is all he 
does, and it seems like with that small of a department would have 
a limited budget and yet they are putting someone on this 
continuously.  It clearly deserves more attention than it has been 
getting from the enforcement community and I am particularly 
talking about at the level of the Department of Justice.  Do you 
think that self-labeling and self-policing, children rating and 
reporting their own and other kids' websites for inappropriate 
content, do you think that is an effective way to go about policing 
these sites?
	MR. DANNAHEY.  I think it would be a tool, but if that was the 
only tool, I would be nervous about that because that is not an age 
group that likes to tell on each other, and unless it was a real 
serious type of incident or something that really scared them, I 
don't think they would be so willing to be telling adults that 
somebody did something online.
	MR. BURGESS.  The concept that the gentlelady from Colorado 
was talking about with the child being able to go on and clicking 
on an icon after receiving what they perceive as pressure from 
someone, kind of analogous to a click it or ticket, I guess, is that--
because of jurisdictional issues in this country, how effective in 
fact would that be, or would in fact you need the involvement of 
the Department of Justice to adequately prosecute that across State 
lines, across jurisdictional lines?
	MR. DANNAHEY.  Well, I think as far as our country goes with 
these Internet taskforces, they are in all 50 States or cover all 50 
States, that wouldn't be a problem.  The problem lies then when 
you get what is that person is from the international community.  
Who is going to cooperate with U.S. law enforcement in something 
like that?  They may put that name in a database.  Would they do 
anything?  It depends on what country that that person was from.
	MR. BURGESS.  So the unintended consequence may be to drive 
a good deal of this activity offshore but still have it go on?
	MR. DANNAHEY.  Unfortunately, that is another aspect of the 
social networking sites.  When you have people on in the 
international community, I think we are going to start seeing some 
more incidents that we saw maybe several weeks ago of the stellar 
student, 16-year-old, going to the Middle East to meet a 25-year-
old man.  I think we are going to see more of that.
	MR. BURGESS.  From just the perspective of a parent, what 
advice would you give from what you have seen and what you 
have worked with, what is the best way for a parent to circumvent 
this?  Never buy the computer in the first place?
	MR. DANNAHEY.  Well, if you tell them they can't have a site 
or if you tell them they can't be on the Internet, my worry about 
that and in talking to teens telling me exactly that would be that 
they will go underground.  I think you have to have this somewhat 
cooperative agreement with your teens where you might not be 100 
percent happy that they have their sites, but if the teen would allow 
you to at least maybe help set the site up for them, make sure it is 
safe, occasionally monitor the site, again not being overly nosy, I 
think that could work.  But I have seen far too often where a parent 
will just come home from a seminar given by one of my colleagues 
that says throw the computer out the window and they will have 
the teen right in front of them take down all their social networking 
sites or Internet in general and that the teen will reemerge with new 
sites, new email addresses that the parent doesn't know anything 
about.  So I think that cooperative agreement has to be there.  Plus 
the fact that parents really have to get on the ball and just 
understand this technology.  As I mentioned about these cell 
phones, I think they are going to be a huge problem because they 
are going to have all these bells and whistles and capabilities.  A 
parent is going to allow the teen to buy these and they are going to 
have absolutely no idea what the capabilities are.
	MR. BURGESS.  During some earlier testimony, the question 
came up to one of the young men who was actually a victim, and 
the question was posed, is there any reason for a 15-year-old to 
have computer hardware that allows a video camera.  Do you have 
any feeling about any type of age-appropriateness or restriction 
that should be placed on any type of hardware or peripheral that is 
attached to the computer?
	MR. DANNAHEY.  I think you are probably talking about Justin 
Berry, whose case I am very familiar with, a tragic case.  I think as 
of right now, I would caution parents to not allow those devices 
where you can actually see the other person on the other end unless 
you have a really good reason to.  I know some of the teens told 
me they have families in international countries and things like that 
but really, from what I have seen of these webcam sites, it is just 
clearly an indication for abuse.  When you do a web search on teen 
webcam sites, you will be horrified by what is going on.  Just like 
Justin Berry, there are probably hundreds if not thousands of other 
teens out there seeing how you can actually make money on these 
sites and doing unspeakable things with these webcams.  So I don't 
really see the need for most teens to have that and I think they are a 
big potential for abuse.
	MS. DEGETTE.  Will the gentleman yield?
	MR. BURGESS.  I just want to follow through on one thing.  We 
require a package of cigarettes to have labeling on it.  Should we 
require similar labeling on video reproduction computer 
peripherals?
	MR. DANNAHEY.  I don't know if that would do any good 
because you have got parents who don't read the manuals to the 
computer and the cell phone so I don't know.  I think really our 
best bet is these education programs, public service 
announcements to get the word out there to parents of really what 
is going on out there.  I don't know if that would do any good.  But 
I think like Justin Berry's story, parents in the seminars that I do 
were just appalled by that.  I bring that case up as well as some 
similar ones, and they can't fathom the 13-year-old being able to 
do something like that.
	MR. BURGESS.  I wasn't aware myself what came with the 
manuals.  I will be happy to yield.
	MS. DEGETTE.  I was just going to say that the increasing use 
of these cell phones is going to make it even worse because even if 
you take the web cam out of your house, when these teens have the 
cell phones that will make movies and transmit them 
simultaneously, then you are going to have that same problem.
	MR. DANNAHEY.  Absolutely, and there have been some 
horrific cases with those phone cams or whatever where the teens 
are generating their own pornography out there, emailing them to 
boyfriends, girlfriends, and then of course, those relationships 
don't last forever and you see plenty of sites out there, ex-
girlfriend sites, ex-boyfriend sites, and they are putting these 
photos online and are forever going to victimize the teens.
	MR. BURGESS.  Reclaiming my time.  I guess my 
understanding is, Apple Computer has a built-in imaging device 
now which I guess is a good idea.  The gentlelady from Colorado 
also brought up--and I apologize if I was out of the room when you 
answered.  What about the ability to take down a site or a picture 
once it has been inappropriately placed on the Internet?  Is there 
any way to erase those images?
	MR. DANNAHEY.  No, there is not.  I mean, unfortunately, there 
is no magic way of reaching out to the Internet.  Early in the school 
year last year I had a 13-year-old girl take some just horrendous 
photos of herself that would absolutely be classified as child porn, 
mails them to a boyfriend, and the boyfriend unfortunately shared 
his password and somebody got in and stole the pictures and 
established a website with these photos on it.  She was horrified 
when she actually received a link to her own pictures and her first 
question, how do I take these pictures down.  Well, we got the 
pictures off the website but how many people downloaded those 
photos?  I don't know.  I mean, she could be 25 years old and 
someone might walk up to her with one of her images and say this 
looks a lot like you.  So that is a danger for teens.  You cannot 
recall a photo once it is out there, and the pedophiles trade that and 
if it is homegrown-type photos, I mean, that is treated like gold.  
Anybody who has her pictures could probably trade those for all 
kinds of photos because they are of an actual real live 13-year-old 
girl.
	MR. BURGESS.  Thank you, Mr. Chairman.  I will yield back.
	MR. WHITFIELD.  Detective, as you conclude here, I would like 
you to just take a couple of minutes to relate to us the story about 
the young girl who actually went to the Middle East to meet 
someone.  I don't remember those facts and I was wondering if 
you would convey them to us.
	MR. DANNAHEY.  I am not sure exactly what State she was 
from, maybe out the Chicago way.  She was a 16-year-old girl, by 
all accounts a good student, somebody who her parents would 
trust.  She did communicate online with a person.  I believe he is 
from the West Bank, a 25-year-old male, and somehow, as teens 
often do, she was able to convince her parents that she needed a 
passport, concocting a story that she was going to Canada with 
friends, got herself a passport, somehow got airline tickets, was 
flying to meet this guy, and once law enforcement apparently got 
into the computer and found out what was going on here, they 
intercepted her in Jordan and fortunately talked her into going 
home.  Because I don't know, at 16 in a foreign country like that, I 
don't know if you put it to her and she said no, I don't know if you 
could actually stop this girl.  And the 25-year-old male was seen in 
the media saying that he intends on marrying this girl and he 
intends on keeping this relationship going.  And obviously for law 
enforcement and parents, it is just a scary situation where you may 
have our teens go to a country who has no ability or necessity to 
follow U.S. laws and may not cooperate with us.  So you may have 
a teen in another country and literally we can't get them back.
	MR. WHITFIELD.  Are there any other questions for Detective 
Dannahey?
	MR. BURGESS.  Mr. Chairman, if I could, I just wanted to point 
out down in Dallas near my district, the Dallas County Child 
Advocacy Center is putting on a program next month called A 
Walk in Their Shoes, talking about these sorts of issues, and one of 
the sponsors is the MySpace folks.  So there are some good things 
that are happening out there and I certainly don't want to leave the 
people watching this with the impression that nothing good is 
happening.  It is going to take a lot of that kind of work, however, 
as you have so eloquently outlined, to get the information out there 
and get it into the hands of parents who need it. 
	MR. WHITFIELD.  Thank you very much for taking time to be 
with us today.  We appreciate your testimony and wish you the 
very best as you continue your great job in this regard.
	MR. DANNAHEY.  Thank you, Mr. Chairman.  I appreciate the 
invitation today.
	MR. WHITFIELD.  At this time, I would like to call the second 
panel, and on the second panel, we have Mr. Chris Kelly, who is 
Vice President of Corporate Development and Chief Privacy 
Officer of Facebook.com, Palo Alto, California.  We have Mr. 
Michael Angus, who is the Executive VP and General Counsel, 
Fox Interactive Media, MySpace.com, Beverly Hills, California, 
and we have Mr. John Hiler, who is Chief Executive Officer of 
Xanga.com, New York, New York.
	I don't even have to go through my spiel anymore.  Everybody 
always knows.  So if you all would raise your right hand.
	[Witnesses sworn.]
	MR. WHITFIELD.  Thank you very much.  You are now under 
oath, and Mr. Kelly, we will recognize you first for your opening 
statement.  Do any of you want to be represented by legal counsel 
in your testimony today?  Okay.  Mr. Kelly, you are recognized for 
5 minutes for your opening statement.

STATEMENTS OF CHRIS KELLY, VICE PRESIDENT, 
CORPORATE DEVELOPMENT AND CHIEF PRIVACY 
OFFICER, FACEBOOK.COM, INC.; MICHAEL ANGUS, 
EXECUTIVE VICE PRESIDENT AND GENERAL 
COUNSEL, FOX INTERACTIVE MEDIA, 
MYSPACE.COM; AND JOHN HILER, CHIEF EXECUTIVE 
OFFICER, XANGA.COM, INC.

        MR. KELLY.  Thank you very much, Mr. Chairman, and we 
appreciate the presence of Ranking Member Stupak and the rest of 
the committee for this very important hearing on how to more 
effectively protect kids online through social networking sites.
	My name is Chris Kelly.  I am the Chief Privacy Officer of 
Facebook, a social utility that allows people to share information 
easily within their real-world community, and that is a very 
important emphasis point that will run throughout my testimony 
here today.
	I joined Facebook last September as the first chief privacy 
officer in the social networking industry to continue the work that 
our founder, Mark Zuckerburg, had put together in segmenting 
networks and protecting different communities online.  I am 
creating the role at an Internet for the fourth time.  In my previous 
service as chief privacy officer and a technology attorney, I have 
represented many clients in the technology and media industries on 
privacy, security, safety, and intellectual property issues.  I was 
also part of the founding team and served as a fellow at Harvard 
Law School's Berkman Center for Internet Society, a think tank 
focused on public policy issues of the digital age.
	I am very happy to be here today to talk about social 
networking sites generally but particularly about Facebook.  By 
now a lot of you have heard a lot of bad things about what goes on, 
so I want to talk first about what good is going on and why these 
sites are so attractive to teens and older teens, and we started as a 
college site and it has expanded into high school, and then what is 
special about Facebook and especially our approach to safety.
	Facebook is about community.  It is about providing an online 
way for people to communicate with their friends and to meet new 
ones who are part of their real-world community.  It is about 
providing individuals with avenues for self-expression and 
creativity and it is about providing community members with easy 
ways to learn and share new ideas.  This is why it is so fun and 
popular with teens and college students, and now also we validate 
based on work communities.
	I will run through in great detail the four levels of protection 
that we use to validate members onto our network, validate them 
into particular communities, protect the viewing of profiles.  You 
have heard a lot about information being available on the open 
Internet.  Facebook doesn't work that way.  Membership on 
Facebook and the information on Facebook is available to 
individuals in validated communities by default and then later on 
by confirmed friends.  So although founded only about 27 months 
ago by Mark Zuckerburg, our CEO and founder, in his dorm room 
at Harvard, modeled after the paper Facebook that everybody gets 
when they started college and as many Members of Congress get 
when they start in Congress.
	We now have 8 million registered users.  We are the seventh-
most used website in America, according to comScore Networks, 
and we are America's most used photo site.  There has been some 
suggestion that one of the reasons that you haven't heard about a 
lot of safety issues around Facebook has been because it is not as 
popular, but the comScore numbers tell a different story and I think 
it is because of the work that we have done from the beginning to 
segment networks and to work very hard at providing 
technological protections for our users that we haven't seen the 
type of safety incidents on Facebook that we have seen on many 
other sites.
	So Facebook at its inception understood that communities must 
feel safe in order to thrive.  There is a radical difference between 
sites that allow information to be posted to the open Internet and 
those which segment it within different communities.  So our 
founders placed user privacy, security, and safety at the center of 
our mission and our architecture.  So let me tell you how we 
implement these safety principles.
	We implement our safety principles with four levels of user 
protection.  Initially when you try to get on a network, we require 
validation where we can for high schools as well as colleges.  We 
require a dot.edu email address or a dot.org email address for a 
number of high schools.  I personally was a little bit surprised at 
the number of high schools that actually issue email addresses to 
their students.  Where that is the case, a high school student cannot 
get on the Facebook site unless they have an institution-issued 
email address from that high school.
	Then there is a second level of protection.  Once you get on the 
network, you are segmented into a particular community, so for 
instance, if you were to join a particular high school community, 
by default you only have access to profile information to 
individuals within that community.  So if you are searching for 
friends, this has two effects.  One is, it limits the amount of 
information that one can reach, and two, it means that there's a 
built-in neighborhood watch program.  We have a report this user, 
report this link, report this photo on every page in Facebook and 
our 20-person customer service staff can easily process complaints 
about somebody who is not in the network.  They can launch an 
investigation and they often remove members who improperly get 
into a service.  So we also empower our members to make choices 
in what they display on their site and to whom they display it.
	We have very detailed privacy settings and choices and we also 
use technological monitoring tools to look at possible indications 
of antisocial behavior on the site.  If somebody were to circumvent 
the two levels of protection that we have already set up and get 
through to a third and start to try to befriend too many people, try 
to reach out and get rejected friend requests, that is one of the 
things that we measure.  It highlights a user account and allows us 
to investigate that.  If the user is improperly on the service, they 
are shut out completely, and this has a real sanction because of the 
validated address in most cases because you can't just go and 
create another site with another email address.  It is very difficult 
to get in.
	So finally, we have this safety net with the humans and with 
our 20-person customer service staff that responds to the 
complaints as they come through that addresses possible violations 
on the site and looks at that, and then ultimately myself, our 
general counsel and two other attorneys we have on staff interact 
with law enforcement if it ever gets to that, which it rarely does.
	So as a result of these very important privacy, security, and 
safety features, we have very rarely encountered the same 
unfortunate problems that you have seen from most other social 
networking sites.  We recognize, which is why we built the system 
this way, that there are bad actors out there, that they want to get 
into sites that have kids on them.  Just like in the real world, you 
have to protect your communities in an effective fashion.  So we 
vigorously sought to build these safety features into our product.  
We have also engaged in support of the educational and law 
enforcement efforts of the Federal Trade Commission, the National 
Association of Attorneys General, local law enforcement, non-
governmental agencies like the National Center for Missing and 
Exploited Children and WiredSafety.org, and parents everywhere.  
We think that there are multiple levels of defense that all need to 
be deployed to protect kids online.  We support the efforts of 
everyone in the social networking industry to take safety seriously 
and to upgrade our practices to make the world safer and more 
secure for the members of all these sites.  So we think that 
competition to provide safety on these sites is a good thing for the 
industry and for the kids of America.
	So for these reasons, Facebook, we commend this committee 
for holding these hearings.  We are very excited to engage with 
you in this practice.  We welcome the opportunity to continue to 
serve as a resource for you and would like to leave myself open for 
questions.
	[The prepared statement of Chris Kelly follows:]

PREPARED STATEMENT OF CHRIS KELLY, VICE PRESIDENT, 
CORPORATE DEVELOPMENT AND CHIEF PRIVACY OFFICER, 
FACEBOOK.COM, INC.

        Thank you Chairman Whitfield and members of the 
Subcommittee for this opportunity to be with you and explain how 
Facebook uses technology and policy to protect people on our 
network.
        My name is Chris Kelly, and I serve as Chief Privacy Officer 
of Facebook, a social utility that allows people to share 
information with their real world communities.  I am very happy to 
be here today to explain how the two core ideas of social 
interaction and privacy guide everything that we do, and help 
protect people on our network.  As we say in our basic statement of 
principles on the site, people want to share information with their 
friends and those around them, but they don't necessarily want to 
share personal information with the entire world.
        I joined Facebook last September as the first Chief Privacy 
Officer in the social networking space, and am creating the role at 
an Internet company for the fourth time.  In my previous service as 
a Chief Privacy Officer and technology attorney I have represented 
many clients in the technology and media industries on privacy, 
security, safety, and intellectual property issues.  I was also part of 
the founding team and served as a Fellow at Harvard Law School's 
Berkman Center for Internet and Society, a leading think tank 
focused on public policy issues of the digital age.
        In February of 2004, our CEO and Founder Mark Zuckerberg 
launched the first version of Facebook from his college dorm 
room.  Now, Facebook is the seventh busiest site overall and runs 
the busiest photo site in the United States, according to 
independent service ComScore Networks.  We have more than 8 
million registered members for whom Facebook has become a core 
part of how they interact within their communities.  Starting with 
our college communities, we have since expanded to offer school-
focused interactions for high-school students, and more recently 
have followed our graduating students into the work world.
        Privacy, security, and safety have been at the forefront of our 
concerns since the founding of the site.  There is one overarching 
way that Facebook differs from nearly all other social networking 
sites - profile information is not generally available to the outside 
world.  It is only available to Facebook members inside their 
individual, validated networks or through confirmed friends.  We 
want to give people extensive power over their ability to share 
information, and the ability to limit who has access to it.
        Of course, no protection mechanism is perfect.  But the mere 
fact that Facebook does not make information available by default 
to anyone with access to the Internet, combined with the other 
prudent measures we have taken to focus information sharing on 
real-world communities, has made a radical difference in the 
privacy, security, and safety of the Facebook experience.  
        Following this major differentiator from most sites, we have set 
up four levels of protection for our members that I would like to 
outline for you today.
        First, we require validation in order to get on the site in the first 
place.  For college students, and those high schools where it is 
possible, membership in the school community is proven through a 
valid email associated with that college or school.  Where high 
schools do not offer students email addresses, we have instituted 
an invitation-based system that is designed to limit even initial 
access to that school network.
        Second, we segment information access within networks based 
on real-world communities.  Being a member of Facebook does 
not give you access to the profiles of all people on Facebook.  You 
are only allowed to access the profiles of other members at your 
college, high school, work, or (with explicit user choice) 
geographic network, and have power to add confirmed friends in 
other networks. This has two positive effects.  First, users are 
gaining more information about those around them in the real 
world, which has pro-social effects on campuses around the 
country.  Second, there is a built-in neighborhood watch program, 
especially with respect to high schools, where abuse of the system 
can be easily identified and addressed.
        Third, we put power in our users' hands to make choices about 
how they reveal information.  I have mentioned already the ability 
to confirm friends from other networks, and the "My Privacy" tab 
on every navigation bar throughout the site allows users to make 
detailed choices about who can see particular pieces of information 
about them, including their contact information and photos. 
        Finally, we have a safety net of protection through both 
technological tools we deploy to detect misuse of the site and 
human capital dedicated to potential problems -- our 20 person and 
growing customer service staff, headed by a seasoned veteran and 
backed up by myself and two other attorneys.  Most of our 
customer service representatives are recent graduates of 
outstanding colleges, and dedicated Facebook users, so they know 
the system inside and out.  On those rare occasions where someone 
has attempted to misuse our network, we engage rapidly with the 
relevant authorities.  Because the system is built for accountability 
with its email validation requirement and segmentation of 
communities, misuse is both deterred and generally detected 
quickly.  We quickly launch an internal investigation and step in 
where we receive reports of the misuse of Facebook in any way.
        Overall, the fact that information posted on Facebook is not 
generally available has made Facebook a different experience for 
our users, and one they clearly enjoy as reflected in their frequent 
visits. Our intuition about the importance of tying access to 
information based on the networks where people already exist in 
real life has been shown to have huge effect in both deterring and 
exposing misuse.  By focusing on real-world networks as the 
touchstone for access, we provide both a built-in reflection of 
people's expectations about who will know information about 
them, and restrictions that make access difficult for those who 
might have harmful intentions.
        Facebook is proud to have led the way in giving people control 
over sharing information online.  Thank you again for the 
opportunity to comment before the committee, and I look forward 
to your questions.

	MR. WHITFIELD.  Thank you very much, and Mr. Angus, you 
are recognized for a 5-minute opening statement.
MR. ANGUS.  Thank you, Mr. Chairman, Ranking Member 
Stupak, members of the subcommittee.  My name is Michael 
Angus.  I am the General Counsel of Fox Interactive Media, parent 
company of MySpace.
	I want to thank you for inviting us today to address concerns 
about Internet safety and to discuss how we can collectively 
protect younger users on the Internet.
	Safety and security have been a priority for MySpace prior to 
the acquisition by Fox and continue to remain a top priority at the 
highest levels of our company.  We take seriously our 
responsibility to provide a safe and well-lit space for our 
community, not only because it is the right thing to do but because 
it also makes good business sense.  It is what our community and 
our advertisers demand. 
	Our members want a safe space within which they can freely 
connect with one another, express themselves, share viewpoints, 
and explore culture.  MySpace is a community much like the 
offline world.  The best defense against those who would do us 
harm is to better understand the potential dangers and protect 
yourself as much as possible.  If everyone applies real-world safety 
lessons online, whether on MySpace or elsewhere, the Internet 
really becomes a much safer place for all.  When a crime does 
occur online, we need to ensure that we arm law enforcement with 
the appropriate knowledge, resources, and laws to identify, 
prosecute and bring these criminals to justice.
	We first approach online safety by employing technologies that 
help protect teens from potential harm and inappropriate content 
and provide all members with tools they need to protect 
themselves.  This is by no means an exhaustive list but here are 
some examples.
	Profiles of users who are 14 and 15 are automatically set to 
private.  We also now require that all users over the age of 18 must 
either know the email address or the first and last name of a 
member who is 14 or 15 to invite that member to become their 
friend.  We have also recently implemented the privacy setting that 
is the default for 14- and 15-year-olds for all of our users.  That 
allows our users to control the access and scope of their 
community.
	MySpace reviews over 3 million images uploaded daily for 
content that violates our terms of use and we immediately remove 
any images that violate these terms.  We also provide a link with 
each hosted image to allow users to report inappropriate content.
	We recently developed and implemented proprietary 
technology to screen images on MySpace to assist us in quickly 
eradicating images that do not meet our standards.  We also now 
provide a direct link to the cyber tip line to allow users to report 
incidents of child exploitation directly to the National Center.  In 
addition, each page of our site contains a link to allow users to 
report inappropriate content and any other abuses that may occur 
on the site.
	We are instituting new technologies that prevent users under 
the age of 18 from seeing advertising that is inappropriate for their 
age group.  We have identified certain discussion groups that may 
contain material that is inappropriate for those under 18.  Users 
under the age of 18 or who are not logged in cannot see or join 
these groups.
	In addition to providing safety features and tools, education of 
users, parents and educators is a significant component of our 
efforts to foster a safer Internet.  We believe that one of the best 
things that we can do for users is to teach them to protect 
themselves online just as they would in the real world and we are 
seeking help from parents, teachers, and others to help 
communicate this message.  We include a link to clear common-
sense safety tips on every page within our website.  These tips are 
a must read as part of the registration process for every user under 
18.  We include a separate set of safety tips for parents and we 
emphasize that the most important thing that parents can do is to 
engage in a dialogue with their teens about Internet usage and we 
provide links to sites that help them do this.  We also provide 
parents with step-by-step instructions on how to remove their 
teen's profile and include links to free software that enables them 
to limit access to the Internet including blocking MySpace entirely.
	Finally, we view Internet safety as a collective priority and 
universal responsibility for all of us involved in the Internet--
businesses, government, law enforcement, and users.  We are 
constantly reaching out to those with expertise in the areas of child 
protection and Internet safety.  Just last week as part of our effort 
to better educate ourselves on online safety, we participated in the 
National Center's dialogue on social networking to continue to 
explore ways to make the Internet safer for younger users through 
technology and education.  In addition, we have a history of 
cooperation with law enforcement throughout the country and are 
frequently praised for our assistance.  We have created a dedicated 
hotline staffed 24/7, and as the detective indicated, we have a law 
enforcement guide that has been widely disseminated to educate 
law enforcement about MySpace and to instruct them how to 
process subpoena and information requests.
	To continue to strengthen our existing partnerships and build 
new ones, we recently hired Hamu Niggam, our Chief Security 
Officer.  Mr. Niggam has 16 years of safety and security 
experience including his work as a former Federal prosecutor 
specializing in crimes against children.  He spent the last two days 
with 48 of the 50 Attorneys General at the annual NAG conference 
and focused on technology to make the Internet safer.  We invited 
them to meet with us and our technical experts in the next 2 weeks 
to explore ways to implement viable age certification and we are 
currently coordinating schedules for that meeting.
	In collaboration with the National Center and the Ad Council, 
we have engaged in the largest ever public service announcement 
campaign on Internet safety.  These PSAs are featured repeatedly 
across all Fox properties, and I would like to show you a few of 
those PSAs right now.
	[Video]
	Mr. Chairman, members of the committee, thank you for your 
time and I look forward to answering any of your questions.
	[The prepared statement of Michael Angus follows:]

PREPARED STATEMENT OF MICHAEL ANGUS, EXECUTIVE VICE 
PRESIDENT AND GENERAL COUNSEL, FOX INTERACTIVE MEDIA, 
MYSPACE.COM

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT> 
	
        MR. WHITFIELD.  Thank you, very much, and that was quite 
effective.  I appreciate your sharing that with us.
	Mr. Hiler, you are recognized for 5 minutes.

        MR. HILER.  Chairman Whitfield, Ranking Member Stupak and 
members of the subcommittee, my name is John Hiler and I am the 
CEO and cofounder of Xanga.com.  I ask that a copy of my full 
statement appear in the record.
	Thank you for inviting me to testify at today's hearing.  I 
would like to take a couple of minutes to talk about Xanga.  First 
and foremost, Xanga is a place to write.  Xanga was founded in 
1999 as a way for authors to publish their ideas on the Internet.  
Xanga's predominant use today continues to be publishing in the 
form of Web logs.  Web logs, or blogging, are a form of online 
publishing characterized by relatively frequent posts arranged in 
reverse chronological order.
	In April of this year, Xanga added limited social networking 
features to its site but, as used by our members, our site remains 
primarily a place to write.  As I like to put it, the vibe on Xanga is 
much more like a cafe than a nightclub.  To preserve its literary 
focus, Xanga has been careful not to enable certain features that 
are typical of more socially or dating-oriented websites.  Xanga 
does not allow users to search for each other by specific 
demographic characteristics.  For example, you cannot search 
Xanga profiles for a 24-year-old woman from Kentucky who may 
be single.  Xanga also decidedly does not provide features such as 
instant messaging, chat, private message between members, or 
real-time gold tones.  We feel strongly that these features need 
strong safety filters in place before we would feel comfortable 
launching them, especially since these form of communications 
occur privately rather than in public.
	Our members use the site in many ways including as a creative 
outlet, as a way to explore personal identity and spirituality and as 
a source of support for difficult issues.  For example, Xanga has 
over 8,500 groups focused on poetry, almost 40,000 groups 
dedicated to Christianity and over 2,000 groups that are dedicated 
to parenting issues including support for first-time parents, stay-at-
home parents, and single parents.
	As an industry leader, Xanga is committed to being at the 
forefront of Web log communities when it comes to looking out 
for the safety of all of our users.  There is no single silver bullet but 
we are committed to trying any solution that is feasible.  What 
makes Xanga unique is its comprehensive approach that empowers 
members, parents, and Xanga itself all to take charge of online 
safety.
	I would like to highlight two technologies that Xanga has 
developed to empower its members to help police its site.  They 
are a rating system and a flagging system.  While both systems are 
still new and being refined, these technologies have received 
strong initial reviews from both our members and from industry 
experts.
	Our first safety initiative is a rating system.  To address the 
issue of clean content, we have created a rating system, a picture of 
which you can see attached to the back of our written testimony.  
As you can see, it is a five-part rating system modeled after the 
system used to rate motion pictures.  This rating system launched 
on May 26 of this year and we use the ratings to limit access to 
age-inappropriate content including requiring a credit card before 
members can view sites rated as containing adult material.
	Our second important safety program is a flagging system that 
Xanga has developed to allow users to easily report sites that 
violate Xanga's terms of use.  This system launched on May 1 of 
this year has been extremely effective in rapidly identifying 
inappropriate content.  Now if a Xanga member sees a page with 
inappropriate content, he or she can view a list of potential flags 
with just a single click.  Then with just one more click, that site or 
page can be instantly reported to our flagging database.  Flagged 
sites are reviewed by Xanga's trained analysts and shut down as 
appropriate.  Depending on the nature of the flag, these sites may 
also be reported to the proper authorities such as the National 
Center for Missing and Exploited Children, also known as 
NCMEC.
	Mr. Chairman, as you pointed out yesterday, it is very 
important that we get sites with child porn off of the site as quickly 
as possible.  With our flagging system, we have been able to 
identify, delete, and report these sites to NCMEC in as quickly as a 
few hours.
	Xanga has also embraced best practices in data retention and 
preservation, an issue that I know is important to the committee.  
Xanga records IP addresses for every user upon registration, 
retains that information indefinitely for law enforcement.  Our 
practice is to comply with all subpoenas within one to two business 
days if not significantly faster.  Xanga is also working with the 
National Center's cyber tip line to identify other points at which to 
capture IP addresses including during photo uploads and during 
member sign-ins.  As soon as our recommendations are finalized, 
we will implement them and begin retaining and preserving this 
additional IP information as well.
	We have also recently launched several other privacy features 
which empower users to control and monitor access to their own 
sites, not only increasing their own privacy, but also making their 
site safer as well.
	In addition, I want to reiterate what features Xanga does not 
support:  instant message, chat, private messaging, private 
bulletins, and profile search.  We are also working with experts so 
our site reflects industry best practices including WiredSafety, the 
National Center and Blogsafety.com, and finally, Xanga routinely 
works with law enforcement to help with investigations.
	We at Xanga are fully committed to ensuring the safest 
possible environment for our members.  There is no single silver 
bullet out there to guarantee the safety of our members but we are 
committed to a comprehensive approach involving technology, 
empowering our users and cooperating with law enforcement and 
industry experts.
	Thank you, and I look forward to answering any questions.
	[The prepared statement of John Hiler follows:]

PREPARED STATEMENT OF JOHN HILER, CHIEF EXECUTIVE OFFICER, 
XANGA.COM, INC.

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT> 

	MR. WHITFIELD.  Thank you very much, Mr. Hiler, and Mr. 
Angus, I want to thank you again for bringing that public service 
announcement that you all are utilizing, and at this time, on my 
time, I do want to show the public service announcement that is 
being used in Great Britain that was prepared by the Virtual Global 
Taskforce.  This public service announcement is being shown in 
movie theaters around Great Britain. 
	MR. WHITFIELD.  The sound works very well.  We will try one 
more minute.  If it doesn't work, we will move on.
	[Video].
	MR. WHITFIELD.  I would ask each one of you that report 
abuse, do you have a technique like that on your space, Mr. Kelly?
	MR. KELLY.  Yes.  I mean, you will have a report, this photo 
report this message report.  I mean, there are reporting tools built 
in throughout the site.
	MR. WHITFIELD.  And easily available?
	MR. KELLY.  Easily available.
	MR. WHITFIELD.  Mr. Angus?
	MR. ANGUS.  Likewise on each page within MySpace, there is 
a link to report abuses of content.  There are also links on each 
photo that is hosted by MySpace to report photos themselves, and 
then if a photo is reported, you are then permitted as a user to 
respond and forward that information onto the National Center's 
cyber tip line.
	MR. WHITFIELD.  Cyber tip line.  Okay.
	MR. HILER.  Yes.  At Xanga we absolutely have a link on every 
single page that links to our flagging technology I mentioned 
before.  We have identified around 10 separate, we call them 
crimes, that users can report.  One of these is for child porn and we 
built some additional technology that enables us to identify which 
pages are being flagged most frequently for child porn and we 
prioritize our resources on those reports so we can send them right 
to the National Center.
	MR. WHITFIELD.  So the flagging occurs first and then to the 
cyber tip line?
	MR. HILER.  There is a middle layer where our trained analysts 
take a look at the images.
	MR. WHITFIELD.  In the testimony today and throughout these 
hearings, we have heard a lot about young people who are not 
truthful about their age, and I would like to ask all of you if you 
have any flagging or filtering device to match up what a person in 
their profile says their age is and information that might reveal 
what their actual age is?
	MR. KELLY.  So again, we take a somewhat different approach 
because of our segmented networks so users have to verify where 
we can with dot edu or dot org email addresses into high school 
communities, and if not with an invitation method from validated 
users into that high school community.  So there is a proxy for age.  
They are also required to put their birth date, and in proper 
compliance, we assure that that is a birth date calculation.  We 
don't ask are you over 13 or something like that.  We don't allow 
anyone to register for a high school class that wouldn't make them 
13.  So we have a variety of proxy methods for age but, obviously 
are interested in finding more certain verification.
	MR. WHITFIELD.  Right.  Mr. Angus?
	MR. ANGUS.  MySpace only permits users 14 years and older 
to join the site, and it is a similar process where the user is required 
to enter in a birth date and then the calculation is made.  If they 
enter in a birth date that results in that individual being too young, 
a session cookie is placed on the computer and they are not 
permitted to back button and then just fix the date.  In addition, we 
do have a proprietary search algorithm that constantly scans the 
site looking for phrases that users use to identify themselves as 
being underage.  Again, this is a site where users are there to talk 
about themselves and portray themselves to their community of 
friends and so frequently we see them using either in code or in 
actual language saying I am really 13 and then we have a team of 
security experts go through each reported instance and to 
determine whether it is an individual saying my daughter is 13, my 
dog is 13 or I am 13, and every user that we identify as being under 
the age of 14 is deleted from the site and banned.
	MR. WHITFIELD.  So you have an ongoing screening process 
that is looking at different--
	MR. ANGUS.  That is correct, and we constantly update the 
search phrases as the users change their terminology.  One of the 
popular ones right now is cake date instead of birth date.
	MR. WHITFIELD.  And they are automatically banned from the 
site--
	MR. ANGUS.  Yes.
	MR. WHITFIELD.  --if they are determined to be--
	MR. ANGUS.  That is correct.
	MR. WHITFIELD.  Have you had any legal ramifications with 
trying to do that or doing that?
	MR. ANGUS.  No, we have not.
	MR. WHITFIELD.  Mr. Hiler?
	MR. HILER.  In addition to the standard ways that we all screen 
underage users from joining our site, we have two separate 
failsafes.  The first is a parental deletion request form.  We have 
created a policy and procedure through which parents can send us 
a signed consent form asking that we delete the account.  We 
generate an archive and we send it to them.  So that is one.  The 
second is that as part of our theme of empowering the user, we 
have created a flag that says "proof of underage user" and that way 
users can flag sites that they believe have people who are 
underage.  We can take a look at the sites that have been flagged 
by the community and evaluate them, and what we find often is 
that it is older brothers and sisters who are on the site who want to 
police their younger brothers and sisters from joining us and so it 
has been nice to see that pattern of self-policing emerge.
	MR. WHITFIELD.  So if a parent contacts any of you and 
demands that you take down a child's profile, will all of you do 
that?
	MR. KELLY.  So we--
	MR. WHITFIELD.  Your situation is a little different.
	MR. KELLY.  Our situation is a little bit different.  We have 
actually a problem that we have identified legally under the 
Electronic Communications Privacy Act about giving a parent 
access to an account.  So we certainly encourage parents to talk 
with their student user and if they can get their password and sign 
into their account, well, obviously we have an easy deactivation 
process.  So we try to work with the parents in those instances.  
But there is no underage exception for ECPA and so we have been 
concerned about legal liability from that standpoint if we give 
parents access to the account.
	MR. WHITFIELD.  But to get on your site, I have to have a 
university address--
	MR. KELLY.  Well, if you have a validated high school user 
either through--if the high school issues its own address--that is our 
preferred method.  That is our favorite way to assure that the user 
is in fact associated with that school.  Otherwise we use an 
invitation method which we started by having confirmed college 
users invite people at their old high schools and then have this 
validation method over time.  So there are high school students on 
the site where we will get requests from parents to take it down 
and we try to facilitate that analysis without exposing ourselves to 
legal liability under ECPA.
	MR. WHITFIELD.  And Mr. Angus, what about MySpace?
	MR. ANGUS.  We do honor parents' requests to take down 
profiles of users under the age of 14.  The issue that we have is that 
in some cases this is a form of cyber bullying and we will find that 
some teens may purport to be parents of that user and attempt to 
have that user's account deleted, so we do work with the parents to 
verify that they are actually the parent of that individual.  In 
addition to just removing underage profiles, if a parent of a 14-, 
15-, 16- or 17-year-old wants their child's profile deleted, we will 
also do that upon verification.  Of course, we always encourage the 
parents to communicate directly with their kids, because as the 
detective indicated, once the teens are banned, frequently they will 
just go underground and that makes them more reticent to discuss 
issues that can arise.
	If I could just address your previous comment about 
automatically searching, we also have a number of users who value 
the community and also get reports from our user base about 
underage profiles.
	MR. WHITFIELD.  My time is expired but one thing that I would 
like for you to do, Mr. Angus, is that we have a copy of a letter 
from the Attorney General of Ohio dated March 24, 2006, to Mr. 
Chris DeWolf, who I guess was the CEO of MySpace.com.  I am 
not sure when Fox purchased that but I don't know if you are even 
familiar with this letter but in his letter he suggests certain ways to 
address some of these issues, and I would like to give you a copy 
of it and maybe you can just respond to the committee in writing.
	MR. ANGUS.  Certainly.  I would be happy to do that.
	MR. WHITFIELD.  And at this time I would like to recognize 
Mr. Stupak.
	MR. STUPAK.  Thank you.  The Chairman was asking about 
reporting of abuses.  Let us go down the line and answer these 
questions.  Mr. Kelly, if I am going to report abuse, who would I 
report it to if I am on your network?
	MR. KELLY.  So on our site, it would go to our customer 
service staff.
	MR. STUPAK.  And then what happens to it?
	MR. KELLY.  So it is reviewed by--we have a customer service 
staff of 20 who are all recent graduates and very experienced in 
Facebook.  I like to say we have the most overeducated customer 
service staff in America.  They are all recent graduates of great 
universities and they assess whether or not there is a complaint 
about the violation in terms of service or an underage user or 
whatever may come, they assess it quickly.  If it is a valid 
complaint, they process it in accordance, usually within 24 hours.
	MR. STUPAK.  If it is a valid complaint, process it how?
	MR. KELLY.  So if it is an underage user, we boot the user.  If it 
is an inappropriate photo, a violation of the terms of service, we 
remove the photo and the user gets a warning the first time.  They 
get a second sterner warning and a suspension the second time, and 
the third time their account is permanently barred.  Unlike most 
other sites--
	MR. STUPAK.  Are you reporting them to NCMEC?
	MR. KELLY.  So if it is a child porn case, of course we report it 
to NCMEC and we are registered with NCMEC as a reporting 
agency.
	MR. STUPAK.  Has that ever happened?
	MR. KELLY.  We have not ever had an instance.
	MR. STUPAK.  Out of 29 million, or what do you have?  How 
many?
	MR. KELLY.  Actually at this point we have about 350 million 
photos on our site, and because they are all students, they are 
posting their own pictures. 
	MR. STUPAK.  And none of them are ever--
	MR. KELLY.  What?
	MR. STUPAK.  None of them were ever pornographic?
	MR. KELLY.  So some of them are inappropriate but they are 
not pornographic.
	MR. STUPAK.  Who makes that determination?
	MR. KELLY.  We make that determination.
	MR. STUPAK.  I know these are experts in computing, not 
necessarily in pornography.
	MR. KELLY.  Well, they are actually able to make the 
determination if there is any exploitation shown anywhere in the 
site and we talked with NCMEC extensively about this, they don't 
want a lot of false reports.
	MR. STUPAK.  I am not--
	MR. KELLY.  They are concerned about the assessment.  The 
way that we segment our communities and the way that people 
share photos, we are not a haven in any way for people who would 
share child pornography.  It is very difficult for predators to get on 
our site--
	MR. STUPAK.  Let me go on down the line now.  I have only a 
couple minutes here.  I don't want to use up all my time.  Mr. 
Angus, how about you?  Where do you guys report your uses to 
and where does it go and--
	MR. ANGUS.  Again, the link on every page, there is a drop-
down menu that allows a user to categorize, and for our security 
time it prioritizes the abuse reports that we get.  Those reports go 
to our safety and security team which is led by our chief security 
officer.
	MR. STUPAK.  How many people do you have on that team?
	MR. ANGUS.  I don't know the answer to that question.  I can 
get back to this committee.
	MR. STUPAK.  Have you reported any to NCMEC, the National 
Center for Missing--
	MR. ANGUS.  Yes.  Any image that involves potential child 
exploitation is immediately forwarded to the National Center.
	MR. STUPAK.  Have you?
	MR. ANGUS.  To be honest, as Facebook, our site is not really a 
haven for children.
	MR. STUPAK.  I am not asking that.
	MR. ANGUS.  But I can tell you, of the 60 million images that 
are uploaded to our site every month, we average approximately a 
dozen reports to the National Center.
	MR. STUPAK.  Twelve out of 60 million?
	MR. ANGUS.  Twelve out of 60 million, correct.
	MR. STUPAK.  And Mr. Hiler?
	MR. HILER.  Yes.  Reports come in to our site in several ways.  
We talked about flags, we talked about ratings and of course, we 
get emails as well.  To answer your specific question around 
NCMEC, we prioritize the most urgent flags.  Those are child porn 
and death threats, threat of physical harm, to respond to.  And well, 
we have a different story to tell.  Ever since we launched our 
flagging system where our members can help police the site, we 
have gotten a lot of reports.  We have gotten over--
	MR. STUPAK.  What happens to the reports?
	MR. HILER.  We have over 200 reported incidents.  They are all 
examples of a new trend--
	MR. STUPAK.  Yeah, but where do they go?
	MR. HILER.  Of course--
	MR. STUPAK.  I don't want long explanations.  I have only got 
10 minutes.
	MR. HILER.  They are shut down and they are reported to the 
National Center.  We are a participant in--
	MR. STUPAK.  Have you sent them to the National Center then?
	MR. HILER.  Yes.  I was there just last week.
	MR. STUPAK.  I could be wrong on this but let me ask this 
question.  Mr. Angus, did you indicate that credit companies will 
not allow you to use their database to verify ages of people?  Was 
that part of your testimony?
	MR. ANGUS.  That was not part of my testimony.  It is my 
understanding though, Congressman, that they do not permit us to 
use their facilities to verify age, that they require charges.
	MR. STUPAK.  Require charges.  Mr. Hiler, didn't you say you 
used credit card companies to verify ages?
	MR. HILER.  We have used it to verify the ages of members 
over 18 to get access to the highest levels.  We have been talking 
with our merchant account and they have expressed concerns about 
using it for age verification, so we are looking into alternate forms 
of ID verification.
	MR. STUPAK.  Either one of you, what could you do to verify 
ages?  What would you do?  When you testified that you don't 
have anyone under 13, how do you know that?
	MR. KELLY.  So it is because they are validated into the high 
school community.  We have a neighborhood watch in those high 
school communities to report who doesn't belong, who is not 
actually in high school.
	MR. STUPAK.  Sure.
	MR. KELLY.  So that is--
	MR. STUPAK.  And you think that is 100 percent foolproof?
	MR. KELLY.  No, I don't think it is 100 percent foolproof.  It is 
one of the reasons why we have the initial invitation system.
	MR. STUPAK.  Right.
	MR. KELLY.  And we have--
	MR. STUPAK.  High school, college and--
	MR. KELLY.  And then we have the segmentation of the 
community.  That leads to better community reporting.  It is not a 
perfect system but we feel it is better than not having any--
	MR. STUPAK.  Mr. Angus?
	MR. ANGUS.  At this point my understanding of any age 
verification technology is really a form of identity verification.  It 
is extremely complex in the online world, as you can imagine, and 
it is something that we are working with the attorneys general on 
trying to find a solution for.  This is especially complicated in the 
global setting of the Internet.
	MR. STUPAK.  Well, how about this idea of taking the 14- and 
15-year-olds and segregating them all, putting them in their own 
separate site?  I think that has been suggested to you guys, and you 
sort of resist that idea, right?
	MR. ANGUS.  Yes.
	MR. STUPAK.  Why?
	MR. ANGUS.  I think that as the detective indicated, once the 
younger users, those teens think that they are being segregated off, 
it is our belief that this encourages them to lie about their age, and 
without a viable means to verify that, they will lie about their age 
and that a lot of safety features that we employ specifically for 
those younger users will no longer be available to them.  In 
addition, it drives them further underground, meaning that they are 
less comfortable reporting abuse and talking to trusted adults.
	MR. STUPAK.  But I wrote down here, you are the one who 
indicated--you stated, "No one less than 14 on MySpace," so I was 
wondering, how do you verify that?  How can you make that 
statement?
	MR. ANGUS.  We don't permit anyone under 14 to be on the 
site.
	MR. STUPAK.  But you don't know there aren't people less than 
14.
	MR. ANGUS.  Everyone that we know of who is under 14, we 
eliminate from the site.  Yes.
	MR. STUPAK.  Let me ask you this, Mr. Angus.  Some of the 
State attorneys general have requested that MySpace delete anyone 
who violates the terms of your contract or terms of service--excuse 
me--and permanently ban a user from MySpace for continuing 
posting prohibited links with pornography and other inappropriate 
material.  But it seems like you don't automatically ban a user who 
has violated the terms of your service agreement, those have 
known to pose sexually explicit materials, according to the 
attorneys general.  Why don't you guys do that?
	MR. ANGUS.  Actually we do do that.  We do ban users.  It 
depends on the level of severity.
	MR. STUPAK.  Do you have zero tolerance on that?
	MR. ANGUS.  Zero tolerance would mean that if a user were to 
post an image that violates the terms of our use--
	MR. STUPAK.  Paragraph five, isn't it?  Is paragraph five terms 
of service?
	MR. ANGUS.  I don't have them in front of me but--
	MR. STUPAK.  But anyways, you don't have zero tolerance.  
Why not?
	MR. ANGUS.  Again, there are users who may post an image 
who are otherwise very good users, very good members of the 
community, and one oversight again as my colleague mentioned, 
we will send them a warning, we will delete that, and the next time 
they will be deleted from the site.  Their profile will be taken 
down.  Users who are posting a lot of pornography who are clearly 
and knowingly violating our terms of service--
	MR. STUPAK.  You have--
	MR. ANGUS.  --we will delete and we will ban from the site.
	MR. STUPAK.  But you report that you have 60 million images a 
month?
	MR. ANGUS.  Sixty million images a month that we--
	MR. STUPAK.  You don't scan those 60 million every month, do 
you?
	MR. ANGUS.  We do.  Every image we review that is uploaded 
to our site.  That is three million a day.
	MR. STUPAK.  And 12 reports.
	MR. ANGUS.  Say again.
	MR. STUPAK.  And 12 reports a month?
	MR. ANGUS.  Twelve reports to the National Center's cyber tip 
line.  We remove approximately 1,000 images of the three million 
for inappropriate content.
	MR. STUPAK.  You remove 1,000?
	MR. ANGUS.  Correct.
	MR. STUPAK.  The other suggestion the attorneys general had 
was that MySpace increase the minimum user age from 14 to 16 
and prohibit adult users from accessing the profiles of minors.  
Why do you resist that increase from 14 to 16?
	MR. ANGUS.  The resistance, Congressman, for increasing the 
age from 14 to 16 again goes to that issue of balancing.  Whether 
you make the site too restrictive and you encourage them to lie 
about their age, driving them further underground and denying 
them the safety features that we implement for 14- and 15-year-
olds.
	MR. STUPAK.  But still at the same time, the detective also said 
two-thirds of all the hits he had were 14- and 15-year-olds, the 
most gullible, if you will.
	MR. ANGUS.  Well, the second part of the question that you 
asked, Congressman, was the accessibility to those 14- and 15-
year-olds of the older users and we have implemented a feature 
that now requires that anyone 18 or over know the exact email 
address or first and last name of the user to identify that user and 
invite them to be a friend.
	MR. STUPAK.  When did that start?
	MR. ANGUS.  That was announced I believe last week as part of 
our recent safety announcements.
	MR. STUPAK.  Okay.  Because I was looking at some cases 
here, about four, five, six of them, that certainly were not--am I 
over time?
	MR. ANGUS.  Yes, that is a relatively new feature.
	MR. STUPAK.  Thanks.
	MR. WHITFIELD.  Thank you, Mr. Stupak.  At this time I 
recognize Dr. Burgess.
	MR. BURGESS.  Mr. Kelly, you talked about some of the 
technologies that are employed by Facebook and you referred to 
segmenting and you alluded to other technical devices that you 
have for online protection.  Can you fill us in on some of those 
others?
	MR. KELLY.  Sure.  I mean, I want to highlight the fact that 
what we are trying to do is leverage social norms in the technology 
as well with the authentication, with the segmentation of the 
networks.  The other factors--we don't like to talk a lot about the 
particular factors that we use to determine inappropriate usage 
because it may in fact lead people to try to get around them, but 
one of the ones that I talked about was number of rejected friend 
requests is the easiest thing.  If somebody were to get on the 
network and try to become friends and thus get access to profiles 
of especially a bunch of high school students, that is something 
that we have a tool that runs every 4 hours and will flag that and it 
gets emailed to an engineer and we review that constantly every 4 
hours, and we can research any inappropriate activity like that.  It 
gets sent to our customer service team if that security engineer 
believes that it indicates a true complete misuse of the site.
	MR. BURGESS.  And these are individuals that have had some 
specific training in identifying aberrant behavior?  They have had 
some law enforcement training?  What--
	MR. KELLY.  They haven't had law enforcement training but 
they are highly technical engineers who have helped design the 
site.
	MR. BURGESS.  And I don't quarrel with the fact that you are 
all very bright and you have set up wonderful entrepreneurial 
businesses which epitomizes the American way, but you have 
seen, if you have followed any of these hearings, the enormity, the 
magnitude of the problems that we are up against and the 
devastating effect it is having on the next generation of Americans 
and it is certainly incumbent upon us while we celebrate your 
successes.  We do want to ensure that the proper safeguards are in 
place for children who might access these sites, so is there any 
industry standard that says your safety engineers, if that is the 
correct terminology for that position.  Are there any performance 
guidelines that they have to meet?  Is there any special training that 
they have to take--I really ought to ask the same question of 
whoever is sitting at the table.
	MR. KELLY. We have written technology specifications for 
these tools and we are constantly upgrading them.  We at Facebook 
have done this, and they are designed with my input--
	MR. BURGESS.  Let me just--
	MR. KELLY.  --the input of--
	MR. BURGESS.  I don't mean to interrupt you because I know 
what you have to say is important but have you monitored these 
hearings as we have been going through them the past several 
weeks?
	MR. KELLY.  Yes.
	MR. BURGESS.  You just can't help but be impressed by the 
enormity of the problem and how clever the criminal mind is.  You 
know how clever the adolescent mind is at defeating whatever 
safeguards you are going to put up there but how clever the 
criminal mind is.  We have seen a little bit of it in these public 
service announcements, but they hardly do justice to how clever 
these individuals are, and at one point in Justin Berry's testimony, 
the comment was made, "We laugh at people who try to stop us, 
we are so much smarter than they are."  So my question to you 
again is, what training and what safeguards, what industry 
standards are there?  If there are not any, do you think we should 
develop some?
	MR. KELLY.  There are not currently industry standards 
focused on these sites, in large part because--
	MR. BURGESS.  On safety officers.
	MR. KELLY.  Around safety officers, but in large part because--
	MR. BURGESS.  What about at MySpace?
	MR. ANGUS.  We train all of our employees who are 
responsible for safety and security on our practices.  We have also 
reached out to the other social networking sites to try and establish 
best practices and we are engaged in that dialogue.
	MR. BURGESS.  And do they have training from law 
enforcement?  Do they have training from people who specifically 
prosecute these types of crimes so they know what to look for?
	MR. ANGUS.  Yes, Congressman, we do speak regularly with 
law enforcement.  Our chief security officer is a former U.S. 
prosecutor and was formerly with the Los Angeles District 
Attorney's Office and is familiar with the needs of law 
enforcement in their prosecutions.  We work with them regularly.
	MR. BURGESS.  You made the statement to Mr. Stupak that no 
one under 14 is allowed on MySpace.
	MR. ANGUS.  That is correct.
	MR. BURGESS.  Have you ever known anyone to mislead 
someone about their age?
	MR. ANGUS.  Certainly.
	MR. BURGESS.  And so what are you doing now to prevent that 
from happening?
	MR. ANGUS.  When we find out that someone is 
misrepresenting their age, they are--
	MR. BURGESS.  These are kids.  They are so clever.  How are 
you going to find out?
	MR. ANGUS.  They are clever.  It is our part of the education 
process.  We believe that educating parents and the students--
	MR. BURGESS.  How long is that process going to take?
	MR. ANGUS.  We have a parents' guide that will be released 
prior to the end of--before the beginning of the school year.
	MR. BURGESS.  I referenced it earlier, I applaud and welcome 
the public service activities that you have going on but I have just 
got to tell you, I think that all of us are way behind the curve on 
this and playing catch-up in a disease, and I will use that term, that 
is exploding exponentially, it is not a good feeling for me sitting on 
this side of that table about where we are in the trajectory of trying 
to get a handle on this problem.
	MR. ANGUS.  I share your--
	MR. BURGESS.  Let me just ask you one other thing.  Now, no 
one under 14--we heard--our initial witness in this whole series of 
hearings was someone who started when they were 14.  As far as I 
can tell, his life has been seriously derailed by activities on 
MySpace.  I realize your corporation did not own it at the time but 
do you think 14, is that an adequate safeguard to place on 
MySpace?
	MR. ANGUS.  We believe that it is.  Again, we believe that the 
14-year-olds are going to join and we employ security measures 
specifically for the 14- and 15-year-olds that we believe better 
protect them and--
	MR. BURGESS.  Now, these--
	MR. ANGUS.  --empower them.
	MR. BURGESS.  --would not have been in place when Mr. Berry 
began his career on MySpace, or--I beg your pardon.  I am--
	MR. ANGUS.  But if I may, you asked about our coordination 
with law enforcement.  I testified at California State hearings, and 
one of the things that I heard from a lieutenant who was operations 
commander for ICAC Task Force in northern California was very 
troubling to me, that the laws in many States are not consistent and 
do not permit law enforcement to go after some of these online 
predators.  The act of a predator engaging in an online sexual 
discussion may in and of itself not be enough to warrant 
prosecution, and it is this kind of activity that should be 
criminalized.
	MR. BURGESS.  How much time do you give yourself to 
evaluate the information that you are given by new subscribers?  If 
someone goes online and says I want to have a spot on MySpace, I 
am 14 years old, here is my information, is it immediate hookup 
that they have or do you delay that by a little while so you can 
check the information?
	MR. ANGUS.  It is immediate.  If they enter in the information, 
if the information is correct, they have an account and they begin 
setting up that account.
	MR. BURGESS.  What would be the problem with perhaps 
delaying that by some period of time to allow the information to be 
verified?
	MR. ANGUS.  If they--I am at a loss--
	MR. BURGESS.  If someone comes to MySpace and says I am 
14 years old, I want a site, provides you whatever information is 
required to set up a set for a 14-year-old, what would be the 
problem in delaying the immediate setup of that site and allowing 
your cyber detectives time to verify that that information is in fact 
correct, that this 14-year-old is not in fact a 28-year-old?
	MR. ANGUS.  Congressman, right now--
	MR. BURGESS.  Or that this 14-year-old is not in fact a 10-year-
old?
	MR. ANGUS.  Congressman, right now we don't have any 
means to verify the information that is provided to us.
	MR. BURGESS.  How--
	MR. ANGUS.  If they provide a correct--
	MR. BURGESS.  If I could, how many people are going to sign 
up to MySpace today?
	MR. ANGUS.  Probably roughly 250,000.
	MR. BURGESS.  And how many of those will be 14 years of 
age?
	MR. ANGUS.  I don't know the answer to that question, 
Congressman.  I do know that roughly 20 percent are under the age 
of 18.
	MR. BURGESS.  And that is a figure that could be verified if 
someone were to look at your records--
	MR. ANGUS.  That--
	MR. BURGESS.  --so that there wouldn't be someone who says 
they are 16 who is in fact 60?
	MR. ANGUS.  These are numbers actually that are reported to us 
by comScore Mediametric, so it is a third party who provides the 
ages of those users.
	MR. BURGESS.  Well, let me ask you a question, and I 
apologize for linking your site with the witness we had at the very 
beginnings of these hearings, but as that individual testified to us, 
and I am not a big person on liability.  In fact, I am probably on the 
other side of that equation but I couldn't help but think that some 
site somewhere might have enormous liability because of what has 
happened to this young individual.  Do you all concern yourselves 
with the fact that if someone gets injured using your product in a 
way that maybe it wasn't intended but basically conforms to the 
rules and they get injured, do you incur any type of liability from 
that?
	MR. ANGUS.  Congressman, I wouldn't want to comment on 
any pending litigation--
	MR. BURGESS.  I wouldn't expect that you would.
	MR. ANGUS.  We are deeply concerned that if anyone--
	MR. BURGESS.  I would really like for all three of you if you 
don't mind, because I am going to run out of time here in just a 
moment, if there is some way with your various legal departments 
if you would just explore that, how do you in fact see yourselves as 
protected from--we saw the PSA run in reverse up there.  If that 
situation happens and that child is critically injured or killed, how 
do you protect yourselves from liability if you have been the 
conduit to bring the predator and victim together?  Is there liability 
there?  I honestly don't know.  I am not a lawyer.  I don't know 
legal theory.  It would seem to me if we have got those warnings 
on the package of cigarettes that there may be some clever lawyer 
somewhere in this country who would try to draw a straight line 
between those two dots.  Mr. Chairman, you have been very 
indulgent.
	MR. KELLY.  First of all, the harm to the child is obviously our 
first concern, not liability, but in the design of the site, we figure if 
there are best practices in place that proper usage, that the best 
standards should in fact govern the possible interaction between 
kids and adult predators, which is why we separate the sites.  I 
want to add one thing on the standards question that you have 
asked, and I spent the day yesterday with the National Association 
of Attorneys General and I would add for the committee's 
consideration that the National Association of Attorneys General 
has asked Facebook to submit its security standards for 
consideration as a best practice as they go forward in their 
deliberations about how they are going to set these standards.
	MR. BURGESS.  And I would agree with the gentleman that the 
safety of the child is the first concern but what we have seen over 
the past several weeks is the enormity of the pressure put on the 
rest of society by the predator community and the Internet has 
boosted that, has turbocharged that to a degree that I don't think I 
am alone on this committee, I was absolutely unaware as to the 
dangers that were out there with these types of sites.  Again, I 
welcome the entrepreneurship that you bring to the American 
culture, the things that you are able to provide society but do 
understand that we on this side do feel an obligation to put the 
proper boundaries around this so that our next generation of 
Americans is protected.
	MR. KELLY.  And we deeply share those concerns and that is 
why we built them into the technology.
	MR. WHITFIELD.  Ms. DeGette, you are recognized for 10 
minutes.
	MS. DEGETTE.  Thank you, Mr. Chairman.  Let me say, I 
actually agree with the detective and I agree with what you 
gentlemen are saying in terms of you don't want to put so many 
restrictions on these sites that you drive kids to other places where 
they may not have scrupulous oversight and I really agree with that 
and that is one reason I agree with this thing about having 14- and 
15-year-olds in a segregated site or not letting them be on sites like 
MySpace.  I also worry that predators could then know exactly 
where to go and zero in to kids if you have sites just for those, but 
having said that, I think that everybody in this room would agree, 
we need to work harder as a community, that you and similar 
companies need to work harder and smarter to try to thwart these 
predators and we need to figure out if there is a--well, for 
Congress.  Just quickly, would you agree with that, Mr. Kelly?
	MR. KELLY.  I am sorry.  Could you repeat--
	MS. DEGETTE.  Would you agree with the fact we all need to 
work harder--
	MR. KELLY.  Oh, absolutely, at all levels.
	MS. DEGETTE.  And Mr.--is it Hiler or Hiller?
	MR. HILER.  Yes, Hiler.
	MS. DEGETTE.  Would you agree with that too?
	MR. HILER.  Yes.
	MS. DEGETTE.  Would all of you agree with what the detective 
was saying about parents need to take a role to look at their child's 
contacts on the Internet and to take an active role?
	MR. KELLY.  Absolutely.
	MR. ANGUS.  Parental involvement is one of the best things 
that we can do to enhance safety.
	MS. DEGETTE.  Mr. Hiler?
	MR. HILER.  Absolutely.
	MS. DEGETTE.  Now, Mr. Angus, I want to ask you, and I just 
want to be really frank here because as I said earlier, you were here 
when I was talking earlier, there is really no way to verify if a 12-
year-old is registering a birth date that says they are 16, is there?
	MR. ANGUS.  That is right.
	MS. DEGETTE.  As you said, you can go and if they try to back 
up and redo the--
	MR. ANGUS.  You can--
	MS. DEGETTE.  But the 12-year-olds--I am telling you right 
now because I have watched it personally with my eyes, I watched 
an 11-year-old sign up--that would be my daughter--for a MySpace 
site, and you know that is happening, right?
	MR. ANGUS.  They can do it.  
	MS. DEGETTE.  And it is happening, and you don't have a way 
to stop that really, do you?
	MR. ANGUS.  We are doing everything that we can including 
updating those search algorithms and again, it is our belief--
	MS. DEGETTE.  Actually, there is more you could do because 
Mr. Kelly is doing some of it although his site is so restricted 
anyway because of the way they sign users up but you can do 
algorithms that will go beyond just the date of birth that they 
register to start to weed out some of the underage users.
	MR. ANGUS.  Oh, yes.  Our--
	MS. DEGETTE.  And are you working on that?
	MR. ANGUS.  The algorithms that I spoke of actually scan not 
just the user information that the users input when they register but 
all of the text that they put on their site.
	MS. DEGETTE.  And is that vigorously done?
	MR. ANGUS.  Yes, it--
	MS. DEGETTE.  And how many people are screened out every 
week because they are underage using those algorithms?
	MR. ANGUS.  I don't know the weekly number.  I know that 
over 200,000 have been removed from the site and I--
	MS. DEGETTE.  Since when?
	MR. ANGUS.  I don't know the answer to that.
	MS. DEGETTE.  Mr. Chairman, I would ask unanimous consent 
Mr. Angus be allowed to supplement his testimony.
	MR. WHITFIELD.  Without objection.
	MS. DEGETTE.  Thank you.
	MR. ANGUS.  Thank you.
	MS. DEGETTE.  Now, I would ask you, Mr. Angus--all three of 
you testified that your customer service personnel take complaints 
of child pornography and other inappropriate actions but I would 
ask you, Mr. Angus, would you object if we could figure out which 
regulatory agency could take those complaints and if they were 
adequately funded either by a government-industry consortium or 
some other way--I really--I am very intrigued with what the U.K. 
and Australia do where they have the little link right on their 
website where the report can go to an experienced law enforcement 
agency.  Would you agree and participate in helping us find a way 
to do that kind of reporting?
	MR. ANGUS.  We would welcome that, yes.
	MS. DEGETTE.  And Mr. Kelly, would you?
	MR. KELLY.  Yes, we would welcome that.
	MS. DEGETTE.  And what about you, Mr. Hiler?
	MR. HILER.  The same.
	MS. DEGETTE.  Now, I just think that way you don't have to 
have recent college graduates who are really there for consumer 
protection to be making law enforcement decisions, right?
	MR. HILER.  Um-hum.
	MS. DEGETTE.  Okay.  Mr. Hiler, I want to ask you a couple of 
questions because you testified that your company has recently 
decided to keep all IP addresses for users that are on your site, 
correct?
	MR. HILER.  Just to clarify, we have since the beginning of the 
site to my knowledge always retained the IP address upon 
registration.
	MS. DEGETTE.  And are you keeping any other IP information?
	MR. HILER.  We are now working with the National Center to 
establish what other IPs might be useful for them in the cyber tip 
line reporting and law enforcement in general.
	MS. DEGETTE.  Okay.  And you are going to store the data 
indefinitely?
	MR. HILER.  All IP registration data that we store, we will 
retain and preserve indefinitely.
	MS. DEGETTE.  And why do you do this?
	MR. HILER.  We are deeply committed to helping law 
enforcement.  One of the things that the National Center has 
pointed out is that if we give them the IP address of a member who 
has uploaded child porn and the IP address is above a certain 
amount of months, it may not be useful to them for some of the 
reasons that were cited in yesterday's hearing and so if we can get 
a fresh IP, that is absolutely critical to law enforcement.
	MS. DEGETTE.  And when are you talking about that fresh IP, 
what you mean is when they upload a photograph?
	MR. HILER.  Yes.  So now for every--
	MS. DEGETTE.  That is what you are keeping as well?
	MR. HILER.  In just a few days every photo uploaded is going 
to have an IP address associated with it.
	MS. DEGETTE.  And you will save that data as well as the 
initial user--
	MR. HILER.  Absolutely.  We will save that indefinitely.
	MS. DEGETTE.  Okay.  And do you know how much it is going 
to cost you do to that?
	MR. HILER.  I don't know.  We store vast amounts of photos.  
That costs a lot of money.  Sticking on an IP address, I can't 
imagine that is going to be a huge portion of the cost.
	MS. DEGETTE.  Mr. Kelly, you are nodding your head.  Do 
you--
	MR. KELLY.  We tag--every photo on Facebook is connected to 
a user account at this point so there is a direct connection there, 
and I would be surprised if adding an IP address to those pieces of 
information.  We have it currently in our logs.  It probably 
wouldn't make it--
	MS. DEGETTE.  How long do you retain that IP--
	MR. KELLY.  Indefinitely.
	MS. DEGETTE.  Indefinitely.  And Mr. Hiler, you get subpoenas 
for this information from law enforcement agencies, correct?
	MR. HILER.  We do get subpoenas.
	MS. DEGETTE.  And how often do you get those subpoenas?
	MR. HILER.  Not as often as--we have a strong safety record.  A 
couple a month perhaps.
	MS. DEGETTE.  And you compile them within one to two days.  
Is that correct?
	MR. HILER.  If not faster.
	MS. DEGETTE.  Okay.  Do you ever get subpoenas, Mr. Kelly?
	MR. KELLY.  Yes.  We get about two to three a week.
	MS. DEGETTE.  Two to three a week, and how quickly do you 
comply?
	MR. KELLY.  We comply as quickly as we can, usually within 
24 to 48 hours.
	MS. DEGETTE.  Do either one of you gentlemen think that it 
would be overly burdensome--from what you know about your 
business keeping this IP address information, not even the 
photographs but just the addresses, do you think it would be overly 
burdensome for Congress to make a rule that says that ISPs would 
have to keep that information for 1 year?
	MR. KELLY.  The only concern I would put out there is the idea 
that the technology would get ahead of the law but as a best 
practice, I don't have a problem with that.
	MS. DEGETTE.  Mr. Hiler.
	MR. HILER.  Thank you.  Yes.  In our case, we own our own 
technology platform so for us to add a point at which we capture IP 
is a fairly trivial matter.  For ISPs, from what I understand, this sort 
of IP collection is not baked into the technology so--
	MS. DEGETTE.  But they keep that information now.
	MR. HILER.  I don't--
	MS. DEGETTE.  They told me they keep it now.
	MR. HILER.  They keep the IP--
	MS. DEGETTE.  The only question is, how long do they keep it 
for.  They keep the IP addresses though.
	MR. HILER.  Of the photos that are uploaded?
	MS. DEGETTE.  They don't--they--yes, they do.
	MR. HILER.  Okay.  My understanding was that the ISPs retain 
and preserve the IPs of all visitors, and so for them, that is much 
more onerous and burdensome preservation request.
	MS. DEGETTE.  But they already do that.
	MR. WHITFIELD.  I didn't understand that they kept the photos.
	MS. DEGETTE.  No, but when people turn on their computers or 
upload information and if there is a new IP address generated, then 
they keep that as well.  Mr. Angus, I didn't mean to leave you out.
	MR. ANGUS.  Thank you.
	MS. DEGETTE.  How long does your company retain this 
information?
	MR. ANGUS.  As a media--
	MS. DEGETTE.  The address.
	MR. ANGUS.  As a media company, Fox is very supportive of 
data retention.  It helps us to police piracy.  We retain IP addresses 
associated with registrations indefinitely and we retain IP 
addresses associated with all other communications on our site for 
at least 90 days.
	MS. DEGETTE.  Okay.
	MR. ANGUS.  And we work with law enforcement, and if law 
enforcement sends us a preservation request in connection with an 
investigation, we will preserve that information indefinitely 
pending--
	MS. DEGETTE.  Right, and you know, the thing is, the 
preservation requests are different from subpoenas for IP addresses 
because the preservation requests are when they see the activity 
going on.  Later on they might need to find out where a perpetrator 
is and subpoena that address.
	MR. ANGUS.  Yes.
	MS. DEGETTE.  And do you have any idea how much it would 
cost your company to preserve those IP addresses for 12 months 
instead of 90 days?
	MR. ANGUS.  I don't, but again, the IP logs are such a small 
amount of data that I can't imagine that it would be cost 
prohibitive but--
	MS. DEGETTE.  Yes, I can't either.
	MR. ANGUS.  --it is something that we are certainly willing to 
explore.
	MS. DEGETTE.  Okay.  Thank you very much, Mr. Chairman.
	MR. WHITFIELD.  Thank you.  At this time I recognize the Vice 
Chairman of the committee, Mr. Walden.
	MR. WALDEN.  Thank you very, much, Mr. Chairman.  Mr. 
Angus, I want to go through on MySpace.com, kind of how this 
works, and following up on what some of my colleagues have 
already asked.  First of all, it is up to the person registering to tell 
you how old they are, right?
	MR. ANGUS.  That is correct.
	MR. WALDEN.  Which is the equivalent of going to the liquor 
store without ever having to show ID and say I am 21 when you 
are 18, not that anybody has ever done that, least of all Dr. 
Burgess.
	MR. BURGESS.  I certainly haven't.
	MR. WALDEN.  But it is in effect a self-reporting mechanism, 
right?
	MR. ANGUS.  That is correct.
	MR. WALDEN.  And you don't have, and I assume your 
colleagues don't have any real ability to determine to say to that 
registrant, show me your ID, show me your age.
	MR. ANGUS.  That is really the issue we are faced with is that 
age verification really amounts to identity verification and there is 
no viable means for us to do that today.
	MR. WALDEN.  Now, you could do that if you required some 
sort of credit card, a nominal 50-cent charge or something because 
most credit card companies don't issue credit cards to those under 
18.
	MR. ANGUS.  It would amount--it would allow--well, I think 
first of all, some of them do issue credit cards these days to very 
young users surprisingly and--
	MR. WALDEN.  But that is going to be a small--
	MR. ANGUS.  In addition, I think it is also very easy for users to 
get access to a credit card, especially if we are talking about a 
nominal fee, and I fear that again we are--
	MR. WALDEN.  Well, but let us go back to--we are trying to 
find ways to give you the ability to ID somebody based on age.  I 
mean, as a parent of a teenager, you can download songs off 
iTunes but it kind of needs the wallet needs a credit card, and that 
is true on other purchases, which involves the parents, at least in 
our household, and so I am just trying to figure out how you got 
there.  There is nothing that stops a young person from using a 
pseudonym.  "I am Mike Burgess and I was born in 1988 and I am 
18," right.  Now, do you link that name and that age to the--do they 
have to list an email address?
	MR. ANGUS.  They do provide an email address with 
registration.
	MR. WALDEN.  And that is a requirement?
	MR. ANGUS.  Yes.
	MR. WALDEN.  It is a requirement.  So you link that email 
address to that name and to that date of birth?
	MR. ANGUS.  That is correct.
	MR. WALDEN.  What if they come back later using the same 
email address but show up as a different name and a different date 
of birth?  Do you track that?
	MR. ANGUS.  My understanding of our site functionality is that 
you can only register once with an email address.  
	MR. WALDEN.  They can go to Yahoo! and create a new email 
or go to another ISP.
	MR. ANGUS.  Exactly.  That was where I was going, 
Congressman, is that there are--
	MR. WALDEN.  Just create a new name.
	MR. ANGUS.  That is certainly very easy these days to create 
numerous free Internet email accounts.
	MR. WALDEN.  You testified that your algorithms and other 
work, as laudable as it is, has identified 200,000 people you 
believe and removed them from your system.
	MR. ANGUS.  Correct.
	MR. WALDEN.  We don't know the timeline under which that 
has occurred?
	MR. ANGUS.  That is right.
	MR. WALDEN.  But somewhere that has happened, 200,000.  
You also, if I heard you correctly earlier in testimony, said there 
are 250,000 people registering today on average on MySpace.
	MR. ANGUS.  Yes.
	MR. WALDEN.  So you are actually targeting--your algorithms 
have identified very few people to kick off the system for being 
underage, right?
	MR. ANGUS.  Again, Congressman, I believe that that 200,000 
figure is probably quite old at this point so again, I would 
appreciate the opportunity to supplement my testimony with more 
relevant and fresh data.
	MR. WALDEN.  Okay.  That would be real helpful, especially in 
the context of today's hearing to know if your algorithms work.  
That would seem to me to be a pretty basic number we should get, 
so that would be most helpful.  In terms of--well, I have talked 
obviously to some kids, some friends of my own son and, they just 
sort of laugh at the notion that any of them--that they somehow 
would get caught for saying they are a certain age when they are 
not.  Do you find that as you--I mean, do all of you find that 
among teenagers?  I mean, do any of them take this seriously, and 
should they?  Fundamentally, is there any reason they should take 
this seriously?
	MR. KELLY.  We have the different authentication token, the 
invitation that you get to get authenticated into a high school 
network and in the neighborhood watch associated with that so our 
expectation of our users is that they will be interacting with 
students who are in the real world around them and so they do in 
fact take it seriously.  I would encourage all of the members to talk 
to their young staff who are recent college graduates about the 
difference that Facebook has made on college campuses, and now 
it is beginning to have the same difference on high school 
campuses.
	MR. WALDEN.  Right.  Actually, I have heard about your 
service and in the context of younger people and they tell me the 
same thing, that it is a whole different deal, and I am not criticizing 
what you all do.  I think we are all struggling with how do we 
protect our kids from the kind of violent encounters that are 
occurring every day in America in neighborhoods like ours with 
people that we could pass in the hall today.  How do we do that 
together?  And that is why we are probing so hard here, I think, is 
that what you are telling me is, Mr. Angus, you can't tell a 14-
year-old from a 40-year-old.
	MR. ANGUS.  Well, Congressman, one of the things that you 
mentioned is that we do require an email address to register for the 
site.  One of the things that we have been discussing internally is 
whether it would be possible to create a national registry of email 
addresses for convicted sex offenders and whether that is 
something that could be maintained as a database against which we 
could check registrants and screen them out from the service 
entirely.
	MR. WALDEN.  And while I don't want to take away from 
brainstorming techniques, nothing stops them from going to a free 
service and just getting a different email account.
	MR. ANGUS.  Well, if we criminalize that, then there are 
ramifications.
	MR. WALDEN.  Yes, I mean, but perverted acts somewhere are 
also criminal and if they are going to chase down kids and do 
horrible things to them, they are probably not going to hesitate 
going to Hotmail and getting a new email address, with all due 
respect.  I appreciate what you are trying to get to.  I think we are 
all saying, how do you do that?  Maybe a registry gets you there, 
but I don't know.  It is just--that is a good question.  That is why 
you have staff.  Do any of you check against any kind of sex 
offender registry today to see if they have spaces?
	MR. ANGUS.  We don't.  The numerous registries aren't readily 
available to us.  It is not something that we--
	MR. WALDEN.  Isn't that available through law enforcement?  
In some States they are public, I am told.  Could we suggest that 
maybe you incorporate that in as you plan in the future?
	MR. ANGUS.  I don't believe they include email addresses but I 
could be wrong.  I mean, to the extent that they do and they are 
required to register those, I--
	MR. WALDEN.  What if they include name and address?  Don't 
you require that?
	MR. ANGUS.  Yes, we do, not address but name.
	MR. WALDEN.  So the extent at least they are dumb enough to 
use their real name--
	MR. ANGUS.  Certainly.  If someone were to use--
	MR. KELLY.  That is the problem, Congressman, is that the 
likelihood that they will use their real name on an open service is 
very low.
	MR. WALDEN.  So that gets back to my point about if they are 
going to do illegal acts with a minor, they are going to get a 
different email address to.  But at least you might catch--I mean, 
after what we saw yesterday from Chris Hansen on how this one 
fellow shows up twice to the same scam, I believe some of these 
guys are stupid enough to use their real name probably and their 
email address, and if you weed out one--
	MR. ANGUS.  Yes.
	MR. WALDEN.  I mean--
	MR. ANGUS.  If we could create a national registry, I think that 
would make it even better for us.
	MR. WALDEN.  Well, that is something we will take into 
consideration, but certainly I would think as you incorporate in 
other data and connect up with law enforcement, it would be an 
easy question to ask each law enforcement agency with whom you 
work, do you have a list, can you give us names, we will run them 
through our check.  I mean, if you are checking for amount of skin 
in an image and that sort of thing and however your logarithms 
work, you think you ought to check, John Doe, who happens to be 
a sex offender, against it and weed them out.  It is just real 
troubling what we have seen and learned and all that, and we are 
going to put pressure on organizations like yours because bottom 
line, you are in it to make money or Fox wouldn't have bought 
you, or I guess you are now Newscorp's or--I mean, these are 
money-making enterprises or you wouldn't be here, and as a result, 
there is an obligation to try and make them safe and we have an 
obligation to work with you to achieve that common goal and not 
to end up chasing people off into completely irresponsible sites.  
We recognize the boundaries.  So I appreciate you being here 
today and the work you are trying to do to get there.  We've just 
got a ways to go.
	MR. ANGUS.  Thank you, Congressman.
	MR. WHITFIELD.  Thank you.  Dr. Burgess, I understand you 
have another question.
	MR. BURGESS.  Just if I might, Mr. Chairman.  To all three on 
the panel, do you have a concept of the number of cases you have 
referred to law enforcement from kids clicking on an icon on your 
site and reporting aberrant behavior?
	MR. ANGUS.  I would want to reserve the right to supplement 
the record.
	MR. BURGESS.  And if we--
	MR. ANGUS.  From my memory, it would be probably about 
100.
	MR. BURGESS.  And how many prosecutions from those 
referrals?
	MR. ANGUS.  Actually it depends on if you count cases in 
which we have participated or cases in which we have directly 
referred.  There have been--I actually don't know the number of 
prosecutions that have resulted.
	MR. BURGESS.  If you wouldn't mind asking your department, 
Mr. Angus.
	MR. HILER.  I likewise would like the opportunity to 
supplement.
	MR. BURGESS.  And just so that we have some context within 
which to put it, you sign up 250,000 new members a day and have 
how many active members on your site?
	MR. ANGUS.  Over 85 million.
	MR. BURGESS.  And Mr. Kelly, you referenced eight million 
but I suspect the number is larger now?
	MR. KELLY.  We have eight million, just over eight million 
registered users and growing quite rapidly every day.
	MR. BURGESS.  Yes, and if I do my math right, that is one 
customer service representative for every 475,000 people?
	MR. KELLY.  Um-hum.  It is like a Congressman representing--
	MR. BURGESS.  Yeah.  Got you.  Mr. Hiler, how about 
yourself?  Do you know the number of cases you have referred to 
law enforcement?
	MR. HILER.  I don't.  I can tell you that we have reported 
several hundred cases to the National Center and the cyber tip line, 
and we have 27 million members on our site roughly, and I can get 
back to you on the number of cases we have referred to law 
enforcement but also that we have processed.
	MR. WHITFIELD.  You all can provide that for the record.
	MR. BURGESS.  With nearly 100 million registrants between the 
three of you, has there been one case prosecuted that any of you 
are aware of?
	MR. ANGUS.  We know of a couple of cases that have been 
prosecuted.
	MR. BURGESS.  And you will provide us that information as 
well?
	MR. ANGUS.  We participated in a number of prosecutions and 
I am not sure whether they have resulted from proactive referrals 
or contact from law enforcement.
	MR. BURGESS.  Very good.  And just one last question, Mr. 
Kelly.  Do you feel like you have been adequately responsive to 
school if there are sites that the kids might use for bullying?  One 
of the issues, particularly as you get into the high school level but I 
guess it could happen in college as well, the peer pressure groups 
and the bullying activities, do you adequately police for that as 
well?
	MR. KELLY.  We are very concerned about that and where it is 
a violation of our terms of service and of our community standards 
to launch a hate site against an individual or against a group and 
we take those down as quickly as we find them.
	MR. BURGESS.  And how would you rate your responsiveness 
to schools in general?
	MR. KELLY.  I would rate our responsiveness as very good.
	MR. WHITFIELD.  The gentleman's time has expired.
	MR. BURGESS.  Thank you, Mr. Chairman.
	MR. WHITFIELD.  We have to move on.  Thank you all very 
much for your testimony, and our staff will be back with you on 
the information that we requested.  At this time I would like to call 
the third panel:  the Honorable Pamela Jones Harbour, who is 
Commissioner of the Federal Trade Commission, Mr. Diego Ruiz, 
who is the Deputy Chief, Office of Strategic Planning and Policy 
Analysis, Federal Communications Commission, and the 
Honorable Richard Blumenthal, Attorney General of the State of 
Connecticut.  Thank you all very much for being with us this 
afternoon and for your patience.  As you know, this is the 
Oversight and Investigations Subcommittee.  We do take 
testimony under oath.  Do any of you have difficulty in testifying 
under oath?  Okay.  Do any of you desire to be represented by 
legal counsel?  Okay.  Raise your right hand.
	[Witnesses sworn.]
	MR. WHITFIELD.  Thank you very much.  You are under oath 
now, and Commissioner Harbour, we recognize you for your 5-
minute opening statement.



STATEMENTS OF THE HONORABLE PAMELA JONES 
HARBOUR, COMMISSIONER, FEDERAL TRADE 
COMMISSION; DIEGO RUIZ, DEPUTY CHIEF, OFFICE 
OF STRATEGIC PLANNING AND POLICY ANALYSIS, 
FEDERAL COMMUNICATIONS COMMISSION; AND 
THE HONORABLE RICHARD BLUMENTHAL, 
ATTORNEY GENERAL, STATE OF CONNECTICUT

        MS. HARBOUR.  Thank you, Mr. Chairman, Ranking Member 
Stupak, and members of the subcommittee.
	I thank you for holding this hearing today on a very important 
topic, making the Internet safe for children.  I also appreciate the 
opportunity to discuss the Federal Trade Commission's efforts to 
help parents and children understand and manage the risks of 
social networking sites on the Internet.
	The Internet has revolutionized the way that people 
communicate with each other.  Email, chat rooms, and instant 
messaging are just a few of those ways.  Today's social networking 
sites are the next generation in communications technology.  
Children have enthusiastically and passionately embraced this 
technology.  MySpace, as we have heard, and Facebook reportedly 
rank among the top ten websites among young people ages 12 to 
17.  Social networking sites provide these young people with a 
forum to express themselves creatively, exchange ideas or make 
new friends across the country and around the world.  Like other 
activities on the Internet, however, social networking sites pose 
risks to children.  In particular, sexual predators may use the 
information that children provide on these sites to identify, contact, 
and exploit them.  These significant risks and opportunities require 
a whole new entry in the book of parenting.
	The Federal Trade Commission is extremely committed to 
helping create a safer online experience for children through 
consumer education and targeted law enforcement.  In May the 
FTC released two user-friendly consumer education brochures.  
The first is directed to parents.  It describes in non-technical terms 
what social networking sites are, how they can pose risks to 
children and how parents can monitor what their children are doing 
in cyberspace.  For example, the publication encourages parents to 
keep their computers in a common area in the home and to 
encourage the use of privacy settings that restrict who can access 
their children's sites.
	The second FTC publication is directed to teens and tweens.  
Tweens are children between the ages of eight and 12.  The 
brochure counsels children to think about how a social networking 
site works before they decide to join it.  For example, some sites 
limit access to a defined or closed community of users.  The 
publication also warns children never to post information that can 
be used to locate them or steal their identities such as their full 
name, their address, or phone number and above all, children must 
know that engaging in risky behavior online can have serious, even 
deadly consequences offline.
	The FTC's consumer information on social networking sites is 
also featured prominently on OnGuardOnline.gov.  This is an 
innovative, multimedia website designed to educate consumers 
about basic computer security practices.  OnGuardOnline offers 
information and guidance on social networking sites, wireless 
security, identity theft, and more.  It also includes a video for 
parents on teaching kids online safety.  OnGuardOnline has been 
enormously successful, attracting between 6,000 and 7,000 unique 
visitor hits each day in the past 2 months alone.  I am pleased that 
Comcast.net, Verizon DSL, TRUSTe, many Members of Congress, 
and at least seven of the social networking sites that are most 
popular with teens have already provided links to the FTC 
materials.  We encourage businesses everywhere to use these 
materials to raise awareness among their customers.
	In addition to providing critical consumer education materials, 
the FTC enforces the Children's Online Privacy Protection Act, or 
COPPA.  Congress enacted COPPA to prohibit unfair or deceptive 
practices in the collection, use, or disclosure of personally 
identifiable information from and about children on the Internet.  
The law gives parents the power to control whether information is 
collected online from their children under 13 and how this 
information may be used.  Website operators must take several 
affirmative steps before collecting, using, or disclosing personal 
information from a child.  Operators must provide their privacy 
policies to parents.  They must obtain verifiable consent from a 
parent or a guardian before collecting the personal information 
from a child, and they must maintain reasonable procedures to 
protect that information.  The FTC staff is currently investigating 
several social networking sites to determine whether these sites are 
in compliance with COPPA.
	And in conclusion, consumer, government, advertisers, and 
technology companies all have a shared interest and responsibility 
in creating a secure online environment.  The Federal Trade 
Commission is committed to the important work of safeguarding 
children's information online and educating consumers about the 
risks involved in social networking.  We look forward to working 
with members of this subcommittee to provide greater security and 
privacy for American consumers.  Thank you.
	[The prepared statement of the Hon. Pamela Jones Harbor 
follows:]

PREPARED STATEMENT OF THE HON. PAMELA JONES HARBOUR, 
COMMISSIONER, FEDERAL TRADE COMMISSION

        Mr. Chairman, Ranking Member Stupak, and members of the 
Subcommittee, I am Pamela Jones Harbour, a Commissioner at the 
Federal Trade Commission ("FTC" or "Commission").   I 
appreciate this opportunity to discuss the Commission's efforts to 
help ensure that parents and children understand the risks of social 
networking websites and the steps they can take to reduce these 
risks before participating on such sites. 



I. Introduction
        Technology constantly changes the ways that consumers can 
communicate with each other.  The telephone was the primary 
technology consumers used to converse for most of the last 
century.  During the 1980's and the 1990's, personal computers and 
the Internet vastly expanded the options available for consumers to 
communicate with each other -  email, chat rooms, online bulletin 
boards, and instant messaging, to name a few.  Social networking 
websites  are the next generation in communications technology, 
providing a platform for multi-faceted communication between 
participating users.  
        Children, especially teens and tweens,  have embraced this 
online technology.  According to a 2005 report by the Pew Internet 
and American Life Project, 87% of children between the ages of 12 
and 17 are online, and approximately 11 million of them access the 
Internet every day.   Teen use of social networking websites in 
particular has exploded recently.  MySpace and Facebook 
reportedly rank among the top ten websites among children age 12 
to 17, based on the average minutes they spent online. 
        At the same time that social networking websites offer online 
communication, camaraderie, and community among teens and 
tweens, they, like other activities on the Internet, also can pose 
risks.  Because the information that children post on their online 
journals, web logs or "blogs" can be accessed by other Internet 
users, social networking websites raise heightened privacy and 
security concerns.  In particular, sexual predators may use the 
information that children provide on social networking sites to 
identify, contact, and exploit them,  unless these sites are 
constructed to reduce access to this information, or users 
themselves take steps to limit unwanted access.
        The Federal Trade Commission is committed to helping create 
a safer online experience for children.  I will discuss in more detail 
the agency's efforts to help protect children through consumer 
education and targeted law enforcement.  In addition, I will discuss 
the need for social networking websites - individually, 
collectively, and, most importantly, expeditiously -  to develop and 
implement safety features to protect children who visit their sites 
and empower parents to protect their children when they do so.

II. Consumer Education
        In response to the rapid increase in use of social networking 
sites by teens and tweens, one element of the FTC's "safe 
networking" program has been to develop user-friendly consumer 
education materials, both for parents and for children.  Last month, 
the agency posted on our website two consumer publications 
providing practical guidance to parents, teens, and tweens about 
using social networking websites safely.
        A. Advice for Parents
        It is, of course, critically important for parents to know what 
their children are doing in cyberspace.  Accordingly, one of the 
FTC's publications is directed specifically to parents, and 
describes in non-technical terms what social networking websites 
are, how they can pose risks to children, and how parents can 
monitor their children's activities on such sites.   The publication 
encourages parents to keep their home computers in an open area, 
such as the kitchen or family room, so that they can see where their 
children go when they go online.   Parents should use the Internet 
with their children, and visit popular sites, including social 
networking sites if their children are using them.  Parents should 
review the information their children post on blog sites,  and 
encourage the use of privacy settings to restrict who can access and 
post on their children's sites.
        B. Advice for Children
        Another FTC publication is directed to teens and tweens, and 
gives them important safety tips if they are using social networking 
sites.   The brochure counsels them to think about how a 
particular social networking website works before they decide to 
join.  For example, some sites allow only access by a defined 
community of users.  Others allow anyone and everyone to view 
their postings.  If teens and tweens decide to join a particular social 
networking website, they should consider using the site's particular 
privacy settings to limit access to their postings.
        Moreover, the publication warns teens and tweens to be 
cautious about the information they post.  They should post neither 
information that can be used to locate them in the offline world 
(for example, they should not post their full name, address, phone 
number), nor information that could be used to facilitate identity 
theft.  The agency also warns them that school admissions officers 
and potential employers may be able to look at their photos and 
postings.  Finally, it warns that once information is posted online, 
it may be impossible to take it back.  Even if the teen or tween 
deletes the information from his or her own site, older versions 
may still exist on other people's computers.  Above all, children 
must know that engaging in risky behavior online (such as 
"flirting" with someone they do not know offline) can have 
serious, even deadly, consequences, and they should be wary about 
meeting in person someone whom they know only from the online 
world.
        C. OnGuardOnline
        The FTC's consumer information on social networking 
websites also is featured prominently on OnGuardOnline.gov, an 
innovative multimedia website designed to educate consumers 
about basic computer security practices.  OnGuardOnline has 
become the hallmark of the Commission's larger cybersecurity 
campaign.  OnGuardOnline is built around seven timeless tips 
about online safety.   In addition, the site hosts specific 
information modules on topics such as social networking, wireless 
security, identity theft, phishing, spyware, and spam.  
OnGuardOnline features up-to-date articles from the Department 
of Homeland Security's U.S. Computer Emergency Readiness 
Team (US-CERT), such as a newly added piece on the troubling 
practice of "Cyberbullying," that is, using technology to harass, or 
bully, someone else.  There also is a video for parents on 
"Teaching Kids Online Safety."
        In the past two months, OnGuardOnLine has had between six 
and seven thousand unique visitors each day.  In early June 2006, 
the FTC's social networking tips for parents and tips for teens and 
tweens were, respectively, the second and third most popular pages 
on OnGuardOnline, after the site's home page.  Comcast.net 
recently promoted the social networking module as a "featured 
link," driving significant traffic to the website, and Verizon DSL's 
customer default homepage and TRUSTe link directly to the social 
networking module, as well.
        OnGuardOnline was developed through a partnership with 
cybersecurity experts, consumer advocates, online marketers, and 
other federal agencies.  It is a great example of public-private 
cooperation.  The agency deliberately branded OnGuardOnline 
independently of the Federal Trade Commission to encourage 
other organizations to make the information their own and to 
disseminate it in ways that reach the most consumers.
        Many of the social networking websites themselves have 
linked directly to the social networking module on 
OnGuardOnline.  Thus far, eleven of the social networking 
websites most popular with teens either have already posted links 
to FTC materials or have informed our staff that they will do so in 
the near future,  and these links have directly contributed to the 
increased traffic at OnGuardOnline.

III. 	Law Enforcement
        Congress enacted the Children's Online Privacy Protection Act 
- or COPPA - to prohibit unfair or deceptive acts or practices in 
connection with the collection, use, or disclosure of personally 
identifiable information from and about children on the Internet.   
The statute gives parents the power to determine whether and what 
information is collected online from their children under age 13, 
and how such information may be used.  COPPA, and its 
implementing rules, apply to operators of websites directed to 
children under the age of 13.   They also apply to operators of 
general audience websites who have actual knowledge that they 
are collecting personal information from children under the age of 
13, which includes some social networking websites. 
        COPPA and its implementing Rule mandate that website 
operators take several affirmative steps before collecting, using, or 
disclosing personal information from a child under age 13.  They 
must post on their websites a copy of their privacy policy.  
Operators also must provide parents with a notice describing their 
privacy policies.  They must obtain verifiable consent from a 
parent or guardian before collecting personal information from 
children.  And once operators have collected this information, they 
must establish and maintain reasonable procedures to protect its 
confidentiality, security, and integrity. 
The FTC staff currently is investigating several social 
networking websites to determine whether they are in compliance 
with COPPA and its implementing Rule.

IV. Looking Ahead:  Self-Regulation and Industry Best Practices
        Consumers, government, technology companies, and 
advertisers all have a shared interest and responsibility in creating 
a secure online environment.  Social networking website operators 
are no exception.
        The social networking industry has a clear incentive to create a 
safe online community.  They owe this to their users, and sites that 
do not make online safety a priority may find it hard to compete 
with those that do.  Some social networking websites already allow 
users to restrict access to the information they post, such as by 
creating sites with more closed, defined communities or enhancing 
specific privacy features on their sites.
Last week, two summits addressed issues posed by social 
networking sites, one hosted by the National Center for Missing 
and Exploited Children and the other hosted by WiredSafety.org.  
These summits focused, in part, on industry best practices.  These 
meetings are positive steps to encouraging a meaningful industry 
response to the risks that social networking sites pose for children.  
The Commission hopes that the momentum from these summits 
continues to build so that industry best practices are developed and 
implemented as quickly as possible.

V. Conclusion
        The Commission has been at the forefront of efforts to 
safeguard children's information online and to educate consumers 
about the risks involved in social networking.  The agency is 
committed to continuing this important work.  The FTC also is 
committed to working with this Subcommittee to provide greater 
security and privacy for American consumers.

	MR. WHITFIELD.  Thank you, Commissioner Harbour, and at 
this time, Mr. Ruiz, you are recognized for a 5-minute opening 
statement.
        MR. RUIZ.  Thank you.  Good afternoon, Chairman Whitfield, 
Ranking Member Stupak, and other distinguished members of the 
subcommittee.
	On behalf of the Federal Communications Commission, I 
would like to thank you for the opportunity to speak regarding the 
role of ISPs and social networking sites in the context of much 
needed efforts to protect the Nation's children from online 
exploitation and abuse.  The Commission shares the concern of 
Congress that children be protected from exploitation and abuse on 
the Internet.  Given the importance of this issue and its 
implications for the safety and well-being of American families, 
the Commission is committed to working with Congress to do 
everything we can under the authority we are given.
	As this subcommittee and Congress consider draft legislation 
to address the sexual exploitation of children over the Internet, we 
welcome your guidance on the Commission's role going forward.  
Should Congress choose to take action in this area, the 
Commission stands ready to implement any new mandates 
aggressively.
	The Commission historically has had an important role in 
protecting children's interests and has implemented several 
programs intended to help protect children from exposure to 
inappropriate content over communications networks regulated by 
the Commission.  For example, current Federal law restricts the 
broadcast of obscene, indecent, and profane programming.  The 
Commission has implemented this law by adopting regulations 
which prohibit the broadcast of indecent material between the 
hours of 6 a.m. and 10 p.m., which are those hours of the day when 
children are most likely to be watching or tuning in.
	In addition, the Commission has promulgated regulations 
prohibiting the broadcast of obscene material at any time, and 
Section 1464 of Title 18 prohibits the transmission of obscene 
content through any type of radio communications.  The Federal 
Communications Commission has imposed substantial penalties 
where violations have been established.  Indeed, Congress just 
recently amended the Communications Act to increase tenfold the 
forfeiture penalty for carrying indecent, obscene, or profane 
material.  We believe that this should reduce the likelihood that 
some broadcasters might consider the forfeiture penalty for 
indecent programming an acceptable cost of doing business and 
will thus improve the effectiveness of our enforcement efforts in  
this area.
	The Commission has also taken a variety of actions designed to 
help protect children from inappropriate content.  Specifically, the 
Commission provides mechanisms to allow parents to restrict 
children's access to television programming by requiring that TV 
sets be equipped with V-chip technology.  As you may know, V-
chips allow the display of television program ratings which are 
derived from a voluntary system developed by the industry.
	The Commission also provides a means to allow parents to 
block children's access to inappropriate content available over the 
telephone.  Under the Commission's rules, local exchange carriers 
that are involved in transmitting and billing interstate pay per call 
and other information services, often referred to as 900 numbers, 
must offer an option to block access to such services.
	And lastly, pursuant to Section 640 of the Communications 
Act, the Commission has adopted rules that require a cable 
operator upon subscriber request to fully scramble or block the 
audio and video portions of programming services not subscribed 
to by a household.
	Unlike other entities, ISPs are subjected to limited regulations 
under the Communications Act.  Nevertheless, in specific instances 
where the Commission does have authority, we have implemented 
programs governing the transmission of certain content by ISPs.  
For example, in 2005 in response to the request of Federal law 
enforcement agencies, the Commission ensured that the 
requirements of the Communications Assistant for Law 
Enforcement Act, or CALEA, extend to broadband Internet access 
services and voice over Internet protocol services, or VOIP 
services.
	We have also implemented a program designed to help protect 
children who use the Internet in schools and libraries from 
accessing inappropriate content.  In 1996 the Commission 
established the schools and libraries universal service support 
mechanism, commonly known as the e-rate program.  In the year 
2000 Congress adopted the Children's Internet Protection Act 
which provides that schools and libraries that have computers with 
Internet access must certify that they have in place certain Internet 
safety policies and technology protection measures in order to be 
eligible to receive support under the E-Rate program.  The 
Commission established a corresponding regulation whereby in 
order to receive E-Rate funding, school and library authorities 
must certify that they are enforcing a policy of Internet safety that 
includes measures to block or filter Internet access to visual 
depictions that are, one, obscene, two, child pornography, or three, 
harmful to minors.
	As Congress considers legislation in this area, it is important to 
keep in mind how any new legislative provisions might interact 
with the Communications Act's existing framework, in particular, 
which Section 503(B) of the Communications Act authorizes the 
Commission to impose forfeitures for violations of the Act as well 
as the Commission's rules and orders.  Those who do not hold a 
license, permit, certificate, or other Commission authorization, as 
many ISPs do not, currently may not be fined by the Commission 
in the first instance.  Rather, the Commission is first required to 
issue such entities a citation and then may only impose a forfeiture 
in the event that they again engage in the cited conduct.
	In conclusion, I wish to reiterate the Commission's interest in 
taking action as appropriately directed by Congress in this 
important area.  As I noted at the outset, the Commission stands 
ready to implement any new mandates aggressively.
	Thank you again for the opportunity to testify before you 
today, and I would be pleased to respond to any questions you may 
have.
	[The prepared statement of Diego Ruiz follows:]



PREPARED STATEMENT OF DIEGO RUIZ, DEPUTY CHIEF, OFFICE OF 
STRATEGIC PLANNING AND POLICY ANALYSIS, FEDERAL 
COMMUNICATION COMMISSION

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT> 

	MR. WHITFIELD.  Thank you, Mr. Ruiz.
	And Attorney General Blumenthal, we are glad to have you 
here.  You are recognized for 5 minutes.
MR. BLUMENTHAL.  Thank you, Mr. Chairman, and thank you 
for having me today.
	Thank you most importantly for focusing this committee's 
interests on this topic of paramount importance not only here in 
Washington but as every one of you knows in your own homes, in 
your States and your communities, and I am here not speaking on 
behalf of the attorneys general but I think what I have to say pretty 
much reflects the way we feel and there is a group of 20-plus--it is 
now 21, perhaps more attorneys general that have been in touch in 
continuing discussions with MySpace and some of the other social 
networking sites directly face to face, through correspondence, 
which we would be happy to provide you, and also in other 
contexts such as the recent conference that the National Center for 
Missing and Exploited Children; they had a very excellent 
conference here in Washington, and I would like my testimony if it 
may be to be part of the record here and just perhaps speak and 
summarize from my impressions of this day, and I know the 
committee has been through other days of testimony.
	I think the committee can sort of feel that there is a disconnect 
here.  There is a disconnect between what you just heard from this 
table, the witnesses who have implied that everything is under 
control, everything is fine, everything is in place, and that which 
you heard from my colleague, and he is a colleague because I have 
worked with Detective Dannahey in Connecticut on some of these 
cases about the horrible, the horrific cases of sexual assault.
	We are not talking about offensive images, about pornography.  
We can differ on what is pornography and what is sexually explicit 
and what is offensive but we are talking about sexual assaults on 
12- and 13-year-olds, and I can provide the committee with more 
documentation on these contacts and how they led to these sexual 
assaults.  So that is the first disconnect.
	The second is what you just heard about the Internet sex 
offender registry.  There is ongoing an effort to establish a national 
Internet registry of sex offenders.  Connecticut has recently 
become a part of it.  In my view, all the States eventually will be.  
It is the result of this Congress's initiative, the Jacob Wetterly Act, 
which in essence caused all of the States eventually to form these 
Internet registries, and I might just add as a footnote here, that I 
defended the Internet registry before the United States Supreme 
Court. I argued the case and we won it, nine to zero, over 
challenges based on privacy, due process.  The courts understand, 
they get it, that this information is vital to be disseminated and it is 
vital for the social networking sites to use it.
	Let me make a third point, and this one really relates to the 
recommendations and the very strong feelings among the attorneys 
general group that more can be and must be done.  Raising the age 
level, age verification central.  Put aside all the complexities, and 
there are a lot of complexities to having 85 million people--it is 
probably up to 90 million now--able to talk to each other in real 
time and yet these social networking sites are telling you we just 
can't tell how old they are.  But the most telling fact is, they are 
doing nothing, nothing in MySpace to verify age at all.
	Let me make a couple of suggestions.  If you raise the age 
level, verification of age becomes easier because you have driver's 
licenses, you have credit cards, so they go hand in hand.  Second, 
there are sites that require parental consent right now.  There are 
companies in the United Kingdom that require parental consent 
that then is checked through driver's licenses, other information, 
email addresses.  This system may not be foolproof at this point 
but it can be at least instituted to provide some verification.  I have 
made a number of other recommendations here.  I would be happy 
to talk about them at greater length.
	I want to emphasize two points in conclusion.  First, parents 
always should be, always will be the first line of defense.  I say 
that as the parent of four teenagers, and knowing how challenging 
these issues can be, and we have all been there.  The committee 
members have very eloquently discussed their own experiences.  
But parents have a responsibility.  MySpace can help them, must 
help them to do better.  We want MySpace and the other social 
networking sites to do a better job voluntarily.  We would much 
prefer to avoid government intrusion, regulation, intervention, and 
that is one reason why we haven't set a deadline, we haven't sued 
anyone.  We want it to be voluntary.
	But let me go back to what I regard as kind of the elephant in 
the room, which is Mr. Walden's point.  These sites have huge 
financial stakes.  They are adding 250,000 people every day.  That 
is bigger than any city in the State of Connecticut.  They are 
adding the State of Connecticut every week, and their revenues are 
from advertising and their revenues are huge.  MySpace alone has 
15 percent of all the ads on the Internet.  It was bought by Fox, the 
news corporation, less than a year ago, for $580 million.  It is 
estimated to be worth multiples of that amount now, $3 to $6 
billion, maybe more.  So the deep pockets are there and more can 
be done.
	Thank you.
	[The prepared statement of Hon. Richard Blumenthal follows:]



PREPARED STATEMENT OF THE HON. RICHARD BLUMENTHAL, 
ATTORNEY GENERAL, STATE OF CONNECTICUT

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT> 

	MR. WHITFIELD.  Thank you, Attorney General Blumenthal, 
and you are exactly right.  There is a lot of money involved, and I 
read that article also about the purchase price that was paid for 
MySpace.com, and I do agree with you and I think all of us do 
know that this Internet registry of sex offenders would provide 
tremendous help to law enforcement and all of us.  Could you 
explain to us what the status of that is right now?  You were 
involved in a lawsuit over that.
	MR. BLUMENTHAL.  The law was challenged, the Internet 
registry was challenged, but it was upheld by the United States 
Supreme Court some years ago and many States, like Connecticut, 
have Internet registries that set forth relevant details about the 
criminal offense, name, address.  One fact that could be added and 
it has been suggested here is email address.
	MR. WHITFIELD.  Right, right.
	MR. BLUMENTHAL.  And that very possibly is a fact that should 
be considered, and there are some downsides.  There will be some 
arguments against it but it would at least permit in an email age 
some greater perspective and information out there.
	MR. WHITFIELD.  Who were the plaintiffs in that case that 
challenged the legality?
	MR. BLUMENTHAL.  The Connecticut Civil Liberties Union.  It 
was a John Doe but he was represented by the Connecticut Civil 
Liberties Union.
	MR. WHITFIELD.  And you argued the case before the Supreme 
Court?
	MR. BLUMENTHAL.  Yes.
	MR. WHITFIELD.  Mr. Ruiz, Detective Dannahey talked to us 
about teenagers' access to cellular phones and how that is really 
going to make it more difficult to monitor as they can move 
pornographic sites, transmit pornographic photos, and so forth.  
Have there been any discussions within the FCC about that issue 
and the reporting of those transmissions at all?
	MR. RUIZ.  Congressman, are you talking specifically about 
cellular phones?
	MR. WHITFIELD.  Requiring cellular phone companies to report 
the transmission of the images.
	MR. RUIZ.  I know that there have been efforts undertaken by 
the cellular phone industry to create parental block mechanisms 
and safeguards built into the devices and the functionalities that 
they offer.  In terms of--and we have encouraged that effort.
	MR. WHITFIELD.  Requiring it to be reported to NCMEC?
	MR. RUIZ.  Not to my knowledge, sir, but I would have to take 
that back and get back to you on that.
	[The information follows:]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT> 

	MR. WHITFIELD.  If you would just reply to us and supplement 
the record on that point, I would appreciate that very much.  
Commissioner Harbour, you talked about the OnGuardOnline, and 
I would ask you, how is that different from the advisories that you 
issue on the FTC's website?
	MS. HARBOUR.  Well, OnGuardOnline actually is on the 
website, but it is a multimedia website that deals with social 
networking; it deals with spyware adware; it deals with identity 
theft; it deals with spam.  So for instance, regarding today's 
hearing on social networking, we have a site that talks about social 
networking specifically and in fact we have two pamphlets which I 
referenced in my testimony that target parents and one that targets 
teens, giving them advice about--
	MR. WHITFIELD.  And how do you market those or how do you 
get them out to the parents and the teenagers?
	MS. HARBOUR.  Seven of these social networking sites have 
links and we have commitments from 17 to link to our 
OnGuardOnline materials dealing with social networking. We also 
make our information available to law enforcement.  I think that 
one of our crucial roles is getting the word out to our consumers, to 
our stakeholders, to parents, to Congress.  Even when you break 
for the summer and you go back to your districts, it would be a 
wonderful thing to let your constituents know to educate them 
about some of the real perils on these social networking sites and 
perhaps encourage them to go to our site to look at our pamphlets.  
They were written specifically for parents in mind and also for 
teens and tweens.
	MR. WHITFIELD.  And what measures are in place to determine 
the effectiveness of what you are doing with OnGuardOnline?
	MS. HARBOUR.  Well, we know that we have had six to seven 
thousand hits each day in the past 2 months and we think that that 
increase in traffic has to do with our site being linked to some of 
the social networking sites and we will be vigilant in trying to get 
all of them to link to our materials.
	MR. WHITFIELD.  And let me ask you, the FTC, when you are 
talking about COPPA compliant, how do you determine if a social 
networking site is COPPA compliant?
	MS. HARBOUR.  Okay.  What I referenced was COPPA, the 
Children's Online Privacy Protection Act, and it applies to sites 
directed at children under 13 or sites directed to general audience 
sites that have knowledge that they are collecting information from 
children under 13.  So for instance, MySpace.com, for instance, if 
there were a child that they had knowledge was under the age of 
13, that would implicate COPPA.
	MR. WHITFIELD.  Right.
	MS. HARBOUR.  And as they have indicated, they will screen 
out--
	MR. WHITFIELD.  And do you require these sites to register 
with the FTC?
	MS. HARBOUR.  These sites are not required to register.  
Basically COPPA requires the sites who collect information from 
children under the age of 13 to get verifiable parental consent to 
collect information from them.
	MR. WHITFIELD.  We are getting ready to have a series of votes 
on the floor so I am going to recognize Mr. Stupak to give him an 
opportunity to ask some questions.
	MR. STUPAK.  Thanks, Mr. Chairman, and I know we have 
seven votes coming up and I appreciate you all being here and 
helping us out.  Should the sites be registered?  Should these social 
networking sites be registered with the FTC?
	MS. HARBOUR.  When you say registered, Congressman, can 
you tell me what you mean by that?
	MR. STUPAK.  Well, give you notice where they are operating, 
the size of their use and things like this.  I am trying to give you 
more information because quite frankly, until you mentioned your 
pamphlets, we had no idea on it, and if we don't know, we would 
probably be the ones who would read the pamphlets.  The kids 
aren't reading these pamphlets.  If it is not on the computer, it is 
not accessible, they are not going to read it.  Even this so-called--
this is MySpace terms and use agreement, it is eight pages long.  I 
bet you there is not a kid in this country who probably read it.  It is 
not cool enough.  We don't read it.  None of us read it even when 
we are supposed to read them, right?  So why do you think a kid is 
going to read it?  So that is what I am looking for, registries or 
something we could do through a registry that would help you.
	MS. HARBOUR.  What I think we really need to do is, we need 
to get the word out.  We need to educate parents.  We need to 
educate children about reducing the risks when they are online, and 
we are open to getting that word out.  We have all of our material 
online.
	MR. STUPAK.  Well, along those lines then, Mr. Blumenthal, in 
your attorney generals' group, are you looking to target any of 
these sites?  You mentioned the money they make off the 
advertising, of having to dedicate a certain amount or anything like 
that for advertising.  I mean, I look at the Great Britain model and 
they had 18 percent of all the pornographic sites, if you will, down 
to four-tenths of one percent through that effective ad we saw 
earlier today.  I don't see that happening in this country.  Now, we 
saw some today which looked pretty effective, but in all honesty, I 
have never seen them, but I don't watch Fox either, so, I mean, I 
watch it at times but I have never seen it, and I should have asked 
the question when it was there.  Have you guys come up with any 
kind of suggestions like that?
	MR. BLUMENTHAL.  We don't have suggestions for mandating 
spending of amounts of money on advertising.  We are not in a 
sense in the business of telling these companies how to run their 
business.  We are in the business of enforcing the law.  And I must 
say, I am very gratified to hear that the FTC is investigating these 
sites for potential deceptive--and we are talking about basic 
deceptive and misleading practices under COPPA and that is a 
very important piece of news for me and I am delighted to learn it.  
But what we would like to do is see these sites use some of their 
revenues to educate.  We think that would be a natural for them.  It 
would be in their own interests.  But at the same time, take these 
steps such as raising the age level, doing better age verification that 
they clearly have the resources to do.
	MR. STUPAK.  Have you seen any suggestions of making it 
mandatory in schools, cyber security as a class that would be 
taught?
	MR. BLUMENTHAL.  I know you asked that question, I believe 
you asked it earlier.
	MR. STUPAK.  Correct.
	MR. BLUMENTHAL.  And I think that would be an excellent 
suggestion.  I realize there is always resistance--
	MR. STUPAK.  Sure.
	MR. BLUMENTHAL.  --to any, whether it's the State or the 
Congress, telling local school boards what to do but certainly by 
way of strong suggestion, it would be something to try to achieve.  
I think the one advantage of registration, to come back to your 
question, is that it would give the Congress or the Federal 
government more leverage over the sites, and must as we now do 
and I sort of am reminded of the discussion I had earlier this 
morning on hedge funds and obviously we are going through the 
whole issue of registration there, it provides a means of policing 
and assuring self-policing, which is what all of us would like to 
see.
	MR. STUPAK.  You indicated that you had some reports there 
that we might be interested in, and Mr. Chairman, I would move 
we make them part of the record.  We don't have to go into them 
but I just think to complete the record and some of the work you 
have done and I think it would be important to have it in there.
	MR. WHITFIELD.  Without objection.
	MR. STUPAK.  You know, one of the problems we have seen in 
these sites, these ISP sites, I think testimony has been about 1,300 
of them but only like 215 have voluntarily registered with 
NCMEC, right, and so that is why the FTC or FCC could be of 
help in trying to get these things registered so we know who they 
are, where they are, what they are and how to get to them.  Mr. 
Attorney General, you sat through these hearings today, and just let 
me ask you this question.  Is there anything that was said that you 
would like to clarify or elaborate on?  I know you have been 
through all these panels today.  Is there anything else you wanted 
to say, because we are running out of time here and I know your 
time is precious also.
	MR. BLUMENTHAL.  Well, I appreciate that offer.  What I 
would like to do with the Chairman's permission is perhaps 
supplement the testimony that I provided with some of the material 
that I have referenced and other points that perhaps some of my 
colleagues would like to add as well because I must say, this has 
been a very collegial effort on the part of the attorneys general 
obviously across the country, Republican, Democrat, and we 
would welcome the opportunity to continue to work with the 
committee.
	MR. WHITFIELD.  Absolutely, and we welcome the information.
	MR. STUPAK.  Mr. Chairman, one more before I yield back.  
Mr. Ruiz, in your testimony you mentioned the FCC was recently 
upheld in extending CALEA's requirements to broadband Internet 
access services.  You indicate that many ISPs do not currently hold 
a license, permit, certificate, or other Commission authorization, 
even though other providers such as telephone companies and 
cable operators are required to file registration forms at the FCC.  
Does the FCC currently have any legal authority to require ISPs to 
register?
	MR. RUIZ.  The legal authority under which we require some 
ISPs to register, and specifically that is facilities-based broadband 
ISPs, it is Section 706 of the 1996 Communications Act, and that 
language was basically encouraging the rollout of broadband 
services to Americans so it is language first of all that is specific to 
facilities-based broadband ISP so it wouldn't cover--
	MR. STUPAK.  It wouldn't cover them?
	MR. RUIZ.  --dialup and it wouldn't cover any that are not 
facilities-based, and it really went to the issue of the rollout of the 
service as opposed to the specific issue of how that service is used, 
what content is transmitted over it, what kind of images--
	MR. STUPAK.  Does the FCC have the authority--we talked a 
lot about national standards or trying to move towards some 
national standards.  The last panel mentioned it.  Do you have any 
authority to convene all the ISPs to make them--but to reach an 
agreement on a common format for reporting to the NCMEC, to 
the National Center?
	MR. RUIZ.  Let me try to answer that, Congressman.  To the 
extent we may have authority, it would be ancillary authority 
pursuant to our authority under Title 1 of the--
	MR. STUPAK.  But you could use your bully pulpit, couldn't 
you, and bring them together or maybe with the FTC too and--I am 
trying to find a way to move this--I think what we saw last panel, 
MySpace and all them, they are trying to do the right things but I 
think these hearings we have been having have been pushing them 
but I want to keep the pressure on so we come up with some 
national standards, and I think they are all intending to and I think 
their heart is in the right place but once in a while we all need a 
shove.  I am trying to get you guys to shove them.
	MR. RUIZ.  I understand, Congressman.
	MR. STUPAK.  With that, Mr. Chairman, I yield back.  We have 
about 5 minutes left.  I want to thank the witnesses.  We read their 
testimony and it has been some interesting hearing, to say the least.
	MR. WHITFIELD.  We have had an interesting series of hearings 
and of course, we recognize there are many issues out there but 
one of the keys is what you pointed to, Attorney General 
Blumenthal.  That is being able to really document and verify the 
ages of people who have access to these sites, and the suggestions 
about driver's licenses and parental consent were great suggestions 
and that is what is being done in Great Britain but we do thank all 
of you for your efforts in this area.  We look forward to your 
continued leadership in this committee.  I know the Chairman, Joe 
Barton, made the comment that he intends to come forward with 
some legislation to try to address this very complex issue.  So we 
may be calling upon all of you for additional help, and without 
objection, I am going to move into the record the entire document 
binder, all the opening statements and certainly the material that 
you brought, Mr. Blumenthal, and thank you all again for being 
with us, and this hearing is adjourned, dismissed, over.
	[The Information follows:]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT> 

	[Whereupon, at 5:21 p.m., the subcommittee was adjourned.]
	
  	There was a process delay in early 2006 that interrupted Verizon Online's reporting early in the 
year as the company reorganized its abuse group and the reporting responsibility transitioned to 
a new staff member.  At this time Verizon Online security also experienced network 
connectivity problems and delays in re-establishing its ISP Tipline account that contributed to 
the interruption in reporting.  The connectivity issue was remedied and Verizon Online resumed 
reporting in April 2006.
 	This written statement reflects the views of the Federal Trade Commission.  My oral 
statements and responses to any questions you may have represent my own views, and do not 
necessarily reflect the views of the Commission or any other individual Commissioner.
 	Social networking sites host weblogs, or "blogs."  A blog is a website where regular entries are 
made (such as in a journal or diary).  Blogs often function as an online author's personal journal that 
also may contain hypertext, images, and links to video or audio files or other Web pages.  See 
http://en.wikipedia.org/wiki/Blog. 
 	For purposes of this testimony, teens are children age 13 to 17, while tweens are children age 8 
to 12.
 	See Pew Internet & American Life Project Report, Teens and Technology: Youth Are Leading 
the Transition to a Fully Wired and Mobile Nation (July 27, 2005), available at 
http://www.pewinternet.org/pdfs/PIP_Teens_Tech_July2005web.pdf.
 	See comScore Media Metrix survey, The Score: Teens Highly Engaged Online (Mar. 16, 
2006), available at http://www.imediaconnection.com/content/8691.asp. 
 	See, e.g., Michigan Teen Home Safe & Sound:  Authorities Say 16-Year-Old Flew To Mideast 
For 'MySpace' Rendezvous (June 12, 2006), available at 
http://www.cbsnews.com/stories/2006/06/09/tech/main1697653.shtml; Tehani Schneider & Adam 
Teliercio, Free Expression Blooms in Risk-laden MySpace, Morristown Daily Record, May 14, 
2006. 
 	See FTC Facts for Consumers:  Social Networking Sites: A Parents' Guide (May 2006), 
available at http://www.ftc.gov/bcp/edu/pubs/consumer/tech/tec13.pdf. 
 	A March 2005 report by the Kaiser Family Foundation found that 31% of 8 to 18 year olds 
have a computer in their bedroom, and 20% have Internet access in their rooms.  See Generation M: 
Media in the Lives of 8-18 Year-olds (Mar. 9, 2005), available at 
http://www.kff.org/entmedia/7251.cfm.
 	According to a recent study, sixty-one percent (61%) of teens reveal their contact information 
on their blogs by disclosing their email address (44%), instant messenger name (44%), or a link to a 
personal home page (30%).  Fifty-nine percent (59%) reveal their location in terms of a city or state.  
Thirty-nine percent (39%) of teen bloggers provide their birth date, and twenty percent (20%) 
disclose their full name.  See David Huffaker, Teen Blogs Exposed: The Private Lives of Teens Made 
Public (2006), available at 
http://www.soc.northwestern.edu/gradstudents/huffaker/papers/Huffaker-2006-AAAS-Teen_Blogs.p
df. 
 	See FTC Facts for Consumers:  Social Networking Sites: Safety Tips for Teens and Tweens 
(May 2006), available at http://www.ftc.gov/bcp/edu/pubs/consumer/tech/tec14.pdf. 
 	See http://www.OnGuardOnline.gov.  The seven tips are described in detail in the FTC 
publication, Stop Think Click: Seven Practices for Safer Computing, available at 
http://onguardonline.gov/stopthinkclick.html.  The seven practices for safer computing are: (1) 
Protect your personal information; (2) Know who you're dealing with; (3) Use anti-virus and anti-
spyware software, as well as a firewall, and update them regularly; (4) Be sure to set up your 
operating system and Web browser software properly, and update them regularly; (5) Protect your 
passwords; (6) Back up important files; and (7) Learn who to contact if something goes wrong 
online. 
 	The sites that have posted links to OnGuardOnline include:  Alloy 
(http://www.sconex.com/content/safety.php); Buzznet (http://www.buzznet.com); Facebook 
(http://www.facebook.com/help.php?tab=abuse); Friendsorenemies 
(http://www.friendsorenemies.com/about.php); MyYearbook (http://www.myyearbook.com); 
TagWorld (http://tagworld.com/-/Main.aspx).; and Yahoo! 360? (http://security.yahoo.com).  The 
sites that have informed FTC staff that they will post the materials are: HI5; Microsoft Spaces; 
MySpace; and Tagged.
 	See Statement of Basis and Purpose, 16 C.F.R. Part 312. 
 	See Children's Online Privacy Protection Act, 15 U.S.C.  6501-6508, and the Commission's 
COPPA Rule, 16 C.F.R. Part 312.
 	The Commission has brought two cases in which website operators were alleged to have had 
actual knowledge that they were collecting personal information from children under 13 on their 
general audience websites.  See United States v. UMG Recordings, Inc., Civ. No. CV-04-1050 JFW 
(Ex) (C.D. Cal. Feb. 17, 2004) (civil penalty of $400,000); United States v. Bonzi Software, Inc., 
Civ. No. CV-04-1048 RJK (Ex) (C.D. Cal. Feb. 17, 2004) (civil penalty of $75,000).   Neither of 
these cases involved social networking sites. 
 	The COPPA Rule also empowers parents to protect their children under 13 even after 
consenting to a website operator's collecting information from them.  If and when parents ask, site 
operators must provide them with the means to review the personal information that has been 
collected from their children.  A site also must give parents the opportunity to prevent further 
collection or use of that information, as well as the chance to delete the information.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
